<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                        WEDNESDAY, JUNE 4, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:06 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye and Stevens.

                       NONDEPARTMENTAL WITNESSES

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Believe it or not, 20 years ago I was 
chairing this subcommittee, handling two witnesses, the 
Secretary of Defense and the Chairman of the Joint Chiefs. In 
recent times, we have decided that this subcommittee has to 
hear from everyone possible. So all the services, nurses, 
doctors, intelligence, everyone testifies.
    Today we have the privilege of listening to citizens, 
people who handle charitable organizations, men and women who 
are concerned about certain projects, and we'd like to hear 
from you. But because time is of the essence, I hope you will 
work along with us. We have limited presentations to about 3\1/
2\ minutes, but I can assure you that every document that you 
submit will be studied and scrutinized. That I promise you, 
sir.
    So with that, may I call upon the first witness, Dr. Prem 
Paul, the Vice Chancellor for Research and Economic 
Development, University of Nebraska-Lincoln. Dr. Paul.

STATEMENT OF PREM PAUL, Ph.D., VICE CHANCELLOR FOR 
            RESEARCH AND ECONOMIC DEVELOPMENT, 
            UNIVERSITY OF NEBRASKA-LINCOLN; CHAIR, 
            EPSCoR-IDEA COALITION
    Dr. Paul. Mr. Chairman and members of the subcommittee: My 
name, as you mentioned, is Dr. Prem Paul. I'm the Chair of the 
EPSCoR-IDEA Coalition. I'm here today on behalf of the 
Coalition of EPSCoR-IDEA States, a nonprofit organization 
representing 25 States and 2 territories. The coalition 
promotes the importance of a strong national science and 
technology research infrastructure and works to improve the 
research competitiveness of the States.
    EPSCoR ensures enhancing the capabilities of institutions 
of higher education in our States. It develops, plans, and 
executes competitive, peer-reviewed research and engineering 
work that supports identified mission critical needs of the 
Department of Defense (DOD), as stated in the Department's 
broad agency announcements.
    Fiscal year 2009 is the most critical year for the EPSCoR 
program. The administration's fiscal year 2009 budget proposes 
only $2.8 million for DEPSCoR and assumes elimination of the 
program thereafter. Eliminating the program would cripple 
important basic research efforts at our universities across the 
Nation and would abandon a program that has worked for nearly 
15 years to build a national infrastructure of DOD research.
    This subcommittee in fiscal year 2008 responded 
aggressively to the administration's plan to terminate DEPSCoR 
with an allocation of nearly $20 million. The Senate Armed 
Services Committee responded by requiring a federally funded 
research and development center, FFRDC, assessment of the 
program to study the program's success. This assessment will 
comment in a forward-looking way on how the DEPSCoR program 
might be enhanced to ensure that it can meet the goal of 
furthering a national research infrastructure for DOD's basic 
research. This FFRDC is expected to report to Congress later 
this year.
    In addition, the Department now has the ability to expand 
the number of eligible States in the DEPSCoR program to roughly 
35, but we firmly believe that this would not only dilute the 
program, but would abandon the original statutory intent to 
fund only those States that have historically received the 
least amount of funding.
    Our coalition strongly asserts that the administration's 
plan to terminate the program and to delete the request for 
$2.8 million is both shortsighted and risks abandoning 
competitive, mission-critical research being conducted at our 
universities. In addition, any administrative changes to the 
program, including increasing the number of participating 
States, is premature, given that the current FFRDC assessment 
will provide important insight into all administrative and 
budgetary functions of the program.
    The coalition respectfully requests that this subcommittee 
again affirm its support for DEPSCoR by matching its fiscal 
year 2008 allocation of nearly $20 million for the program in 
fiscal year 2009. We also ask that you consider providing 
report language indicating that this subcommittee opposes any 
premature administrative changes to the program in light of the 
FFRDC assessment currently being undertaken.
    Mr. Chairman and members of the subcommittee, we appreciate 
all the support that you have provided in the past. We also 
appeal to you that every State has important contributions to 
make to the Nation's competitiveness and every State has 
scientists and engineers who can contribute significantly to 
supporting the research needs of the DOD. DEPSCoR ensures that 
every State does just that.
    Thank you very much.
    Senator Inouye. I thank you very much, Dr. Paul. [The 
statement follows:]

                 Prepared Statement of Prem Paul, Ph.D.

    Mr. Chairman and members of the subcommittee, my name is Dr. Prem 
Paul and I am the Vice Chancellor for Research and Economic Development 
at the University of Nebraska-Lincoln and chair of the EPSCoR/IDeA 
Coalition (Coalition). I am privileged to be here today on behalf of 
the Coalition of EPSCoR/IDeA States,\1\ a non-profit organization 
representing 25 States and 2 territories. The Coalition promotes the 
importance of a strong national science and technology research 
infrastructure, and works to improve the research competitiveness of 
States that have historically received the least amount of Federal 
research funding.
---------------------------------------------------------------------------
    \1\ Alabama, Alaska, Arkansas, Delaware, Hawaii, Idaho, Kansas, 
Kentucky, Louisiana, Maine, Mississippi, Montana, Nebraska, Nevada, New 
Hampshire, New Mexico, North Dakota, Oklahoma, Puerto Rico, Rhode 
Island, South Carolina, South Dakota, Tennessee, Vermont, Virgin 
Islands, West Virginia, and Wyoming.
    States in bold letters are eligible for the DEPSCoR program. All of 
the States listed above are also eligible for the EPSCoR program.
---------------------------------------------------------------------------
    Thank you for the opportunity to testify before your subcommittee 
regarding the Department of Defense Experimental Program to Stimulate 
Competitive Research (DEPSCoR), and thank you sincerely to the Members 
of this Subcommittee for your continued support of DEPSCoR. It is 
because of your support that DEPSCoR remains a vital program to half 
the States in the Nation and participating institutions.
    The Department of Defense (DOD) EPSCoR program was initially 
established in Public Law 103-337 with two important policy objectives. 
First, DEPSCoR ensures a national research and engineering 
infrastructure by enhancing the capabilities of institutions of higher 
education in DEPSCoR States. Secondly, DEPSCoR develops, plans and 
executes competitive, peer-reviewed research, and engineering work that 
supports identified mission critical research needs of the Department 
of Defense as stated in the Department's Broad Agency Announcements. 
Today, EPSCoR States represent 20 percent of the U.S. population, 25 
percent of the research and doctoral universities, and 18 percent of 
the Nation's scientists and engineers.
    In Nebraska for example, DEPSCoR has funded research projects such 
as supporting the Army in studying the molecular response to biowarfare 
agents that our service members or our civilian population may one day 
encounter. In fiscal year 2008, DEPSCoR funded research for 
advancements in anti-jamming capabilities which significantly improves 
the position, location and timing correction accuracy due to GPS 
receiver implementation. In another study for the Air Force, a wireless 
sensor network that can locate, track and identify multiple moving 
objects was created. This device works both indoors and outdoors where 
global positioning systems do not function. It allows the military, 
especially those stationed in Afghanistan and Iraq, to determine the 
position of friendly assets in difficult environments.
    Mr. Chairman and members of this subcommittee, fiscal year 2009 is 
perhaps the most critical year for the DEPSCoR program since it was 
initially authorized during the 103d Congress. The administration's 
fiscal year 2009 budget proposes only $2.8 million for DEPSCoR in 
fiscal year 2009 and assumes elimination of the program thereafter. 
Clearly, eliminating the DEPSCoR program would cripple important basic 
research efforts at universities across the Nation and would abandon a 
program that has worked for nearly 15 years to build a national 
infrastructure of Department of Defense research. Even at the 
administration's proposed number of $2.8 million, the program cannot 
advance its statutory mission of research infrastructure and support of 
Department of Defense research priorities.
    In fiscal year 2008, the administration first announced its plans 
to terminate DEPSCoR. This subcommittee responded aggressively with a 
very generous allocation of nearly $20 million, an amount which 
returned the program to a level that ensured the program could be 
effective and could make substantial progress in furthering the 
statutory intent of the program. Likewise, the Senate Armed Services 
Committee aggressively responded by requiring a Federally Funded 
Research and Development Center (FFRDC) assessment of the program to 
study the program's success, but also to comment in a forward-looking 
way on how the DEPSCoR program might be enhanced to ensure that it can 
meet the goal of furthering a national research infrastructure for 
Department of Defense basic research. This FFRDC is expected to be 
reported to Congress later this year, and our Coalition has worked 
diligently to produce data and supporting materials so that this study 
can serve as a valuable tool for Congress in determining the future of 
the DEPSCoR program.
    Finally, in response to new statutory flexibility for the 
Department in administering the DEPSCoR program, our Coalition has 
worked tirelessly with numerous Senators, including members of this 
subcommittee, to maintain a DEPSCoR program that serves only the 
historically underfunded States contemplated during the program's 
creation. The Department now has the ability to expand the number of 
eligible States in the DEPSCoR program to roughly 35, but we firmly 
believe that this would not only dilute the program, but it would 
abandon the original statutory intent of the program to fund only those 
States that have historically received the least amount of funding.
    In light of these developments, and in light of the FFRDC 
assessment due later this year, our Coalition strongly asserts that the 
administration's plan to terminate the program and its meager request 
of $2.8 million for fiscal year 2009 is both shortsighted and risks 
abandoning competitive, mission critical basic research being conducted 
at universities across the country. Likewise, our Coalition asserts 
that any administrative changes to the program, including increasing 
the number of participating States, is premature given that the current 
FFRDC assessment will provide important insight into all administrative 
and budgetary functions of the program.
    Accordingly, the Coalition respectfully requests that this 
subcommittee again affirm its support for DEPSCoR by matching its 
fiscal year 2008 allocation of nearly $20 million for the program in 
fiscal year 2009, and consider providing report language indicating 
that this subcommittee opposes any premature administrative changes to 
the program in light of the FFRDC assessment currently being 
undertaken.
    Although the program could be significantly enhanced with an even 
greater allocation than $20 million, we recognize the tight 
discretionary budget constraints faced by this subcommittee and we 
recognize that the FFRDC study will provide an opportunity for a much 
fuller discussion in the next fiscal year. We, therefore, simply ask 
that this subcommittee level fund the DEPSCoR program at the fiscal 
year 2008 level so that we can protect DEPSCoR prior to the issuance of 
the FFRDC study and so that we can ensure an effective basic research 
program in fiscal year 2009.
    Mr. Chairman and members of this subcommittee, every State has 
important contributions to make to the Nation's competitiveness and 
every State has scientists and engineers that can contribute 
significantly to supporting the research needs of the Department of 
Defense. DEPSCoR ensures that every State does just that.
    Eliminating or significantly underfunding the DEPSCoR program will 
create a critical research shortfall in participating States that 
otherwise may not receive an investment of Department of Defense 
research funding. Now more than ever we must invest in research 
programs that will support our national security and will improve our 
readiness and defense capabilities in the future by building a national 
research infrastructure to support to our long-term research capability 
requirements. The participating DEPSCoR States continue to do just 
that, but it will require the continued support of this subcommittee to 
level fund this program at its current allocation of $20 million.
    Mr. Chairman and members of this subcommittee, on behalf of the 
Coalition of EPSCoR/IDeA States, I thank you for your time and for the 
opportunity to testify before the subcommittee on the importance of the 
DEPSCoR program, and I appreciate your consideration of this request.
    Thank you.

    Senator Inouye. I'll call upon the Chair of the Extremity 
War Injuries Project Team, Dr. Andrew N. Pollak.

STATEMENT OF ANDREW N. POLLAK, M.D., CHAIR, EXTREMITY 
            WAR INJURIES PROJECT TEAM, AMERICAN ACADEMY 
            OF ORTHOPAEDIC SURGEONS
    Dr. Pollak. Good morning, Mr. Chairman. I'm Dr. Andy 
Pollak. I'm Chief of Orthopaedic Surgery at Shock Trauma at 
Baltimore. As you mentioned, I chair the Extremity War Injuries 
Project Team for the American Academy of Orthopaedic Surgeons.
    On behalf of military and civilian orthopaedic surgeons and 
researchers, I take this opportunity to very strongly urge this 
subcommittee to continue to provide significant resources for 
peer-reviewed medical research on extremity war injuries. Thank 
you for providing the DOD with funding for this purpose since 
fiscal year 2006.
    Chairman Inouye, we know of your experience involving 
extremity trauma during war and appreciate the fact that you 
have both personal and professional perspectives from which to 
address this issue. We're very grateful for the dedicated work 
of Senators Tom Harkin and Kay Bailey Hutchison, both members 
of this subcommittee. They worked together in sponsoring a 
recent ``Dear Colleague'' letter to you and to Senator Stevens 
requesting $50 million for this critical peer-reviewed research 
program.
    Being from Maryland, I'm proud to acknowledge that 
subcommittee member Senator Barbara Mikulski and Senator Ben 
Cardin also supported the request, which was signed by 15 
Senators in all.
    Mr. Chairman, last August I had the privilege of performing 
surgeries in military facilities at Balad, Iraq, and Landstuhl, 
Germany, on the invitation of Air Force Surgeon General James 
Roudebush. I can assure this subcommittee of the outstanding 
quality of trauma care being delivered by the military health 
system there.
    The problem facing surgeons is the limitation of medical 
knowledge and techniques in this field. We need your help to 
advance the state of the art. Over 80 percent of injuries to 
our service men and women in the global war on terror now 
involve the extremities, often severely mangled and multiple 
injuries to the arms and legs.
    The peer-reviewed orthopaedic extremity trauma research 
program was designed to develop targeted medical research. The 
objective is to help military surgeons to find new limb-sparing 
techniques, with the goal of avoiding amputations and 
preserving and restoring the function of injured extremities. 
The interest and capacity of the U.S. research community is 
very strong. During the past 2 years, the DOD has been able to 
fund 26 top research projects. However, another 177 approved 
highly scored projects have been turned away because of limited 
funding, a situation that will continue into fiscal year 2009 
unless the program receives the significant resources needed to 
achieve an operating budget of $50 million.
    This desperately needed targeted research will lead to 
improvements in quality of life for our injured heroes. The 
funding you provide is being well spent. The new knowledge 
gained is advancing our ability to better understand and better 
treat serious extremity injuries. Our message is 
straightforward: The state of the science must be advanced to 
provide better treatment options for our wounded service 
members who suffer extremity trauma. The current peer-reviewed 
research program has a very large backlog of unfunded top-
quality research proposals that must be addressed, and the DOD 
must be convinced to actively budget for extremity trauma 
research. But until that occurs, we believe that Congress has 
an obligation to ensure that DOD receives the necessary 
resources.
    Mr. Chairman, Mr. Vice Chairman, you've recognized the 
urgent need to finance extremity research over the last 3 
years. We are extremely grateful for that support. Based on the 
level of scientific need and the amount of unfunded research, 
our goal is to see this DOD program achieve an operating level 
of $50 million per year.
    Thank you and the entire subcommittee for your vision and 
leadership in responding to this appeal. We strongly urge your 
continued support. Thank you.
    [The statement follows:]

                 Prepared Statement of Andrew N. Pollak

    Chairman Inouye, Vice Chairman Stevens, members of the Senate 
Defense Appropriations Subcommittee, we thank you for the opportunity 
to testify today. I am Andrew N. Pollak, M.D., and I speak today on 
behalf of the American Academy of Orthopaedic Surgeons (AAOS), of which 
I am an active member, as well as on behalf of military and civilian 
orthopaedic surgeons involved in extremity trauma research and care.
    I am Chair of the Academy's Extremity War Injuries and Disaster 
Preparedness Project Team, past-chair of its Board of Specialty 
Societies, and a subspecialist in orthopaedic traumatology. I am 
Associate Director of Trauma and Head of the Division of Orthopaedic 
Traumatology at the R. Adams Cowley Shock Trauma Center and the 
University of Maryland School of Medicine. My division at Shock Trauma 
is responsible for providing education and training in orthopaedic 
traumatology to residents from eight separate training programs 
nationally, including the Bethesda Naval, Walter Reed Army, and Tripler 
Army orthopaedic residency programs. In addition, Shock Trauma serves 
as the home for the Air Force Center for the Sustainment of Trauma and 
Readiness Skills (CSTARS) program. I also serve as a Commissioner on 
the Maryland Health Care Commission and on the Board of Directors of 
the Orthopaedic Trauma Association.
    Senators, on behalf of all the military and civilian members of the 
American Academy of Orthopaedic Surgeons, please allow me to take this 
opportunity today to sincerely thank you both as well as the members of 
this subcommittee for your vision and leadership in providing funding 
in fiscal years 2006, 2007, and 2008 for the Army's peer reviewed 
medical research program on extremity war injuries.
    We are very grateful for the dedicated work of Senators Tom Harkin 
and Kay Bailey Hutchison--both members of this subcommittee--in 
sponsoring a ``Dear Colleague'' letter this year supporting a request 
of $50 million for this critical peer reviewed research program. I am 
proud to say subcommittee Member Senator Barbara Mikulski also 
supported the request which was signed by the following additional 
Senators, and we are very thankful for their support: Senators 
Barrasso, Brown, Cardin, Chambliss, Colman, Cornyn, Durbin, Inhofe, 
Isakson, Kennedy, Sanders, and Stabenow.
    Mr. Chairman, we very respectfully commend the committee's work in 
including additional resources for this important research in the 
fiscal year 2008 Supplemental Appropriations bill currently under 
negotiation and we strongly urge your continued support of this program 
for fiscal year 2009 at an annual operating level of $50 million. We 
request that you continue that level of resources until the Department 
of Defense (DOD) begins to include funding for extremity trauma 
research in its regular budget request to this committee.
    Our message is simple:
  --the state-of-the-science must be advanced to provide better 
        treatment options for our wounded service members who suffer 
        extremity trauma;
  --the current peer-reviewed research program has a very large backlog 
        of unfunded, top quality research proposals that must be 
        addressed; and
  --the Department of Defense must be convinced to actively budget for 
        extremity trauma research, but until that occurs, we believe 
        that the Congress has an obligation to ensure that the 
        necessary resources are appropriated and directed.
    As these combined wars enter their sixth year, there continues to 
be a profound need in the Nation for focused medical research to help 
military surgeons find new limb-sparing techniques with the goal of 
avoiding amputations and preserving and restoring the function of 
injured extremities.
    Chairman Inouye, we know of your experience with extremity trauma 
during war and appreciate the fact that you have both personal and 
professional perspectives from which to address this issue.
    You may remember that last year we were accompanied by CBS News 
correspondent Kimberly Dozier, who was recovering from severe wounds to 
her legs and head sustained on the streets of Baghdad while covering 
American soldiers on patrol with Iraqi security forces on Memorial Day 
2006. She had been imbedded with the Army's 4th Infantry Division. The 
patrol was the victim of a car bombing which critically injured 
Kimberly and killed her cameraman, soundman, a U.S. Army captain they 
were following, and his Iraqi translator. I am happy to report that Ms. 
Dozier is back to work reporting for CBS. In fact, she recently won the 
prestigious Peabody Journalism Award for her coverage last year of U.S. 
military women who had lost limbs in the line of duty in Iraq. She is 
truly one of those rare individuals willing to put herself in harm's 
way to chronicle the work of our brave American service men and women 
in Iraq.
    Ms. Dozier wrote about her experiences in surviving and recovering 
from the blast of a 500-pound car bomb remotely detonated on a Baghdad 
street. In a Washington Post op-ed article Sunday, September 30, 2007, 
titled ``What I Faced After Iraq,'' she discussed the many medical 
decisions that have to be made by surgeons in the repair and recovery 
phases of treating wounded soldiers. She also detailed many important 
clinical questions that arise where much more medical research is 
needed. ``Like me, future victims of extremity war injuries will 
desperately need the kind of knowledge that could be gained from 
adequate research,'' she concluded.
    During the past year there have been many other accounts of the 
challenges to recovery faced by our wounded warriors with extremity 
injuries. The powerful HBO documentary by James Gandolfini, ``Alive Day 
Memories: Home From Iraq,'' was one of those. The film contains 
interviews with 10 members of the Army and Marines who survived severe 
injuries. Each has their ``Alive Day''--the day they narrowly escaped 
dying. Many spoke of the types of extremity injuries that have been 
sustained by our troops in Iraq and Afghanistan.
    Military researchers have documented that fact that approximately 
82 percent of war injuries suffered fighting the global war on terror 
involve the extremities--often severe and multiple injuries to the arms 
and legs.
    In fact, House Report 110-279 (July 30, 2007, page 402) 
accompanying the fiscal year 2008 Defense Appropriations bill states 
that ``Extremity injuries are the number one battlefield injury . . . 
dynamic research and treatment is necessary to provide service members 
the greatest ability to recover from injuries sustained on the 
battlefield.''
    By funding the Peer Reviewed Orthopaedic Extremity Trauma Research 
Program operated on behalf of all services by the Army's Medical 
Research and Materiel Command, your committee is directly advancing the 
state-of-the-science in this field. Your action will directly result in 
improved treatments for our wounded warriors now and in future 
conflicts.
    It is important to point out that unique to this conflict is a new 
type of patient, a warfighter with multiple and severely mangled 
extremities who is otherwise free of life-threatening injury to the 
torso because of improvements in protective body armor and the 
excellent care quickly delivered through the echelon treatment system. 
Such injuries are rarely, if ever, seen in civilian surgical hospitals, 
even in Level 1 trauma centers. Current challenges that often compound 
the battlefield injuries include serious infections due to the nature 
of the injuries and the environment where they are sustained, and the 
need for immediate transport for more complex surgery.
    The Academy's interest in this effort began in the very early days 
of Operation Enduring Freedom (OEF) when our deployed military Academy 
members began to report the great clinical needs that were emerging as 
they went about their work in surgeries to save injured service men and 
women. Soon studies on the nature of injuries in Iraq and Afghanistan 
documented the high proportion of extremity injuries as well as the 
severity of injuries.
    I was fortunate to travel to Landstuhl, Germany, and Iraq last 
August to initiate the Distinguished Visiting Scholars Program. This 
program is a joint initiative between the AAOS and the Orthopaedic 
Trauma Association. The activity allows civilian orthopaedic trauma 
specialists with demonstrated clinical expertise and national 
recognition for their teaching abilities to volunteer 2 weeks at a time 
to be away from their practices performing surgeries at Landstuhl 
Regional Medical Center. I also had the privilege of performing 
surgical operations in Balad, Iraq, as part of a request by Air Force 
Surgeon General James Roudebush to evaluate the trauma care being 
delivered at the Air Force Theater Hospital and to investigate the 
feasibility and value of extending the Distinguished Visiting Scholars 
Program into Iraq and Afghanistan. Based on my experiences in Balad, I 
can assure this committee of the outstanding quality of trauma care 
being delivered by the military health system there.
    On January 23 and 24 of this year, the third annual Extremity War 
Injuries Scientific Symposium was held in Washington, DC, sponsored by 
our Academy, along with the Society of Military Orthopaedic Surgeons 
and the Orthopaedic Trauma Association. This combined effort of the two 
associations and the United States military began in 2006 in an 
initiative to examine the nature of extremity injuries sustained during 
OEF and Operation Iraqi Freedom (OIF) and to plan for advancing the 
state-of-the-science and treatment of these injuries. The 2008 meeting 
was attended by more than 175 military and civilian leaders in 
extremity medical research and treatment from around the world. We were 
very fortunate to have had Joint Chiefs Chairman ADM Michael Mullen, 
Senator Tom Harkin, and Assistant Secretary of Defense for Health 
Affairs Dr. Ward Casscells each speak to the conference audience about 
their perspectives on injuries being sustained by our armed forces.
    This conference series has produced a widely referenced scientific 
publication describing the clinical challenges posed by extremity war 
injuries, and a research agenda to guide the scientific community and 
the managers of the Peer Reviewed Orthopaedic Extremity Trauma Research 
Program in planning and executing the program.

ORTHOPAEDIC TRAUMA FROM OPERATION IRAQI FREEDOM AND OPERATION ENDURING 
                                FREEDOM

    The likelihood of surviving wounds on the battlefield was 69.7 
percent in WWII and 76.4 percent in Vietnam. Now, thanks in part to the 
use of body armor, ``up-armored'' vehicles, intense training of our 
combat personnel, and surgical capability within minutes of the 
battlefield, survivability has increased dramatically to 90.2 percent 
as of February 2007.
    The Armed Forces are attempting to return significantly injured 
warriors to full function or limit their disabilities to a functional 
level in the case of the most severe injuries. The ability to provide 
improved recovery of function moves toward the goal of keeping injured 
warriors part of the military team. Moreover, when they do leave the 
Armed Forces, these rehabilitated warriors have a greater chance of 
finding worthwhile occupations outside of the service to contribute 
positively to society. The military believes that it has a duty and 
obligation to provide the highest level of care and rehabilitation to 
those men and women who have suffered the most while serving the 
country and our Academy fully supports those efforts.
    It probably comes as no surprise that the vast majority of trauma 
experienced in Iraq and Afghanistan is orthopaedic-related, especially 
upper and lower extremity and spine. A recent article in the ``Journal 
of Orthopaedic Trauma'' reports on wounds sustained in Operation Iraqi 
Freedom and Operation Enduring Freedom based on data from the Joint 
Theater Trauma Registry, a database of medical treatment information 
from theater of combat operations at U.S. Army medical treatment 
facilities. From October, 2001 through January, 2005, of 1,566 soldiers 
who were injured by hostile enemy action, 1,281 (82 percent) had 
extremity injuries, with each solider sustaining, on average, 2.28 
extremity wounds. These estimates do not include non-American and 
civilians receiving medical care through U.S. military facilities. 
(Owens, Kragh, Macaitis, Svoboda and Wenke. Characterization of 
Extremity Wounds in Operation Iraqi Freedom and Operation Enduring 
Freedom. J Orthopaedic Trauma. Vol. 21, No. 4, April 2007. 254-257.)
    An earlier article reported on 256 battle casualties treated at the 
Landstuhl Regional Medical Center in Germany during the first 2 months 
of OIF, finding 68 percent sustained an extremity injury. The reported 
mechanism of injury was explosives in 48 percent, gun-shot wounds in 30 
percent, and blunt trauma in 21 percent. As the war has moved from an 
offensive phase to the current counter-insurgency campaign, higher 
rates of injuries from explosives have been experienced. (Johnson BA. 
Carmack D, Neary M, et al. Operation Iraqi Freedom: the Landstuhl 
Regional Medical Center experience. J Foot Ankle Surg. 2005; 44:177-
183.) According to the JTTR, between 2001 and 2005, explosive 
mechanisms accounted for 78 percent of the war injuries compared to 18 
percent from gun shots.
    While medical and technological advancements, as well as the use of 
fast-moving Forward Surgical Teams, have dramatically decreased the 
lethality of war wounds, wounded soldiers who may have died in previous 
conflicts from their injuries are now surviving and have to learn to 
recover from devastating injuries. While body armor is very effective 
in protecting a soldier's torso, his or her extremities are 
particularly vulnerable during attacks.
Characteristics of Military Orthopaedic Trauma
    At this point we there have been about 36,000 casualties in the 
global war on terror. as mentioned earlier, the vast majority have 
injuries to their extremities--often severe and multiple injuries to 
the arms, legs, head and neck. Most wounds are caused by exploding 
ordinance--frequently, improvised explosive devices (IEDs), rocket-
propelled grenades, as well as high-velocity gunshot wounds. Military 
surgeons report an average of three wounds per casualty.
    According to the ``New England Journal of Medicine'', blast 
injuries are producing an unprecedented number of ``mangled 
extremities''--limbs with severe soft-tissue and bone injuries. 
(``Casualties of War--Military Care for the Wounded from Iraq and 
Afghanistan,'' NEJM, December 9, 2004). The result of such trauma is 
open, complex wounds with severe bone fragmentation. Often there is 
nerve damage, as well as damage to tendons, muscles, vessels, and soft-
tissue. In these types of wounds, infection is often a problem. 
According to the JTTR, 53 percent of the extremity wounds are 
classified as penetrating soft-tissue wounds, while fractures compose 
26 percent of extremity wounds. Other types of extremity wounds 
composing less than 5 percent each are burns, sprains, nerve damage, 
abrasions, amputations, contusions, dislocations, and vascular 
injuries.
    The sheer number of extremity injuries represents a staggering 
health burden. Between January 2003 and February 2007, more than 14,500 
U.S. warriors have been wounded severely enough to require evacuation 
out of theater. In addition, 780 American patients have lost one or 
more hands or feet (major limb amputation).
Military versus Civilian Orthopaedic Trauma
    While there are similarities between orthopaedic military trauma 
and the types of orthopaedic trauma seen in civilian settings, there 
are several major differences that must be noted.
    With orthopaedic military trauma, there are up to five echelons of 
care, unlike in civilian settings when those injured are most likely to 
receive initial treatment at the highest level center. Instead, wounded 
warriors get passed from one level of care to the next, with each level 
of care implementing the most appropriate type of care in order to 
ensure the best possible outcome. The surgeon in each subsequent level 
of care must try to recreate what was previously done. In addition, a 
majority of injured soldiers have to be ``medevaced'' to receive care 
and transportation is often delayed due to weather or combat 
conditions. It has been our experience that over 65-percent of the 
trauma is urgent and requires immediate attention.
    Injuries from IEDs and other explosive ordnance in Iraq and 
Afghanistan differ markedly from those of gunshot wounds sustained in 
civilian society. The contamination, infection, and soft-tissue injury 
caused by exploding ordnance requires more aggressive treatment and new 
techniques, especially when the individual is in proximity to the blast 
radius.
    Warriors are usually in excellent health prior to injury. However, 
through the evacuation process they may not be able to eat due to 
medical considerations resulting in impaired body nitrogen stores and 
decreased ability to heal wounds and fight infections. This presents 
many complicating factors when determining the most appropriate care.
    The setting in which care is initially provided to wounded soldiers 
is less than ideal, to say the least, especially in comparison to a 
sterile hospital setting. The environment, such as that seen in Iraq 
and Afghanistan, is dusty and hot, leading to concerns about secondary 
contamination of wounds in the hospital setting. For example, infection 
from acinetobacter baumanni, a ubiquitous organism found in the desert 
soil of Afghanistan and Iraq, is extremely common. In addition, the 
surgical environment is under constant threat of attack by insurgents. 
Imagine teams of medical specialists working in close quarters to save 
an injured serviceman while mortars or rockets are raining down on the 
hospital. Finally, the forward-deployed surgical team is faced with 
limited resources that make providing the highest level of care 
difficult.
    While, as I have stated, there are many unique characteristics of 
orthopaedic military trauma, there is no doubt that research done on 
orthopaedic military trauma benefits trauma victims in civilian 
settings. Many of the great advancements in orthopaedic trauma care 
have been made during times of war, including principles of debridement 
of open wounds, utilization of external fixation and use of tourniquets 
for control of hemorrhage which has been used extensively during the 
current conflict as well as in civilian care.

         FUTURE NEEDS OF ORTHOPAEDIC EXTREMITY TRAUMA RESEARCH

    As mentioned earlier, an important development in this scientific 
effort has been the convening of the annual Extremity War Injury 
Symposia, which began in January of 2006. These widely attended medical 
conferences in Washington, DC, bring together leading military and 
civilian clinicians and researchers to focus on the immediate needs of 
personnel sustaining extremity injuries. Discussions at the conferences 
has confirmed that there is tremendous interest and much untapped 
research capacity in the military and civilian research community in 
the Nation.
    These extraordinary scientific meetings were a partnership effort 
between organized orthopaedic surgery, military surgeons and 
researchers. They were attended by key military and civilian physicians 
and researchers committed to the care of extremity injuries. The first 
conference addressed current challenges in the management of extremity 
trauma associated with recent combat in Iraq and Afghanistan. The major 
focus was to identify opportunities to improve care for the sons and 
daughters of America who have been injured serving our Nation. The 
second focused on the best way to deliver care within the early 
echelons of treatment. The third explored the wide spectrum of needs in 
definitive reconstruction of injuries. Scientific proceedings from the 
symposia have been published by our Academy and made available to the 
military and civilian research community. Each conference has continued 
to refine the list of prioritized research needs which I will 
summarize.

Timing of Treatment
    Better data are necessary to establish best practices with regard 
to timing of debridement, timing of temporary stabilization and timing 
of definitive stabilization. Development of animal models of early 
versus late operative treatment of open injuries may be helpful. 
Prospective clinical comparisons of treatment groups will be helpful in 
gaining further understanding of the relative role of surgical timing 
on outcomes.

Techniques of Debridement
    More information is necessary about effective means of 
demonstrating adequacy of debridement. Current challenges, particularly 
for surgeons with limited experience in wound debridement, exist in 
understanding how to establish long-term tissue viability or lack 
thereof at the time of an index operative debridement. Since patients 
in military settings are typically transferred away from the care of 
the surgeon performing the initial debridement prior to delivery of 
secondary care, opportunities to learn about the efficacy of initial 
procedures are lost. Development of animal models of blast injury could 
help establish tissue viability markers. Additional study is necessary 
to understand ideal frequencies and techniques of debridement.

Transport Issues
    Clinical experience suggests that current air evacuation techniques 
are associated with development of complications in wound and extremity 
management although the specific role of individual variables in the 
genesis of these complications is unclear. Possible contributing 
factors include altitude, hypothermia, and secondary wound 
contamination. Clinical and animal models are necessary to help develop 
an understanding of transport issues.

Coverage Issues
    Controlled studies defining the role of timing of coverage in 
outcome following high-energy extremity war injuries are lacking. Also 
necessary is more information about markers and indicators to help 
assess the readiness of a wound and host for coverage procedures. 
Additional animal modeling and clinical marker evaluation are necessary 
to develop understanding in this area.

Antibiotic Treatments
    Emergence of resistant organisms continues to provide challenges in 
the treatment of infection following high-energy extremity war 
injuries. Broader prophylaxis likely encourages development of 
antibiotic resistance. In the context of a dwindling pipeline of new 
antibiotics, particularly those directed toward gram-negative 
organisms, development of new technologies to fight infection is 
necessary. This patient population offers opportunity to assess 
efficacy of vaccination against common pathogens. Partnerships with 
infectious disease researchers currently involved in addressing similar 
questions warrants further development.

Management of Segmental Bone Defects
    A multitude of different techniques for management of segmental 
bone defects is available. These include bone transport, massive onlay 
grafting with and without use of recombinant proteins, delayed 
allograft reconstruction, and acute shortening. While some techniques 
are more appropriate than others after analysis of other clinical 
variables, controlled trials comparing efficacy between treatment 
methods are lacking. Variables that may affect outcome can be grouped 
according to patient characteristics including co-morbidities, injury 
characteristics including severity of bony and soft-tissue wounds, and 
treatment variables including method of internal fixation selected. 
Evaluation of new technologies for treatment of segmental bone defects 
should include assessment of efficacy with adequate control for 
confounding variables and assessment of cost-effectiveness. 
Partnerships with other military research programs may be particularly 
effective in improving clinical capabilities in this area.

Development of an Animal Model
    A large animal survival military blast injury model is necessary to 
serve as a platform for multiple research questions including: VAC v. 
bead pouch v. dressing changes; wound debridement strategy; effect of 
topical antibiotics; modulation of inflammatory response; timing of 
wound closure; and vascular shunt utilization.

Amputee Issues
    Development and validation of ``best practice'' guidelines for 
multidisciplinary care of the amputee is essential. Treatment protocols 
should be tested clinically. Studies should be designed to allow for 
differentiation between the impacts of the process versus the device on 
outcome. Failure mode analysis as a tool to evaluate efficacy of 
treatment protocols and elucidate shortcomings should be utilized. 
Clinically, studies should focus on defining requirements for the 
residual limb length necessary to achieve success without proceeding to 
higher level amputation. Outcomes based comparisons of amputation 
techniques for similar injuries and similar levels should be performed. 
Use of local tissue lengthening and free tissue transfer techniques 
should be evaluated. In the context of current results and increasing 
levels of expectation for function following amputation, development of 
more sensitive and military appropriate outcomes monitors is necessary.

Heterotopic Ossification
    This condition, known as ``H.O.'' by the many soldiers who 
experience it, is abnormal and uncontrolled bone growth that often 
occurs following severe bone destruction or fracture. Animal models of 
heterotopic ossification should be utilized to develop early markers 
for heterotopic ossification that could identify opportunities for 
prevention. Better information is needed about burden of disease 
including prevalence following amputation for civilian versus military 
trauma and frequency with which symptoms develop. Treatment methods 
such as surgical debridement, while effective, necessarily interrupt 
rehabilitation. Prevention could expedite recovery and potentially 
improve outcome.

    THE PEER REVIEWED ORTHOPAEDIC EXTREMITY TRAUMA RESEARCH PROGRAM

    Senator Inouye, the AAOS and military and civilian orthopaedic 
surgeons and researchers are very grateful for your subcommittee's 
vision in creating the Peer Reviewed Orthopaedic Extremity Trauma 
Research Program in the fiscal year 2006 Defense Appropriations bill. 
This is the first program created in the Department of Defense 
dedicated exclusively to funding peer-reviewed intramural and 
extramural extremity trauma research. Having the program administered 
by the U.S. Army Institute of Surgical Research ensures that the 
funding closely follows the research priorities established by the 
Armed Forces. USAISR has extensive experience administering similar 
grant programs and is the only Department of Defense research 
laboratory devoted solely to improving combat casualty care. Military 
orthopaedic surgeons, in addition to personnel at the U.S. Army Medical 
Research and Materiel Command, Fort Dietrick, have also had significant 
input into the creation of this program and fully support its goals.
    The design of the program fosters collaboration between civilian 
and military orthopaedic surgeons and researchers and various 
facilities. Civilian researchers have the expertise and resources to 
assist their military colleagues with the growing number of patients 
and musculoskeletal war wound challenges, to build a parallel research 
program in the military. As can been seen in reviewing the growing 
numbers of research applications submitted under each RFP, civilian 
investigators are interested in advancing the research and have 
responded enthusiastically to engage in these efforts, and this will 
also provide wide ranging spin-off benefits to civilian trauma 
patients.
    This activity is a targeted, competitively-awarded research program 
where peer reviewers score proposals on the degree of (1) military 
relevance, (2) military impact, and (3) scientific merit. Military and 
civilian orthopaedic surgeons are highly involved in defining the 
research topics and in evaluating and scoring the proposals. This 
unique process ensures that projects selected for funding have the 
highest chance for improving treatment of battlefield injuries.
    The program's first Broad Agency Announcement for grants was 
released on February 13, 2006, and identified the following basic, 
transitional, and clinical research funding priorities: improved 
healing of segmental bone defects; improved healing of massive soft 
tissue defects; improved wound healing; tissue viability assessment and 
wound irrigation and debridement technologies; reduction in wound 
infection; prevention of heterotopic ossification; demographic and 
injury data on the modern battlefield and the long-term outcomes of 
casualties (i.e., joint theatre trauma registry); and improved pre-
hospital care of orthopaedic injuries.
    Almost 100 pre-proposals were received for consideration, with 76 
invited to compete with a full proposal. An upper limit of $500,000 was 
established for any one grant, to give a reasonable number of grantees 
an opportunity to participate. Ordinarily grants would be awarded for 
much higher amounts to support the research required. Larger multi-
institutional studies had to limit what they were proposing.
    Sixty proposals were evaluated and found meritorious and militarily 
relevant, however only 14 grants could be funded for their first year 
of research based on available funding. The amount that would have been 
needed to fund the remaining 46 grants totals $44,852,549.
    A second call for proposals was issued by the Army on March 29, 
2007 based on funding provided in the fiscal year 2007 Appropriations 
bill. This request for proposals generated 144 ``pre proposal'' 
applications. Of those selected to provide full applications, 96 
research leaders from around the country had their projects judged by 
reviewers to be scientifically meritorious, with a total cost of $125 
million ready for award. However, available funding allowed only 12 new 
grants to be funded.
    Significant new funding from the Congress would allow for more 
robust numbers of grants, a broader scope of work and increased multi-
institutional collaboration. Clinical trials and more in- depth 
tracking of long term outcomes would also be possible--important 
components in rapidly advancing the state of the science.

                               CONCLUSION

    With extremity trauma being the most common form of injury seen in 
current military conflicts, it is crucial that significant funding be 
directed specifically to the advancement of research. The AAOS has 
worked closely with the top military orthopaedic surgeons, at world-
class facilities such as the U.S. Army Institute of Surgical Research, 
Brooke Army Medical Center, Bethesda Naval Hospital, Landstuhl Regional 
Medical Center, and Walter Reed Army Medical Center to identify the 
gaps in research and clinical treatment--and the challenges are many.
    Extremity trauma research currently being carried out at those and 
other facilities, and at civilian medical centers, is vital to the 
health of our soldiers and to the Armed Forces' objective to return 
injured soldiers to full function in hopes that they can continue to be 
contributing soldiers and active members of society.
    The 17,000 members of our Academy thank you for sustaining the Peer 
Reviewed Orthopaedic Extremity Trauma Research Program. While Congress 
funds an extensive array of medical research through the Department of 
Defense, with over 80 percent of military trauma being extremity-
related, I can assure you that this type of medical research will 
greatly benefit our men and women serving in the global war on terror 
and in future conflicts.
    Funding is needed to support critical research outlined in the 
targeted research plan developed through scientific collaboration at 
the Extremity War Injury Symposia. Research in the management of 
extremity injuries will lead to quicker recovery times from blast 
injuries for our wounded warriors, improved function of limbs that are 
saved, better response rates to infection, and new advances in amputee 
care in cases where amputation remains the only option.
    As I have demonstrated, the interest and capacity of the U.S. 
research community is very strong. During the past 2 years, the Defense 
Department has been able to fund 26 top research projects--but another 
177 approved, highly scored projects have been turned away because of 
limited funding. The result: more than $157 million in urgently needed, 
high-quality research has gone unfunded and this situation will 
continue in fiscal year 2009 unless the program receives the 
significant resources needed to achieve an operating budget of $50 
million.
    Mr. Chairman and Mr. Vice Chairman, the American Academy of 
Orthopaedic Surgeons, as well as the entire orthopaedic trauma 
community, stands ready to work with this subcommittee to identify and 
prioritize research opportunities for the advancement in the care of 
extremity war injuries. Military and civilian orthopaedic surgeons and 
researchers are committed to pursuing scientific inquiry that will 
benefit the unfortunately high number of soldiers afflicted with such 
trauma and return them to the highest level of function possible. This 
investment to improve treatment for our soldiers will be well spent. It 
is imperative that the Federal Government--when establishing its 
defense health research priorities in the future--continues to ensure 
that research on treating extremity war injuries remains a top priority 
and that the large backlog of unfunded research is eliminated. We 
appreciate your consideration of our perspective on this critical issue 
and urge your continued action on behalf of our Nation's wounded 
warriors.

    Senator Inouye. I have one question, sir.
    Dr. Pollak. yes, sir.
    Senator Inouye. Those veterans who have been residing in 
tropical areas where it's hot and muggy have discarded their 
prosthetic appliances because the old World War II required a 
stump sock, which gets soaked up with sweat, and this huge 
monstrosity called an arm or leg. Can in later life, say 30, 40 
years later, decide that times have changed and equipment has 
changed and that they could fit themselves? Or is there a time 
limit?
    Dr. Pollak. Well, there's no time limit on changing the 
type of prosthesis that they're wearing. There have certainly 
been tremendous advances in prostheses and sockets and the 
ability to wear sockets comfortably, and much of that work, as 
you know, has been done at Walter Reed and San Antonio at Brook 
Army Medical Center and the Center for the Intrepid.
    There are opportunities, and the Veterans Administration 
(VA) needs to work closely with the DOD to share some of the 
tremendous advances that have been made. I can assure that as a 
civilian orthopaedic surgeon right now, the quality of 
prosthesis available for our injured warriors coming out of 
Walter Reed and Brook is far in excess of anything that we can 
get access to for civilian patients with amputations. 
Hopefully, that quality of amputee care can be translated to 
the VA as well.
    Senator Inouye. Thank you very much, sir.
    Our next witness is the Director of the University of 
Dayton Research Institute and Chair of ASME's DOD Task Force, 
Dr. John Leland. Dr. Leland.

STATEMENT OF JOHN LELAND, Ph.D., DIRECTOR, UNIVERSITY 
            OF DAYTON RESEARCH INSTITUTE AND CHAIR, DOD 
            TASK FORCE, AMERICAN SOCIETY OF MECHANICAL 
            ENGINEERS
    Dr. Leland. Good morning, Mr. Chairman, Mr. Vice Chairman. 
As you noted, I'm Chair of the ASME----
    Senator Stevens. Do you want to pull on your mike so the 
people in back can hear you, please? Pull the mike toward you 
and turn it on.
    Dr. Leland. I apologize. As you mentioned, I'm Chair of the 
American Society of Mechanical Engineers (ASME) DOD Task Force 
and Director of the University of Dayton Research Institute. 
I'm pleased to have this opportunity to provide comments to 
this subcommittee on the fiscal year 2009 DOD budget request.
    The ASME is a 127,000 member professional organization 
focused on technical, educational, and research issues. Since 
World War II, the United States has led the world in science 
innovation and technology. However, this lead is quickly 
eroding. Our Nation's engineers play a critical role in 
national defense through research discoveries and technology 
development. Therefore my comments will focus on the DOD 
science and technology budget.
    The administration's fiscal year 2009 request for defense 
science and technology is $11.48 billion, which is $1.2 billion 
or 9.5 percent less than the fiscal year 2008 appropriated 
amount. The 2009 request, if implemented, would represent a 
significantly reduced investment in defense science and 
technology. We strongly urge this subcommittee to consider 
additional resources to maintain stable funding of science and 
technology at a minimum level of $15.4 billion.
    Basic research or 6Y.1 accounts comprise a small percentage 
of RDT&E funds. The programs that these accounts support are 
crucial to fundamental scientific advances and maintaining a 
highly skilled science and technology workforce. The task force 
recommends that basic research be funded at a minimum level of 
$1.7 billion to ensure that these advances and the vitality of 
our future science and technology workforce are maintained.
    With regard to 6.2 applied research I understand full well 
the importance of these funds for developing our future 
scientists and engineers. More than 250 students have the 
opportunity to work on defense research programs each year at 
the University of Dayton Research Institute. Many more enjoy 
opportunities through local defense-oriented companies. The 
proposed 16 percent reduction in 6.2 applied research would 
stifle a key source of technological and intellectual 
development as well as stunt the creation and growth of small 
entrepreneurial companies.
    A 7.7 percent reduction in funding has been proposed in 6.3 
advanced technology development. Without the system-level 
demonstrations funded by advanced technology development 
accounts, companies are reluctant to incorporate new 
technologies into weapons systems. Advanced technology 
development accounts also fund research in a range of critical 
materials technologies, including improved body armor and 
lightweight vehicle armor to protect troops against improvised 
explosive devices. Fortunately, Congress has recognized that 
such cuts are not in the best interest of our troops and has 
appropriated additional resources in past years.
    Investments in science and technology directly affect the 
future of our national security. We urge this subcommittee to 
support an appropriation of $15.4 billion for science and 
technology programs, or 3 percent of the fiscal year 2009 DOD 
budget. This request is consistent with recommendations made by 
the Defense Science Board as well as by senior DOD officials 
who have voiced support for the future allocation of 3 percent 
of total obligational authority as a worthy benchmark for 
science and technology programs.
    The ASME appreciates the difficult choices that Congress 
must make in this challenging budgetary environment, and I 
thank the committee for its ongoing support of science and 
technology. Thank you, Mr. Chairman.
    [The statement follows:]

                   Prepared Statement of John Leland

                              INTRODUCTION

    The ASME Department of Defense (DOD) Task Force of the Committee on 
Federal Research and Development is pleased to comment on the fiscal 
year 2009 budget request for the Research, Development, Test and 
Evaluation (RDT&E) and the Science and Technology (S&T) portion of the 
DOD budget request.
    With 127,000 members, ASME is a worldwide engineering society 
focused on technical, educational, and research issues. It conducts one 
of the world's largest technical publishing operations, holds 
approximately 30 technical conferences and 200 professional development 
courses each year, and sets many industry and manufacturing standards. 
This testimony represents the considered judgment of experts from 
universities, industry, and members from the engineering and scientific 
community who contribute their time and expertise to evaluate the 
budget requests and policy initiatives the DOD recommends to Congress.
    Our testimony addresses three primary funding areas: Science and 
Technology (S&T); Engineering (RDT&E); and the University Research 
Initiative (URI). Our testimony also outlines the consequences of 
inadequate funding for defense research. These include a degraded 
competitive position in developing advanced military technology versus 
potential peer competitors that could harm the United States' global 
economic and military leadership.
    Since World War II, the United States has led the world in science, 
innovation, and defense technology. However, this lead is quickly 
eroding and within the next few years may be substantially reduced or 
may completely disappear in some areas. A recent study performed by the 
National Academy of Sciences, entitled ``Rising Above the Gathering 
Storm: Energy and Employing America for a Brighter Economic Future,'' 
evaluated the position of the United States in several critical 
measures of technology, education, innovation, and highly skilled 
workforce development. While the report indicated that the United 
States maintains a slight lead in research and discovery, the committee 
states that it is ``deeply concerned that the scientific and 
technological building blocks critical to our economic leadership are 
eroding at a time when many other nations are gaining strength.'' 
Proper attention should be given to the vital role that DOD S&T 
programs play in meeting this challenge.

                 DOD REQUEST FOR SCIENCE AND TECHNOLOGY

    The fiscal year 2009 budget request for DOD Science and Technology 
(S&T) is $11.7 billion, which is $1.5 billion less than the fiscal year 
2008 appropriated amount and represents a 11.7 percent reduction.
    The fiscal year 2009 request, if implemented, would represent a 
significantly reduced investment in DOD S&T. We strongly urge this 
committee to consider additional resources to maintain stable funding 
in the S&T portion of the DOD budget. At a minimum, $15.4 billion for 
S&T to meet the 3 percent of Total Obligational Authority (TOA) 
guideline recommended by a National Academies study and set in the 2001 
Quadrennial Defense Review and by Congress.
    A relatively small fraction of the RDT&E budget is allocated for 
S&T programs. While the fiscal year 2009 S&T request represents only 
about 14 percent of the RDT&E total, these accounts support all of the 
new knowledge creation, invention, and technology developments for the 
military. Funds for Basic Research (6.1), Applied Research (6.2), and 
Advanced Technology Development (6.3) in all categories are programmed 
for significant funding reductions.
    Basic Research (6.1) accounts would increase from $1.6 billion to 
$1.7 billion, a 4 percent increase. While basic research accounts 
comprise only a small percentage over all RDT&E funds, the programs 
that these accounts support are crucial to fundamental, scientific 
advances and for maintaining a highly skilled science and engineering 
workforce.
    Basic research accounts are used mostly to support science and 
engineering research and graduate, technical education at universities 
in all 50 States. Almost all of the current high-technology weapon 
systems, from advanced body armor, vehicle protection system, to the 
global positioning satellite (GPS) system, have their origin in 
fundamental discoveries generated in these basic research programs. 
Proper investments in basic research are needed now, so that the 
fundamental scientific results will be available to create innovative 
solutions for future defense challenges. In addition, many of the 
technical leaders in corporations and Government laboratories that are 
developing current weapon systems, ranging from the F-35 Joint Strike 
Fighter to the suite of systems employed to counter Improvised 
Explosive Devices (IED), were educated under basic research programs 
funded by DOD. Failure to invest sufficient resources in basic, 
defense-oriented research will reduce innovation and weaken the future 
scientific and engineering workforce. Several of the proposed 
reductions to individual S&T program elements are dramatic and could 
have negative impacts on future military capabilities. The Task Force 
recommends that Basic Research (6.1) be funded at a minimum level of 
$1.7 billion.
    Applied Research (6.2) would be reduced from $5.05 billion to $4.2 
billion, a 16 percent reduction. The programs supported by these 
accounts apply basic scientific knowledge, often phenomena discovered 
under the basic research programs, to important defense needs. Applied 
research programs may involve laboratory proof-of-concept and are 
generally conducted at universities, Government laboratories, or by 
small businesses. Many successful demonstrations lead to the creation 
of small companies. Some devices created in these defense technology 
programs have dual use, such as GPS, and the commercial market far 
exceeds the defense market. However, without initial support by Defense 
Applied Research funds, many of these companies would not exist. Like 
6.1 Basic Research, 6.2 Applied Research has also funded the educations 
of many of our best defense industry engineers. Failure to properly 
invest in applied research would stifle a key source of technological 
and intellectual development as well as stunt the creation and growth 
of small entrepreneurial companies.
    Advanced Technology Development (6.3) would experience a 7.6 
percent decline, from $6 billion to $5.5 billion. These resources 
support programs where ready technology can be transitioned into weapon 
systems. Without the real system level demonstrations funded by these 
accounts, companies are reluctant to incorporate new technologies into 
weapon systems programs. This line item funds research in a range of 
critical materials technologies, including improved body armor to 
protect troops against IEDs and in developing light weight armor for 
vehicle protection, such as is needed for the Future Combat System 
(FCS). With the problems faced in Iraq with IEDs and the need for 
lighter armor for the FCS it does not seem wise to cut materials 
research. Fortunately in the past few years the United States Congress 
has recognized that such cuts are not in the best interest of the 
country, and has appropriated additional resources to maintain healthy 
S&T programs in critical technologies.

                         DOD REQUEST FOR RDT&E

    The administration requested $80.7 billion for the RDT&E portion of 
the fiscal year 2009 DOD budget. These resources are used mostly for 
developing, demonstrating, and testing weapon systems, such as fighter 
aircraft, satellites, and warships. This amount represents growth from 
last year's appropriated amount 2.9 percent. Funds for the OT&E 
function are being reduced by historical standards. The fiscal year 
2008 appropriated amount was $178 million, which is little more than 
half of the 2005 appropriated amount of $310 million. The fiscal year 
2009 request is $189 million, but does not reflect the importance of 
OT&E as mandated by Congress to insure that weapon systems are 
thoroughly tested so that they are effective and safe for our troops.

                        DOD REQUEST FOR THE URI

    The URI supports graduate education in Mathematics, science, and 
engineering and would see a $6 million increase from $300 million to 
$307 million in fiscal year 2009, a 2.1 percent increase. Sufficient 
funding for the URI is critical to educating the next generation of 
engineers and scientists for the defense industry. A lag in program 
funds will have a serious long-term negative consequence on our ability 
to develop a highly skilled scientific and engineering workforce to 
build weapons systems for years to come. While DOD has enormous current 
commitments, these pressing needs should not be allowed to squeeze out 
the small but very important investments required to create the next 
generation of highly skilled technical workers for the American defense 
industry.

       REDUCED S&T FUNDING THREATENS AMERICA'S NATIONAL SECURITY

    Science and technology have played a historic role in creating an 
innovative economy and a highly skilled workforce. Study after study 
has linked over 50 percent of our economic growth over the past 50 
years to technological innovation. The ``Gathering Storm'' report 
places a ``special emphasis on information sciences and basic 
research'' conducted by the DOD because of large influence on 
technological innovation and workforce development. The DOD, for 
example, funds 40 percent of all engineering research performed at our 
universities. U.S. economic leadership depends on the S&T programs that 
support the Nation's defense base, promote technological superiority in 
weapons systems, and educate new generations of scientists and 
engineers.
    Prudent investments also directly affect U.S. national security. 
There is a general belief among defense strategists that the United 
States must have the industrial base to develop and produce the 
military systems required for national defense. Many members of 
Congress also hold this view. A number of disconcerting trends, such as 
outsourcing of engineering activities and low participation of U.S. 
students in science and engineering, threaten to create a critical 
shortage of native, skilled, scientific, and engineering work force 
personnel needed to sustain our industrial base. Programs that boost 
the available number of highly educated workers who reside in the 
United States are important to stem our growing reliance on foreign 
nations, including potentially hostile ones, to fill the ranks of our 
defense industries and to ensure that we continue to produce the 
innovative, effective defense systems of the future.

                            RECOMMENDATIONS
 
   In conclusion, we thank the committee for its ongoing support of 
DOD S&T. This Task Force appreciates the difficult choices that 
Congress must make in this tight budgetary environment. We believe, 
however, that there are critical shortages in the DOD S&T areas, 
particularly in those that support basic research and technical 
education that are critical to U.S. military in the global war on 
terrorism and defense of our homeland.
    The Task Force recommends the following:
  --We urge this subcommittee to support a $300 million increase in 
        basic research accounts for S&T programs. We are encouraged by 
        the movement toward meeting the recommendations in the ``Rising 
        Above the Gathering Storm'' report that called for a 10 percent 
        increase in defense basic research.
  --We also recommend that the committee support the Pentagon's stated 
        goal of 3 percent of the DOD's budget be spend for the DOD S&T 
        program 6.1 basic research, 6.2 applied research, and 6.3 
        advanced technology development.

    Senator Inouye. Thank you very much.
    Senator Stevens.
    Senator Stevens. Doctor, the Augustine report indicated 
that, while India was graduating 700,000 engineers and China 
400,000, we graduated 70,000. What's the association doing 
about trying to increase recruitment into this profession?
    Dr. Leland. Well, besides the things that the association 
does in terms of raising awareness of engineering, we also 
support a number of scholarship programs in cooperation with 
the DOD, for example the SMART program and the NDSEG program 
and others. But these are small efforts compared to what our 
country has to do as a whole to pull kids back into science and 
engineering.
    Senator Stevens. Well, I was astounded to hear last week 
the number of students that attend 1 year of college and quit. 
I do think that it's up to professionals to start going to 
those schools and trying to interest them in further education 
and not to quit, because we are really falling behind in terms 
of the level of sciences, technology people, medical students. 
We have to turn that around or we're going to be in real 
trouble.
    Thank you.
    Dr. Leland. Thank you.
    Senator Inouye. Thank you very much.
    Our next witness is the Co-chairman of the National 
Military and Veterans Alliance, Captain Marshall Hanson. 
Captain Hanson.

STATEMENT OF CAPTAIN MARSHALL HANSON, USNR (RETIRED), 
            CO-CHAIRPERSON, NATIONAL MILITARY AND 
            VETERANS ALLIANCE
    Captain Hanson. Thank you, Mr. Chairman, Senator Stevens. 
The National Military and Veterans Alliance (NMVA) is again 
honored to testify. The alliance represents 31 military 
retiree, veteran, and survivor associations with more than 3.5 
million members. The NMVA supports a strong national security. 
During this global war on terror, recruiting and retention 
continue to remain paramount.
    While the alliance is well aware that the subcommittee 
faces certain budget constraints, the NMVA continues to urge 
the President and Congress to increase defense spending to 5 
percent of gross domestic product during times of war to cover 
procurement, prevent unnecessary personnel cuts, and afford 
needed benefits for serving members and retirees.
    Recruiting bonuses and incentives continue to be essential 
to encourage participation. It is not enough to offer 
incentives on the initial tour. We have to also encourage our 
seasoned veterans to stay.
    The services face a growing challenge as midgrade officers 
and enlisted face a tough reenlistment choice after 8 years of 
service. The Army is already calling upon first lieutenants to 
fill the jobs that are normally performed by captains and it is 
finding it a challenge to select enough O-3s for promotion to 
major.
    We thank you for funding end strength increases for the 
Army and the Marine Corps. This will reduce the PERS-TEMPO, 
permitting our younger warriors to stay at home longer. But the 
alliance is concerned with continued cuts in the Air Force and 
Navy, as manpower is being reduced faster than the planned 
technology is being procured that would replace airmen and 
sailors.
    It is also important that we have parity in equipment and 
training for the new operational Guard and Reserve. Cuts in the 
strength of the Reserve components seem to be counterintuitive 
to preventing any unforeseen strategic event.
    One inequity we ask your assistance on is the Reserve early 
retirement benefit that was passed last year by the 
authorizers. This benefit only began on January 28, 2008. 
During the war it seems unfair that benefits would differ for 
when service was performed. The reason given for a deferred 
start was the cost. We ask that your staff work with the 
alliance's reserve component committee to find funding to 
correct the eligibility for this benefit to those who have 
served since September 11, 2001.
    It is also crucial that military healthcare be funded. The 
alliance is concerned that the President's DOD healthcare 
budget continues to undercut the military beneficiaries' needs. 
We ask you to continue to fully fund military healthcare in 
fiscal year 2009.
    The NMVA thanks this subcommittee for funding the phased-in 
survivor benefit plan (SBP) and the dependency and indemnity 
compensation (DIC) offset last year. But widows of members who 
are killed in the line of service are continuing to be 
penalized. Even under the present offset, the vast majority of 
our enlisted families receive little benefit from this new 
program because the SBP is almost completely offset by DIC. The 
NMVA respectfully requests that this subcommittee find excess 
funding to expand this provision.
    As the war continues, our Active and Reserve serving 
members face challenges. The alliance is confident in your 
ongoing support and the alliance would like to thank the 
subcommittee for its ongoing efforts and also for this 
opportunity to testify.
    Thank you very much.
    Senator Inouye. Captain, I can assure you that we'll do our 
absolute best to live up to our promises to our veterans.
    Captain Hanson. Thank you, sir.
    Senator Inouye. Thank you very much.
    [The statement follows:]

             Prepared Statement of Captain Marshall Hanson

                NATIONAL MILITARY AND VETERANS ALLIANCE

    The Alliance was founded in 1996 as an umbrella organization to be 
utilized by the various military and veteran associations as a means to 
work together towards their common goals. The Alliance member 
organizations are:

American Logistics Association
American Military Retirees Association
American Military Society
American Retirees Association
American World War II Orphans Network
AMVETS (American Veterans)
Armed Forces Marketing Council
Army and Navy Union
Catholic War Veterans
Gold Star Wives of America, Inc.
Japanese American Veterans Association
Korean War Veterans Foundation
Legion of Valor
Military Order of the Purple Heart
Military Order of the World Wars
Military Order of Foreign Wars
National Assoc. for Uniformed Services
National Gulf War Resource Center
Naval Enlisted Reserve Association
Naval Reserve Association
Paralyzed Veterans of America
Reserve Enlisted Association
Reserve Officers Association
Society of Military Widows
The Retired Enlisted Association
TREA Senior Citizens League
Tragedy Assist. Program for Survivors
Uniformed Services Disabled Retirees
Veterans of Foreign Wars
Vietnam Veterans of America
Women in Search of Equity
  

    These organizations have over three and a half million members who 
are serving our Nation or who have done so in the past, and their 
families.

                              INTRODUCTION

    Mr. Chairman and distinguished members of the committee, the 
National Military and Veterans Alliance (NMVA) is very grateful for the 
invitation to testify before you about our views and suggestions 
concerning defense funding issues. The overall goal of the National 
Military and Veterans Alliance is a strong National Defense. In light 
of this overall objective, we would request that the committee examine 
the following proposals.
    While the NMVA highlights the funding of benefits, we do this 
because it supports National Defense. A phrase often quoted ``The 
willingness with which our young people are likely to serve in any war, 
no matter how justified, shall be directly proportional as to how they 
perceive the Veterans of earlier wars were treated and appreciated by 
their country,'' has been frequently attributed to GEN George 
Washington. Yet today, many of the programs that have been viewed as 
being veteran or retiree are viable programs for the young serving 
members of this war. This phrase can now read, ``The willingness with 
which our young people, today, are willing to serve in this war is how 
they perceive the veterans of this war are being treated.''
    This has been brought to the forefront by how quickly an issue such 
as the treatment of wounded warriors suffering from Traumatic Brain 
Injury or Post Traumatic stress Disorder has been brought to the 
national attention.
    In a long war, recruiting and retention becomes paramount. The 
National Military and Veterans Alliance, through this testimony, hopes 
to address funding issues that apply to the veterans of various 
generations.

                        FUNDING NATIONAL DEFENSE

    NMVA is pleased to observe that the Congress continues to discuss 
how much should be spent on National Defense. The Alliance urges the 
President and Congress to increase defense spending to 5 percent of 
Gross Domestic Product during times of war to cover procurement and 
prevent unnecessary personnel end strength cuts.

                          PAY AND COMPENSATION

    Our serving members are patriots willing to accept peril and 
sacrifice to defend the values of this country. All they ask for is 
fair recompense for their actions. At a time of war, compensation 
rarely offsets the risks.
    The NMVA requests funding so that the annual enlisted military pay 
raise exceeds the Employment Cost Index (ECI) by at least half of a 
percent.
    Further, we hope that this committee continues to support targeted 
pay raises for those mid-grade members who have increased 
responsibility in relation to the overall service mission. Pay raises 
need to be sufficient to close the civilian-military pay gap.
    NMVA would apply the same allowance standards to both Active and 
Reserve when it comes to Aviation Career Incentive Pay, Career Enlisted 
Flyers Incentive Pay, Diving Special Duty Pay, Hazardous Duty Incentive 
Pay, and other special pays.
    The Service chiefs have admitted one of the biggest retention 
challenges is to recruit and retain medical professionals. NMVA urges 
the inclusion of bonus/cash payments (Incentive Specialty pay IPS) into 
the calculations of Retirement Pay for military health care providers. 
NMVA has received feedback that this would be incentive to many medical 
professionals to stay in longer.
    G-R Bonuses.--Guard and Reserve component members may be eligible 
for one of three bonuses, Prior Enlistment Bonus, Re-enlistment Bonus, 
and Reserve Affiliation Bonuses for Prior Service Personnel. These 
bonuses are used to keep men and woman in mission critical military 
occupational specialties (MOS) that are experiencing falling numbers or 
are difficult to fill. During their testimony before this committee the 
Reserve Chiefs addressed the positive impact that bonuses have upon 
retention. This point cannot be understated. The operation tempo, 
financial stress, and civilian competition for jobs make bonuses a 
necessary tool for the DOD to fill essential positions. The NMVA 
supports expanding and funding bonuses to the Federal Reserve 
Components.
    Reserve/Guard Funding.--NMVA is concerned about ongoing DOD 
initiatives to end ``two days pay for one days work,'' and replace it 
with a plan to provide one-thirtieth of a month's pay model, which 
would include both pay and allowances. Even with allowances, pay would 
be less than the current system. When concerns were addressed about 
this proposal, a retention bonus was the suggested solution to keep pay 
at the current levels. Allowances differ between individuals and can be 
affected by commute distances and even ZIP codes. Certain allowances 
that are unlikely to be paid uniformly include geographic differences, 
housing variables, tuition assistance, travel, and adjustments to 
compensate for missing health care.
    The NMVA strongly recommends that the reserve pay system ``two days 
pay for one days work,'' be funded and retained, as is.

                           EDUCATIONAL ISSUES

MGIB-SR Enhancements
    Practically all active duty and Selected Reserve enlisted 
accessions have a high school diploma or equivalent. A college degree 
is the basic prerequisite for service as a commissioned officer, and is 
now expected of most enlisted as they advance beyond E-6.
    Officers to promote above O-4 are expected to have a post-graduate 
degree. The ever-growing complexity of weapons systems and support 
equipment requires a force with far higher education and aptitude than 
in previous years.
    Both political parties are looking at ways of enhancing the GI 
bill. There are suggested features in legislation be suggested by both 
sides. At a minimum, the GI bill needs to be viewed as more than a 
recruiting and retention incentive. Education is a means to help 
reintegrate our returning veterans into society. A recent survey by 
military.com, of returning military veterans, found that 81 percent 
didn't feel fully prepared to enter the work force, and 76 percent of 
these veterans said they were unable translate their military skills 
into civilian proficiencies.
    Transferability of educational benefits to spouses and children are 
another key aspect that should be included in a G.I. Bill enhancement. 
In addition, for those with existing degrees and outstanding debts, the 
G.I. Bill stipend, should be allowed to pay-off outstanding student 
loans.
    No enhancement can be accomplished without funding. This should be 
viewed as an investment rather than an expense. The original G.I. bill 
provided years of economic stimulus, returning $7 for every $1 invested 
in veterans.
    The National Military and Veterans Alliance asks this subcommittee 
to support funding for suggested G.I. Bill funding.
    The Montgomery G.I. Bill for Selective Reserves (MGIB-SR) will 
continue to be an important recruiting and retention tool. With massive 
troop rotations the Reserve forces can expect to have retention 
shortfalls, unless the Government provides enhances these incentives as 
well.
    The problem with the current MGIB-SR is that the Selected Reserve 
MGIB has failed to maintain a creditable rate of benefits with those 
authorized in Title 38, Chapter 30. MGIB-SR has not even been increased 
by cost-of-living increases since 1985. In that year MGIB rates were 
established at 47 percent of active duty benefits. The MGIB-SR rate is 
28 percent of the Chapter 30 benefits. Overall the allowance has inched 
up by only 7 percent since its inception, as the cost of education has 
climbed significantly.
    The NMVA requests appropriations funding to raise the MGIB-SR and 
lock the rate at 50 percent of the active duty benefit. Cost: $25 
million/first year, $1.4 billion over 10.

                       FORCE POLICY AND STRUCTURE

War Funding
    The Alliance thanks the committee for the war funding amended to 
the Supplemental Appropriations Act 2008, H.R. 2642. While the debate 
on Iraqi policy is important, the Alliance would like to stress that 
resulting legislation should be independent and not included as 
language in any Defense Appropriation bill. Supporting the troops 
includes providing funding for their missions.
    NMVA supports the actions by this subcommittee to put dollars for 
the war back into the Emergency Supplemental.

End Strength
    The NMVA concurs with funding increases in support of the end 
strength boosts of the Active Duty Component of the Army and Marine 
Corps that have been recommended by Defense Authorizers. New recruits 
need to be found and trained now to start the process so that American 
taxpayer can get a return on this investment. Such growth is not 
instantaneously productive. Yet, the Alliance is concerned with 
continued end strength cuts to the other services: the Air Force and 
the Navy. Trying to pay the bills by premature manpower reductions may 
have consequences.

Manning Cut Moratorium
    The NMVA would also like to put a freeze on reductions to the Guard 
and Reserve manning levels. A moratorium on reductions to End Strength 
is needed until the impact of an operational reserve structure is 
understood. Many force planners call for continuation of a strategic 
reserve as well. NMVA urges this subcommittee to at least fund to last 
year's levels.

         SURVIVOR BENEFIT PLAN (SBP) AND SURVIVOR IMPROVEMENTS

    The Alliance wishes to deeply thank this subcommittee for your 
funding of improvements in the myriad of survivor programs.
    However, there is still an issue remaining to deal with: Providing 
funds to end the SBP/DIC offset.
    SBP/DIC Offset affects several groups. The first is the family of a 
retired member of the uniformed services. At this time the SBP annuity 
the servicemember has paid for is offset dollar-for-dollar for the DIC 
survivor benefits paid through the VA. This puts a disabled retiree in 
a very unfortunate position. If the servicemember is leaving the 
service disabled it is only wise to enroll in the Survivor Benefit Plan 
(perhaps being uninsurable in the private sector). If death is service 
connected then the survivor loses dollar-for-dollar the compensation 
received under DIC.
    SBP is a purchased annuity, available as an elected earned employee 
benefit. The program provides a guaranteed income payable to survivors 
of retired military upon the member's death. Dependency and Indemnity 
Compensation (DIC) is an indemnity program to compensate a family for 
the loss of a loved one due to a service-connected death. They are 
different programs created to fulfill different purposes and needs.
    A second group affected by this dollar-for-dollar offset is made up 
of families whose servicemember died on active duty. Recently, Congress 
created active duty SBP. These servicemembers never had the chance to 
pay into the SBP program. But clearly Congress intended to give these 
families a benefit. With the present offset in place the vast majority 
of families receive no benefit from this new program, because the vast 
numbers of our losses are young men or women in the lower paying ranks. 
SBP is completely offset by DIC payments.
    Other affected families are servicemembers who have already served 
a substantial time in the military. Their surviving spouse is left in a 
worse financial position that a younger widow. The older widows will 
normally not be receiving benefits for her children from either Social 
Security or the VA and will normally have more substantial financial 
obligations (mortgages, etc). This spouse is very dependent on the SBP 
and DIC payments and should be able to receive both.
    The NMVA respectfully requests this subcommittee fund the SBP/DIC 
offset.

    CURRENT AND FUTURE ISSUES FACING UNIFORMED SERVICES HEALTH CARE

    The National Military and Veterans Alliance must once again thank 
this committee for the great strides that have been made over the last 
few years to improve the health care provided to the active duty 
members, their families, survivors, and Medicare eligible retirees of 
all the Uniformed Services. The improvements have been historic. 
TRICARE for Life and the Senior Pharmacy Program have enormously 
improved the life and health of Medicare Eligible Military Retirees 
their families and survivors. It has been a very successful few years. 
Yet there are still many serious problems to be addressed.

Wounded Warrior programs
    As the committee is aware, Congress has held a number of hearings 
about the controversy at Walter Reed Army Medical Center. The NMVA will 
not revisit the specifics. With the Independent Review Group and the 
Dole/Shalala Commission recommending the closure of Walter Reed, an 
emphasis needs to be placed on the urgency of upgrades at Bethesda, and 
the new military treatment hospital at Fort Belvoir. NMVA hopes that 
this committee will financially support the studies that measure the 
adequacy of this plan.
    The Alliance supports continued funding for the wounded warriors, 
including monies for research and treatment on Traumatic Brain Injuries 
(TBI), Post Traumatic Stress Disorder, the blinded, and our amputees. 
The Nation owes these heroes an everlasting gratitude and recompense 
that extends beyond their time in the military. These casualties only 
bring a heightened need for a DOD/VA electronic health record accord to 
permit a seamless transition from being in the military to being a 
civilian.

Full Funding for the Defense Health Program
    The Alliance applauds the subcommittee's role in providing adequate 
funding for the Defense Health Program (DHP) in the past several budget 
cycles. As the cost of health care has risen throughout the country, 
you have provided adequate increases to the DHP to keep pace with these 
increases.
    Full funding for the defense health program is a top priority for 
the NMVA. With the additional costs that have come with the deployments 
to Southwest Asia, Afghanistan and Iraq, we must all stay vigilant 
against future budgetary shortfalls that would damage the quality and 
availability of health care.
    With the authorizers having postponed the Department of Defenses 
suggested fee increases, the Alliance is concerned that the budget 
saving have already been adjusted out of the President's proposed 
budget. NMVA is confident that this subcommittee will continue to fund 
the DHP so that there will be no budget shortfalls.
    The National Military and Veterans Alliance urges the subcommittee 
to continue to ensure full funding for the Defense Health Program 
including the full costs of all new programs.

TRICARE Pharmacy Programs
    NMVA supports the continued expansion of use of the TRICARE Mail 
Order pharmacy.
    To truly motivate beneficiaries to a shift from retail to mail 
order adjustments need to be made to both generic and brand name drugs 
co-payments. NMVA recommends that both generic and brand name mail 
order prescriptions be reduced to zero co-payments to align with 
military clinics.
    Ideally, the NMVA would like to see the reduction in mail order co-
payments without an increase in co-payments for Retail Pharmacy.
    The National Military and Veterans Alliance urges the subcommittee 
to adequately fund adjustments to co-payments in support of 
recommendations from Defense Authorizers.

TRICARE Standard Improvements
    TRICARE Standard grows in importance with every year that the 
global war on terrorism continues. A growing population of mobilized 
and demobilized Reservists depends upon TRICARE Standard. A growing 
number of younger retirees are more mobile than those of the past, and 
likely to live outside the TRICARE Prime network.
    An ongoing challenge for TRICARE Standard involves creating 
initiatives to convince health care providers to accept TRICARE 
Standard patients. Health care providers are dissatisfied with TRICARE 
reimbursement rates that are tied to Medicare reimbursement levels. The 
Alliance is pleased by Congress' plan to prevent near-term reductions 
in Medicare reimbursement rates, which will help the TRICARE Program.
    Yet this is not enough. TRICARE Standard is hobbled with a 
reputation and history of low and slow payments as well as what still 
seems like complicated procedures and administrative forms that make it 
harder and harder for beneficiaries to find health care providers that 
will accept TRICARE. Any improvements in the rates paid for Medicare/
TRICARE should be a great help in this area. Additionally, any further 
steps to simplify the administrative burdens and complications for 
health care providers for TRICARE beneficiaries hopefully will increase 
the number of available providers.
    The Alliance asks the Defense Subcommittee to include language 
encouraging continued increases in TRICARE/Medicare reimbursement 
rates.

TRICARE Retiree Dental Plan (TRDP)
    The focus of the TRICARE Retiree Dental Plan (TRDP) is to maintain 
the dental health of Uniformed Services retirees and their family 
members. Several years ago we saw the need to modify the TRDP 
legislation to allow the Department of Defense to include some dental 
procedures that had previously not been covered by the program to 
achieve equity with the active duty plan.
    With ever increasing premium costs, NMVA feels that the Department 
should assist retirees in maintaining their dental health by providing 
a Government cost-share for the retiree dental plan. With many retirees 
and their families on a fixed income, an effort should be made to help 
ease the financial burden on this population and promote a seamless 
transition from the active duty dental plan to the retiree dental plan 
in cost structure. Additionally, we hope the Congress will enlarge the 
retiree dental plan to include retired beneficiaries who live overseas.
    The NMVA would appreciate this committee's consideration of both 
proposals.

                 NATIONAL GUARD AND RESERVE HEALTH CARE

Funding Improved TRICARE Reserve Select
    It is being suggested that the TRICARE Reserve Select healthcare 
plan be changed to allow the majority of Selected Reserve participate 
at a 28 percent co-payment level with the balance of the premium being 
paid by the Department of Defense.
    NMVA asks the committee to continue to support funding of the 
TRICARE Reserve Select program.

Mobilized Health Care--Dental Readiness of Reservists
    The number one problem faced by Reservists being recalled has been 
dental readiness. A model for healthcare would be the TRICARE Dental 
Program, which offers subsidized dental coverage for Selected 
Reservists and self-insurance for SELRES families.
    In an ideal world this would be universal dental coverage. Reality 
is that the services are facing challenges. Premium increases to the 
individual Reservist have caused some junior members to forgo coverage. 
Dental readiness has dropped. The Military services are trying to 
determine how best to motivate their Reserve Component members but feel 
compromised by mandating a premium program if Reservists must pay a 
portion of it.
    Services have been authorized to provide dental treatment as well 
as examination, but without funding to support this service. By the 
time many Guard and Reserve are mobilized, their schedule is so short 
fused that the processing dentists don't have time for extensive 
repair.
    The National Military Veterans Alliance supports funding for 
utilization of Guard and Reserve Dentists to examine and treat 
Guardsmen and Reservists who have substandard dental hygiene. The 
TRICARE Dental Program should be continued, because the Alliance 
believes it has pulled up overall Dental Readiness.

Demobilized Dental Care
    Under the revised transitional healthcare benefit plan, Guard and 
Reserve who were ordered to active duty for more than 30 days in 
support of a contingency and have 180 days of transition health care 
following their period of active service.
    Similar coverage is not provided for dental restoration. Dental 
hygiene is not a priority on the battlefield, and many Reserve and 
Guard are being discharged with dental readiness levels much lower than 
when they were first recalled. At a minimum, DOD must restore the 
dental state to an acceptable level that would be ready for 
mobilization, or provide some subsidize for 180 days to permit 
restoration from a civilian source.
    Current policy is a 30-day window with dental care being space 
available at a priority less than active duty families.
    NMVA asks the committee for funding to support a DOD's 
demobilization dental care program. Additional funds should be 
appropriated to cover the cost of TRICARE Dental premiums and co-
payment for the 6 months following demobilization if DOD is unable to 
do the restoration.

                     OTHER GUARD AND RESERVE ISSUES

    Ensure adequate funding to equip Guard and Reserve at a level that 
allows them to carry out their mission. Do not turn these crucial 
assets over to the active duty force. In the same vein we ask that the 
Congress ensure adequate funding that allows a Guardsman/Reservist to 
complete 48 drills, and 15 annual training days per member, per year. 
DOD has been tempted to expend some of these funds on active duty 
support rather than personnel readiness.
    The NMVA strongly recommends that Reserve Program funding remain at 
sufficient levels to adequately train, equip, and support the robust 
reserve force that has been so critical and successful during our 
Nation's recent major conflicts.
    While Defense Authorizers provided an early retirement benefit in 
fiscal year 2008, only those who have served in support of a 
contingency operation since 28 January 2008 are eligible, nearly 6 
years and 4 months after Guard and Reserve members first were mobilized 
to support the active duty force in this conflict. Over 600,000 
Reservists have served during this period and were excluded from 
eligibility. The explanation given was lack of mandatory funding 
offset. To exclude a portion of our warriors is akin to offering the 
original GI Bill to those who served after 1944.
    NMVA hopes that this subcommittee can help identify excess funding 
that would permit an expanded early retirement benefit for those who 
have served.

                     ARMED FORCES RETIREMENT HOMES

    Following Hurricane Katrina, Navy/Marine Corps residents from AFRJ-
Gulfport were evacuated from the hurricane-devastated campus and were 
moved to the AFRH-Washington, DC, campus. Dormitories were reopened 
that are in need of refurbishing.
    NMVA urges this subcommittee to continue funding upgrades at the 
Washington, DC, facility, and to continue funding to rebuild the 
Gulfport facility.

                               CONCLUSION

    Mr. Chairman and distinguished members of the subcommittee the 
Alliance again wishes to emphasize that we are grateful for and 
delighted with the large steps forward that the Congress has affected 
the last few years. We are aware of the continuing concern all of the 
subcommittee's members have shown for the health and welfare of our 
service personnel and their families. Therefore, we hope that this 
subcommittee can further advance these suggestions in this committee or 
in other positions that the members hold. We are very grateful for the 
opportunity to submit these issues of crucial concern to our collective 
memberships. Thank you.

    Senator Inouye. Our next panel is made up of: Lieutenant 
General McCarthy, Dr. Suchy, Dr. Boehm-Davis, and Ms. 
Hinestrosa.
    Our next witness is the Executive Director of the Reserve 
Officers Association of the United States, Lieutenant General 
Dennis M. McCarthy, United States Marine Corps, Retired. 
General McCarthy.

STATEMENT OF LIEUTENANT GENERAL DENNIS M. McCARTHY, 
            USMC (RETIRED), EXECUTIVE DIRECTOR, RESERVE 
            OFFICERS ASSOCIATION OF THE UNITED STATES
    General McCarthy. Mr. Chairman, Senator Stevens, members of 
the subcommittee: thank you for the opportunity to speak once 
again on the issue of funding for our Nation's Reserve 
components. As I said many times before, in an all-volunteer 
era the United States cannot conduct extended military 
operations without augmenting and reinforcing the Active 
component. That reinforcement must come from one of two 
sources, either a draft or a viable and capable National Guard 
and Reserve.
    The 700,000 men and women of our Nation's Reserve 
components have provided that reinforcing force since 2001. 
They have literally saved the country from a draft. Every 
indication I see and hear is that they can and will continue to 
do so if they're properly trained, equipped, and supported. 
Congress has made great strides in increasing the funding for 
these important needs. But realism demands that we recognize 
that the armed services frequently push their Reserve 
components to a lower priority at times when funding is tight.
    The Reserve Officers Association (ROA)--and I've been 
authorized to speak on this subject for the Reserve Enlisted 
Association as well--urges this subcommittee to specifically 
identify funding for both the National Guard and the Federal 
Reserve components, ensuring that those funds must be spent to 
train and equip the Reserve components and to support their 
families' unique needs.
    Both the Congress and the DOD have been given an excellent 
blueprint for enhancing the Reserve components of the 21st 
century. The report of the Commission on National Guard and 
Reserves will guide policymakers and legislators to many of the 
right answers. I don't personally agree with every word in the 
document, but ROA believes that it has much value and that you 
should give each of its 95 recommendations serious 
consideration.
    At the end of the day, I believe the Nation wants an all-
volunteer force and that it doesn't want a draft. The only way 
to achieve both of these objectives is to ensure that the 
Reserve and the National Guard continue to be filled with the 
same type of great Americans who serve today. To do that, you 
must ensure that they are fully trained, properly equipped, and 
that their families are adequately supported. And you must 
ensure that your appropriation goes where you intend it to go.
    These young men and women, Mr. Chairman, will not come back 
from combat to sit around empty training centers because 
there's no equipment for them to train on. They don't come back 
for a rest, they don't stay in the Reserve components to rest. 
They come back to continue to train and to prepare for whatever 
the next mission is. The equipment simply must be present both 
in the theater, of course, but the equipment must also be 
present in the training centers, so that when they come back 
they can retrain, refit, and get ready for whatever else the 
Nation calls upon them to do.
    Mr. Chairman, again I thank you for the opportunity to 
testify and for the support that you have consistently given to 
our Reserve components.
    [The statement follows:]

      Prepared Statement of Lieutenant General Dennis M. McCarthy

    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned and warrant officers of our 
Nation's seven uniformed services and their spouses. ROA was founded in 
1922 during the drawdown years following the end of World War I. It was 
formed as a permanent institution dedicated to National Defense, with a 
goal to teach America about the dangers of unpreparedness. When 
chartered by Congress in 1950, the act established the objective of ROA 
to: ``. . . support and promote the development and execution of a 
military policy for the United States that will provide adequate 
National Security.'' The mission of ROA is to advocate strong Reserve 
Components and national security, and to support Reserve officers in 
their military and civilian lives.
    The Association's 65,000 members include Reserve and Guard 
soldiers, sailors, marines, airmen, and Coast Guardsmen who frequently 
serve on Active Duty to meet critical needs of the uniformed services 
and their families. ROA's membership also includes officers from the 
U.S. Public Health Service and the National Oceanic and Atmospheric 
Administration who often are first responders during national disasters 
and help prepare for homeland security. ROA is represented in each 
State with 55 departments plus departments in Latin America, the 
District of Columbia, Europe, the Far East, and Puerto Rico. Each 
department has several chapters throughout the State. ROA has more than 
450 chapters worldwide.
    ROA is a member of The Military Coalition where it co-chairs the 
Tax and Social Security Committee. ROA is also a member of the National 
Military/Veterans Alliance. Overall, ROA works with 75 military, 
veterans, and family support organizations.

                             ROA PRIORITIES

    The Reserve Officers Association CY 2008 Legislative Priorities 
are:
  --Assure that the Reserve and National Guard continue in a key 
        national defense role, both at home and abroad.
  --Reset the whole force to include fully funding equipment and 
        training for the National Guard and Reserves.
  --Providing adequate resources and authorities to support the current 
        recruiting and retention requirements of the Reserves and 
        National Guard.
  --Support citizen warriors, families, and survivors.
Issues to help fund, equip, and train
    Advocate for adequate funding to maintain National Defense during 
the GWOT.
    Regenerate the Reserve Components (RC) with field compatible 
equipment.
    Fence RC dollars for appropriated Reserve equipment.
    Fully fund Military Pay Appropriation to guarantee a minimum of 48 
drills and 2 weeks training.
    Sustain authorization and appropriation to National Guard and 
Reserve Equipment Account (NGREA) to permit flexibility for Reserve 
Chiefs in support of mission and readiness needs.
    Optimize funding for additional training, preparation, and 
operational support.
    Keep Active and Reserve personnel and Operation and Maintenance 
funding separate.
    Equip Reserve Component members with equivalent personnel 
protection as Active Duty.
Issues to assist recruiting and retention
    Support incentives for affiliation, re-enlistment, retention, and 
continuation in the RC.
            Pay and Compensation
    Provide differential pay for Federal employees.
    Offer Professional pay for RC medical professionals.
    Eliminate the one-thirtieth rule for Aviation Career Incentive Pay, 
Career Enlisted Flyers Incentive Pay, Diving Special Duty Pay, and 
Hazardous Duty Incentive Pay.
            Education
    Introduce an enhanced GI Bill for the 21st century.
            Health Care
    Provide Medical and Dental Readiness through subsidized preventive 
health care.
    Extend military coverage for restorative dental care for up to 180 
days following deployment.
            Spouse Support
    Repeal the SBP-Dependency Indemnity Clause (DIC) offset.
      national guard and reserve equipment and personnel accounts
    It is important to maintain separate equipment and personnel 
accounts to allow Reserve Component Chiefs the ability to direct 
dollars to needs.
Key Issues facing the Armed Forces concerning equipment.
    Developing the best equipment for troops fighting the global war on 
terrorism.
    Procuring new equipment for all U.S. Forces.
    Maintaining or upgrading the equipment already in the inventory.
    Replacing the equipment deployed from the homeland to the war.
    Making sure new and renewed equipment gets into the right hands, 
including the Reserve Component.
Reserve Component Equipping Sources
    Procurement.
    Cascading of equipment from Active Component.
    Cross-leveling.
    Recapitalization and overhaul of legacy (old) equipment.
    Congressional adds.
    National Guard and Reserve Appropriations (NGREA)
    Supplemental appropriation.

                    CONTINUED RESETTING OF THE FORCE

    Resetting or reconstitution of the force is the process to restore 
people, aircraft and equipment to a high state of readiness following a 
period of higher-than-normal, or surge, operations.
    Some equipment goes through recapitalization: stripping down and 
rebuilding equipment completely. Recapitalization is one of the fastest 
ways to get equipment back to units for use, and on some equipment, 
such as trucks, recapitalization costs only 75 percent of replacement 
costs. A second option is to upgrade equipment, such as adding armor. A 
third option is to simply extend the equipment's service life through a 
maintenance program.
    Operations Iraqi Freedom and Enduring Freedom are consuming the 
Reserve Component force's equipment. Wear and tear is at a rate many 
times higher then planned. Battle damage expends additional resources. 
Many equipment items used in Southwest Asia are not receiving depot-
level repair because equipment items are being retained in theater.
    In addition to dollars already spent to maintain this well-worn 
equipment for ongoing operations, the Armed Forces will likely incur 
large expenditures in the future to repair or replace (reset) a 
significant amount of equipment when hostilities cease. The services 
are currently funding their reset programs in large part through the 
use of supplemental appropriations

                           PERSONNEL TRAINING

    When Reserve Component personnel participate in an operation they 
are focused on the needs of the particular mission, which may not 
include everything required to maintain qualification status in their 
military occupation specialty (MOS, AFSC, NEC).
  --There are many different aspects of training that are affected.
    --Skills that must be refreshed for specialty.
    --Training needed for upgrade but delayed by mission.
    --Ancillary training missed.
    --Professional military education needed to stay competitive.
    --Professional continuing education requirements for single-managed 
            career fields and other certified or licensed specialties 
            required annually.
    --Graduate education in business related areas to address force 
            transformation and induce officer retention.
  --Loss, training a replacement: There are particular challenges that 
        occur to the force when a loss occurs during a mobilization or 
        operation and depending on the specialty this can be a 
        particularly critical requirement that must be met.
    --Recruiting may require particular attention to enticing certain 
            specialties or skills to fill critical billets.
    --Minimum levels of training (84 days basic, plus specialty 
            training).
    --Retraining may be required due to force leveling as emphasis is 
            shifted within the service to meet emerging requirements.

                              END STRENGTH
 
   The ROA would like to put a freeze on reductions to the Guard and 
Reserve manning levels. ROA urges this subcommittee to fund to at least 
last year's levels.
  --Army National Guard of the United States, 352,600.
  --Army Reserve, 206,000.
  --Navy Reserve, 67,800.
  --Marine Corps Reserve, 39,600.
  --Air National Guard of the United States, 106,700.
  --Air Force Reserve, 67,500.
  --Coast Guard Reserve, 10,000
    In a time of war and the highest OPTEMPO in recent history, it is 
wrong to make cuts to the end strength of the Reserve Components. We 
need to pause to permit force planning and strategy to catch-up with 
budget reductions.

                               READINESS

    Readiness is a product of many factors, including the quality of 
officers and enlisted, full staffing, extensive training and exercises, 
well-maintained weapons and authorized equipment, efficient procedures, 
and the capacity to operate at a fast tempo. The pace of wartime 
operations has a major impact on service members.
    The Defense Department does not attempt to keep all active units at 
the C-1 level. The risk is without resetting the force returning Active 
and Reserve units will be C-4 or lower because of missing equipment, 
and without authorized equipment their training levels will 
deteriorate.

               NONFUNDED ARMY RESERVE COMPONENT EQUIPMENT

    The Army National Guard and Army Reserve have made significant 
contributions to ongoing military operations, but equipment shortages 
and personnel challenges have increased and, if left unattended, may 
hamper the reserves' preparedness for future overseas and domestic 
missions.
    To provide deployable units, the Army National Guard and the Army 
Reserve have transferred large quantities of personnel and equipment to 
deploying units, an approach that has resulted in growing shortages in 
nondeployed units. Also, reserve units have left quantities of 
equipment overseas and DOD has not yet developed plans to replace it.
Army Reserve Unfunded Requirements
    Approximately 4 percent of USAR's equipment has been left in 
theater, representing one-third of USAR Heavy Equipment Transporters, 
25 percent of USAR medium non-tactical tractors, and 15 percent of USAR 
HMMWVs.
    Currently, Army Reserve units average a 68 percent of required 
equipment on hand. To meet pre-mobilization training objectives, the 
Army Reserve was forced to expend limited resources to move 6,700 
training items from units to training locations in fiscal year 2007, 
with the expectation to ship another 7,000 pieces of equipment to pre-
mobilizations training sites in fiscal year 2008.
    To address all Army Reserve shortfalls, $6.8 billion is needed in 
NGREA and other accounts for USAR designated equipment.
            Army Reserve Modernization Vehicle Requirements--$1.75 
                    billion
    Light-medium trucks (LMTV) 2.5 Ton Truck; Medium Tactical Vehicle 
(MTV) 5.0 Ton Truck; Truck Cargo PLS 1010 M1075; PLS Trailer; High 
Mobility Multi-Purpose Wheeled Vehicle (HMMWV); High Mobility Multi-
Purpose Wheeled Vehicle, up-armored; and Truck Tractors Line Haul 
(M915A3).
            Recruiting Bonuses--$321 million
    These bonuses are critical to exceed an end strength of 205,000 
soldiers. For 205,000 mission ready soldiers, additional soldiers are 
needed to be in the training conduit. To fully fund just the Army 
Recruiter Assistance Program (ARAP) $28.5 million is needed.
            Professional Military Education--$195 million
    To support higher occupational skill qualification rates.
            Special Pre-mobilization training days--$162 million
    In order to integrate into a fully integrated operational force, 
$80 million for additional training days are needed for 20,000 
soldiers, and another $82 million to resource up to 17 days of pre-
mobilization training.
            Army Reserve Force Structure rebalancing--$66 million
    Increased training events and equipment to replace less-equipment 
intensive units.
            Construction and modernization of Army Reserve Centers--
                    $281.7 million
    To build five Army Reserve centers and modernize other Reserve 
Centers.
            Reduction in Facility Maintenance backlog--$256 million
Army National Guard Top Ten Equipment Requirements
    Priority 1 equipment requirements by the Army National Guard totals 
$2 billion.
            Joint Forces HQ Command and Control--$168.4 million
    Man-portable Communications Support Kits; Joint Incident Site 
Communications and Interim Satcom Incident Site. (JISC & ISISCS); 
Wideband Imagery Satellite Terminals; Army Battle Command Systems; 
Warfighters Information Network Tactical Systems.
            Civil Support Teams (Force Protection)--$88 million
    NBC Reconnaissance Vehicle; Portable Chemical Decontamination 
System; Portable Riot Control Dispenser.
            Maintenance--$48.5 million
    Electrical and Electronic Properties Measuring and Testing 
instruments.
            Aviation--$100.5 million
    UH-60A to UH-60L Upgrade Kits; LUH-72A S&S Mission Equipment 
Package.
            Engineers--$129.2 million
    Horizontal Construction/Heavy Equipment; Route and Area Clearance 
Equipment.
            Medical--$8.75 million
    Expeditionary Medical Vehicles.
            Communication--$145.3 million
    PHOENIX Satellite Upgrade; Radios.
            Transportation--$1.15 million
    FMTV/LMTV Cargo Trucks; HMMWV; HTV 88 Heavy Trucks; Tactical 
Trailers.
            Security--$68.2 million
    Night Vision Goggles; Illuminator, Infrared AN/PEC-15; Commander 
Vehicle CVICV.
            Logistics Equipment--$93.77 million
    In-transit Asset Visibility System; Field Feeding Systems; 
Generator Sets; Tactical Water and Water Purification Systems.
            air force reserve component equipment priorities
    ROA continues to support military aircraft Multi-Year Procurement 
(MYP) for more C-17s and more C-130Js for USAF.
Air Force Reserve Unfunded Requirements
    The Air Force Reserve (AFR) mission is to be an integrated member 
of the Total Air Force to support mission requirements of the joint 
warfighter. To achieve interoperability in the future, the Air Force 
Reserve top ten priorities for ``Other Equipment'' are:
    C-40 D multi-role Airlift(3).--To replace C-9 C's.
    Aircraft Infra-Red Counter Measures (6).--Installs LAIRCM Group A 
and B kits on (6) C-130 H2's and procures all associated spares and 
support equipment.
    Airlift Defensive Systems (16).--Install ADS systems onto (16) AFRC 
C-5As at Lackland Air Force Base against IR missile threats.
    ARC-210 Radio (61).--Procure AN/ARC-210 Group A and B multi-band, 
jam resistant beyond line of sight radios for (61) AFRC C/HC-130 
aircraft to replace VHF radio.
    Infrared Missile Warning System (27).--Modify (27) A-10s with MWS; 
integrates missile warning into the ALQ-213 Counter Measures Set; 
allows faster, automatic responses.
    APN-241 Radar (17).--Modify (17) remaining C-130H2 AC, includes 
group A, B, installs, spares, support equipment, and sustainment 
through the FYDP.
    Infra-Red Counter Measures (42).--Procure and install (42) LAIRCM 
lite systems on AFRC C-5s. Protects high value national assets against 
advanced IR missile threats.
    Missile Warning System (MWS).--Upgrade/replacement--Improve and 
integrate the existing Electronic Attack (EA) for A-10 and F-16 and 
Electronic Protection (EP) for A-10, F-16, and HC-130.
    SAFIRE Lookout Troop Window and Seat Modifications. (61).--A larger 
window in the C-130 paratroop doors will increase the field of view for 
the scanner. A collocated seat will help keep the scanner alert as 
crucial scanning duties are performed.
    C-5 Structural Repair.--Stress corrosion cracking of C-5A Aft Crown 
Skins and Contour Box Beam Fittings requires fleet-wide replacement to 
avoid grounding and restriction of outsize cargo-capable to sustain 
strategic mobility assets.
Air National Guard Top Ten Equipment Requirements
    Priority 1 equipment requirements by the Air National Guard total 
$500 million.
            Joint Forces HQ Command and Control--$27 million
    Cell Restoral; ANG Readiness center Crisis Action Team; Joint 
Incident Site Communications and Interim Satcom Incident Site. (JISC & 
ISISCS).
            Medical--$33.9 million
    Expeditionary Medical System (EMEDS); Tamiflu.
            Communication--$72.3 million
    Wireless Internet; 11xCell Phone Restoral; 11x JISC and ISISCS.
            Logistics Equipment--$15.7 million
    Combat Readiness Training Center; HLS/HLD Mission Essential; Single 
Pallet Expeditionary Field (SPEK) Kitchen Phase IV; Disaster Response 
Bed down Kits.
            Transportation--$52.1 million
    P-19, P-22, P-23 Firefighting Vehicles; Refueling Vehicles.
            Engineers--$31.2 million
    Construction/Heavy Equipment--Loaders, Graders, Evacuators, Mixers, 
Backhoes; Explosive Ordnance Disposal (EOD) IED Equipment.
            Civil Support Teams (Force Protection)--$21.4 million
    PJ/STs Medical Treatment Equipment; Hazardous Material Equipment; 
Fire Fighter Self Contained Breathing Apparatus; CBRNE Incident 
Response Equipment; Personnel Protective Equipment for First Responders 
to WMD.
            Maintenance--$13.4 million
    Standard Asset Tracking System.
            Security--$74.5 million
    Security Forces Body Armor (vests, helmets); Night Vision Goggles; 
Mobility Bag Upgrades; Weapons Upgrades (stocks, racks, rifles, storage 
cases).
            Aviation--$158.5 million
    HH-60 Avionic Upgrades, Para-rescue Specialist upgrades, Special 
Tactics Survivability Upgrades and Modernization Suite; C-21 A Avionics 
upgrades; HC-130 Data Link; HC/MC-120 LAARS V-12; C-130 CDU, NVIS, 
radar, propulsion upgrades; RC-26 Avionics, BLOS, CNS/ATM upgrades.
                    navy reserve unfunded priorities
    Active Reserve Integration (ARI) aligns Active and Reserve 
Component units to achieve unity of command. Navy Reservists are fully 
integrated into their AC supported commands. Little distinction is 
drawn between AC and RC equipment, but unique missions remain.
            C-40 A Combo cargo/passenger Airlift (4)--$330 million
    The Navy requires a Navy Unique Fleet Essential Airlift Replacement 
Aircraft. This aircraft was designated as the C-40A to replace the 
aging C-9 fleet. The C-40A is able to carry 121 passengers or 40,000 
pounds of cargo, compared with 90 passengers or 30,000 pounds for the 
C-9. In addition, the maximum range for the Clipper is approximately 
1,500 miles more than the C-9.
            C-130J Aircraft (5)--$320 million
    These Aircraft are needed to fill the shortfall in Navy Unique 
Fleet Essential Airlift (NUFEA). C-130 J's are flown by Navy Reserve 
crews for intra-theater support as tactical transport aircraft.
            P-3 Maritime Patrol Aircraft Fixes--$312 million
    Due to the grounding of 39 airframes in December 2007, there is a 
shortage of maritime patrol and reconnaissance aircraft, which are 
flown in associate Active and Reserve crews. P-3 wing crack kits are 
still needed for fiscal year 2009.
            New Accession Training Bonuses--$17 million
    This is the Navy Reserve's only non-prior service accession 
program. The request funds $10 million for bonuses, and $7 million to 
meet increase Reserve Component recruiting.
            DDG-1000 Training Facility, Norfolk--$5 million
    A training facility is needed for both Active and Reserve 
augmentees to the fleet to prepare sailors for the next generation of 
destroyer.

                MARINE CORPS RESERVE UNFUNDED PRIORITIES

    The Marine Corps Reserve faces two primary equipping challenges, 
supporting and sustaining its forward deployed forces in the Long War 
while simultaneous resetting and modernizing the Force to prepare for 
future challenges. Only by equally equipping and maintaining both the 
Active and Reserve forces will an integrated Total Force be seamless.
            Training Allowance (T/A) Shortfalls--$187.7 million
    Shortfalls consist of over 300 items needed for individual combat 
clothing and equipment, including protective vests, poncho, liner, 
gloves, cold weather clothing, environmental test sets, took kits, 
tents, camouflage netting, communications systems, engineering 
equipment, combat and logistics vehicles and weapon systems.
            Brite Star FLIR (6)--$7.2 million
    A cost-effective military qualified third-generation multi-sensor 
system that provides TV surveillance, a laser designator, and a laser 
range finder. These are needed to upgrade Reserve aircraft to match 
active duty configuration.
            Virtual Combat Convoy Trainer (1)--$2.75 million
    A mobile self-contained convoy trainer simulates the space and 
physical constraints of the HMMWV. It incorporates small arms and crew-
served weapons response training, mission rehearsal and coordination 
with other units. Can train up to 10 marines at a time and can be 
relocated for convoy training at various Reserve Training Centers.
            Deployable Virtual Training Environment--DVTE (12)--
                    $444,000
    Simulation technologies that will help prepare Reserve Marines for 
combat. It is made up of two components: the Combined Arms Network 
(CAN) and the Infantry Tool Kit (ITK), which contain several tactical 
simulations. Of 184 sites, there are 12 technological suites remaining 
to be purchased.
            Tactical Remote Sensor System--TRSS (3)--$7.98 million
    This is a suite of sensors used by the Ground Sensors Platoons of 
the Intelligence Battalions to accomplish their mission to detect enemy 
movement on avenues of approach.
            MCB Twenty Nine Palms, Vehicle Maintenance Facility--$10.9 
                    million
    Addition to Marine Corp Reserve Training Center for vehicle storage 
and maintenance.
    Ground equipment mission readiness rates for non-deployed Marine 
Forces Reserve Units average 88 percent based on Training Allowance. 
Reduced readiness results from shortages in home station Training 
Allowance. There is approximately a 10 percent readiness shortfall 
across the Force for most equipment.

           NATIONAL GUARD AND RESERVE EQUIPMENT APPROPRIATION

    Prior to 1997, the National Guard and Reserve Equipment 
Appropriation was a critical resource to ensure adequate funding for 
new equipment for the Reserve Components. The much-needed items not 
funded by the respective service budget were frequently purchased 
through this appropriation. In some cases it was used to bring unit 
equipment readiness to a needed state for mobilization.
    With the war, the Reserve and Guard are faced with mounting 
challenges on how to replace worn out equipment, equipment lost due to 
combat operations, legacy equipment that is becoming irrelevant or 
obsolete, and in general replacing that which is gone or aging through 
normal wear and tear. Funding levels, rising costs, lack of replacement 
parts for older equipment, etc. has made it difficult for the Reserve 
Components to maintain their aging equipment, not to mention 
modernizing and recapitalizing to support a viable legacy force. The 
Reserve Components would benefit greatly from a National Military 
Resource Strategy that includes a National Guard and Reserve Equipment 
Appropriation.

                             ROA LAW CENTER

    It was suggested that ROA could incorporate some Federal military 
offices, such as recruiting offices, into the newly remodeled ROA 
Minuteman Memorial building. ROA would be willing to work with this 
committee on any suggestion.
    The Reserve Officers Association's recommendation would be to 
develop a Servicemembers Law Center, advising Active and Reserve 
servicemembers who have been subject to legal problems that occur 
during deployment.
    A legal center would help encourage new members to join the Active, 
Guard, and Reserve components by providing a non-affiliation service to 
educate prior service about USERRA and Servicemember Civil Relief Act 
(SCRA) protections, and other legal issues. It would help retention as 
a member of the staff could work with Active and Reserve Component 
members to counsel those who are preparing to deploy, deployed or 
recently deployed members facing legal problems.
    The Legal Center could advise, refer by providing names of 
attorneys who work related legal issues and amicus curiae briefs, 
encourage law firms to represent servicemembers, and educate and 
training lawyers, especially active and reserve judge advocates on 
servicemember protection cases. The center could also be a resource to 
Congress.
    ROA would set-aside office spaces. ROA's Defense Education Fund 
would hire an initial staff of one lawyer, and one administrative law 
clerk to man the Servicemembers Law Center to counsel individuals and 
their legal representatives.
    Anticipated startup cost, first year: $750,000

                       CIOR/CIOMR FUNDING REQUEST

    The Interallied Confederation of Reserve Officers (CIOR) was 
founded in 1948, and its affiliate organization, The Interallied 
Confederation of Medical Reserve Officers (CIOMR) was founded in 1947. 
The organization is a nonpolitical, independent confederation of 
national reserve associations of the signatory countries of the North 
Atlantic Treaty (NATO). Presently there are 16 member nation 
delegations representing over 800,000 reserve officers.
    CIOR supports four programs to improve professional development and 
international understanding.
    MIlitary Competition.--The CIOR Military Competition is a strenuous 
3-day contest on warfighting skills among Reserve Officers teams from 
member countries. These contests emphasize combined and joint military 
actions relevant to the multinational aspects of current and future 
Alliance operations.
    Language Academy.--The two official languages of NATO are English 
and French. As a non-Government body, operating on a limited budget, it 
is not in a position to afford the expense of providing simultaneous 
translation services. The Academy offers intensive courses in English 
and French at proficiency levels 1, 2, and 3 as specified by NATO 
Military Agency for Standardization. The Language Academy affords 
national junior officer members the opportunity to become fluent in 
English as a second language.
    Partnership for Peace (PfP).--Established by CIOR Executive 
Committee in 1994 with the focus of assisting NATO PfP nations with the 
development of reserve officer and enlisted organizations according to 
democratic principles. CIOR's PfP Committee, fully supports the 
development of civil-military relationships and respect for democratic 
ideals within PfP nations. CIOR PfP Committee also assists in the 
invitation process to participating countries in the Military 
Competition.
    Young Reserve Officers Workshop.--The workshops are arranged 
annually by the NATO International Staff (IS). Selected issues are 
assigned to joint seminars through the CIOR Defense and Security Issues 
(SECDEF) Commission. Junior grade officers work in a joint seminar 
environment to analyze Reserve concerns relevant to NATO.
    Dues do not cover the workshops and individual countries help fund 
the events. The Department of the Army as Executive Agent hasn't been 
funding these programs.

                               CONCLUSION

    DOD is in the middle of executing a war and operations in Iraq are 
directly associated with this effort. The impact of the war is 
affecting the very nature of the Guard and Reserve, not just the 
execution of Roles and Missions. Without adequate funding, the Guard 
and Reserve may be viewed as a source to provide funds to the Active 
Component. It makes sense to fully fund the most cost efficient 
components of the Total Force, its Reserve Components.
    At a time of war, we are expending the smallest percentage of GDP 
in history on National Defense. Funding now reflects close to 4 percent 
of GDP including supplemental dollars. ROA has a resolution urging that 
defense spending should be 5 percent to cover both the war and homeland 
security. While these are big dollars, the President and Congress must 
understand that this type of investment is what it will take to equip, 
train, and maintain an all-volunteer force for adequate National 
Security.
    The Reserve Officers Association, again, would like to thank the 
sub-committee for the opportunity to present our testimony. We are 
looking forward to working with you, and supporting your efforts in any 
way that we can.

    Senator Inouye. I thank you very much, General. How would 
you assess the morale of those men and women who have served 
abroad in Afghanistan and Iraq, members of the National Guard?
    General McCarthy. Obviously, Mr. Chairman, I have less 
personal contact than I once did, so I get a lot of secondhand 
reports. But my sense is that it remains very, very good, and 
the fact that the services continue to make their recruiting 
goals and that they continue to retain high quality people I 
think is the very best indication.
    But I'm concerned when I hear about units that come back 
and don't have the equipment and the things that they need. I 
think that's a morale destroyer and something that we need to 
be very watchful of.
    Senator Inouye. I thank you very much, sir.
    Our next witness is the Chairman of the Council on 
Government Affairs of the American Dental Association, Dr. 
Keith Suchy.

STATEMENT OF KEITH W. SUCHY, D.D.S., CHAIRMAN, COUNCIL 
            ON GOVERNMENT AFFAIRS, AMERICAN DENTAL 
            ASSOCIATION
    Dr. Suchy. Good morning, Mr. Chairman and Senator Stevens. 
My name is Dr. Keith Suchy as you stated, Mr. Chairman. I'm 
Chairman of the Council on Government Affairs for the American 
Dental Association (ADA). The ADA represents over 155,000 
dentists, including almost 3,000 dentists in military service. 
We thank you this morning for the opportunity to testify 
regarding military dental research programs. It's a very small 
but valuable program that certainly needs the subcommittee's 
support to continue its work.
    When we last testified in 2004 before this subcommittee, 
the goal of military dental research was simply to keep our 
deployed forces healthy. While oral health is still one of our 
priorities, the wars in Afghanistan and Iraq have dramatically 
changed our dental research agenda. It's been estimated that 
more than 40 percent of the injuries in these conflicts are to 
the head and face, and to date over 1,600 young men and women 
have been treated at Walter Reed and Bethesda alone for such 
injuries.
    These wounds present a unique challenge to the dental 
researchers and to the dentists who are treating these 
patients. The importance of restoring facial features cannot be 
overstated. They really affect the person's ability to 
communicate and embody one's sense of self, and the loss of 
facial features brings with it very adverse psychological 
effects. Re-entering the workforce back home, for example, is 
all but impossible.
    Restoring the facial tissue and structure is complicated 
and currently the maxillofacial prosthetic materials we use are 
not adequately mimicking natural tissues. Naval dentists at 
Great Lakes are working to develop better materials already to 
replace facial skin, ears, and noses, and the dentists at 
Walter Reed and Bethesda Medical Centers are currently 
fashioning skulls and facial bones using synthetic polymers and 
titanium mesh screens.
    In addition, our naval dental researchers are working to 
establish a program where we would take predeployment 3D CT 
scans of every warfighter. This certainly would allow a 
template for the dentists that make cranial and facial 
structures and allow them to work from these CTs to get more 
exact replacements for the wounded. If this method proves 
successful, it has implications for military and non-military 
patients who have lost similar structures through cancers and 
traumas.
    Preventing burns and injuries to the face and head has been 
a top priority of our Army dental researchers for many years, 
and as a result of previous congressional funding the Army has 
developed a lightweight face shield to reduce, if not prevent, 
such injuries. A final prototype is nearing completion and we 
look forward to the field trials with it. We've included a 
picture of this shield in our submitted testimony, and we've 
also detailed several more research projects in our written 
statement along with specific funding requests.
    Mr. Chairman, all of our requests have direct implications 
to combat medicine. All of them are targeted to improve the 
oral health of the deployed personnel, and they can really lead 
to enormous cost savings in the field.
    In 2007, this program was funded for $4 million and the 
current funding is at only $1.2 million, a loss of 70 percent 
of our resources. This current funding level is woefully 
inadequate and we are therefore requesting $6 million in the 
subcommittee's bill to restore and expedite this research. This 
small amount I understand brings with it the risk of being 
overlooked, but it translates into an immense difference for 
the wounded who can once again look into the mirror and see a 
familiar face.
    Thank you, Mr. Chairman. This concludes my testimony and I 
certainly look forward to any questions.
    Senator Inouye. Thank you very much, doctor. I can 
understand what you're trying to tell us.
    Dr. Suchy. Thank you, sir.
    Senator Inouye. There's too many of them.
    [The statement follows:]

               Prepared Statement of Keith Suchy, D.D.S.

    Good morning, Mr. Chairman and members of the subcommittee. I am 
Dr. Keith Suchy, Chairman of the Council on Government Affairs of the 
American Dental Association (ADA), which represents over 155,000 
dentists including almost 3,000 dentists in the military services. 
Thank you for the opportunity to testify to discuss appropriations for 
military dental research.
    This is a small but very valuable program that needs the 
committee's support to continue its work.
    Military dental research is not a new program. The Army began 
formal dental research with the establishment of the Army Dental School 
in 1922, which was a precursor to the establishment of the U.S. Army 
Institute of Dental Research in 1962.
    The Navy Dental Research Facility at Great Lakes was established in 
1947, which subsequently became the Naval Dental Research Institute in 
1967 (now known as the Naval Institute for Dental and Biomedical 
Research). In 1997, both activities were co-located at Great Lakes as a 
result of the Base Realignment and Closure activities of 1991. These 
research programs share common Federal funding and a common goal to 
reduce the incidence and impact of dental diseases and maxillofacial 
injury on deployed troops. This is unique research that is not 
duplicated by the National Institutes of Health or in the civilian 
community.
    In 2004, when we last testified before this committee, the goal of 
military dental research was to keep deployed troops orally healthy. 
While that is still a priority, the war in Afghanistan and Iraq has 
dramatically changed the research agenda.
    It has been estimated that more than 40 percent of the injuries in 
this war are to the head and face. With over 90 percent of wounded 
warriors surviving their injuries, these wounds present a unique 
challenge to dental researchers and prosthodontists and oral surgeons 
who treat the patients.
    Treatment for head and facial wounds, often resulting in traumatic 
brain injury, is usually a long process that requires significant care. 
The initial length of time from injury to restoration is between 5-6 
months, and includes placement in ICU. A long-term stay at Walter Reed 
or Bethesda Naval hospital is often necessary to treat wound 
infections. Once the infection has cleared patients are sent to a 
rehabilitation facility, then back to the hospital for the implant, 
followed by 2 or more years of outpatient therapy for everything from 
motor to sensory to speech skills.
    Preventing and treating these injuries, by investing in military 
dental research could result in significant cost savings to the 
military.
    If you speak with the dentist at Walter Reed in charge of 
fashioning cranial and facial structures and ask what does he need 
most, he will tell you protective head gear to prevent such injuries, 
better restorative materials, and better tissue retention materials. 
These are areas that dental researchers at Great Lakes are researching.
    The importance of restoring facial appearance cannot be 
understated. Facial features affect a person's ability to communicate 
and embody one's sense of self. Loss of a face or facial features also 
brings with it psychological effects. Imagine how hard it is to be 
accepted for employment if you were missing a nose, jaw, ear, or smooth 
facial skin. These are the challenges that confront the patients and 
the dentists who strive to return our wounded troops to society.
    We have included in our testimony, pictures of such wounds so you 
can see to what extent it is necessary to restore bone structure to the 
head and around the eyes, nose, mouth and jaw, and the challenges 
facial skin grafts create. They are hard to look at and because of 
that, they have not been chronicled in the news like other injuries.
    Restoring facial tissue and structure is complicated and unique. 
The maxillofacial prosthetic materials currently available for head and 
neck prosthetic reconstruction do not adequately mimic natural tissues. 
The silicone materials being used today for head/neck and maxillofacial 
prosthetic reconstruction for ears, noses and facial tissue provide 
limited restoration of function. These materials have limited 
durability and are esthetically poor. In addition, the colorants added 
to make the prosthetic materials appear life-like are very unstable. 
Ultimately, these artificially reconstructed features do not look 
natural and have to be replaced.
    Currently, dentists at Walter Reed and Bethesda Medical Centers are 
fashioning bony structures with synthetic polymer materials and 
titanium mesh screens. Using a CT scan of the wounded patient's head, 
they fabricate mirror images of the undamaged bone to fashion the 
replacements. While this process has worked well, it can be improved 
significantly.
    One goal of Navy dental researchers is to establish a technique for 
dentists at military treatment centers to recreate as close as possible 
the original craniofacial shapes and contours using synthetic 
materials. Toward this aim, the use of 3-D imaging to aid in the 
complex treatment planning and surgical reconstruction of traumatic 
craniofacial injuries is being investigated. By taking a pre-deployment 
3-D CT scan of every war fighter, dentists who fabricate cranial 
implants and facial structures can work from them to make more exact 
replacements. They would not have to rely on creating mirror images of 
head and facial structures which might not be exact and therefore would 
require multiple surgeries to correct. If this method proves 
successful, it can also be used for military and non-military patients 
who have lost extensive amounts of head and neck structures as a result 
of facial or oral cancer surgery.
    Dental researchers also hope to develop a means of releasing 
antibiotics from the surface of craniofacial implants to prevent 
infections. Current infection rate is between 10-12 percent. The Navy 
is using nanotechnology to infuse antibiotics in nanoparticles applied 
to the implants that maxillofacial prosthodontists and oral surgeons 
are placing. By using antibiotics that will be released over time they 
hope to prevent long term or recurring infections.
    Before this war, cranial and facial replacements of this magnitude 
for such destructive wounds were rare. Now, over 1,600 young men and 
women have been treated at Walter Reed and Bethesda alone. No one knows 
how well the polymers and titanium will hold up, whether they will lead 
to further infections or deteriorate over time.
    Equally important to naval military dentists at Great Lakes is the 
development of improved head and neck prosthetic materials specifically 
for a young adult population (ages 18-40). Soft tissue facial features 
like ears and noses present unique challenges in restoring function and 
appearance, as well as, improving the systems for attachment of the 
prostheses.
    The facial features must be fabricated from artificial materials 
that match a patient's skin. Current materials being used for the 
replacement of facial features are modeled after middle-aged and older 
skin. The objectives of the research being done by the Navy are to 
characterize selected properties of human skin (i.e., color, 
translucency, elasticity, etc.) of patients in the age group 18-40 
years and to compare those properties to those of existing prosthetic 
materials. The ultimate goal is the development of durable 
maxillofacial prosthetic materials that more closely mimic the skin of 
younger adults. Navy researchers will also determine the small color 
and textural differences between maxillofacial reconstruction materials 
which would be detectable by human observers.
    Preventing injuries and burns to the face and head have been a top 
priority of Army dental researchers for many years. As a result of 
congressional funding, the Army has developed a lightweight face-shield 
to reduce if not prevent such injuries. It is also designed to prevent 
burns. Prototypes were developed and evaluated in spring 2007. The two 
submissions were rated second and third out of seven items evaluated. A 
final prototype is nearing completion and we look forward to field 
trials, the next research step. We have included in our testimony a 
picture of one of these shields.
    As we stated at the beginning of our testimony, research being done 
by Navy and Army dentists at Great Lakes is focusing on war-related 
injuries. However, they have not stopped projects that focus on keeping 
deployed troops orally healthy. Deployed troops can be evacuated from a 
war zone for injuries as well as oral disease.
    A new study published in ``Military Medicine'' this month reports 
that from 2003-2004, oral-facial injuries accounted for 327 evacuations 
from Iraq and 47 from Afghanistan. Of those, 158 (42 percent) were due 
to disease, 136 (36 percent) were due to battle injuries; mostly facial 
fractures and 80 (21 percent) were due to non-battle injuries (such as 
motor vehicle accidents, sports injuries, etc.)
    One reason for evacuations due to disease is plaque-related 
conditions, including trench mouth, which can account for as much as 75 
percent of the daily dental sick call rate in deployed troops. Even 
soldiers who ship out in good oral health can become vulnerable to 
these severe gum diseases if stationed in combat areas where access to 
oral hygiene is difficult. An easy and cost effective way to address 
these conditions is the development of an anti-plaque chewing gum, 
which could be included in every meals ready-to-eat or mess kit. The 
Army has successfully developed such a product. It is a novel 
antimicrobial peptide (KSL-W) that will be incorporated into chewing 
gum to control plaque growth and reduce dental emergencies due to 
plaque.
    When untreated dental plaque leads to oral infections and 
abscesses, affected troops must be evacuated for treatment which can be 
costly and dangerous. Procedure demands that convoys be no less than 
four vehicles, exposing many to attack. The anti-plaque chewing gum is 
a simple and inexpensive solution. It is a direct result of previous 
congressional funding.
    Dehydration continues to be a significant problem, not only for 
soldiers in Iraq and Afghanistan, but with basic trainees as well. 
Extreme dehydration can come on rapidly and result in altered behavior, 
such as severe anxiety, confusion, faintness or lightheadedness, 
inability to stand or walk, rapid breathing, weak, rapid pulse and loss 
of consciousness. If field commanders could detect oncoming dehydration 
it would reduce the number of troops affected and improve missions.
    There is currently no non-invasive method to determine a soldier's 
hydration status in order to prevent heat injuries. Army dental 
researchers at Great Lakes are developing a miniature intraoral sensor 
to monitor hydration rates that could be bonded to a soldier's tooth. 
Health care personnel at a remote site could monitor the sensor and 
alert the deployed forces to administer fluids before the situation 
becomes critical.
    Since we last testified before the committee in 2004, naval 
researchers have licensed and are transitioning to commercial partners 
for final development rapid point-of-care tests for the detection of 
military relevant diseases. This includes devices use properties in 
saliva to: (1) monitor the immune response in recipients of the U.S.-
licensed anthrax vaccine; (2) diagnose tuberculosis; and (3) monitor 
cortisol levels. Congressional funding was key in developing this 
diagnostic device which has great implications for homeland security 
needs.
    These are just a few of the dental research projects being 
conducted at the Great Lakes facility. All have a direct relationship 
to combat medicine, are targeted to improve the oral health of deployed 
personnel and can lead to enormous cost savings for forces in the 
field. Furthermore, while the Army and the Navy do not duplicate the 
research done by the National Institute of Dental and Craniofacial 
Research, many of their findings will have implications within the 
civilian community or other Federal agencies.
    In 2007, the military dental research program at Great Lakes was 
funded at $4 million. Current funding for the program is $1.2 million. 
The ADA believes that if the funding continues to stay at this level or 
be decreased further, it will significantly retard highly needed 
treatments for our wounded.
    Therefore, the Association strongly recommends that the committee 
include in its fiscal year 2009 bill funding for military dental 
research at $6 million to restore and expedite this research for the 
deployed forces.
    The ADA thanks the committee for allowing us to present these 
issues related to the dental and oral health of our great American 
service men and women.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Inouye. Now may I call upon Dr. Deborah Boehm-
Davis, Chair of the Department of Psychology, George Mason 
University. Doctor.

STATEMENT OF DEBORAH BOEHM-DAVIS, Ph.D., CHAIR, 
            DEPARTMENT OF PSYCHOLOGY, GEORGE MASON 
            UNIVERSITY, ON BEHALF OF THE AMERICAN 
            PSYCHOLOGICAL ASSOCIATION
    Dr. Boehm-Davis. Good morning, Mr. Chairman, Senator 
Stevens. I'm submitting testimony on behalf of the American 
Psychological Association, or APA, a scientific and 
professional association of more than 148,000 psychologists and 
affiliates.
    Senator Stevens. Pull the mike back, please, toward you. 
Thank you.
    Dr. Boehm-Davis. For decades, clinical and research 
psychologists have brought their unique and critical expertise 
to meeting the needs of our military and its personnel, playing 
a vital role within the Department of Defense.
    I am a human factors psychologist. The goal of psychology, 
as I'm sure you know, is to understand and predict human 
behavior. Human factors psychologists take that knowledge and 
embed it in systems to enhance safety and productivity. Over my 
career, I've worked in two application areas--human-computer 
interaction and transportation--specifically focusing on 
aviation and highway safety. For the past several years I've 
had the privilege of serving on the Air Force Scientific 
Advisory Board.
    This morning I focus on APA's request that Congress reverse 
administration cuts to the overall DOD science and technology 
(S&T) budget and maintain support for important behavioral 
sciences research on counterterrorism and counterintelligence 
operations within DOD. Specifically, APA urges the subcommittee 
to provide a minimum of $13.2 billion for Defense S&T in fiscal 
year 2009.
    Although the President's budget allows for an increase in 
DOD basic research, it does not provide for bringing this basic 
research into applications for military use. To do so, we must 
strengthen the 6.2 and 6.3 research programs, which face 
substantial cuts in the administration's proposed budget. This 
would be in line with the 2008 report from the National 
Academies on human behavior in military contexts, which calls 
for enhanced research in six areas of behavioral research that 
traditionally have been supported by the military research 
laboratories: the Army Research Institute, the Office of Naval 
Research, and the Air Force Research Laboratory.
    These labs need increased basic and applied research 
funding in fiscal year 2009 to expand their reach even further 
into effectively mapping the human terrain.
    Finally, APA also is concerned with the potential loss of 
invaluable human-centered research programs within DOD's 
counterintelligence field activity (CIFA), due to a current 
reorganization of their structure and personnel strength. APA 
urges the subcommittee to provide ongoing funding in fiscal 
year 2009 for CIFA's behavioral research programs on 
cybersecurity, insider threat, and other counterterrorism and 
counterintelligence operational challenges as they merge into 
other defense agencies, the most likely being the Defense 
Intelligence Agency.
    As a member of an Air Force study team examining 
cybersecurity, I heard concrete data that confirmed what I knew 
as a human factors psychologist and as a behavioral scientist: 
the greatest threat to cybersecurity is people. It is critical 
to understand human behavior and to be able to design systems 
that can counter these threats.
    Thank you and, on behalf of APA, I urge the subcommittee to 
support the men and women on the front lines by reversing 
another round of dramatic, detrimental cuts to the overall 
Defense S&T account and the human-oriented research projects 
within the military labs and CIFA. Thank you.
    [The statement follows:]

             Prepared Statement of Dr. Deborah Boehm-Davis

    The American Psychological Association (APA) is a scientific and 
professional organization of more than 148,000 psychologists and 
affiliates.
    For decades, psychologists have played vital roles within the 
Department of Defense (DOD), as providers of clinical services to 
military personnel and their families, and as scientific researchers 
investigating mission-targeted issues ranging from airplane cockpit 
design to human intelligence-gathering. More than ever before, 
psychologists today bring unique and critical expertise to meeting the 
needs of our military and its personnel. APA's testimony will focus on 
reversing administration cuts to the overall DOD Science and Technology 
(S&T) budget and maintaining support for important behavioral sciences 
research within DOD.

                              DOD RESEARCH

    ``People are the heart of all military efforts. People operate the 
available weaponry and technology, and they constitute a complex 
military system composed of teams and groups at multiple levels. 
Scientific research on human behavior is crucial to the military 
because it provides knowledge about how people work together and use 
weapons and technology to extend and amplify their forces.''----``Human 
Behavior in Military Contexts'' Report of the National Research 
Council, 2008

    Just as a large number of psychologists provide high-quality 
clinical services to our military service members stateside and abroad, 
psychological scientists within DOD conduct cutting-edge, mission-
specific research critical to national defense.
    In terms of the overall DOD S&T budget, the President's request for 
fiscal year 2009 included a renewed commitment to supporting basic, 6.1 
level research. However, the administration also included deep cuts in 
the applied and advanced technology (6.2 and 6.3) programs within the 
DOD S&T account. Funding for overall S&T would fall again in fiscal 
year 2009 to $11.7 billion, a significant decrease from the estimated 
fiscal year 2008 level of $13.2 billion.
    The President's budget request for basic and applied research at 
DOD in fiscal year 2009 is $11.7 billion, a decrease of $1.5 billion 
from the enacted fiscal year 2008 level. APA urges the subcommittee to 
reverse this cut to the critical defense science program by providing a 
total of $13.2 billion for DOD S&T in fiscal year 2009. The increase in 
DOD basic research support is laudable, but the ability to bring this 
basic research into applications for military use relies on maintaining 
and strengthening the 6.2 and 6.3 research programs at the same time.

      BEHAVIORAL RESEARCH WITHIN THE MILITARY SERVICE LABS AND DOD

    Within DOD, the majority of behavioral, cognitive, and social 
science is funded through the Army Research Institute (ARI) and Army 
Research Laboratory (ARL); the Office of Naval Research; and the Air 
Force Research Laboratory (AFRL), with additional, smaller human 
systems research programs funded through the Office of the Secretary of 
Defense, the Defense Advanced Research Projects Agency (DARPA), and 
DOD's Counterintelligence Field Activity (CIFA).
    The military service laboratories provide a stable, mission-
oriented focus for science, conducting and sponsoring basic (6.1), 
applied/exploratory development (6.2), and advanced development (6.3) 
research. These three levels of research are roughly parallel to the 
military's need to win a current war (through products in advanced 
development) while concurrently preparing for the next war (with 
technology ``in the works'') and the war after next (by taking 
advantage of ideas emerging from basic research). All of the services 
fund human-related research in the broad categories of personnel, 
training and leader development; warfighter protection, sustainment and 
physical performance; and system interfaces and cognitive processing.

New National Academies Report Calls for Doubling Behavioral Research
    The new National Academies report on Human Behavior in Military 
Contexts (2008) recommends doubling the current budgets for basic and 
applied behavioral and social science research ``across the U.S. 
military research agencies.'' It specifically calls for enhanced 
research in six areas: intercultural competence; teams in complex 
environments; technology-based training; nonverbal behavior; emotion; 
and behavioral neurophysiology.
    Behavioral and social science research programs eliminated from the 
mission labs due to cuts or flat funding are extremely unlikely to be 
picked up by industry, which focuses on short-term, profit-driven 
product development. Once the expertise is gone, there is absolutely no 
way to ``catch up'' when defense mission needs for critical human-
oriented research develop. As DOD noted in its own Report to the Senate 
Appropriations Committee:

    ``Military knowledge needs are not sufficiently like the needs of 
the private sector that retooling behavioral, cognitive and social 
science research carried out for other purposes can be expected to 
substitute for service-supported research, development, testing, and 
evaluation . . . our choice, therefore, is between paying for it 
ourselves and not having it.''

Defense Science Board Calls for Priority Research in Social and 
        Behavioral Sciences: Mapping the Human Terrain
    This emphasis on the importance of social and behavioral research 
within DOD is echoed by the Defense Science Board (DSB), an independent 
group of scientists and defense industry leaders whose charge is to 
advise the Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff on ``scientific, technical, manufacturing, acquisition process, 
and other matters of special interest to the Department of Defense.''
    In its 2007 report on 21st Century Strategic Technology Vectors, 
the DSB identified a set of four operational capabilities and the 
``enabling technologies'' needed to accomplish major future military 
missions (analogous to winning the Cold War in previous decades). In 
identifying these capabilities, DSB specifically noted that ``the 
report defined technology broadly, to include tools enabled by the 
social sciences as well as the physical and life sciences.'' Of the 
four priority capabilities and corresponding areas of research 
identified by the DSB for priority funding from DOD, the first was 
defined as ``mapping the human terrain.''

       MAINTAINING BEHAVIORAL RESEARCH DURING CIFA REORGANIZATION

    In addition to strengthening the DOD S&T account, and behavioral 
research within the military labs in particular, APA also is concerned 
with the potential loss of invaluable human-centered research programs 
within DOD's CIFA due to a current reorganization of CIFA's structure 
and personnel strength. Within CIFA, psychologists lead intramural and 
extramural research programs on counterintelligence issues ranging from 
models of ``insider threat'' to cybersecurity and detection of 
deception. These psychologists also consult with the three military 
services to translate findings from behavioral research directly into 
enhanced counterintelligence operations on the ground.
    APA urges the subcommittee to provide ongoing funding in fiscal 
year 2009 for counterintelligence behavioral science research programs 
in light of their direct support for military intelligence operations.

                                SUMMARY

    On behalf of APA, I would like to express my appreciation for this 
opportunity to present testimony before the subcommittee. Clearly, 
psychological scientists address a broad range of important issues and 
problems vital to our national security, with expertise in modeling 
behavior of individuals and groups, understanding and optimizing 
cognitive functioning, perceptual awareness, complex decision-making, 
stress resilience, recruitment and retention, and human-systems 
interactions. We urge you to support the men and women on the front 
lines by reversing another round of cuts to the overall defense S&T 
account and the human-oriented research projects within the military 
laboratories and CIFA.
    As our Nation rises to meet the challenges of current engagements 
in Iraq and Afghanistan as well as other asymmetric threats and 
increased demand for homeland defense and infrastructure protection, 
enhanced battlespace awareness and warfighter protection are absolutely 
critical. Our ability to both foresee and immediately adapt to changing 
security environments will only become more vital over the next several 
decades. Accordingly, DOD must support basic S&T research on both the 
near-term readiness and modernization needs of the department and on 
the long-term future needs of the warfighter.
    Below is suggested appropriations report language for fiscal year 
2009 which would encourage the DOD to fully fund its behavioral 
research programs within the military laboratories and protect 
counterintelligence research.

                         DEPARTMENT OF DEFENSE

Research, development, test, and evaluation
    Behavioral Research in the Military Service Laboratories.--The 
Committee notes the increased demands on our military personnel, 
including high operational tempo, leadership and training challenges, 
new and ever-changing stresses on decision-making and cognitive 
readiness, and complex human-technology interactions. To help address 
these issues vital to our national security, the Committee has provided 
increased funding to reverse cuts to applied psychological research 
through the military research laboratories: the Air Force Office of 
Scientific Research and AFRL; the ARI and ARL; and the Office of Naval 
Research.
    Human-centered Counterintelligence Research.--The Committee urges 
the DOD to continue supporting human-centered research, formerly 
coordinated through CIFA, as its behavioral science programs are 
reorganized within other defense intelligence entities.

    Senator Inouye. Dr. Davis, thank you.
    Senator Stevens.
    Senator Stevens. Last week, doctor, Dr. Peake, Secretary of 
Veterans Affairs, was in Alaska and we had some discussions 
concerning the use of telemedicine and extending it into the 
psychological and psychiatric side of medicine. Have you done 
any work in that?
    Dr. Boehm-Davis. No, sir, I have not personally. I do know 
that the Army Research Lab in Aberdeen has done work on 
telepresence. I was on a review panel that looked at that work 
some years ago.
    Senator Stevens. Think of the cost of transporting people 
in my State hundreds of miles to come into a veterans clinic or 
a hospital. That would be very cost effective if it could be 
developed. I would encourage your association to go into that. 
These veterans that come from small villages or from rural 
America, to travel long distances and then stand in line 
doesn't make much sense.
    If we can use telepsychiatry, telepsychology, I think it 
would improve the system vastly and really be, as I said, cost 
effective.
    Dr. Boehm-Davis. Thank you.
    Senator Stevens. Thank you.
    Senator Inouye. I've been urging my colleagues to look into 
the problems that you describe very carefully because 
oftentimes they compare World War II with the present war, and 
statistically the differences are of an historic nature. For 
example, in my regiment 96 percent of the men were single, 4 
percent were married. Today it's just the opposite. It's about 
65, 70 percent are married and the rest are unmarried.
    Second, the last phone call you made was when you left home 
and then the next phone call was maybe 2 years later or 3 years 
later. Today they pick up the cell phone and call up Iraq every 
day or carry on conversations on the e-mail, and every so often 
little junior gets on the line and says: ``Daddy, come home.''
    I would think it has an impact upon one's mind. Are these 
things being considered?
    Dr. Boehm-Davis. Those issues are personnel issues and I 
believe that the agencies are looking at those. It's a little 
bit to the side of the work that I personally do, but I can 
look into that and get back to you with more information.
    Senator Inouye. Thank you very much.
    Dr. Boehm-Davis. Thank you.
    Senator Inouye. Now we have the Executive Vice President of 
the National Breast Cancer Coalition, Ms. Carolina Hinestrosa.

STATEMENT OF CAROLINA HINESTROSA, EXECUTIVE VICE 
            PRESIDENT, NATIONAL BREAST CANCER COALITION
    Ms. Hinestrosa. Thank you, Chairman Inouye and Senator 
Stevens, for the opportunity to talk to you about a program 
that has made a significant difference in the lives of women 
and their families.
    I'm Carolina Hinestrosa, now a three-time breast cancer 
survivor. I testify today on behalf of the more than 3 million 
women living with breast cancer. There is no question that most 
of the progress in the fight against this disease has been made 
possible by the Appropriation Committee's investment in breast 
cancer research through the Department of Defense peer-reviewed 
breast cancer research program. This program has launched new 
models of biomedical research that have benefited academia, 
other funding agencies, and both public and private 
institutions, and, most importantly, women. It has changed for 
the better the way research is performed and has been 
replicated by programs focused on other diseases, by other 
countries, and by the States.
    To make sure this unprecedented progress moves forward, we 
ask that you support a separate $150 million appropriation for 
fiscal year 2009. In order to continue the success of the 
program, you must ensure that it maintains its integrity and 
separate identity in addition to the requested level of 
funding. This is important not just for breast cancer, but for 
all biomedical research that has benefited from this incredible 
Government program.
    The hallmark of the Department of Defense peer-reviewed 
breast cancer research program is funding for innovative 
scientific ventures that represent an attempted avenue of 
investigation or novel applications of existing technologies. 
Many of the grant mechanisms developed by this program have 
later been adopted by the National Institutes of Health (NIH) 
and by other prestigious research programs, more recently the 
Howard Hughes Institute. This program has also funded 
unprecedented multi-disciplinary, multi-institution 
collaborations.
    One example of the promising outcomes of research funded by 
the program was the development of the first monoclonal 
antibody targeted therapy, an unprecedented approach that 
prolongs the lives of women with a particularly aggressive type 
of breast cancer.
    The DOD breast cancer research program is extremely 
efficient and accountable. Over 90 percent of funds allocated 
to date have gone directly to research. The program is also 
transparent, as one of the first to report its results 
regularly back to the public at a meeting called Era of Hope. 
The next Era of Hope is June 25 through June 28 this year in 
Baltimore, and we urge you and encourage you to participate.
    The program is unique because it includes consumers as 
voting members of both the scientific peer review panels and 
the programmatic review panels, and consumers work alongside 
leaders in the scientific community in setting the vision for 
the program.
    The competitive peer review process in which research 
proposals are reviewed first for scientific quality and then 
for programmatic relevance was developed by the Institute of 
Medicine (IOM). It has been reviewed favorably by the IOM on 
two separate occasions, in 1997 and 2004.
    Chairman Inouye and Ranking Member Stevens, we have 
appreciated your personal support of this program in the past. 
I am hopeful that you and your subcommittee will continue that 
determination and leadership.
    Thank you again for the opportunity to testify today and 
for giving hope to the 3 million women in the United States 
living with breast cancer and their daughters at risk.
    Senator Inouye. I thank you very much.
    Ladies and gentlemen, in case you've forgotten, the author 
of the breast cancer research funding is the man sitting to my 
left, Senator Stevens. For that move he was highly criticized, 
not only by the Department of Defense, but by the medical 
profession, because the question was what does Defense know 
anything about breast cancer? After all, there are just a few 
women in the Defense Department.
    But he persisted and we've got some cures, I think. You can 
thank Senator Stevens.
    Ms. Hinestrosa. Thank you very much.
    Senator Inouye. Now we'll have--give him a hand.
    [The statement follows:]

  Prepared Statement of Fran Visco, J.D., President, National Breast 
                            Cancer Coalition

    Thank you, Mr. Chairman and members of the Appropriations 
Subcommittee on Defense, for the opportunity to testify today about a 
Program that has made a significant difference in the lives of women 
and their families. I am Fran Visco, a 20-year breast cancer survivor, 
a wife and mother, a lawyer, and president of the National Breast 
Cancer Coalition (NBCC or Coalition). I come before you representing 
the hundreds of member organizations and thousands of individual 
members of the Coalition. NBCC is a grassroots organization dedicated 
to ending breast cancer through action and advocacy. The Coalition's 
main goals are to increase Federal funding for breast cancer research 
and collaborate with the scientific community to implement new models 
of research; improve access to high quality health care and breast 
cancer clinical trials for all women; and expand the influence of 
breast cancer advocates wherever breast cancer decisions are made.
    You and your committee have shown great determination and 
leadership in funding the Department of Defense (DOD) peer-reviewed 
Breast Cancer Research Program (BCRP or Program) at a level that has 
brought us closer to eradicating this disease. Chairman Inouye and 
Ranking Member Stevens, we appreciate your longstanding personal 
support for this Program. I am hopeful that you and your committee will 
continue that determination and leadership.
    I know you recognize the importance of this Program to women and 
their families across the country, to the scientific and health care 
communities and to the DOD. Much of the progress in the fight against 
breast cancer has been made possible by the Appropriations Committee's 
investment in breast cancer research through the DOD BCRP. This Program 
has launched new models of biomedical research that have benefited 
other agencies and both public and private institutions. It has changed 
for the better the way research is performed and has been replicated by 
programs focused on other diseases, by other countries and States. To 
support this unprecedented progress moving forward, we ask that you 
support a separate $150 million appropriation for fiscal year 2009. In 
order to continue the success of the Program, you must ensure that it 
maintain its integrity and separate identity, in addition to the 
requested level of funding. This is important not just for breast 
cancer, but for all biomedical research that has benefited from this 
incredible Government Program. In addition, as Institute of Medicine 
(IOM) reports concluded in 1997 and 2004, there continues to be 
excellent science that would go unfunded without this Program. It is 
only through a separate appropriation that this Program is able to 
continue to focus on breast cancer yet impact all other research. The 
separate appropriation of $150 million will ensure that this Program 
can rapidly respond to changes and new discoveries in the field and 
fill the gaps in traditional funding mechanisms.
    Since its inception, this Program has matured into a broad-reaching 
influential voice forging new and innovative directions for breast 
cancer research and science. Despite the enormous successes and 
advancements in breast cancer research made through funding from the 
DOD BCRP, we still do not know what causes breast cancer, how to 
prevent it, or how to cure it. It is critical that innovative research 
through this unique Program continues so that we can move forward 
toward eradicating this disease.

           OVERVIEW OF THE DOD BREAST CANCER RESEARCH PROGRAM

    The DOD peer-reviewed BCRP has established itself as a model 
medical research program, respected throughout the cancer and broader 
medical community for its innovative, transparent, and accountable 
approach. The pioneering research performed through the Program has the 
potential to benefit not just breast cancer, but all cancers, as well 
as other diseases. Biomedical research is being transformed by the DOD 
BCRP's success.
    This Program is both innovative and incredibly streamlined. It 
continues to be overseen by an integration panel including 
distinguished scientists and advocates, as recommended by the IOM. 
Because there is little bureaucracy, the Program is able to respond 
quickly to what is currently happening in the research community. 
Because of its specific focus on breast cancer, it is able to rapidly 
support innovative proposals that reflect the most recent discoveries 
in the field. It is responsive, not just to the scientific community, 
but also to the public. The flexibility of the Program has allowed the 
Army to administer it with unparalleled efficiency and effectiveness.
    An integral part of this Program has been the inclusion of consumer 
advocates at every level. Breast cancer is not just a problem of 
scientists; it is a problem of people. Advocates bring a necessary 
perspective to the table, ensuring that the science funded by this 
Program is not only meritorious, but it is also meaningful and will 
make a difference in people's lives. The consumer advocates bring 
accountability and transparency to the process. Many of the scientists 
who have participated in the Program have said that working with the 
advocates has changed the way they approach research. Let me quote Dr. 
Michael Diefenbach of Mount Sinai School of Medicine:

    ``I have served as a reviewer for the Department of Defense's 
Breast and Prostate Cancer Review programs and I am a member of the 
behavioral study section for the National Cancer Institute . . . I find 
survivors or advocate reviewers as they are sometimes called bring a 
sense of realism to the review process that is very important to the 
selection and ultimately funding process of important research . . . 
Both sides bring important aspects to the review process and the 
selected projects are ultimately those that can fulfill scientific 
rigor and translatability from the research arena to clinical practice. 
I urge that future review panels include advocate reviewers in the 
review process.''

    Since 1992, over 585 breast cancer survivors have served on the 
BCRP peer review panels. As a result of this inclusion of consumers, 
the Program has created an unprecedented working relationship between 
the public, scientists, and the military, and ultimately has led to new 
avenues of research in breast cancer. The vital role of the advocates 
in the success of the BCRP has led to consumer inclusion in other 
biomedical research programs at DOD. This Program now serves as an 
international model.
    It is important to note that the integration panel that designs 
this Program has a strategic plan for how best to spend the funds 
appropriated. This plan is based on the state of the science--both what 
scientists know now and the gaps in our knowledge--as well as the needs 
of the public. While this plan is mission driven, and helps ensure that 
the science keeps that mission--eradicating breast cancer--in mind, it 
does not restrict scientific freedom, creativity or innovation. The 
integration panel carefully allocates these resources, but it does not 
predetermine the specific research areas to be addressed.

                      UNIQUE FUNDING OPPORTUNITIES

    The DOD BCRP research portfolio includes many different types of 
projects, including support for innovative ideas, networks to 
facilitate clinical trials, and training of breast cancer researchers.
    Developments in the past few years have begun to offer breast 
cancer researchers fascinating insights into the biology of breast 
cancer and have brought into sharp focus the areas of research that 
hold promise and will build on the knowledge and investment we have 
made. The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD Program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. Concept Awards support funding even earlier in the process of 
discovery. These grants have been instrumental in the development of 
promising breast cancer research by allowing scientists to explore 
beyond the realm of traditional research and unleash incredible new 
ideas. IDEA and Concept grants are uniquely designed to dramatically 
advance our knowledge in areas that offer the greatest potential. IDEA 
and Concept grants are precisely the type of grants that rarely receive 
funding through more traditional programs such as the National 
Institutes of Health and private research programs. They therefore 
complement, and do not duplicate, other Federal funding programs. This 
is true of other DOD award mechanisms also.
    Innovator awards invest in world renowned, outstanding individuals 
rather than projects, by providing funding and freedom to pursue highly 
creative, potentially groundbreaking research that could ultimately 
accelerate the eradication of breast cancer. The Era of Hope Scholar 
Award supports the formation of the next generation of leaders in 
breast cancer research, by identifying the best and brightest 
scientists early in their careers and giving them the necessary 
resources to pursue a highly innovative vision of ending breast cancer.
    These are just a few examples of innovative funding opportunities 
at the DOD BCRP that are filling gaps in breast cancer research. 
Scientists have lauded the Program and the importance of these award 
mechanisms. In 2005, Zelton Dave Sharp wrote about the importance of 
the Concept award mechanism:

    ``Our Concept grant has enabled us to obtain necessary data to 
recently apply for a larger grant to support this project. We could 
have never gotten to this stage without the Concept award. Our eventual 
goal is to use the technology we are developing to identify new 
compounds that will be effective in preventing and/or treating breast 
cancer . . . Equally important, however, the DOD BCRP does an 
outstanding job of supporting graduate student trainees in breast 
cancer research, through training grants and pre-doctoral fellowships . 
. . The young people supported by these awards are the lifeblood of 
science, and since they are starting their training on projects 
relevant to breast cancer, there is a high probability they will devote 
their entire careers to finding a cure. These young scientists are by 
far the most important ``products'' that the DOD BCRP produces.''
                                                Zelton Dave Sharp,
                                                Associate Professor, 
                                                Interim Director/
                                                Chairman,
                                                Institute of 
                                                Biotechnology/Dept. 
                                                Molecular Medicine,
                                                University of Texas 
                                                Health Science Center 
                                                (August 2005)

    The DOD BCRP also focuses on moving research from the bench to the 
bedside. DOD BCRP awards are designed to fill niches that are not 
addressed by other federal agencies. The BCRP considers translational 
research to be the application of well-founded laboratory or other pre-
clinical insight into a clinical trial. To enhance this critical area 
of research, several research opportunities have been offered. Clinical 
Translational Research Awards have been awarded for investigator-
initiated projects that involve a clinical trial within the lifetime of 
the award. The BCRP has expanded its emphasis on translational research 
by also offering five different types of awards that support work at 
the critical juncture between laboratory research and bedside 
applications.
    The Centers of Excellence award mechanism brings together the 
world's most highly qualified individuals and institutions to address a 
major overarching question in breast cancer research that could make a 
significant contribution towards the eradication of breast cancer. Many 
of these centers are working on questions that will translate into 
direct clinical applications. These centers include the expertise of 
basic, epidemiology and clinical researchers, as well as consumer 
advocates.
    Dr. John Niederhuber, now the Director of the National Cancer 
Institute, said the following about the Program when he was Director of 
the University of Wisconsin Comprehensive Cancer Center in April, 1999:

    ``Research projects at our institution funded by the Department of 
Defense are searching for new knowledge in many different fields 
including: identification of risk factors, investigating new therapies 
and their mechanism of action, developing new imaging techniques and 
the development of new models to study [breast cancer] . . . Continued 
availability of this money is critical for continued progress in the 
nation's battle against this deadly disease.''

    Scientists and consumers agree that it is vital that these grants 
continue to support breast cancer research. To sustain the Program's 
momentum, $150 million for peer-reviewed research is needed in fiscal 
year 2009.

                        SCIENTIFIC ACHIEVEMENTS

    One of the most promising outcomes of research funded by the DOD 
BCRP was the development of the first monoclonal antibody targeted 
therapy that prolongs the lives of women with a particularly aggressive 
type of advanced breast cancer. This drug could not have been developed 
without first researching and understanding the gene known as HER-2/
neu, which is involved in the progression of some breast cancers. 
Researchers found that over-expression of HER-2/neu in breast cancer 
cells results in very aggressive biologic behavior. The same 
researchers demonstrated that an antibody directed against HER-2/neu 
could slow the growth of the cancer cells that over-expressed the gene. 
This research, which led to the development of the targeted therapy, 
was made possible in part by a DOD BCRP-funded infrastructure grant. 
Other researchers funded by the DOD BCRP are identifying similar kinds 
of genes that are involved in the initiation and progression of cancer.
    Another example of innovation in the Program is in the area of 
imaging. One DOD BCRP awardee developed a new use for medical 
hyperspectral imaging (MHSI) technology. This work demonstrated the 
usefulness of MHSI as a rapid, noninvasive, and cost-effective 
evaluation of normal and tumor tissue during a real-time operating 
procedure. Application of MHSI to surgical procedures has the potential 
to significantly reduce local recurrence of breast tumors and may 
facilitate early determination of tumor malignancy.
    Studies funded by the DOD BCRP are examining the role of estrogen 
and estrogen signaling in breast cancer. For example, one study 
examined the effects of the two main pathways that produce estrogen. 
Estrogen is often processed by one of two pathways; one yields 
biologically active substances while the other does not. It has been 
suggested that women who process estrogen via the biologically active 
pathway may be at higher risk of developing breast cancer. This 
research will yield insights into the effects of estrogen processing on 
breast cancer risk in women with and without family histories of breast 
cancer.
    Another example of success from the Program is a study of sentinel 
lymph nodes (SLNs). This study confirmed that SLNs are indicators of 
metastatic progression of disease. The resulting knowledge from this 
study and others has led to a new standard of care for lymph node 
biopsies. If the first lymph node is negative for cancer cells, then it 
is unnecessary to remove all the lymph nodes. This helps prevent 
lymphodema which can be painful and have lasting complications.

                        FEDERAL MONEY WELL SPENT

    The DOD BCRP is as efficient as it is innovative. In fact, 90 
percent of funds go directly to research grants. The flexibility of the 
Program allows the Army to administer it in such a way as to maximize 
its limited resources. The Program is able to quickly respond to 
current scientific advances and fulfills an important niche by focusing 
on research that is traditionally under-funded. This was confirmed and 
reiterated in two separate IOM reports released in 1997 and 2004. The 
areas of focus of the DOD BCRP span a broad spectrum and include basic, 
clinical, behavioral, environmental sciences, and alternative therapy 
studies, to name a few. The BCRP benefits women and their families by 
maximizing resources and filling in the gaps in breast cancer research.
    The Program is responsive to the scientific community and to the 
public. This is evidenced by the inclusion of consumer advocates at 
both the peer and programmatic review levels. The consumer perspective 
helps the scientists understand how the research will affect the 
community and allows for funding decisions based on the concerns and 
needs of patients and the medical community.
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
11,700 publications in scientific journals, more than 12,000 abstracts 
and nearly 550 patents/licensure applications. The American public can 
truly be proud of its investment in the DOD BCRP. Scientific 
achievements that are the direct result of the DOD BCRP grants are 
undoubtedly moving us closer to eradicating breast cancer.

               INDEPENDENT ASSESSMENTS OF PROGRAM SUCCESS

    The success of the DOD peer-reviewed BCRP has been illustrated by 
several unique assessments of the Program. The IOM, which originally 
recommended the structure for the Program, independently re-examined 
the Program in a report published in 1997. They published another 
report on the Program in 2004. Their findings overwhelmingly encouraged 
the continuation of the Program and offered guidance for program 
implementation improvements.
    The 1997 IOM review of the DOD peer-reviewed BCRP commended the 
Program, stating, ``the Program fills a unique niche among public and 
private funding sources for cancer research. It is not duplicative of 
other programs and is a promising vehicle for forging new ideas and 
scientific breakthroughs in the Nation's fight against breast cancer.'' 
The 2004 report spoke to the importance of the program and the need for 
its continuation.

               TRANSPARENT AND ACCOUNTABLE TO THE PUBLIC

    The DOD peer-reviewed Breast Cancer Research Program not only 
provides a funding mechanism for high-risk, high-return research, but 
also reports the results of this research to the American people every 
2 to 3 years at a public meeting called the Era of Hope. The 1997 
meeting was the first time a federally-funded program reported back to 
the public in detail not only on the funds used, but also on the 
research undertaken, the knowledge gained from that research and future 
directions to be pursued. The fifth Era of Hope meeting will be held in 
Baltimore, Maryland, June 25-28, 2008.
    The DOD peer-reviewed Breast Cancer Research Program has attracted 
scientists across a broad spectrum of disciplines, launched new 
mechanisms for research and facilitated new thinking in breast cancer 
research and research in general. A report on all research that has 
been funded through the DOD BCRP is available to the public. 
Individuals can go to the DOD website and look at the abstracts for 
each proposal at http://cdmrp.army.mil/bcrp/.

           COMMITMENT OF THE NATIONAL BREAST CANCER COALITION

    The NBCC is strongly committed to the DOD BCRP in every aspect, as 
we truly believe it is one of our best chances for finding cures for 
and ways to prevent breast cancer. The Coalition and its members are 
dedicated to working with you to ensure the continuation of funding for 
this Program at a level that allows this research to forge ahead. From 
1992, with the launch of our ``300 Million More Campaign'' that formed 
the basis of this Program, until now, NBCC advocates have appreciated 
your support.
    Over the years, our members have shown their continuing support for 
this Program through petition campaigns, collecting more than 2.6 
million signatures, and through their advocacy on an almost daily basis 
around the country asking for support of the DOD BCRP.
    There are 3 million women living with breast cancer in this country 
today. This year, more than 40,000 will die of the disease and more 
than 240,000 will be diagnosed. We still do not know how to prevent 
breast cancer, how to diagnose it truly early or how to cure it. It is 
an incredibly complex disease. We simply cannot afford to walk away 
from this program.
    This April many of the women and family members who support this 
program came to NBCC's Annual Advocacy Training Conference here in 
Washington, DC. More than 600 breast cancer activists from across the 
country, representing groups in their communities and speaking on 
behalf of tens of thousands of others, were here as part of our efforts 
to end breast cancer. The overwhelming interest in and dedication to 
eradicating this disease continues to be evident as people not only are 
signing petitions, but are willing to come to Washington, DC, from 
across the country to tell their members of Congress about the vital 
importance of continuing the DOD BCRP.
    Since the very beginning of this Program in 1992, Congress has 
stood with us in support of this important investment in the fight 
against breast cancer. In the years since, Chairman Inouye and Ranking 
Member Stevens, you and this entire committee have been leaders in the 
effort to continue this innovative investment in breast cancer 
research.
    NBCC asks you, the Defense Appropriations Subcommittee, to 
recognize the importance of what has been initiated by the 
Appropriations Committee. You have set in motion an innovative and 
highly efficient approach to fighting the breast cancer epidemic. We 
ask you now to continue your leadership and fund the Program at $150 
million and maintain its integrity. This is research that will help us 
win this very real and devastating war against a cruel enemy.
    Thank you again for the opportunity to submit testimony and for 
giving hope to all women and their families, and especially to the 3 
million women in the United States living with breast cancer.

    Senator Inouye. Now may I call on the next panel, made up 
of Dr. Levine, Mr. Carlebach, Mr. Davis, and Mr. Rick Jones.
    Our next witness is the past President of the American 
Society of Tropical Medicine and Hygiene, American Society of 
Tropical Medicine and Hygiene, Dr. Myron M. Levine.

STATEMENT OF MYRON M. LEVINE, M.D., D.P.P.H., PAST 
            PRESIDENT, ON BEHALF OF THE AMERICAN 
            SOCIETY OF TROPICAL MEDICINE AND HYGIENE
    Dr. Levine. Thank you, Mr. Chairman, Ranking Member 
Stevens, and members of the subcommittee. I welcome the 
opportunity to testify before you on behalf of the American 
Society of Tropical Medicine and Hygiene, or ASTMH. I commend 
the subcommittee for its attention to the vital issue of 
research on infectious diseases of military importance and the 
role of that research in protecting our troops deployed abroad.
    I'm a physician, an infectious disease consultant and 
epidemiologist, and, as you mentioned, have served in the past 
as president of our society, the world's largest professional 
membership organization dedicated to the prevention and control 
of tropical diseases.
    On behalf of our membership, I'd like to make a plea for 
assuring adequate funding for the DOD's infectious disease 
research programs, in particular malaria research. Because the 
U.S. military operates in so many tropical and developing 
regions of the globe, preventing or being able to promptly 
diagnose and treat tropical diseases is often critical to 
mission success. For this reason, and based on the lessons 
learned from decades of deployments and military operations in 
tropical regions, the U.S. military has historically played a 
pivotal role in the development of anti-malarial drugs and 
research on malaria vaccines. Several widely used anti-malarial 
drugs were originally developed by U.S. military researchers.
    Similarly, for three decades the U.S. Army and Navy 
research teams have been at the forefront of malaria vaccine 
research. The new drugs to treat and vaccines to prevent 
malaria that are derived from the research and development 
efforts of U.S. military investigators will also be available 
to protect U.S. civilian travelers to developing areas, and in 
some instances they may be useful for preventing malaria in 
indigenous populations, particularly young children in endemic 
areas.
    The consequence that inadequate prevention of malaria can 
have on a U.S. military deployment was highlighted a few years 
ago during a small peacekeeping operation in Liberia in 2003. 
Of 157 marines who spent one or more nights ashore during this 
operation, nearly one-half contracted malaria, and nearly one-
half of those had to be emergency air-evacuated to Germany, 
where many ended up in intensive care units.
    We need to assure that malaria vaccines will complete their 
development and become licensed as soon as possible, and that 
new drugs will come into the armamentarium to treat malaria 
caused by parasites that are resistant to currently available 
drugs.
    Malaria vaccine research in 2006, the last year for which 
we have data, was approximately $27.8 million. We're concerned 
that this funding level is not commensurate with the health 
threat that this disease poses to military operations. 
Therefore, we respectfully request that the subcommittee 
increase funding for malaria vaccine and new drug research to a 
minimum level of $30 million for fiscal year 2009. We also 
request that subsequent annual increases be planned so that by 
fiscal year 2015 funding will reach at least $76.6 million.
    These increases will support programs that will help ensure 
that our troops are protected from malaria when they serve our 
Nation overseas.
    Mr. Chairman, Ranking Member Stevens, subcommittee members, 
I thank you for the opportunity to speak today on behalf of the 
ASTMH.
    [The statement follows:]

                  Prepared Statement of Myron M. Levin

    Overview.--The American Society of Tropical Medicine and Hygiene 
(ASTMH or Society) appreciates the opportunity to submit written 
testimony to the Senate Defense Appropriations subcommittee. With 
nearly 3,500 members, ASTMH is the world's largest professional 
membership organization dedicated to the prevention and control of 
tropical diseases. We represent, educate, and support tropical medicine 
scientists, physicians, clinicians, researchers, epidemiologists, and 
other health professionals in this field.
    As part of our efforts, we advocate implementation and funding of 
Federal programs that address the prevention and control of infectious 
diseases that are leading causes of death and disability in the 
developing world, and which pose threat to U.S. citizens. Priority 
diseases include malaria, Dengue fever, Ebola, cholera, and 
tuberculosis. Because the military operates in and deploys to so many 
tropical regions, reducing the risk that tropical diseases present to 
service men and women is often critical to mission success.
    For this reason, we respectfully request that the subcommittee 
expand funding for military malaria research and control initiatives, 
providing the following allocations in the fiscal year 2009 defense 
appropriations bill to support the military's readiness for tropical 
disease threats.
  --$30 million to support efforts to develop a vaccine against malaria 
        and to develop new anti-malaria drugs to replace older drugs 
        that are losing their effectiveness as a result of parasite 
        resistance.
    ASTMH also requests that there are consistent increases in the 
overall funding level for Department of Defense (DOD) malaria research 
programs that, along with subsequent annual increases, results in $76.6 
million in funding by fiscal year 2015.
    We very much appreciate the subcommittee's consideration of our 
views, and we stand ready to work with subcommittee members and staff 
on these and other important tropical disease matters.
    ASTMH.--ASTMH plays an integral and unique role in the advancement 
of the field of tropical medicine. Its mission is to promote global 
health by preventing and controlling tropical diseases through research 
and education. As such, the Society is the principal membership 
organization representing, educating, and supporting tropical medicine 
scientists, physicians, researchers, and other health professionals 
dedicated to the prevention and control of tropical diseases. Our 
members reside in 46 States and the District of Columbia and work in a 
myriad of public, private, and non-profit environments, including 
academia, the U.S. military, public institutions, Federal agencies, 
private practice, and industry.
    The Society's long and distinguished history goes back to the early 
20th century. The current organization was formed in 1951 with the 
amalgamation of the National Malaria Society and the American Society 
of Tropical Medicine. Over the years, the Society has counted many 
distinguished scientists among its members, including Nobel laureates. 
ASTMH and its members continue to have a major impact on the tropical 
diseases and parasitology research carried out around the world.
    Tropical Medicine and Tropical Diseases.--The term ``tropical 
medicine'' refers to the wide-ranging clinical work, research, and 
educational efforts of clinicians, scientists, and public health 
officials with a focus on the diagnosis, mitigation, prevention, and 
treatment of diseases prevalent in the areas of the world with a 
tropical climate. Most tropical diseases are located in either sub-
Saharan Africa, parts of Asia (including the Indian subcontinent), or 
Central and South America. Many of the world's developing nations are 
located in these areas; thus tropical medicine tends to focus on 
diseases that impact the world's most impoverished individuals.
    The field of tropical medicine encompasses clinical work treating 
tropical diseases, work in public health and public policy to prevent 
and control tropical diseases, basic and applied research related to 
tropical diseases, and education of health professionals and the public 
regarding tropical diseases.
    Tropical diseases are illnesses that are caused by pathogens that 
are prevalent in areas of the world with a tropical climate. These 
diseases are caused by viruses, bacteria, and parasites which are 
spread through various mechanisms, including airborne routes, sexual 
contact, contaminated water and food, or an intermediary or 
``vector''--frequently an insect (e.g., a mosquito)--that transmits a 
disease between humans in the process of feeding.
    Malaria.--Malaria is highly treatable and preventable. The tragedy 
is that despite this, malaria is one of the leading causes of death and 
disease worldwide. According to the CDC, as many as 2.7 million 
individuals die from malaria each year, with 75 percent of those deaths 
occurring in African children. In 2002, malaria was the fourth leading 
cause of death in children in developing countries, causing 10.7 
percent of all such deaths. Malaria-related illness and mortality 
extract a significant human toll as well as cost Africa's economy $12 
billion per year perpetuating a cycle of poverty and illness. Nearly 40 
percent of the world's population lives in an area that is at high risk 
for the transmission of malaria.

 TROPICAL DISEASE CONTROL AND PREVENTION: A KEY COMPONENT OF MILITARY 
                              PREPAREDNESS

    Service men and women constitute a significant proportion of the 
healthy adults traveling each year to malarial regions on behalf of the 
U.S. Government. For this reason, the U.S. military has long taken a 
primary role in the development of anti-malarial drugs, and many of the 
most effective and widely used anti-malarials were developed by U.S. 
military researchers. Drugs that have saved countless lives throughout 
the world were originally developed by the U.S. military to protect 
troops serving in tropical regions during World War II, the Vietnam 
War, and the Korean War.
    Fortunately, in recent years the broader international community 
has stepped up its efforts to reduce the impact of malaria in the 
developing world, particularly by reducing childhood malaria mortality, 
and the U.S. military is playing an important role in this broad 
partnership. The U.S. military also makes significant contributions to 
the global effort to develop a malaria vaccine. But military malaria 
researchers are working practically alone in the area most directly 
related to U.S. national security: drugs designed to protect or treat 
healthy adults who travel to regions endemic to malaria. These drugs 
benefit everyone living or traveling in the tropics but are 
particularly essential to the United States for the protection of 
forces from disease during deployments.
    Unfortunately, the prophylaxis and treatments currently given to 
U.S. service men and women are losing their effectiveness, and 
increased Federal support is required to develop their replacements. 
Drugs such as Chloroquine-Primaquine and Mefloquine that are used to 
prevent or treat malaria in healthy adults are declining in efficacy. 
The reasons vary, but the result is the same: the U.S. Government is 
increasingly unable to send personnel to regions endemic to malaria 
without a significant risk that many of them will become seriously ill. 
Similarly, the residents of regions endemic to malaria are finding that 
existing drugs are no longer as effective at preventing or treating 
malaria.

    ``Malaria has affected almost all military deployments since the 
American Civil War and remains a severe and ongoing threat.''----From 
``Battling Malaria: Strengthening the U.S. Military Malaria Vaccine 
Program'', Institute of Medicine (IOM) Report, 2006

    As the IOM notes in the 2006 report quoted above, current malaria 
prevention strategies are inadequate. The most recent and dramatic 
example of this as it relates to military readiness was in 2003 when a 
small U.S. peacekeeping force was deployed to Liberia. Of the 157 
marines who spent at least one night ashore during this operation, 69 
developed malaria, despite being supplied with anti-malarials. Half of 
the infected Marines had to be evacuated by air to Germany. The 1993 
operation ``Restore Hope'' in Somalia was also impacted by high malaria 
incidence among U.S. troops. If new drugs are not developed soon, U.S. 
operations in sub-Saharan Africa and some parts of Southeast Asia will 
increasingly be at-risk for significant disease casualties.
    To ensure that as many American soldiers as possible are protected 
from tropical and other diseases, Congress provides funding each year 
to support DOD programs focused on the development of vaccines and 
drugs for priority infectious disease. To that end, the Walter Reed 
Army Institute of Research and Naval Medical Research Center--which are 
co-located in the Inouye Building in Silver Spring, Maryland--
coordinates one of the world's premier tropical disease research 
programs. These entities contributed to the development of the gold 
standard for experimental malaria immunization of humans, and the most 
advanced and successful vaccine and drugs current being deployed around 
the world.
    The need to develop new and improved malaria prophylaxis and 
treatment for U.S. service members is not yet a crisis, but it would 
quickly become one if the United States were to become involved in a 
large deployment to a country or region where malaria is endemic, 
especially sub-Saharan Africa. Fortunately, a relatively tiny amount of 
increased support for this program would restore the levels of research 
and development investment required to produce the drugs that will 
safeguard U.S. troops from malaria. In terms of the overall DOD budget, 
that malaria research program's funding is small--approximately $27.8 
million in fiscal year 2006--but very important. Cutting funding for 
this program would deal a major blow to the military's work to reduce 
the impact of malaria on soldiers and civilians alike, thereby 
undercutting both the safety of troops deployed to tropical climates, 
and the health of civilians in those regions.

        REQUESTED MALARIA-RELATED ACTIVITIES AND FUNDING LEVELS

    ASTMH maintains that the battle against malaria requires funding 
for a comprehensive approach to disease control including public health 
infrastructure improvements, mosquito abatement initiatives, and 
increased availability of existing anti-malarial drugs. In addition, 
research must continue to develop new anti-malarial drugs and better 
diagnostics, and to identify an effective malaria vaccine. Much of this 
important research currently is underway at the DOD. Additional funds 
and a greater commitment from the Federal Government are necessary to 
make progress in malaria prevention, treatment, and control.
    In fiscal year 2006, the DOD spent only $27.8 million annually for 
malaria vaccine research, this despite the fact that malaria 
historically has been a leading cause of troop impairment and continues 
to be a leading cause of death worldwide. A more substantial investment 
will help to protect American soldiers and potentially save the lives 
of millions of individuals around the world. As noted previously, we 
respectfully request that the subcommittee support the following 
funding levels:
  --$30 million to support efforts to develop a vaccine against malaria 
        and to develop new anti-malaria drugs to replace older drugs 
        that are losing their effectiveness as a result of parasite 
        resistance.
    ASTMH also requests that there are consistent increases in overall 
funding level for Department of Defense malaria research programs that, 
along with subsequent annual increases, results in $76.6 million in 
funding by fiscal year 2015.
    Conclusion.--Thank you for your attention to these important but 
often overlooked military readiness matters. We know that you face many 
challenges in choosing funding priorities and we hope that you will 
provide the requested fiscal year 2009 resources to those programs 
identified above. ASTMH appreciates the opportunity to share its views, 
and we thank you for your consideration of our requests.

    Senator Inouye. Thank you very much, Dr. Levine.
    Senator Stevens and I come from the old generation where we 
were prescribed atabrine. I believe that was the medicine they 
called it. Atabrine?
    Dr. Levine. Yes.
    Senator Inouye. How does it compare to the vaccine that you 
speak of?
    Dr. Levine. Well, when we have the vaccine that fills the 
criteria for protection of troops, for the ideal vaccine there 
will not be need for chemoprophylaxis. The problem with 
chemoprophylaxis is the need for the line officers to make sure 
that the drug, no matter how good it is, is taken on the 
appropriate schedule, and also there are supply issues. With 
the vaccine, this is something that would be done predeployment 
and protection would come from the immunization.
    Senator Inouye. When will it be available under your 
scheme?
    Dr. Levine. Very good question. A first generation of 
vaccines, in great part based on research carried out at Walter 
Reed and at the Naval Medical Research Center, is expected to 
be licensed about 2013 or 2014. That'll be a first generation.
    There is also the beginning of another vaccine, again 
coming out of research with a military history, and that would 
probably be later, perhaps 2017 or so.
    Senator Stevens. When will that be--how long will it be 
effective?
    Dr. Levine. The first generation vaccines may have a high 
level efficacy of only about 6 months. But the improved 
ultimate vaccine would have efficacy that would go more than 1 
year, perhaps 2 years.
    Senator Stevens. Well, I took atabrine for at least 18 
months and turned a little bit yellow, but it worked. What 
about, didn't the marines have atabrine?
    Dr. Levine. There was medication available, but there was 
not good compliance with taking of the anti-malarials.
    Senator Stevens. So half of them got sick with malaria in 
that short a period?
    Dr. Levine. Yes. In West Africa malaria is highly, highly 
seasonal.
    Senator Stevens. Someone should have been courtmartialed.
    Thank you very much.
    Senator Inouye. Well, our next witness is the Ovarian 
Cancer National Alliance representative, Mr. Mark Carlebach.

STATEMENT OF MARK CARLEBACH ON BEHALF OF THE OVARIAN 
            CANCER NATIONAL ALLIANCE
    Mr. Carlebach. Mr. Chairman and Senator Stevens: Thank you 
for the opportunity to testify before you today about the 
ovarian cancer research program at the DOD. My name is Mark 
Carlebach and my wife Lacey Gallagher was diagnosed with 
ovarian cancer on February 5, 2005. Lacey was one of the small 
percent of women diagnosed early with stage 1-C ovarian cancer. 
Unfortunately, her ovarian cancer was of a particularly 
aggressive and chemo-resistant type known as clear cell ovarian 
cancer. Lacey was in remission for almost 2 years after her 
original diagnosis, but it recurred in July 2007 with 
metastases to her lungs.
    Lacey was the most determined and courageous person I've 
ever known. Nonetheless, despite her incredible efforts, that 
involved diet, supplements, many investigational approaches 
that she pursued, in addition to two surgeries, radiation, and 
several chemotherapy protocols, Lacey died of ovarian cancer on 
February 27, 2008, less than 37 months after her original early 
diagnosis. She was 45.
    Lacey felt strongly that awareness and support for curing 
ovarian cancer should reflect ovarian cancer's mortality rate 
and not merely its incidence rate. While ovarian cancer might 
not be as common as other forms of cancer, its mortality rate 
is particularly high and requires more funding as a result.
    Through Lacey's efforts with the Ovarian Cancer National 
Alliance (OCNA), Lacey had hoped to make this argument herself, 
but never recovered sufficiently to be as active an ovarian 
cancer cure advocate as she had hoped. I am honored to be here 
today to speak as a representative for my most amazing wife, 
Lacey, who cannot be here herself.
    As much as anything, Lacey saw herself as an analyst. 
Before she died, Lacey suggested that the OCNA prepare the 
following statistics to support her thesis that spending for 
ovarian cancer is disproportionately low if you use its 
mortality rate rather than its incidence rate as a basis for 
funding decisions. Here is what the OCNA came up with.
    First, last year the congressionally directed medical 
research programs funded $138 million for breast cancer 
research, $80 million for prostate cancer research, and $10 
million for ovarian cancer research. All of these diseases are 
terrible and it's hard to say that any deserves less funding. 
Still, if you look at these numbers as a dollar of investment 
for each cancer death, you would see that this funding 
represents $3,000 for each cancer--for each breast cancer or 
prostate cancer death, but only $650 for each ovarian cancer 
death.
    In other words, the congressionally directed medical 
program, research programs, spent four and one-half times the 
amount per death for breast and prostate cancer than it did on 
ovarian cancer.
    In other Federal programs we see similar statistics. The 
overall amount spent on breast cancer is more than $18,000, on 
prostate cancer is more than $14,000, and on cervical cancer is 
more than $26,000. The amount of money spent on ovarian cancer, 
in contrast, was less than $7,500.
    When Lacey was first diagnosed, I tried to comfort her with 
assurances that researchers were working on treatments and a 
cure. With just a little time and luck, I hoped Lacey would 
benefit from these efforts. She was an optimistic person by 
nature, but challenged me with the sobering fact that ovarian 
cancer is relatively rare, with less research and fewer cures 
on the horizon as a result.
    One way to compensate for this is to at least consider the 
number of deaths from a particular disease as a basis for 
normalizing your funding decisions. We therefore--I'm joining 
with the ovarian cancer community in respectfully requesting 
that Congress provide $25 million for the ovarian cancer 
research program, OCRP, in fiscal year 2009 as part of the 
Federal Government's investment in the DOD congressionally 
directed medical research programs.
    Thank you for your support in the past and in this effort 
in the future.
    [The statement follows:]

                  Prepared Statement of Mark Carlebach

    I thank the subcommittee for this opportunity to submit comments 
for the record regarding the Ovarian Cancer National Alliance 
(Alliance) fiscal year 2009 funding recommendations. We believe these 
recommendations are critical to ensure that advances can be made to 
help reduce and prevent suffering from ovarian cancer.
    I am here through the Alliance, which advocates for continued 
Federal investment in the Department of Defense Congressionally 
Directed Medical Research Programs (CDMRP). The Alliance respectfully 
requests that Congress provide $25 million for the Ovarian Cancer 
Research Program (OCRP) in fiscal year 2009.

                   OVARIAN CANCER'S DEADLY STATISTICS

    According to the American Cancer Society, in 2008, more than 21,000 
American women will be diagnosed with ovarian cancer, and more than 
15,000 will lose their lives to this terrible disease. Ovarian cancer 
is the fifth leading cause of cancer death in women. Currently, more 
than half of the women diagnosed with ovarian cancer will die within 5 
years. When detected early, the 5-year survival rate increases to more 
than 90 percent, but when detected in the late stages, the 5-year 
survival rate drops to less than 29 percent.
    In the more than 30 years since the war on cancer was declared, 
ovarian cancer mortality rates have not significantly improved. A valid 
and reliable screening test--a critical tool for improving early 
diagnosis and survival rates--still does not exist for ovarian cancer. 
Behind the sobering statistics are the lost lives of our loved ones, 
colleagues and community members. While we have been waiting for the 
development of an effective early detection test, thousands of our 
mothers, daughters, sisters, and friends--including one-third of our 
founding board members have lost their battle with ovarian cancer.
    Last year a number of prominent cancer organizations released a 
consensus statement about ovarian cancer identifying the early warning 
symptoms of ovarian cancer. Without a reliable diagnostic test, we can 
rely only on this set of vague symptoms of a deadly disease, and trust 
that both women and the medical community will identify these symptoms 
and act promptly and quickly. Unfortunately, we know that this does not 
always happen. Too many women are diagnosed late due to the lack of a 
test; too many women and their families endure life-threatening and 
debilitating treatments to kill cancer; too many women are lost to this 
horrible disease.

                  THE OVARIAN CANCER RESEARCH PROGRAM

    The aim of the OCRP is to conquer ovarian cancer by promoting 
innovative multidisciplinary research efforts on understanding, 
detecting, preventing, diagnosing, and controlling ovarian cancer. In 
support of this, the OCRP has distributed $111.7 million from 1997 to 
2007 for research on topics ranging from diagnosis to treatment to 
quality of life.
    Since 1997, research conducted through the OCRP has been published 
and presented widely, helping bolster and expand the limited body of 
scientific knowledge of ovarian cancer. Further, the program attracts 
and retains investigators to the field of ovarian cancer research. The 
OCRP has ample use for increased funds; in fiscal year 2005, the 
program funded less than 15 percent of the successful research 
proposals due to insufficient funds. Only with increased funding can 
the OCRP grow and continue to contribute to the fight against ovarian 
cancer.
    Today, ovarian cancer researchers are still struggling to develop 
the first ovarian cancer screening test. With traditional research 
models largely unsuccessful, the innovative grants awarded by the OCRP 
are integral in moving the field of research forward. The OCRP has been 
responsible for the only two working animal models of ovarian cancer--
models that will help unlock keys to diagnosing and treating ovarian 
cancer. In 2007, researchers announced the discovery of a potential 
biomarker that may be used on ovarian cancer screening. Only with 
sufficient funding will the realization of a desperately-needed 
screening test be possible.
    The OCRP has received a $10 million appropriation for the past 6 
years. The OCRP is a modest program compared to the other cancer 
programs in the CDMRP, and has made vast strides in fighting ovarian 
cancer with relatively few resources. With more resources, the program 
can support more research into screening, early diagnosis and treatment 
of ovarian cancer. In light of this, we request that Congress 
appropriate $25 million for fiscal year 2009 to the OCRP.

                        SCIENTIFIC ACHIEVEMENTS

    Since its inception, the OCRP has developed a multidisciplinary 
research portfolio that encompasses etiology, prevention, early 
detection/diagnosis, preclinical therapeutics, quality-of-life, and 
behavioral research projects. The OCRP strengthens the Federal 
Government's commitment to ovarian cancer research and supports 
innovative and novel projects that propose new ways of examining 
prevention, early detection and treatment. The program also attracts 
new investigators into ovarian cancer research, and encourages 
proposals that address the needs of minority, elderly, low-income, 
rural, and other under-represented populations.
    The program's achievements have been documented in numerous ways, 
including 371 publications, 431 abstracts/presentations and, 15 patents 
applied for/obtained. The program also has introduced and supported 25 
new investigators in the field of ovarian cancer research, 18 of whom 
are still active in ovarian cancer research. Investigators funded 
through the OCRP have produced several crucial breakthroughs in the 
study of prevention and detection, including: recent research has 
focused on immunotherapy, ovarian cancer stem cells, and the microtumor 
environment.

                                SUMMARY

    On behalf of the entire ovarian cancer community--patients, family 
members, clinicians, and researchers--I thank you for your leadership 
and support of Federal programs that seek to reduce and prevent 
suffering from ovarian cancer. Thank you in advance for your support of 
$25 million in fiscal year 2009 funding for the Ovarian Cancer Research 
Program.

    Senator Inouye. This is a personal matter, but my wife of 
57 years was infected or afflicted with ovarian cancer and she 
passed away 27 months ago.
    Mr. Carlebach. Sorry to hear that.
    Senator Inouye. I know what you're going through.
    Mr. Carlebach. Thank you.
    Senator Stevens. May I? The incidence of ovarian cancer, I 
know it's a terrible thing, but have you got any figures on the 
incidence of those people that are in the military? We really 
are dealing with treatment of military people in this bill. We 
also handle the NIH bill and I think that's where this emphasis 
should be for ovarian cancer.
    Mr. Carlebach. I don't know the answer to your statistic, 
but I'll work with OCNA and get back to you on that.
    Senator Stevens. Thank you.
    Senator Inouye. Our next witness is the Director of the 
Legislative Programs of the Fleet Reserve Association, Mr. John 
R. Davis. Mr. Davis.

STATEMENT OF JOHN R. DAVIS, DIRECTOR OF LEGISLATIVE 
            PROGRAMS, THE FLEET RESERVE ASSOCIATION
    Mr. Davis. Mr. Chairman, Ranking Member Stevens: Thank you. 
The Fleet Reserve Association (FRA) wants to thank you and the 
entire subcommittee for your work to improve military pay, 
increase base allowance for housing, improve healthcare, and 
enhance other personal, retirement, and survivor programs.
    This year, even with the $100 billion in supplemental 
appropriations, the United States will spend only 4 percent of 
its GDP on defense, as compared to 9 percent annually in the 
1960s. We strongly support funding of anticipated increased end 
strengths in fiscal year 2009 to meet the demands of fighting 
the war on terror and sustaining other operational commitments.
    The association is especially grateful for the inclusion of 
the wounded warrior assistance provisions as part of the fiscal 
year 2008 National Defense Authorization Act (NDAA).
    Authorization is one thing; adequate funding is another, 
and FRA supports funding to effectively implement these badly 
needed reforms, adequate funding to provide for the people, 
training, and oversight mechanisms needed to restore confidence 
in the quality of care and service received by our wounded 
warriors and their families.
    FRA also strongly supports adequate funding for the defense 
health program in order to meet readiness needs, fully fund 
TRICARE, and improve access for all beneficiaries. FRA strongly 
urges the subcommittee to restore the funding in lieu of the 
proposed TRICARE fee increases. FRA believes funding healthcare 
benefits for all beneficiaries is part of the cost of defending 
our Nation.
    The association believes that the DOD must investigate and 
implement other options to make TRICARE more cost efficient as 
an alternative to shifting costs to retiree beneficiaries under 
age 65. That is why FRA supports the authorization of pilot 
programs for preventative healthcare for TRICARE beneficiaries 
under age 65 that are provided for in both the House and Senate 
versions of the NDAA. The association would welcome this 
subcommittee providing adequate funding to ensure success of 
this effort if it is authorized.
    FRA supports annual active duty pay increases that are at 
least one-half a percent above the employment cost index and 
supports the 3.9 percent increase recommended in both the House 
and Senate versions of the defense authorization bills. 
Adequate pay contributes to improved morale, readiness, and 
retention. The value of adequate pay cannot be overstated. 
Better pay will reduce family stress, especially for junior 
enlisted, and reduce the need for military personnel to use 
short-term payday loans for those people who are unaware of the 
ruinous long-term impact of excessive interest rates.
    Military pay and benefits must reflect the fact that 
military service is very different from work in the private 
sector. Also, reforming and updating the Montgomery GI bill for 
the reservists is an important issue to take into account on 
funding.
    Again, thank you, Mr. Chairman and Ranking Member Stevens, 
for the opportunity to present the association's 
recommendations, and I stand ready to answer any questions you 
may have.
    [The statement follows:]

                  Prepared Statement of John R. Davis

                                THE FRA

    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving active duty, Reserves, retired, and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
congressionally chartered, recognized by the Department of Veterans 
Affairs (VA) as an accrediting Veteran Service Organization (VSO) for 
claim representation and entrusted to serve all veterans who seek its 
help.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    FRA's mission is to act as the premier ``watch dog'' organization 
in maintaining and improving the quality of life for Sea Service 
personnel and their families. FRA is a leading advocate on Capitol Hill 
for enlisted active duty, Reserve, retired, and veterans of the Sea 
Services.
    FRA is the co-chair of The Military Coalition (TMC) a 35-member 
consortium of military and veterans organizations. FRA hosts most TMC 
meetings and members of its staff serve in a number of TMC leadership 
roles, including co-chairing several committees.
    FRA celebrated 83 years of service in November 2007. For over eight 
decades, dedication to its members has resulted in legislation 
enhancing quality of life programs for Sea Services personnel and other 
members of the Uniformed Services while protecting their rights and 
privileges. CHAMPUS, now TRICARE, was an initiative of FRA, as was the 
Uniformed Services Survivor Benefit Plan (USSBP). More recently, FRA 
led the way in reforming the REDUX Retirement Plan, obtaining targeted 
pay increases for mid-level enlisted personnel, and sea pay for junior 
enlisted sailors. FRA also played a leading role in obtaining predatory 
lending protections for servicemembers and their dependents in the 
fiscal year 2007 National Defense Authorization Act.
    FRA's motto is: ``Loyalty, Protection, and Service.''

                                OVERVIEW

    Mr. Chairman, ensuring that wounded troops, their families, and the 
survivors of those killed in action are cared for by a grateful Nation 
remains an overriding priority for the Fleet Reserve Association (FRA). 
The Association thanks you and the entire subcommittee for your strong 
and unwavering support of funding the Department of Defense (DOD) 
portion of the Wounded Warrior Assistance provisions in the fiscal year 
2008 National Defense Authorization Act (NDAA). Another top FRA 
priority is full funding of the Defense Health Program (DHP) to ensure 
quality care for active duty, retirees, Reservists, and their families.
    ``The Administration's fiscal year 2009 budget would provide $541.1 
billion in budget authority for national security which is 3.6 percent 
of Gross Domestic Product (GDP) not including war supplemental funding. 
Although the budget increases $10 billion a year through fiscal year 
2013, it would actually decline in terms of GDP to 3.2 percent in 
fiscal year 2013.'' \1\ The defense budget is not only shrinking in 
terms of GDP but is also shrinking in comparison with domestic 
mandatory spending programs.
---------------------------------------------------------------------------
    \1\ Backgrounder, The Fiscal Year 2009 Defense Budget Request: The 
Growing Gap in Defense Spending, Heritage Foundation No. 2110, February 
25, 2008.
---------------------------------------------------------------------------
    FRA believes this budget is woefully inadequate to fight a truly 
Global War on Terrorism (GWOT) and maintain other ongoing defense 
commitments. Even with supplemental war funding, the fiscal year 2009 
Defense budget would total just over 4 percent of GDP. The Association 
supports a more robust financial commitment to the national defense and 
that is why FRA is supporting Senate Joint Resolution 26, sponsored by 
Senator Elizabeth Dole, which supports a base defense budget that at 
the very minimum totals 4 percent of GDP. This base line seems 
reasonable when compared to other time periods. From 1961-1963, the 
military consumed 9.1 percent of GDP annually. In 1986, the military 
consumed 6 percent of GDP and in 1991 (gulf war), the military consumed 
4.6 percent of GDP. According to many experts, the active duty military 
has been stretched to the limit since 9/11/01.
    Over the past several years, the Pentagon has been constrained in 
its budget, even as it has been confronted with rising personnel costs, 
aging weapon systems, worn out equipment, and dilapidated facilities.
    This statement lists the concerns of our members, keeping in mind 
that the Association's primary goal is to endorse any positive safety 
programs, rewards, and quality of life improvements that support 
members of the Uniform Services, particularly those serving in hostile 
areas, and their families, and survivors.

                            WOUNDED WARRIORS

    The good news is that over 90 percent of those wounded in combat in 
Iraq or Afghanistan survive and return home for treatment, as compared 
to 70 percent during the Vietnam conflict. The bad news is that they 
are overwhelming the medical system and uncovered flaws in a lethargic 
and overly bureaucratic system. A two-front war, a lengthy occupation 
and repeated deployments for many servicemembers has put a strain on 
the DOD/VA medical system that treats our wounded warriors. The system 
is being strained not only by volume but by the complexity of injuries 
and the military has shown that it is woefully inadequate in 
recognizing and treating cases of Traumatic Brain Injury (TBI) and Post 
Traumatic Stress Disorder (PTSD).
    FRA is especially grateful for the inclusion of the Wounded Warrior 
Assistance provisions as part of the fiscal year 2008 National Defense 
Authorization Act. Key elements of the House and Senate-passed versions 
of the act, plus elements of the Dole-Shalala Commission 
recommendations establish new requirements to provide the people, 
training, and oversight mechanisms needed to restore confidence in the 
quality of care and service received by our wounded warriors and their 
families. Maintaining an effective delivery system between DOD and VA 
to ensure seamless transition and quality services for wounded 
personnel, particularly those suffering from PTSD and TBI.
    Authorization is one thing--adequate funding is another and FRA 
supports:
  --Adequate funding to allow DOD to improve care, management, and 
        transition of seriously ill or injured warriors, including 
        inpatients as well as out patients.
  --Adequate funding to let DOD, in conjunction with VA, continue to 
        work for improved care for PTSD and TBI.
  --Adequate funding to require DOD, in conjunction with VA, to 
        continue operations of the Senior Oversight Committee to 
        oversee implementation of Wounded Warrior initiatives.
  --Adequate funding to enable the joint DOD VA inter-agency create an 
        effective and usable electronic health record.
  --Adequate funding to provide a sufficient number of Wounded Warrior 
        Recovery Coordinators, if authorized.
    Many of these initiatives approach the jurisdictional boundaries of 
this distinguished subcommittee and some may even go beyond. These 
challenges not with standing, adequate funding is essential to helping 
our wounded warriors recover from their injuries in service to our 
Nation. The Association urges this subcommittee to work with other 
appropriations subcommittees to ensure sufficient funding for 
authorized programs that bridge jurisdictions to help our wounded 
warriors.

                              HEALTH CARE

    FRA strongly supports adequate funding for the Defense Health 
Program in order to meet readiness needs, fully fund TRICARE, and 
improve access for all beneficiaries regardless of age, status or 
location.
    FRA supports adding $1.2 billion in funding to cover the cost of 
the drastic TRICARE fee increases proposed in the DOD fiscal year 2009 
budget that have been rejected by both authorizing committees. The 
Association supports full funding for the Defense Health Program and 
believes that the Defense Department must investigate and implement 
other cost-savings options to make TRICARE more cost-efficient as 
alternatives to shifting costs for TRICARE Standard and other health 
care benefits to retiree beneficiaries.
    Higher health care fees for retirees will significantly erode the 
value of retired pay, particularly for enlisted retirees who retired 
prior to larger and targeted recent pay adjustments enacted to close 
the pay gap. Military service is very different from work in the 
corporate world and requires service in often life-threatening duty 
assignments and the associated benefits offered in return must be 
commensurate with these realities.
    The Association welcomes the Senate Armed Services Committee 
authorizing demonstration and pilot projects that will provide 
incentives for TRICARE beneficiaries' health promotions and urges this 
subcommittee to adequately fund these projects that have proven to save 
money over the long term.
    FRA also supports the funding of other programs important to active 
duty, Reserve Component, and retired members of the Uniformed Services, 
their families, and survivors. The subcommittee's work has greatly 
improved military pay, eliminated out-of-pocket housing expenses, and 
enhanced other personnel, retirement, and survivor programs. This 
support is critical to maintaining readiness and is invaluable to our 
servicemembers and their families serving throughout the world fighting 
the global war on terror, sustaining other operational commitments and 
to fulfilling commitments to those who've served in the past.

                       PROTECT PERSONNEL PROGRAMS

    Active Duty Pay.--FRA supports annual active duty pay increases 
that are at least 0.5 percent above the Employment Cost Index (ECI) 
along with targeted increases for mid-career and senior enlisted 
personnel to help close the remaining 3.4 percent pay gap between 
active duty and private sector pay.
    FRA strongly supports the authorization and funding of a 3.9 
percent fiscal year 2009 pay increase included in the Senate Armed 
Services Committee markup for the fiscal year 2009 Defense 
Authorization (S. 2787).
    Adequate and targeted pay increases authorized in recent years, 
particularly for middle grade and senior petty and noncommissioned 
officers, have contributed to improved morale, readiness, and 
retention. Better pay reduces family stress, especially for junior 
enlisted and may reduce the need for military personnel use of short-
term pay day loans unaware of the ruinous long-term impact of excessive 
interest rates.
    Military pay and benefits must reflect the fact that military 
service is very different from work in the private sector.
    BRAC and Rebasing.--Adequate resources are required to fund 
essential quality of life programs and services at bases impacted by 
the Base Realignment and Closure (BRAC) and rebasing initiatives. The 
House Armed Services Committee Readiness Subcommittee, during its mark 
up of the fiscal year 2009 Defense Authorization bill, noted that base-
closing costs have increased by almost 50 percent and that expected 
savings have declined. FRA is also concerned about sustaining 
commissary access, MWR programs and other support for servicemembers 
and their families particularly at installations most impacted by these 
actions. These include Guam, where a significant number of marines and 
their families are being relocated from Okinawa. The shortage of funds 
is curtailing or closing some of the activities while the costs of 
participating in others have recently increased. Regarding Navy fitness 
centers, the biggest challenge is updating older fitness structures and 
providing the right equipment, and ensuring availability of trained 
staff.
    Family Readiness and Support.--FRA supports funding for a family 
readiness and a robust support structure to enhance family cohesion and 
improve retention and recruitment. DOD and the services must provide 
information and education programs for families of our servicemembers. 
Spousal and family programs are being fine tuned and are successfully 
contributing to the well-being of this community. The Navy's Fleet and 
Family Centers and the Marines' Marine Corps Community Services (MCCS) 
and the family services programs are providing comprehensive, 24/7 
information and referral services to the servicemember and family 
through its One Source links. One Source is also particularly 
beneficial to mobilized Reservists and families who are unfamiliar with 
benefits and services available to them.
    Child and Youth Programs.--MCPON Joe Campa testified before the 
House Appropriations Subcommittee on Military Construction and Veterans 
Affairs on February 7,2008, that there is a need for more childcare 
facilities with more than 8,000 children on annual waiting lists. The 
average waiting time for access is 6 months and up to 12 months in 
fleet concentration areas. ``Parents are waiting too long for services 
and missing days from work due to lack of available childcare.'' Access 
to child care is important and FRA urges Congress to authorize adequate 
funding for this important program.
    Other top Navy requirements are the need for more homeport/ashore 
barracks, and improved health care access via more providers in certain 
fleet concentration areas.
    As an integral support system for mission readiness and 
deployments, it is imperative these programs be adequately funded and 
improved and expanded to address the needs of both married and single 
parents.
    Spousal Employment.--The Association welcomes President Bush's 
State-of-the-Union speech recommending hiring preference for military 
spouses and urges Congress to continue its support of the military's 
effort to affect a viable spousal employment program and to authorize 
sufficient funds to assure the program's success. Today's all-volunteer 
environment requires the services to consider the whole family. FRA 
also supports provisions in the Senate Armed Services Committee Defense 
Authorization markup addressing spousal employment, which is important 
and can be a stepping-stone to retention of the servicemember--a key 
participant in the defense of this Nation.
    Active Duty and Reserve Component Personnel End Strengths.--FRA 
strongly supports adequate end strengths to win the war on terror and 
to sustain other military commitments around the world. Inadequate end 
strengths increase stress on the military personnel and their families 
and contribute to greater reliance on the Reserve Component. FRA 
welcomes the administration's increase of 5,000 marines (from 189,000 
to 194,000) and urges appropriations to cover the associated short- and 
long-term costs.
    Education Funding.--FRA strongly supports funding for supplemental 
Impact Aid for 1,400 highly impacted school districts with military 
children. It is important to ensure our servicemembers, many serving in 
harm's way, have less concern about their children's education and more 
focus with the job at hand. Funding for Impact Aid has been flat for 
several years now. That is why the Association welcomes the additional 
$30 million of Impact Aid included in the Senate Defense Authorization 
bill, the $10 million in special assistance to local education 
agencies, and $5 million for children with severe disabilities.
    Reform of PCS Process.--FRA appreciates that the long-delayed 
implementation of the Families First program which provides full 
replacement value reimbursements for damaged household goods moved 
during servicemembers' PCS relocations. This program and other 
authorized PCS reform initiatives must be adequately funded to ensure 
full implementation and the continuation of this program.
    Family Housing.--The Association welcomes the $337 million increase 
for family housing from fiscal year 2008 to fiscal year 2009. It should 
be noted, however, that the fiscal year 2007 appropriation for family 
housing was more $800 million than the proposed fiscal year 2009 
budget. Adequate military housing that's well maintained is critical to 
retention and morale.

                             RESERVE ISSUES

    FRA stands foursquare in support of the Nation's Reservists. Due to 
the demands of the War on Terror, Reserve units are now increasingly 
being mobilized to augment active duty components. As a result of these 
operational demands, Reserve component is no longer a strategic Reserve 
but is now an operational Reserve that is an integral part of the total 
force. And because of these increasing demands on Reservists to perform 
multiple missions abroad over longer periods of time, it's essential to 
improve compensation and benefits to retain currently serving personnel 
and attract quality recruits.
    MGIB.--FRA supports both ``The Enhancement of Recruitment, 
Retention, and Readjustment Through Education Act'' (S. 2938), and 
``The Post 9/11 Veterans Educational Assistance Act'' (S.22). Both 
bills make substantial improvements to the Reserve MGIB program, and 
the Association urges the subcommittee to fully fund these increased 
Reserve benefits that may be authorized by the United States Senate. 
The increasing number and duration of deployments to fight the war on 
terror and sustain other operational commitments has put a strain on 
families and careers of Reservists and more than justifies improved 
MGIB benefits that would provide needed recognition of this fact and 
enhance retention and recruitment.
    Retirement.--If authorized, FRA supports funding retroactive 
eligibility for the early retirement benefit to include Reservists who 
have supported contingency operations since September 11, 2001. The 
fiscal year 2008 Defense Authorization Act (H.R. 4986) reduces the 
Reserve retirement age (age 60) by 3 months for each cumulative 90-days 
ordered to active duty. The provision, however, only applies to service 
after the effective date of the legislation, and leaves out more than 
600,000 Reservists mobilized since 9/11 for Afghanistan and Iraq and to 
respond to natural disasters like Hurricane Katrina. About 142,000 of 
them have been deployed multiple times in the past 6 years.
    Family Readiness.--FRA supports resources to allow increased 
outreach to connect Reserve families with support programs. This 
includes increased funding for family readiness, especially for those 
geographically dispersed, not readily accessible to military 
installations, and inexperienced with the military. Unlike active duty 
families who often live near military facilities and support services, 
most Reserve families live in civilian communities where information 
and support is not readily available. Congressional hearing witnesses 
have indicated that many of the half million mobilized Guard and 
Reserve personnel have not received transition assistance services they 
and their families need to make a successful transition back to 
civilian life.

                               CONCLUSION

    FRA is grateful for the opportunity to present the organization's 
views to this distinguished subcommittee. The Association reiterates 
its profound gratitude for the extraordinary progress this 
subcommittee, with outstanding staff support, has made in advancing a 
wide range of enhanced benefits and quality-of-life programs for all 
uniformed services personnel, retirees, their families, and survivors.
    Thank you.

    Senator Inouye. I thank you very much, sir. We do have a 
problem. Our latest numbers tell us that we're spending a 
little over $126,000 per person in the military per year, and 
the total cost for pay, benefits, and health for active duty 
personnel, $180 billion per year. So we're trying our best to 
do what we can to add to that, but, as you know, it's not that 
easy.
    Yes, sir?
    Mr. Davis. I just would like to respond. We fully 
understand that the cost of healthcare is going up in the 
military. It is also going up everywhere else. It's not just a 
military problem. We do support other measures, as I mentioned 
in the testimony and also more extensively in my written 
testimony. Other efforts we think should be made first to try 
and make the healthcare system more cost effective before 
shifting the cost to the retirees.
    Thanks.
    Senator Inouye. Our next witness is the Legislative 
Director of the National Association of Uniformed Services, Mr. 
Rick Jones. Mr. Jones.

STATEMENT OF RICK JONES, LEGISLATIVE DIRECTOR, NATIONAL 
            ASSOCIATION FOR UNIFORMED SERVICES
    Mr. Jones. Thank you, Mr. Chairman. With the longest day, 
D-Day, June 6, 1944, just around the corner, it's an honor to 
testify before you two most distinguished World War II 
veterans. As proud as we are of the World War II generation, we 
are just as proud, perhaps as proud as any person could be, as 
any association could be, in what is going on today with the 
generation serving us overseas and around the globe and 
throughout America. What they do is vital to our security and 
the debt we owe them is enormous.
    Mr. Chairman, quality healthcare is a very strong incentive 
for a military career. At a time when we are relying on our 
armed forces, the DOD's recommendations to reduce military 
healthcare spending by $1.2 billion raises very serious 
questions and concerns. As you know, the DOD plans would double 
and even triple annual fees for retirees, and our association 
asks you to ensure full funding is provided to maintain the 
value of the healthcare benefit. What we ask is what is best 
for our service men and women, who have given a career in the 
armed services.
    Mr. Chairman, the long war fought by an overstretched force 
gives us also a warning about force readiness. There are simply 
too many missions, too few troops. To sustain the service, we 
must recognize that an increase in troop strength is needed and 
it must be resourced.
    We also ask that you give priority to funding operations 
and maintenance accounts to reset and recapitalize and renew 
the force.
    Another matter of great interest to our members is the plan 
to realign and consolidate military health facilities in the 
National Capital Region, specifically Walter Reed Army Medical 
Center in Washington, DC. To maintain Walter Reed's base 
operations support and medical services and to ensure that they 
provide uninterrupted care to catastrophically wounded soldiers 
and marines, we request that funds be in place to ensure that 
Walter Reed remains open, fully operational, fully functional 
until the planned facilities at Bethesda and Fort Belvoir are 
in place and ready to give appropriate care. Our wounded 
warriors deserve the care that we provide and we hope that it 
can be resourced.
    In a seamless transition, we ask that you maintain an 
oversight view on the DOD-VA electronic healthcare records and 
related coordination to ensure there is a bidirectional 
interoperable system, so that no one falls through the cracks. 
That shouldn't occur.
    It is said of traumatic brain injury that it is a signature 
injury of the war, and indeed it is. There's a full spectrum of 
care available. We ask you to recognize that care and fully 
fund it.
    We also encourage the subcommittee to ensure that funding 
for defense programs prosthetic research is adequate to support 
the full range of programs needed to meet the current 
healthcare challenges that our wounded warriors face.
    The Uniformed Services Health University. We ask you to 
recognize that as the Nation's Federal school of medicine and 
graduate school of nursing. The care that comes out of that can 
help our military provide the doctors that are needed. We also 
ask you to ensure that the Armed Forces Retirement Home is 
funded.
    We appreciate the opportunity you've given us to testify 
and thank you very much for your service and for your work here 
in the United States Senate. We deeply appreciate it.
    [The statement follows:]

                    Prepared Statement of Rick Jones

    Chairman Inouye, Ranking Member Stevens, and members of the 
subcommittee, good morning. It is a pleasure to appear before you today 
to present the views of The National Association for Uniformed Services 
on the 2009 Defense appropriations bill.
    My name is Richard ``Rick'' Jones, Legislative Director of the 
National Association for Uniformed Services (NAUS). And for the record, 
NAUS has not received any Federal grant or contract during the current 
fiscal year or during the previous 2 years in relation to any of the 
subjects discussed today.
    As you know, Mr. Chairman, the National Association for Uniformed 
Services, founded in 1968, represents all ranks, branches, and 
components of uniformed services personnel, their spouses, and 
survivors. The Association includes all personnel of the active, 
retired, Reserve and National Guard, disabled veterans, veterans 
community, and their families. We love our country, believe in a strong 
national defense, support our troops, and honor their service.
    Mr. Chairman, the first and most important responsibility of our 
Government is the protection of our citizens. As we all know, we are at 
war. That is why the Defense Appropriations bill is so very important. 
It is critical that we provide the resources to those who fight for our 
protection and our way of life. We need to give our courageous men and 
women everything they need to prevail. And we must recognize as well 
that we must provide priority funding to keep the promises made to the 
generations of warriors whose sacrifice has paid for today's freedom.
    At the start, I want to express a NAUS concern about the amount of 
our investment in our national defense. At the height of the war on 
terror, our current defense budget represents only a little more than 4 
percent of the gross national product, as opposed to the average of 5.7 
percent of GNP in the peacetime years between 1940 and 2000.
    We cannot look the other way in a time when we face such serious 
threats. Resources are required to ensure our military is fully 
staffed, trained, and equipped to achieve victory against our enemies. 
Leaders in Congress and the administration need to balance our 
priorities and ensure our defense in a dangerous world.
    Here, I would like to make special mention of the leadership and 
contribution this panel has made in providing the resources and support 
our forces need to complete their mission. Defending the United States 
homeland and the cause of freedom means that the dangers we face must 
be confronted. And it means that the brave men and women who put on the 
uniform must have the very best training, best weapons, best care, and 
wherewithal we can give them.
    Mr. Chairman, you and those on this important panel have taken 
every step to give our fighting men and women the funds they need, 
despite allocations we view as insufficient for our total defense 
needs. You have made difficult priority decisions that have helped 
defend America and taken special care of one of our greatest assets, 
namely our men and women in uniform.
    And NAUS is very proud of the job this generation of Americans is 
doing to defend America. Every day they risk their lives, half a world 
away from loved ones. Their daily sacrifice is done in today's 
voluntary force. What they do is vital to our security. And the debt we 
owe them is enormous.
    The members of NAUS applaud Congress for the actions you have taken 
over the last several years to close the pay gap, provide bonuses for 
specialized skill sets, and improve the overall quality of life for our 
troops and the means necessary for their support.
    Our Association does, however, have some concerns about a number of 
matters. Among the major issues that we will address today is the 
provision of a proper health care for the military community and 
recognition of the funding requirements for TRICARE for retired 
military. Also, we will ask for adequate funding to improve the pay for 
members of our armed forces and to address a number of other challenges 
including TRICARE Reserve Select and the Survivor Benefit Plan.
    We also have a number of related priority concerns such as the 
diagnosis and care of troops returning with Post Traumatic Stress 
Disorder (PTSD) and Traumatic Brain Injury (TBI), the need for enhanced 
priority in the area of prosthetics research, and providing improved 
seamless transition for returning troops between the Department of 
Defense (DOD) and the Department of Veterans Affairs (VA). In addition, 
we would like to ensure that adequate funds are provided to defeat 
injuries from the enemy's use of Improvised Explosive Devices (IEDs).

                 MILITARY QUALITY OF LIFE: HEALTH CARE

    Quality health care is a strong incentive to make military service 
a career. The Defense blueprint for military healthcare raises serious 
concern. DOD recommends saving $1.2 billion through sharp increases in 
TRICARE fees and higher copays for pharmaceuticals for 3.1 million 
retirees under age 65 and their families.
    To achieve these savings, Defense officials would institute the 
plan proposed last year. That plan triples annual enrollment fees for 
TRICARE Prime next October for officers, to $875 from $230 a year for 
individuals and to $1,750 from $460 per year for families. For retired 
E-6 and below, the fee would jump nearly 50 percent, to $450/$900 from 
$230/$460. And for E-7 and above, the jump would more than double to 
$595/$1,190 from $230/$460.
    Defense officials also suggest the establishment of a TRICARE 
Standard enrollment fee and an increase in the annual amount of 
deductible charges paid by retirees using Standard coverage. The 
standard beneficiary already pays a 25 percent cost share (and an added 
15 percent for non-participating providers). Should Congress approve 
the DOD request to increase deductibles and initiate an annual fee, the 
value of the benefit earned by military retirees using Standard would 
be greatly diminished.
    In addition, DOD suggests the establishment of an enrollment fee 
for retirees age 65 and over and their families for participation in 
TRICARE for Life.
    DOD officials also recommend changes in TRICARE retail pharmacy 
copayments. Their ideas call for increasing copays for retail generic 
drugs to $15 from $3; for increasing copays for retail brand drugs to 
$25 from $9; and for increasing copays for non-formulary prescriptions 
to $45 from $22. By the way, these would also affect retirees age 65 
and over who use TRICARE for Life.
    The assertion behind the proposals is to have working-age retirees 
and family members pay a larger share of TRICARE costs or use civilian 
health plans offered by employers. Frankly, we are deeply troubled that 
DOD would aim to discourage retirees from using their earned benefits 
with the military medical system.
    The National Association for Uniformed Services is certainly not 
comfortable with DOD estimates that by 2011, if the changes were made, 
144,000 retirees currently enrolled in the TRICARE programs would bail 
out and go to a State or private plan and an estimated 350,000 people 
who earned the benefit would never come into it.
    According to DOD, the Pentagon plan would drive half a million 
military retirees to make a choice that they might otherwise not want 
to make in order to reduce DOD costs this year by $1.2 billion. It is 
not only an extremely poor way to treat military families in times of 
peace or war; it is unfair, unbalanced, and would push 500,000 retirees 
out of TRICARE, the benefit they earned through a military career.
    Mr. Chairman, the National Association for Uniformed Services asks 
you to ensure full funding is provided to maintain the value of the 
healthcare benefit provided those men and women willing to undergo the 
hardships of a military career.
    The provision of quality, timely care is considered one of the most 
important benefits afforded the career military. What Congress has done 
reflects the commitment of a Nation, and it deserves your wholehearted 
support.
    We urge the subcommittee to take the actions necessary for honoring 
our obligation to those men and women who have worn the Nation's 
military uniform. Confirm America's solemn, moral obligation to support 
our troops, our military retirees, and their families. They have kept 
their promise to our Nation, now it's time for us to keep our promise 
to them.

                     MILITARY QUALITY OF LIFE: PAY

    For fiscal year 2009, the administration recommends a 3.5 percent 
across-the-board pay increase for members of the Armed Forces. The 
proposal is designed, according to the Pentagon, to keep military pay 
in line with civilian wage growth.
    The National Association for Uniformed Services calls on you to put 
our troops and their families first. Our forces are stretched thin, at 
war, yet getting the job done. We ask you to express the Nation's 
gratitude for their critical service, increase basic pay and drill pay 
one-half percent above the administration's request to 3.9 percent.
    Congress and the administration have done a good job over the 
recent past to narrow the gap between civilian-sector and military pay. 
The differential, which was as great as 14 percent in the late 1990s, 
has been reduced to just under 4 percent with the January 2008 pay 
increase.
    However, we can do better than simply maintaining a rough measure 
of comparability with the civilian wage scale. To help retention of 
experience and entice recruitment, the pay differential is important. 
We have made significant strides. But we are still below the private 
sector.
    In addition, we urge the appropriations panel to never lose sight 
of the fact that our DOD manpower policy needs a compensation package 
that is reasonable and competitive. Bonuses have a role in this area. 
Bonuses for instance can pull people into special jobs that help supply 
our manpower for critical assets, and they can also entice ``old 
hands'' to come back into the game with their skills.
    The National Association for Uniformed Services asks you to do all 
you can to fully compensate these brave men and women for being in 
harm's way, we should clearly recognize the risks they face and make 
every effort to appropriately compensate them for the job they do.
         military quality of life: basic allowance for housing
    The National Association for Uniformed Services strongly supports 
revised housing standards within the Basic Allowance for Housing (BAH). 
We are most grateful for the congressional actions reducing out-of-
pocket housing expenses for servicemembers over the last several years. 
Despite the many advances made, many enlisted personnel continue to 
face steep challenge in providing themselves and their families with 
affordable off-base housing and utility expenses. BAH provisions must 
ensure that rates keep pace with housing costs in communities where 
military members serve and reside. Efforts to better align actual 
housing rates can reduce unnecessary stress and help those who serve 
better focus on the job at hand, rather than the struggle with meeting 
housing costs for their families.

           MILITARY QUALITY OF LIFE: FAMILY HOUSING ACCOUNTS

    The National Association for Uniformed Services urges the 
subcommittee to provide adequate funding for military construction and 
family housing accounts used by DOD to provide our servicemembers and 
their families quality housing. The funds for base allowance and 
housing should ensure that those serving our country are able to afford 
to live in quality housing whether on or off the base. The current 
program to upgrade military housing by privatizing Defense housing 
stock is working well. We encourage continued oversight in this area to 
ensure joint military-developer activity continues to improve housing 
options. Clearly, we need to be particularly alert to this challenge as 
we implement BRAC and related rebasing changes.
    The National Association for Uniformed Services also asks special 
provision be granted the National Guard and Reserve for planning and 
design in the upgrade of facilities. Since the terrorist attacks of 
September 11, 2001, our Guardsmen and reservists have witnessed an 
upward spiral in the rate of deployment and mobilization. The mission 
has clearly changed, and we must recognize they account for an 
increasing role in our national defense and homeland security 
responsibilities. The challenge to help them keep pace is an obligation 
we owe for their vital service.

                     INCREASE FORCE READINESS FUNDS

    The readiness of our forces is declining. The long war fought by an 
overstretched force tells us one thing: there are simply too many 
missions and too few troops. Extended and repeated deployments are 
taking a human toll. Back-to-back deployments means, in practical 
terms, that our troops face unrealistic demands. To sustain the service 
we must recognize that an increase in troop strength is needed and it 
must be resourced.
    In addition, we ask you to give priority to funding for the 
operations and maintenance accounts where money is secured to reset, 
recapitalize and renew the force. The National Guard, for example, has 
virtually depleted its equipment inventory, causing rising concern 
about its capacity to respond to disasters at home or to train for its 
missions abroad.
    The deficiencies in the equipment available for the National Guard 
to respond to such disasters include sufficient levels of trucks, 
tractors, communication, and miscellaneous equipment. If we have 
another overwhelming storm, hurricane or, god forbid, a large-scale 
terrorist attack, our National Guard is not going to have the basic 
level of resources to do the job right.

                    WALTER REED ARMY MEDICAL CENTER

    Another matter of great interest to our members is the plan to 
realign and consolidate military health facilities in the National 
Capital Region. The proposed plan includes the realignment of all 
highly specialized and sophisticated medical services currently located 
at Walter Reed Army Medical Center in Washington, DC, to the National 
Naval Medical Center in Bethesda, Maryland, and the closing of the 
existing Walter Reed by 2011.
    While we herald the renewed review of the adequacy of our hospital 
facilities and the care and treatment of our wounded warriors that 
result from last year's news reports of deteriorating conditions at 
Walter Reed Army Medical Center, the National Association for Uniformed 
Services believes that Congress must continue to provide adequate 
resources for WRAMC to maintain its base operations' support and 
medical services that are required for uninterrupted care of our 
catastrophically wounded soldiers and marines as they move through this 
premier medical center.
    We request that funds be in place to ensure that Walter Reed 
remains open, fully operational and fully functional, until the planned 
facilities at Bethesda or Fort Belvoir are in place and ready to give 
appropriate care and treatment to the men and women wounded in armed 
service.
    Our wounded warriors deserve our Nation's best, most compassionate 
healthcare and quality treatment system. They earned it the hard way. 
And with application of the proper resources, we know the Nation will 
continue to hold the well being of soldiers and their families as our 
number one priority.

   DEPARTMENT OF DEFENSE, SEAMLESS TRANSITION BETWEEN THE DOD AND VA

    The development of electronic medical records remains a major goal. 
It is our view that providing a seamless transition for recently 
discharged military is especially important for servicemembers leaving 
the military for medical reasons related to combat, particularly for 
the most severely injured patients.
    The National Association for Uniformed Services calls on the 
appropriations committee to push DOD and VA to follow through on 
establishing a bi-directional, interoperable electronic medical record. 
Since 1982, these two departments have been working on sharing critical 
medical records, yet to date neither has effectively come together in 
coordination with the other.
    The time for foot dragging is over. Taking care of soldiers, 
sailors, airmen, and marines is a national obligation, and doing it 
right sends a strong signal to those currently in military service as 
well as to those thinking about joining the military.
    DOD must be directed to adopt electronic architecture including 
software, data standards and data repositories that are compatible with 
the system used at the Department of Veterans Affairs. It makes 
absolute sense and it would lower costs for both organizations.
    If our seriously wounded troops are to receive the care they 
deserve, the departments must do what is necessary to establish a 
system that allows seamless transition of medical records. It is 
essential if our Nation is to ensure that all troops receive timely, 
quality health care and other benefits earned in military service.
    To improve the DOD/VA exchange, the hand-off should include a 
detailed history of care provided and an assessment of what each 
patient may require in the future, including mental health services. No 
veteran leaving military service should fall through the bureaucratic 
cracks.

                  DEFENSE DEPARTMENT FORCE PROTECTION

    The National Association for Uniformed Services urges the 
subcommittee to provide adequate funding to rapidly deploy and acquire 
the full range of force protection capabilities for deployed forces. 
This would include resources for up-armored high mobility multipurpose 
wheeled vehicles and add-on ballistic protection to provide force 
protection for soldiers in Iraq and Afghanistan, ensure increased 
activity for joint research and treatment effort to treat combat blast 
injuries resulting from improvised explosive devices (IEDs), rocket 
propelled grenades, and other attacks; and facilitate the early 
deployment of new technology, equipment, and tactics to counter the 
threat of IEDs.
    We ask special consideration be given to counter IEDs, defined as 
makeshift or ``homemade'' bombs, often used by enemy forces to destroy 
military convoys and currently the leading cause of casualties to 
troops deployed in Iraq. These devices are the weapon of choice and, 
unfortunately, a very efficient weapon used by our enemy. The Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) is established 
to coordinate efforts that would help eliminate the threat posed by 
these IEDs. We urge efforts to advance investment in technology to 
counteract radio-controlled devices used to detonate these killers. 
Maintaining support is required to stay ahead of our enemy and to 
decrease casualties caused by IEDs.

             DEFENSE HEALTH PROGRAM--TRICARE RESERVE SELECT

    Mr. Chairman, another area that requires attention is reservist 
participation in TRICARE. As we are all aware, National Guard and 
Reserve personnel have seen an upward spiral of mobilization and 
deployment since the terrorist attacks of September 11, 2001. The 
mission has changed and with it our reliance on these forces has risen. 
Congress has recognized these changes and begun to update and upgrade 
protections and benefits for those called away from family, home and 
employment to active duty. We urge your commitment to these troops to 
ensure that the long overdue changes made in the provision of their 
heath care and related benefits is adequately resourced. We are one 
force, all bearing a critical share of the load.

               DEPARTMENT OF DEFENSE, PROSTHETIC RESEARCH

    Clearly, care for our troops with limb loss is a matter of national 
concern. The global war on terrorism in Iraq and Afghanistan has 
produced wounded soldiers with multiple amputations and limb loss who 
in previous conflicts would have died from their injuries. Improved 
body armor and better advances in battlefield medicine reduce the 
number of fatalities, however injured soldiers are coming back 
oftentimes with severe, devastating physical losses.
    In order to help meet the challenge, Defense Department research 
must be adequately funded to continue its critical focus on treatment 
of troops surviving this war with grievous injuries. The research 
program also requires funding for continued development of advanced 
prosthesis that will focus on the use of prosthetics with 
microprocessors that will perform more like the natural limb.
    The National Association for Uniformed Services encourages the 
subcommittee to ensure that funding for Defense Department's prosthetic 
research is adequate to support the full range of programs needed to 
meet current and future health challenges facing wounded veterans. To 
meet the situation, the subcommittee needs to focus a substantial, 
dedicated funding stream on Defense Department research to address the 
care needs of a growing number of casualties who require specialized 
treatment and rehabilitation that result from their armed service.
    We would also like to see better coordination between the 
Department of Defense Advanced Research Projects Agency and the 
Department of Veterans Affairs in the development of prosthetics that 
are readily adaptable to aid amputees.
 post traumatic stress disorder (ptsd) and traumatic brain injury (tbi)
    The National Association for Uniformed Services supports a higher 
priority on Defense Department care of troops demonstrating symptoms of 
mental health disorders and traumatic brain injury.
    It is said that Traumatic Brain Injury (TBI) is the signature 
injury of the Iraq war. Blast injuries often cause permanent damage to 
brain tissue. Veterans with severe TBI will require extensive 
rehabilitation and medical and clinical support, including neurological 
and psychiatric services with physical and psycho-social therapies.
    We call on the subcommittee to fund a full spectrum of TBI care and 
to recognize that care is also needed for patients suffering from mild 
to moderate brain injuries, as well. The approach to this problem 
requires resources for hiring caseworkers, doctors, nurses, clinicians, 
and general caregivers if we are to meet the needs of these men and 
women and their families.
    The mental condition known as Post Traumatic Stress Disorder (PTSD) 
has been well known for more than 100 years under an assortment of 
different names. For example more than 60 years ago, Army psychiatrists 
reported, ``That each moment of combat imposes a strain so great that . 
. . psychiatric casualties are as inevitable as gunshot and shrapnel 
wounds in warfare.''
    PTSD is a serious psychiatric disorder. While the Government has 
demonstrated over the past several years a higher level of attention to 
those military personnel who exhibit PTSD symptoms, more should be done 
to assist servicemembers found to be at risk.
    Pre-deployment and post-deployment medicine is very important. Our 
legacy of the gulf war demonstrates the concept that we need to 
understand the health of our servicemembers as a continuum, from pre- 
to post-deployment.
    The National Association for Uniformed Services applauds the extent 
of help provided by the Defense Department, however we encourage that 
more resources be made available to assist. Early recognition of the 
symptoms and proactive programs are essential to help many of those who 
must deal with the debilitating effects of mental injuries, as 
inevitable in combat as gunshot and shrapnel wounds.
    We encourage the members of the subcommittee to provide for these 
funds and to closely monitor their expenditure and to see they are not 
redirected to other areas of defense spending.

                      ARMED FORCES RETIREMENT HOME

    The National Association for Uniformed Services encourages the 
subcommittee's continued interest in providing funds for the Armed 
Forces Retirement Home (AFRH).
    We urge the subcommittee to continue its help in providing adequate 
funding to alleviate the strains on the Washington home. Also, we 
remain concerned about the future of the Gulfport home, so we urge your 
continued close oversight on its re-construction. And we thank the 
subcommittee for the provision of $240 million last year to build a new 
Armed Forces Retirement Home at its present location of the tower, 
which began this past March.
    The National Association for Uniformed Services also asks the 
subcommittee to closely review administration plans to sell great 
portions of the Washington AFRH to developers. The AFRH is a historic 
national treasure, and we thank Congress for its oversight of this 
gentle program and its work to provide for a world-class quality-of-
life support system for these deserving veterans.
   improved medicine with less cost at military treatment facilities
    The National Association for Uniformed Services is also seriously 
concerned over the consistent push to have Military Health System 
beneficiaries age of 65 and over moved into the civilian sector from 
military care. That is a very serious problem for the Graduate Medical 
Education (GME) programs in the MHS; the patients over 65 are required 
for sound GME programs, which, in turn, ensure that the military can 
retain the appropriate number of physicians who are board certified in 
their specialties.
    TRICARE/HA policies are pushing out those patients not on active 
duty into the private sector where the cost per patient is at least 
twice as expensive as that provided within Military Treatment 
Facilities (MTFs). We understand that there are many retirees and their 
families who must use the private sector due to the distance from the 
closest MTF; however, where possible, it is best for the patients 
themselves, GME, medical readiness, and the minimizing the cost of 
TRICARE premiums if as many non-active duty beneficiaries are taken 
care of within the MTFs. As more and more MHS beneficiaries are pushed 
into the private sector, the cost of the MHS rises. The MHS can provide 
better medicine, more appreciated service and do it at improved medical 
readiness and less cost to the taxpayers.

          UNIFORMED SERVICES UNIVERSITY OF THE HEALTH SCIENCES

    As you know, the Uniformed Services University of the Health 
Sciences (USUHS) is the Nation's Federal school of medicine and 
graduate school of nursing. The medical students are all active-duty 
uniformed officers in the Army, Navy, Air Force, and U.S. Public Health 
Service who are being educated to deal with wartime casualties, 
national disasters, emerging diseases, and other public health 
emergencies.
    The National Association for Uniformed Services supports the USUHS 
and requests adequate funding be provided to ensure continued 
accredited training, especially in the area of chemical, biological, 
radiological, and nuclear response. In this regard, it is our 
understanding that USUHS requires funding for training and educational 
focus on biological threats and incidents for military, civilian, 
uniformed first responders, and healthcare providers across the Nation.

                JOINT POW/MIA ACCOUNTING COMMAND (JPAC)

    We also want the fullest accounting of our missing service men and 
ask for your support in DOD dedicated efforts to find and identify 
remains. It is a duty we owe to the families of those still missing as 
well as to those who served or who currently serve. And as President 
Bush said, ``It is a signal that those who wear our country's military 
uniform will never be abandoned.''
    In recent years, funding for the Joint POW/MIA Accounting Command 
(JPAC) has fallen short, forcing the agency to scale back and even 
cancel many of its investigative and recovery operations. NAUS supports 
the fullest possible accounting of our missing service men. It is a 
duty we owe the families, to ensure that those who wear our country's 
uniform are never abandoned. We request that appropriate funds be 
provided to support the JPAC mission for fiscal year 2009.

              APPRECIATION FOR THE OPPORTUNITY TO TESTIFY

    As a staunch advocate for our uniformed service men and women, The 
National Association for Uniformed Services recognizes that these brave 
men and women did not fail us in their service to country, and we, in 
turn, must not fail them in providing the benefits and services they 
earned through honorable military service.
    Mr. Chairman, The National Association for Uniformed Services 
appreciates the subcommittee's hard work. We ask that you continue to 
work in good faith to put the dollars where they are most needed: in 
strengthening our national defense, ensuring troop protection, 
compensating those who serve, providing for DOD medical services 
including TRICARE, and building adequate housing for military troops 
and their families, and in the related defense matters discussed today. 
These are some of our Nation's highest priority needs and we ask that 
they be given the level of attention they deserve.
    The National Association for Uniformed Services is confident you 
will take special care of our Nation's greatest assets: the men and 
women who serve and have served in uniform. We are proud of the service 
they give to America every day. They are vital to our defense and 
national security. The price we pay as a Nation for their earned 
benefits is a continuing cost of war, and it will never cost more nor 
equal the value of their service.
    We thank you for your efforts, your hard work. And we look forward 
to working with you to ensure we continue to provide sufficient 
resources to protect the earned benefits for those giving military 
service to America every day.
    Again, the National Association for Uniformed Services deeply 
appreciates the opportunity to present the Association's views on the 
issues before the Defense Appropriations Subcommittee.

    Senator Inouye. Thank you very much, sir.
    Senator Stevens.
    Senator Stevens. Mr. Jones, I'm just back from a prolonged 
trip to Alaska and I found that, while doctors in Alaska are 
seeing TRICARE patients and veterans patients, they are not 
seeing Medicare patients. We have about 10 times as many of the 
military and veterans as we do the seniors because they're 
leaving the State.
    I sense in your testimony that you think that TRICARE is 
too low. Is that right?
    Mr. Jones. The testimony here is the total funding that the 
Pentagon has suggested--that individuals who have earned the 
healthcare benefit and were promised that are being asked to 
shift, to pay out of their own pockets for their own benefit. 
We're asking you to fill that gap, rejecting the----
    Senator Stevens. That's a family benefit, isn't it? The 
individual is receiving the care, but it's the family benefits 
that's creating the----
    Mr. Jones. Well, there's TRICARE Standard, TRICARE Prime. 
These are the benefits that do provide for families and for 
retirees. As you know, individuals from the military can retire 
after 20 years, oftentimes at an early age. He's eligible for 
those retirement programs.
    Senator Stevens. I'm not opposed to increasing the TRICARE. 
I just wonder about a system that really is paying the Medicare 
patients, physicians who see Medicare patients, so low that 
they won't see them. In our State right now, the medical 
profession won't see senior citizens on Medicare, but they do 
see TRICARE.
    Mr. Jones. That's interesting, because we're concerned with 
the TRICARE reimbursement package that's being discussed now in 
the Senate, and we've recognized that if reductions do go in 
place that our medical care benefit may become hollow. 
Individuals looking for medical procedures may not be able to 
access doctors who deliver those procedures.
    Senator Stevens. I don't think there should be a 
difference.
    Mr. Jones. It's interesting that Alaska----
    Senator Stevens. There should not be a difference between 
the amount we pay to a doctor to see a senior citizen, and the 
patient costs ought to be the same. Today it's not. We'll chat 
about that later, but I do think there ought to be a single 
payment schedule for physicians to see those eligible for 
support from the Federal system for Medicare.
    Mr. Jones. Couldn't agree more with you, sir. The hope is 
that that threshold level is adequate enough to maintain an 
adequate number of doctors who are willing to see those 
patients.
    Senator Inouye. I thank you very much, sir.
    Now we'll have a new panel: Dr. George--Mr. George Dahlman, 
Mr. Martin Foil, Captain Walt Steiner, and Ms. Mary Hesdorffer.
    Our first witness of this panel is the Senior Vice 
President for Public Policy, The Leukemia and Lymphoma Society, 
Mr. George Dahlman.

STATEMENT OF GEORGE DAHLMAN, SENIOR VICE PRESIDENT FOR 
            PUBLIC POLICY, THE LEUKEMIA AND LYMPHOMA 
            SOCIETY
    Mr. Dahlman. Thank you, Mr. Chairman and Senator Stevens. 
As mentioned, I'm George Dahlman, Senior Vice President for The 
Leukemia and Lymphoma Society. I'm also the father of a 
leukemia survivor. Since 1949, the society has been dedicated 
to finding a cure for the blood cancers, and to that end in 
2008 we'll provide approximately $70 million of our own money 
raised privately in research grants.
    A number of our grant recipients receive additional funds 
from the NIH, private foundations, and the DOD through the 
congressionally directed medical research program.
    For fiscal 2009, The Leukemia and Lymphoma Society, along 
with other blood cancer groups--the American Society of 
Hematology, the Aplastic Anemia and MDS International 
Foundation, the International Myeloma Foundation, Lymphoma 
Research Foundation, and the Multiple Myeloma Research 
Foundation--all support a $10 million dedicated stand-alone 
research program for blood cancers in the congressionally 
directed medical research program within DOD.
    The reasons for having a blood cancer research program at 
DOD are the benefit such program would have for the warfighter 
and the fact that blood cancer research has led to 
breakthroughs in the treatment of other cancers. Several 
agencies in the Federal Government have recognized the 
importance of blood cancers to those that serve in our 
military. For example, the VA has determined that service 
members who have been exposed to ionizing radiation and 
contract multiple myeloma, non-Hodgkin's lymphoma, or leukemias 
other than chronic lymphocytic leukemia are presumed to have 
contracted those diseases as a result of their military 
service.
    Second, in-country Vietnam veterans who contract Hodgkin's 
disease, chronic lymphocytic leukemia, multiple myeloma, or 
non-Hodgkin's lymphoma are presumed to have contracted those 
diseases as a result of their military service.
    Because these diseases are presumed to have been service 
connected in certain instances, VA benefits are available to 
affected veterans.
    Furthermore, the IOM has found that gulf war veterans are 
at risk for contracting a number of blood cancers due to 
exposure to benzene, solvents, and insecticides. One example is 
that the IOM has found sufficient evidence of a causal 
relationship between exposure to benzene and acute leukemias.
    In addition, the C.W. Bill Young Department of Defense 
Marrow Donor Program works to develop and apply bone marrow 
transplants to military casualties with marrow damage resulting 
from radiation or exposure to chemical warfare agents 
containing mustard. Bone marrow transplants are also a commonly 
used second line therapy for blood cancers, more so than other 
cancers.
    Finally, research into blood cancers has produced results 
that can help patients with other cancers as well. The idea of 
combination chemotherapy was first developed to treat blood 
cancers in children, but is now common among cancer treatments. 
Bone marrow transplants were first used as curative treatments 
for blood cancer patients, but these successes led the way to 
stem cell transplants and related immune cell therapies for 
patients with other diseases.
    In general, blood cancer cells are easier to access than 
cells from solid tumors, making it easier to study cancer-
related molecules in blood cancers and to measure the effects 
of new therapies that target these molecules that are 
frequently also found in other cancers.
    Several targeted agents designed to kill other cancer cells 
and leave healthy cells undamaged were first developed in blood 
cancer patients and are already helping or being developed to 
help other cancer patients as well.
    So in conclusion, because blood cancer research is relevant 
to our Nation's military and because blood cancer research 
often leads to treatments in other cancers, we collectively 
would urge the subcommittee to include $10 million for a 
dedicated stand-alone blood cancer research program at the 
congressionally directed medical research program at DOD.
    Thank you very much.
    [The statement follows:]

                  Prepared Statement of George Dahlman

                              INTRODUCTION

    Mr. Chairman and members of the committee, my name is George 
Dahlman, Senior Vice President, Public Policy for The Leukemia and 
Lymphoma Society (Society). I am pleased to appear today and testify on 
behalf the Society and the almost 800,000 Americans currently living 
with blood cancers and the 130,000 who will be diagnosed with one this 
year--recently some of whom have been right here in the Senate. 
Furthermore, every 10 minutes, someone dies from one of these cancers--
leukemia, lymphoma, Hodgkin's disease, and myeloma.
    During its 59-year history, the Society has been dedicated to 
finding a cure for the blood cancers, and improving the quality of life 
of patients and their families. The Society has the distinction of 
being both the Nation's second largest private cancer organization and 
the largest private organization dedicated to biomedical research, 
education, patient services, and advocacy as they pertain to blood-
related cancers.
    Our central contribution to the search for cures for the blood 
cancers is providing a significant amount of the funding for basic, 
translational, and clinical research. In 2008, we will provide 
approximately $70 million in research grants. In addition to our 
research funding role, we help educate health care and school 
professionals as needed and provide a wide range of services to 
individuals with a blood cancer, their caregivers, families, and 
friends through our 64 chapters across the country. Finally, we 
advocate responsible public policies that will advance our mission of 
finding cures for the blood cancers and improving the quality of life 
of patients and their families.
    We are pleased to report that impressive progress is being made in 
the effective treatment of many blood cancers, with 5-year survival 
rates doubling and even tripling over the last two decades. More than 
90 percent of children with Hodgkin's disease now survive, and survival 
for children with acute lymphocytic leukemia and non-Hodgkin's lymphoma 
(NHL) has risen as high as 86 percent.
    Just 7 years ago, in fact, a new therapy was approved for chronic 
myelogenous leukemia (CML), a form of leukemia for which there were 
previously limited treatment options, all with serious side effects--5-
year survival rates were just over 50 percent. Let me say that more 
clearly, if 8 years ago your doctor told you that you had CML, you 
would have been informed that there were limited treatment options and 
that you should get your affairs in order. Today, those same patients 
have access to this new therapy, called Gleevec, which is a so-called 
targeted therapy that corrects the molecular defect that causes the 
disease, and does so with few side effects. Now, 5-year survival rates 
are as high as 96 percent for patients newly diagnosed with chronic 
phase CML.
    The Society funded the early research that led to Gleevec approval, 
as it has contributed to research on a number of new therapies. We are 
pleased that we played a role in the development of this life-saving 
therapy, but we realize that our mission is far from realized. Many 
forms of leukemia, lymphoma, and myeloma still present daunting 
treatment challenges. There is much work still to be done, and we 
believe that the research partnership between the public and private 
sectors--as represented in the Department of Defense's (DOD) 
Congressionally Directed Medical Research Program--(CDMRP) is an 
integral part of that important effort and should be further 
strengthened.

        THE GRANT PROGRAMS OF THE LEUKEMIA AND LYMPHOMA SOCIETY

    The grant programs of the Society have traditionally been in three 
broad categories: Career Development Program grants, Translational 
Research Program grants, and Specialized Centers of Research Program 
grants. In our Career Development Program, we fund Scholars, Special 
Fellows, and Fellows who are pursuing careers in basic or clinical 
research. In our Translational Research Program, we focus on supporting 
investigators whose objective is to translate basic research 
discoveries into new therapies.
    The work of Dr. Brian Druker, an oncologist at Oregon Health 
Sciences University and the chief investigator responsible for 
Gleevec's development, was supported by a Translational Research 
Program grant from the Society.
    Our Specialized Centers of Research grant program is intended to 
bring investigators together to form new research teams focused on the 
discovery of innovative approaches to treating and/or preventing 
leukemia, lymphoma, and myeloma. The awards go to those groups that can 
demonstrate that their close interaction will create research synergy 
and accelerate our search for new and better treatments.
    Dr. Druker is certainly a star among those supported by the 
Society, but our support in the biomedical field is broad and deep. 
Through the Society's research grant programs, we are currently 
supporting more than 380 investigators at 134 institutions in 34 States 
and 12 other countries.
    Not content with these extensive efforts, the Society has launched 
a new Therapy Acceleration Program intended to proactively invest in 
promising blood cancer therapies that are in early stages of 
development by industry, but which may not have sufficient financial 
support or market potential to justify private sector investment. In 
addition, the Society will use this program to further facilitate the 
advancement of therapies in development by academic researchers who may 
not have the spectrum of resources or expertise to fulfill the 
potential of their discoveries. Directed early phase clinical trial 
support in this funding program will further advance new and better 
treatments for blood cancer treatments.

                    IMPACT OF HEMATOLOGICAL CANCERS

    Despite enhancements in treating blood cancers, there are still 
significant research challenges and opportunities. Hematological, or 
blood-related, cancers pose a serious health risk to all Americans. 
These cancers are actually a large number of diseases of varied causes 
and molecular make-up, and with different treatments, that strike men 
and women of all ages. In 2008, more than 130,000 Americans will be 
diagnosed with a form of blood-related cancer and almost 65,000 will 
die from these cancers. For some, treatment may lead to long-term 
remission and cure; for others these are chronic diseases that will 
require treatments across a lifetime; and for others treatment options 
are still extremely limited. For many, recurring disease will be a 
continual threat to a productive and secure life.
    A few focused points to put this in perspective:
  --Taken together, the hematological cancers are fifth among cancers 
        in incidence and fourth in mortality.
  --Almost 800,000 Americans are living with a hematological malignancy 
        in 2008.
  --Almost 65,000 people will die from hematological cancers in 2008, 
        compared to 160,000 from lung cancer, 41,000 from breast 
        cancer, 27,000 from prostate cancer, and 52,000 from colorectal 
        cancer.
  --Blood-related cancers still represent serious treatment challenges. 
        The improved survival for those diagnosed with all types of 
        hematological cancers has been uneven. The 5-year survival 
        rates are:
    --Hodgkin's disease--87 percent;
    --NHL--64 percent;
    --Leukemias (total)--50 percent;
    --Multiple Myeloma--33 percent; and
    --Acute Myelogenous Leukemia--21 percent.
  --Individuals who have been treated for leukemia, lymphoma, and 
        myeloma may suffer serious adverse consequences of treatment, 
        including second malignancies, organ dysfunction (cardiac, 
        pulmonary, and endocrine), neuropsychological and psychosocial 
        aspects, and poor quality of life.
  --For the period from 1975 to 2003, the incidence rate for NHL 
        increased by 76 percent.
  --NHL and multiple myeloma rank second and fifth, respectively, in 
        terms of increased cancer mortality since 1973.
  --Lymphoma is the third most common childhood cancer and the fifth 
        most common cancer among Hispanics of all races. Recent 
        statistics indicate both increasing incidence and earlier age 
        of onset for multiple myeloma.
  --Multiple myeloma is one of the top ten leading causes of cancer 
        death among African Americans.
  --Hispanic children of all races under the age of 20 have the highest 
        rates of childhood leukemias.
  --Despite the significant decline in the leukemia and lymphoma death 
        rates for children in the United States, leukemia is still the 
        leading cause of death in the United States among children less 
        than 20 years of age, in females between the ages of 20 and 39 
        and males between the ages of 60-79.
  --Lymphoma is the fourth leading cause of death among males between 
        the ages of 20 and 39 and the fifth leading cause of death for 
        females older than 80. Overall, cancer is now the leading cause 
        of death for U.S. citizens younger than 85 years of age, 
        overtaking heart disease as the primary killer.
         possible environmental causes of hematological cancers
    The causes of hematological cancers are varied, and our 
understanding of the etiology of leukemia, lymphoma, and myeloma is 
limited. Extreme radiation exposures are clearly associated with an 
increased incidence of leukemias. Benzene exposures are associated with 
increased incidence of a particular form of leukemia. Chemicals in 
pesticides and herbicides, as well as viruses such as HIV and EBV, 
apparently play a role in some hematological cancers, but for most 
cases, no environmental cause is identified. Researchers have recently 
published a study reporting that the viral footprint for simian virus 
40 was found in the tumors of 43 percent of NHL patients. These 
research findings may open avenues for investigation of the detection, 
prevention, and treatment of NHL. There is a pressing need for more 
investigation of the role of infectious agents or environmental toxins 
in the initiation or progression of these diseases.

                IMPORTANCE TO THE DEPARTMENT OF DEFENSE

    The Leukemia and Lymphoma Society, along with its partners in the 
American Society of Hematology, Aplastic Anemia and MDS International 
Foundation, International Myeloma Foundation, Lymphoma Research 
Foundation, and Multiple Myeloma Research Foundation, believe 
biomedical research focused on the hematological cancers is 
particularly important to the DOD for a number of reasons.
    Research on blood-related cancers has significant relevance to the 
armed forces, as the incidence of these cancers is substantially higher 
among individuals with chemical and nuclear exposure. Firstly, blood 
cancers are linked to members of the military who were exposed to 
ionizing radiation, such as those who occupied Japan after World War II 
and those who participated in atmospheric nuclear tests between 1945-
1962. Service members who contract multiple myeloma, NHL, and leukemias 
other than chronic lymphocytic leukemia are presumed to have contracted 
these diseases as a result of their military service; hence, they are 
eligible to receive benefits from the Department of Veterans Affairs 
(VA).
    Secondly, in-country Vietnam veterans who contract Hodgkin's 
disease, chronic lymphocytic leukemia, multiple myeloma, or NHL are 
presumed to have contracted these diseases as a result of their 
military service and the veterans are eligible to receive benefits from 
the VA.
    Thirdly, the Institute of Medicine (IOM) has found that Gulf War 
veterans are at risk for contracting a number of blood cancers. For 
instance, the IOM has found sufficient evidence of a causal 
relationship between exposure to benzene and acute leukemias. 
Additionally, the IOM has found there is sufficient evidence of an 
association between benzene and adult leukemias, and solvents and acute 
leukemias. Finally, the IOM has also found there is also limited or 
suggestive evidence of an association between exposure to 
organophosphorous insecticides to NHL and adult leukemias; carbamates 
and Benzene to NHL; and solvents to multiple myeloma, adult leukemias, 
and myelodysplastic syndromes--a precursor to leukemia.
    In addition, research in the blood cancers has traditionally 
pioneered treatments in other malignancies. Cancer treatments that have 
been developed to treat a blood-related cancer are now used or being 
tested as treatments for other forms of cancer. Combination 
chemotherapy and bone marrow transplants are two striking examples of 
treatments first developed for treating blood cancer patients. More 
recently, specific targeted therapies have proven useful for treating 
patients with solid tumors as well as blood-related cancers.
    From a medical research perspective, it is a particularly promising 
time to build a DOD research effort focused on blood-related cancers. 
That relevance and opportunity were recognized for a 6-year period when 
Congress appropriated $4.5 million annually--for a total of $28 
million--to begin initial research into chronic myelogenous leukemia 
(CML) through the CDMRP. As members of the Subcommittee know, a 
noteworthy and admirable distinction of the CDMRP is its cooperative 
and collaborative process that incorporates the experience and 
expertise of a broad range of patients, researchers and physicians in 
the field. Since the Chronic Myelogenous Leukemia Research Program 
(CMLRP) was announced, members of the Society, individual patient 
advocates and leading researchers have enthusiastically welcomed the 
opportunity to become a part of this program and contribute to the 
promise of a successful, collaborative quest for a cure.
    Many extremely productive grants have been funded through this 
program. For example, from fiscal year 2002-fiscal year 2006 the CMLRP-
funded research with accomplishments that fall into three rather broad 
areas.

Basic science
    A better understanding of disease processes will facilitate the 
development of the next generation of therapeutic agents. The CMLRP has 
funded basic science research that has increased our knowledge of the 
patho-biology of CML, the molecular and cellular processes involved in 
the initiation of CML and the progression of disease. This may be 
exemplified by the work of Dr. Danilo Perrotti of The Ohio State 
University. Dr. Perrotti described the loss of activity of a protein 
phosphatase 2A (PP2A), a tumor suppressor, in CML cells. His research 
then determined that activity of the protein BCR/ABL, expressed in most 
CML cells and associated with disease development, inhibits PP2A 
activity which would allow CML cells to continue to proliferate. Dr. 
Perrotti took this basic understanding of this aspect of CML cell 
biology and took it one step further. He showed that treating cells 
with a compound that increases the activity level of PP2A in cells 
decreased tumor growth by virtually overpowering the negative effects 
of BCR/ABL, indicating that this compound has potential to be developed 
as a new CML treatment option.

Therapeutic development
    Genetic mutations that confer resistance to currently available CML 
treatment agents demonstrates the need for the development of new 
therapeutics that may be used in conjunction with these agents or as 
second line defense options when resistance develops. CMLRP-funded 
scientists have discovered and developed potential new therapeutic 
agents that may be used to combat or halt disease progression. For 
example, after screening a chemical library of small molecules, Dr. 
Joel Gottesfeld of The Scripps Research Institute identified a set of 
molecules that inhibits proliferation of CML cells in a BCR/ABL-
independent manner. Secondly, Dr. Craig Jordan of the University of 
Rochester used an antiproliferative compound, which specifically 
inhibits a molecule involved in the transcription of many genes, to 
inhibit the proliferation of CML cells while not affecting normal 
cells. Thirdly, Dr. E. Premkumar Reddy of Temple University is 
developing an agent that will target CML cells that are Gleevec 
resistant. Finally, Dr. Kapil Bhalla of Medical College of Georgia 
Cancer Center has discovered a new agent that inhibits that activity of 
BCR/ABL.

Model organism development
    Many model organisms are utilized by the scientific community for 
studying genetics, molecular mechanisms, cellular functions, or 
therapeutic efficacy including, but not limited to worms, flies, 
zebrafish, chickens, and mice. The model organism of choice may be 
dependent on a number of variables such as research strategy and 
feasibility, experimental design, statistical needs for data 
interpretation, and budget. In addition, using a variety of model 
organisms to study a disease may be advantageous.
    Many CMLRP-funded researchers have been involved in developing and 
validating new mouse and zebrafish models of CML for understanding 
genetic, molecular and cellular changes that accompany the development 
and progression of CML; and for pre-clinical testing of potential new 
therapeutic agents. Mice are mammals, a potential advantage for 
relating research results to human disease. In addition, a large 
proportion of human genes have a mouse counterpart. However, zebrafish 
also share extensive genetic similarity with humans and have been shown 
to share many features of the innate immune system with those of 
humans. Also, zebrafish have a short generation interval (e.g., 
lifespan) making them very amenable to and useful for genetic analysis.
    In spite of the utility and application to individuals who serve in 
the military, the CML program was not included in January's 2007 
Continuing Resolution funding other fiscal year 2007 CDMRP programs. 
This omission, and the program's continued absence seriously 
jeopardizes established and promising research projects that have clear 
and compelling application to our armed forces as well as pioneering 
research for all cancers.
    With all due respect to our colleagues fighting a broad range of 
malignancies that are represented in this program--and certainly not to 
diminish their significance--a cancer research program designed for 
application to military and national security needs would invariably 
include a strong blood cancer research foundation. DOD research on 
blood cancers addresses the importance of preparing for civilian and 
military exposure to the weapons being developed by several hostile 
nations and to aid in the march to more effective treatment for all who 
suffer from these diseases. This request clearly has merit for 
inclusion in the fiscal year 2009 legislation.
    Recognizing that fact and the opportunity this research represents, 
a bipartisan group of 45 Members of Congress have requested that the 
program be reconstituted at a $10 million level and be expanded to 
include all the blood cancers--the leukemias, lymphomas, and myeloma. 
This would provide the research community with the flexibility to build 
on the pioneering tradition that has characterized this field.
    The Society strongly endorses and enthusiastically supports this 
effort and respectfully urges the committee to include this funding in 
the fiscal year 2009 Defense Appropriations bill.
    We believe that building on the foundation Congress initiated over 
6-year period should not be abandoned and would both significantly 
strengthen the CDMRP and accelerate the development of all cancer 
treatments. As history has demonstrated, expanding its focus into areas 
that demonstrate great promise; namely the blood-related cancers of 
leukemia, lymphoma, and myeloma, would substantially aid the overall 
cancer research effort and yield great dividends.

    Senator Stevens. You know, we have a large sum that covers 
a whole series of research efforts.
    Mr. Dahlman. Correct.
    Senator Stevens. Have you spoken to them, DOD, about the 
emphasis on blood research? I agree with you. I really think 
that this and the others ought to have more intensive 
application of this money. But we already have about $50 
million in that pot.
    Mr. Dahlman. Right.
    Senator Stevens. What do you get out of it now?
    Mr. Dahlman. Senator Stevens, it was sporadically included 
in the peer reviewed program, which is about $50 million, and 
blood cancers was reinstituted this last time, and we are 
working with the Army right now to see if there is any grant 
availability for blood cancers.
    Senator Stevens. Well, I would urge it in the context, but 
I don't know whether we can raise that money. But you're right, 
that research ought to be increased.
    Mr. Dahlman. Thank you.
    Senator Inouye. You just heard the man. We'll increase it.
    Mr. Dahlman. Thanks.
    Senator Inouye. Now our next witness is the Director of the 
National Brain Injury Research, Treatment and Training 
Foundation, Mr. Martin Foil.

STATEMENT OF MARTIN B. FOIL, JR., CHAIRMAN, BOARD OF 
            DIRECTORS, NATIONAL BRAIN INJURY RESEARCH, 
            TREATMENT AND TRAINING FOUNDATION
    Mr. Foil. Good morning, Mr. Chairman, Senator Stevens. It's 
an honor and a pleasure to be here. I've been here for over 10 
years.
    Senator Stevens. Would you turn on your mike?
    Mr. Foil. I'll turn it on, thank you. Is that better? Okay.
    As you know, I'm the father of a young man with a severe 
brain injury, and I serve as the Chairman of the National Brain 
Injury Research, Treatment and Training Foundation (NBIRTT). So 
in behalf of NBIRTT, I respectfully request your support for 
the full funding of the Defense Veterans Brain Injury Center 
(DVBIC) as part of the new Department of Defense Center of 
Excellence in Psychological Health and Traumatic Brain Injury. 
We want to see DVBIC continue to be a key program at that 
center of excellence and to be funded at $28 million in 2009.
    In addition, we would like to see $3.75 million go toward a 
pilot project for those suffering from severe traumatic brain 
injury (TBI). For many years, I have come before you and 
requested funding for TBI, but this year's different. You have 
appropriated literally hundreds of millions of dollars in the 
past year for the DOD and the VA to screen, evaluate, provide 
care, rehabilitation, education, and research for our wounded 
warriors with TBI. I commend you and your subcommittee for your 
leadership as it was desperately needed.
    As you know, TBI is the signature injury of the war on 
terror and the impact that TBI continues to have on our troops 
is very enormous. We must be sure to address the needs of all 
our injured troops along the entire spectrum. There are those 
who are walking wounded, don't know that they have this 
problem, only to find trouble after they go home. On the other 
end, there are those folks who are so terribly injured that 
standard modern medicine has little to offer them and they are 
sent to live out their lives in nursing homes.
    We must be sure to address the needs of all TBIs, to 
provide the best our Nation has to offer. For those with mild 
TBI who go undiagnosed, we urge the DOD through the DVBIC to 
coordinate with State agencies and TBI programs which have 
already begun to reach out to veterans groups to provide a 
safety net for our troops who are returning who are undiagnosed 
or underdiagnosed.
    Particularly because returning National Guard and Reserves 
go back to their civilian doctors, we need to educate the 
civilian population on the less visible signs of TBI and help 
injured troops navigate available resources.
    On the other end of the spectrum--those are the wounded 
warriors with severe TBI, who require a longer time to recover, 
who need long-term rehabilitation. If these severely injured 
warriors are sent to nursing homes, they'll never recover 
because neither the VA nor the community nursing homes have the 
expertise or the technology needed.
    We support a pilot program for severe TBI which would work 
through DVBIC at a facility in Johnstown, Pennsylvania. It's 
standing, it's ready to provide for 25 severely injured wounded 
warriors as well as respite care for their families. There are 
187 wounded warriors already awaiting placement into a program 
similar to this.
    We also hope you will urge the DOD to keep the TBI registry 
with the DVBIC instead of moving it over to healthcare.
    We know that your subcommittee is committed to providing 
the resources that the DOD needs to care for our warriors. We 
hope you will be sure to provide the $3.75 million for those 
severely wounded who need to go to a place like Johnstown.
    Thank you.
    Senator Inouye. I thank you very much.
    [The statement follows:]

               Prepared Statement of Martin B. Foil, Jr.

    Dear Chairman Inouye, Ranking Member Stevens and members of the 
Senate Appropriations Subcommittee on Defense: Thank you for this 
opportunity to submit testimony in support of funding the Defense and 
Veterans Brain Injury Center (DVBIC). The National Brain Injury 
Research, Treatment, and Training Foundation (NBIRTTF) urges your 
support for $28 million for the DVBIC in the fiscal year 2009 Defense 
Appropriations bill which would include $3,750,000 for the pilot 
project on the minimally conscious.
    As you well know, my name is Martin Foil and I am the father of 
Philip Foil, a young man with a severe brain injury. I serve as 
Chairman of the Board of Directors of NBIRTT.\1\ Professionally, I am 
the Chief Executive Officer and Chairman of Tuscarora Yarns in Mt. 
Pleasant, North Carolina.\2\
---------------------------------------------------------------------------
    \1\ NBIRTT is a non-profit national foundation dedicated to the 
support of clinical research, treatment, and training.
    \2\ I receive no compensation from this program; rather, I have 
raised and contributed millions of dollars to support brain injury 
research, treatment, training, and services.
---------------------------------------------------------------------------
    My testimony concerns the two extreme ends of the spectrum of 
traumatic brain injury (TBI) in the military--from those who go 
undiagnosed and return to the community and are only later found to 
have brain injuries after experiencing problems, and those who are the 
most severely injured and are left to live out their lives in minimally 
conscious or vegetative states in nursing homes without rigorous 
efforts to help them regain consciousness.

  THE NATIONAL RESPONSE TO TBI IN THE MILITARY AND VETERAN POPULATIONS

    For 16 years, since the DVBIC was created in 1992, my colleagues in 
the brain injury community and I have requested Congressional support 
to sustain its research, treatment, and training initiatives. What 
started as a small research program, the DVBIC has grown to a nine-site 
network \3\ of state-of-the-art care in collaboration between the 
Department of Defense (DOD) and the Veterans Administration (VA) and is 
now a key component of the Department of Defense Center of Excellence 
in Psychological Health and Traumatic Brain Injury (DCoE).
---------------------------------------------------------------------------
    \3\ Walter Reed Army Medical Center, Washington, DC; James A. Haley 
Veterans Hospital, Tampa, Florida; Naval Medical Center San Diego, San 
Diego, California; Minneapolis Veterans Affairs Medical Center, 
Minneapolis, Minnesota Veterans Affairs Palo Alto Health Care System, 
Palo Alto, California; Virginia Neurocare, Inc., Charlottesville, 
Virginia; Hunter McGuire Veterans Affairs Medical Center, Richmond, 
Virginia; Wilford Hall Medical Center, Lackland Air Force Base, Texas; 
Laurel Highlands Neuro-Rehabilitation Center, Johnstown, Pennslyvania.
---------------------------------------------------------------------------
    We are extremely pleased that over the past year, Congress has 
appropriated hundreds of millions of dollars for screening, evaluation, 
treatment, and support for troops sustaining TBI. We applaud your 
leadership in assuring funding for TBI. Similarly, we were encouraged 
to see that the DVBIC was included in the new TBI initiatives of the 
fiscal year 2008 National Defense Authorization Act (NDAA).
    We remain concerned, however, that the DOD may not fully implement 
all of the initiatives of the NDAA, or may delay their development. It 
is reports like that by USA Today on March 18, 2008,\4\ uncovering 
policies of the DOD to delay screening of troops in fear that the issue 
of TBI may become another ``Gulf War Syndrome'' that makes us ask for 
your support in overseeing DOD. The recent news report that a VA doctor 
suggested that diagnosis of Post Traumatic Stress Disorder (PTSD) be 
redesignated as ``an adjustment disorder'' as well as the ``New England 
Journal of Medicine'' article published in January, by Colonel Hoge who 
argues that TBI is really just PTSD, are also alarming.
---------------------------------------------------------------------------
    \4\ Col.:DOD Delayed Brain Injury Scans, by Gregg Zoroya, USA 
Today, March 18, 2008.
---------------------------------------------------------------------------
    The Rand Corporation issued a study in April,\5\ which found that 
about 19 percent of troops report having a possible TBI. 1.64 million 
troops have served since October 2001, so that means there's a 
possibility of over 300,000 TBIs. Similarly, almost 20 percent of 
returning service personnel have symptoms of PTSD or major depression. 
Unfortunately, only half have sought treatment and they experienced 
delays and shortfalls in getting care.
---------------------------------------------------------------------------
    \5\ Invisible Wounds of War: Psychological and Cognitive Injuries, 
Their Consequences, and Services to Assist Recovery (Tanielian and 
Jaycox [Eds.], Santa Monica, Calif.: RAND Corporation, MG-720-CCF, 
2008).
---------------------------------------------------------------------------
    There are disturbing reports about the 1,000 suicides per month 
among veterans of the conflicts in Iraq and Afghanistan, and the 
connection with PTSD and TBI cannot be overlooked. A May 11, 2008, New 
York Times editorial about the VA's downplaying of a suicide epidemic, 
argued that the solutions are clear: more funding for mental health 
services, more aggressive suicide prevention efforts and more 
efficiency at managing veterans' treatment and more help for their 
families. However, we know well that none of this is simple and funding 
and program proposals are only the beginning and need to be carefully 
monitored. Congressional leadership has been stellar, legislation now 
enacted, but once the DOD and VA have the resources and directives, 
Congressional oversight is still needed.
    The issues of PTSD and TBI in the military are enormous and affect 
both the military and civilian health care systems. If only half of 
troops with symptoms of PTSD and TBI are seeking treatment, it is clear 
that injured service personnel will fall through the cracks and not get 
the neuro-rehabilitation or services they and their families need.

  THE NEED FOR COORDINATION WITH STATE AGENCIES AND COMMUNITY SERVICES

    On May 13, 2008, LTG Clyde Vaughn, Director of the Army National 
Guard testified before your committee that there needs to be a safety 
net for troops returning who have unidentified PTSD and/or TBI and 
urged a coordination, between the military, veterans agencies and State 
agencies. As to screening, Lieutenant General Vaughn acknowledged that 
the Army National Guard could at one time follow its troops, but now as 
regiments are divided, such an effort would require that all branches 
of the armed services participate.
    The NDAA provided a directive for the military to collaborate with 
civilian entities to ensure community services are available. NBIRTT 
supports the proposal by the National Association of State Head Injury 
Administrators (NASHIA) submitted to the DCoE to collaborate with State 
agencies to provide a continuum of information and resources for those 
troops that we know will fall through the cracks.
    As service personnel return home from Iraq and Afghanistan, an 
increasing number of them and their family members are contacting State 
governmental programs for assistance that states usually provide to the 
civilian population. While many who are seriously injured will be 
treated by military treatment facilities, others with mild or 
undiagnosed TBI--especially the National Guard and Reserves--will 
return to their homes, families, and communities after tour of duty. 
They will often seek medical care from civilian health care 
professionals who may not be aware of the person's exposure to blasts.
    It is often the resulting actions or behaviors and poor judgment of 
these individuals that result in domestic violence, inappropriate 
public outbursts and encounters with law enforcement or unemployment. 
It is under these circumstances that many with TBI are ``discovered'' 
by State and local agencies. These agencies or professionals often do 
not know to ask the question as to whether the person served in Iraq or 
Afghanistan and was exposed to blasts, such as those from roadside 
bombs. It is key for proper assessment and diagnosis that these 
professionals learn the cause or reason for such behaviors or other 
cognitive issues.
    Funding is needed to enlighten the civilian community about TBI and 
related disorders associated with blast injuries incurred in Iraq and 
Afghanistan. National Guardsmen and women and Reservists may exit their 
tour citing no medical difficulties. It is only after a period of time 
that these individuals may find it difficult to manage their jobs, 
interact with their family members or co-workers, manage their emotions 
or engage in activities once considered routine. These individuals are 
at risk of being misdiagnosed and treated inappropriately by medical 
and healthcare professionals.
    The NDAA authorized funding to improve the continuum of care from 
acute, post-acute, rehabilitation, transition, follow-up, community, 
and long-term care and case management/service coordination to 
coordinate resources and benefits for injured troops.
    In general, States have extensive experience in helping civilians 
access services across private (e.g., insurance, workers comp), local 
(e.g., public education, county health and social service agencies), 
State (TBI, mental health and disability programs) and Federal (e.g., 
Medicaid, public assistance, substance abuse, and vocational 
rehabilitation) systems. Now, States need support in collaborating with 
DOD/VA in order to assist those returning servicemembers with ``mild'' 
or undiagnosed TBI to get the services and supports they need, whether 
these services are provided through the VA or through State public 
programs or by civilian healthcare providers. At the same time, States 
can provide information to DOD/VA on community resources for those 
severely or moderately injured service members who are returning to 
their communities and may need life-long care and family supports. This 
requires States and DOD/VA to have knowledge on how to navigate each of 
these complex systems, as well as to have formal relationships for 
transitioning returning service members with TBI and related conditions 
to their home and community and conducting outreach to identify those 
with mild or undiagnosed TBI.
    The Centers for Disease Control and Prevention (CDC), in 
recognition that many civilians who sustain a mild TBI are not 
hospitalized or receive no medical care at all, has updated and revised 
the ``Heads Up: Brain Injury in Your Practice'' tool kit for 
physicians. This toolkit also directs physicians to note potential 
blast related TBIs. This toolkit has also been distributed to State 
agencies hoping that they will educate their medical communities 
regarding this emerging issue.
    If it is true, as was mentioned earlier, the DOD and VA do not 
fully screen and correctly diagnose service personnel with TBIs, it is 
inevitable that troops will return home injured only to fend for 
themselves. We urge your support for a collaborative agreement between 
the DVBIC and DCoE and NASHIA to provide a safety net for troops 
returning home.

     DCOE OFFICIALS SHOULD DETERMINE THE COURSE OF TBI INITIATIVES

    Last year we testified that ``the DVBIC is an important tool to 
assure a continuum of care, but it requires an increased level of POM 
funding and a solid commitment by the DOD to assist in improving the 
military and VA health care systems.'' Now that adequate funding is in 
place, we need to assure that Congressional mandated programs are 
actually implemented. We are pleased that DCoE is headed by BG Loree 
Sutton along with a cadre of professionals and experts in TBI. We hope 
that the DOD will defer to their expertise in deciding the best means 
to develop a true Center of Excellence for TBI.
    DCoE staff recently submitted the proposed budget for fiscal year 
2010, up the chain of command, but bureaucrats within the DOD have not 
supported such programs as the pilot project for the minimally 
conscious. The minimally conscious program was in the NDAA and endorsed 
by experts in TBI treatment and research, as well by officials at DCoE. 
All facets are ready to go and the program in its entirety could be 
stood up by this fall. The pilot project is a unique attempt to provide 
our most injured wounded warriors with cutting edge care to help them 
regain consciousness. There is no other effort like it being done by 
the VA or DOD. Severely injured wounded warriors deserve the most 
cutting edge treatment for a chance to return to their lives. They do 
not deserve misdiagnosis or a decree of futility, only to be sent to 
nursing homes.

The Minimally Conscious Program: Improving Outcomes for Wounded 
        Warriors with Disorders of Consciousness
    Disorders of consciousness (DOC) include coma, the vegetative state 
(VS) and the minimally conscious state (MCS). These disorders are among 
the most misunderstood conditions in medicine and are an important 
challenge for scientific inquiry. Published estimates of diagnostic 
error among patients with disorders of consciousness range from 15-43 
percent. The highly publicized case of Terri Schiavo revealed the depth 
of confusion, misinformation, and unfounded speculation concerning 
these disorders that exists among the public, the media, Government 
officials, and healthcare professionals. To some extent, these problems 
should have been avoidable, because well-accepted definitions, 
diagnostic criteria, and prognostic parameters concerning coma, VS, and 
MCS are available in the scientific literature. Although all of these 
disorders involve severe alteration of awareness of self and 
environment, there is clear and growing evidence that subtle but 
important clinical differences exist between these states of altered 
consciousness that impact access to treatment, management decisions, 
outcomes, family adjustment, and cost of care. Failure to recognize 
these differences may result in misdiagnosis, inaccurate prognosis, 
inappropriate treatment recommendations and improper management of 
fiscal and human resources.

Incidence and prevalence of VS and MCS in the U.S.
    Accurate estimates of the incidence and prevalence of disorders of 
consciousness are challenging to obtain for several reasons. First, it 
is difficult to find persons with these disorders across the many 
different locations where they receive care, and to follow them over 
time to see if they improve. In addition, the lack of International 
Classification of Disease diagnostic codes for MCS makes it difficult 
to track the number of cases using currently available data. Finally, 
the prevalence of both the VS and MCS is influenced by survival, which 
is dependent upon access to care, quality of care and decisions to 
withdraw care.
    As a result of these challenges, knowledge of the epidemiology of 
DOC is extremely limited. It is estimated that at least 4,200 new 
individuals with the VS are diagnosed each year in the United States. 
The incidence of new cases of MCS, including the number of persons who 
transition from VS to MCS, has not been determined. Regarding the 
prevalence, published estimates suggest that approximately 315,000 
Americans are living with a disorder of consciousness, including 35,000 
in VS and 280,000 in MCS. An estimated 40 percent of persons with DOC 
are children. These figures most likely under represent the frequency 
of occurrence of VS and MCS because of the lack of surveillance in 
subacute settings in which most of these individuals reside. Detailed 
information about persons with VS and MCS by age, sex, and cause of the 
disorder has not been reported.

Incidence and prevalence of VS and MCS among wounded warriors
    The exact number of wounded warriors from Operation Iraqi Freedom 
and Operation Enduring Freedom in the vegetative and minimally 
conscious state is unknown. DVBIC reports that 4 percent, or 
approximately 223 individuals with severe TBI have been seen and or 
treated by the DVBIC. This is an underestimation because it does not 
include those seen or treated at other military hospitals and programs.
    The DVBIC/DCoE program could be stood up by this fall if located at 
the Hiram G. Andrews Center in Johnstown, Pennsylvania. The program 
plans to fully assess and research patient conditions and responses, 
wean patients from ventilators, provide complete medical care, get 
patients to the point where they can communicate, involve family and 
consultants via teleconferencing and telerehabilitation, and develop 
assistive devices for the patients to improve quality of life and 
reduce the need for skilled nursing facilities which will decrease the 
burden to both the family and society.
    The DVBIC/DCoE pilot project will utilize the latest technology and 
scientific evidence to treat wounded warriors with TBI. Nothing being 
done by the VA or the DOD comes close to the goals for this pilot 
project. There are numerous stories of young men and women who were 
considered hopeless, only to fully recover conscious and functioning. 
No one better deserves the most cutting edge research and care than our 
wounded warriors. The VA Polytrauma Centers provide excellent state-of-
the-art care for a handful of severely injured. Our troops deserve a 
step above, and all severely injured should be given the opportunity to 
hope for recovery.
    We urge your support for $3,750,000 in the DOD Appropriations bill 
for fiscal year 2009 for the pilot program for the minimally conscious.
    In summary, we request a total of $28 million for the DVBIC, 
understanding that is only a component of the DCoE, we want to be sure 
that the same level of funding for TBI is given next year as was given 
this year.
    As the DOD implements the initiatives of the NDAA and directives 
from appropriations, it cannot lose sight of those wounded warriors who 
may be forgotten because they are at the extremes of the spectrum of 
TBI. Many of the walking wounded do not even know they have TBI. Others 
are so severely injured they are misdiagnosed as hopeless. The DCoE can 
address both of these issues through collaborative efforts with 
communities and developing treatments to provide hope for the most 
injured.
    As we have seen in years past, it is your leadership that has 
assured the care of troops with TBI. If we could rely on the layers of 
bureaucracy to take responsibility for identifying and treating troops 
with TBI, then we wouldn't have had to come before your committee for 
some 15 years asking for plus ups of $5, $10, or $12 million to 
supplement a $7 million base budget. Now that the core commitment by 
the DOD is there, we cannot lose the opportunity to assure that funds 
are directed properly, efficiently and effectively. Time is, and has 
always been, of the essence when it comes to TBI.
    Thank you for your wisdom, support, and leadership in providing 
critical resources to our troops.

    Senator Inouye. Now may I call upon Captain Walt Steiner, 
President of the Naval Reserve Association.

STATEMENT OF CAPTAIN WALT STEINER, UNITED STATES NAVY 
            (RETIRED), PRESIDENT, NAVAL RESERVE 
            ASSOCIATION
    Captain Steiner. Chairman Inouye and Ranking Member 
Stevens: The Naval Reserve Association (NRA) is very grateful 
to have the opportunity to testify today. We want to thank this 
subcommittee for the ongoing stewardship on the important 
issues of national defense and especially the reconstitution 
and transformation of the Navy. Your unwavering support for our 
deployed marines and service members and sailors in Iraq and 
Afghanistan and for the worldwide fight against terrorism is of 
crucial importance and warriors a top priority.
    In keeping with that priority, we urge this subcommittee to 
immediately appropriate 2008 supplemental funds to continue to 
support the ongoing war against terrorism.
    NRA would like to highlight some other areas of concern. We 
support the utilization of Navy reservists in operational 
reserve support roles, but we also believe that Chairman 
Mullen's October 2007 call for a strategic reserve should be 
heeded by the Navy. We interpret ``strategic reserve'' to mean 
capability-based commissioned Reserve units with assigned 
missions and roles and organic equipment, which should be 
maintained in order to ensure that the United States is 
prepared to surge for military operations against near 
competitor states or other threats at any point in the near 
future, or in the future.
    The NRA believes that the administration and Congress must 
make it a high priority to maintain the end strengths of 
already overworked military forces. This includes the Navy 
Reserve. At a minimum, the Navy Reserve should be stabilized at 
68,000 members.
    We continue to have concerns with how the Reserve 
components are being utilized by the Pentagon. Our Navy 
reservists are pleased to be making a significant contribution 
to the Nation's defense as operational Reserve forces. However, 
the reality of it all is that the added stress on the Reserve 
could pose long-term consequences for our country in 
recruiting, retention, family, and employer support. This issue 
deserves your attention.
    Our Navy reservists are fighting the wars in Iraq and 
Afghanistan on the ground, in the air, and on the sea, and at 
sea. Many if not most of these excellent reservists are the 
product of the Naval Reserve that predated Operation Iraqi 
Freedom. As such, the more senior officers and enlisted were 
developed in organized, commissioned and organically equipped 
units where their leadership skills and operational experience 
were tested and hardened by the rigors of unit command and 
responsibility. That tremendous reservoir of operational 
capability must be maintained.
    There is a risk that they will not be able to do so under a 
projection of the present model of utilization, and current 
Active-Reserve integration plans do not call for leadership 
roles for midgrade enlisted or officers.
    Regarding equipment, the NRA does support the Chief of 
Naval Operations' unfunded programs list. We do not agree with 
the Pentagon's position recommending the repeal of separate 
budget requests for procuring reserve equipment and ask this 
subcommittee to continue to provide separate appropriations 
against unfunded NGRE requirements in the NGRE appropriation.
    The Naval Reserve Association strongly believes that 
dedicated Naval Reserve units with their own equipment are a 
major factor in recruiting, retaining, and training the 
qualified personnel in the Navy Reserve. The Reserve should not 
be viewed solely as a labor pool to fill a gap in existing 
active duty manning.
    Specific equipment and funding needs at the Navy Reserve 
that we support include:
    Funding the C-40A aircraft to replace dangerously aged C-
9s. Two aircraft are currently in the 2009 supplemental and 
four in the 2009 annual funding;
    Replace the C-20;
    Fund six C-130Js for the Naval Reserve;
    Increase funding for the Naval Reserve equipment for the 
naval coast warfare mission; and
    Establish a floor of 68,000 for Navy Reserve end strength.
    We thank this subcommittee for consideration of these tools 
to assist the Guard and Reserve in an age of increased 
sacrifice and utilization of these forces. Additionally, we can 
never forget the families and employers of these unselfish 
volunteers who serve our country in uniform.
    Thank you.
    Senator Inouye. Thank you very much, Captain Steiner.
    [The statement follows:]

            Prepared Statement of Captain Walter K. Steiner

    The Naval Reserve Association traces its roots back to 1919, and is 
devoted solely to service to the Nation, Navy, the Navy Reserve, and 
Navy Reserve officers and enlisted. It is the premier national 
education and professional organization for Navy Reserve personnel, and 
the Association Voice of the Navy Reserve .
    Full membership is offered to all members of the services and NRA 
members come from all ranks and components.
    The Association has just under 23,000 members from all 50 States. 
Forty-five percent of the Association membership is drilling and active 
reservists and the remaining 55 percent are made up of reserve 
retirees, veterans, and involved civilians. The national headquarters 
is located at 1619 King Street, Alexandria, VA.
    Mr. Chairman and distinguished members of the committee, the 
Association is very grateful to have the opportunity to testify today.
    Our Association looks at equipment, force structure, and policy 
issues that are not normally addressed by the Office of Secretary of 
the Navy.
    We would like to thank this committee for the on-going stewardship 
on the important issues of national defense and, especially, the 
reconstitution and transformation of the Navy. At a time of war, its 
pro-defense and non-partisan leadership sets the example.
    Your unwavering support for our deployed service members in Iraq 
and Afghanistan and for the world-wide fight against terrorism is of 
crucial importance and warrants a top priority. NRA would like to 
highlight some areas of emphasis.
    As a Nation, we need to supply our service members with the 
critical equipment and support needed for individual training, unit 
training, and combat. Additionally, we can never forget the families 
and employers of these unselfish volunteers.

                            NGREA EQUIPMENT

    In recent years, the Pentagon has recommended the repeal of 
separate budget requests for procuring Reserve equipment. A combined 
equipment appropriation for each service does not guarantee needed 
equipment for the National Guard and Reserve Components. For the Navy 
Reserve, this is especially true. We do not agree with the Pentagon's 
position on this issue and ask this committee to continue to provide 
separate appropriations against unfunded NG and RE requirements.
    People join the Reserve Components to serve their country and 
operate equipment. Recruiting and retention issues have moved to center 
stage for all services and their reserve components. In all likelihood, 
the Navy will not meet its target for new Navy Reservists and the Navy 
Reserve could be challenged to appreciably slow the departure of 
experienced personnel this fiscal year. We've heard that Reserve chiefs 
are in agreement, expressing concern that senior personnel could leave 
when equipment is not available for training.
    Besides re-enlistment bonuses which are needed, the NRA strongly 
believes that dedicated Navy Reserve equipment and Navy Reserve units 
are a major factor in recruiting, retaining and training qualified 
personnel in the Navy Reserve.

                              END-STRENGTH

    In addition to equipment to accomplish assigned missions, the NRA 
believes that the administration and Congress must make it a high 
priority to maintain, if not increase, the end strengths of already 
overworked and perhaps even overstretched, military forces. This 
includes the Navy Reserve. The Navy Reserve has always proven to be a 
highly cost-effective and superbly capable operational and surge force 
in times of both peace and war. At a minimum, the Navy Reserve should 
be stabilized at 68,000 personnel.

                     OPERATIONAL NAVY RESERVE FORCE

    We continue to have concerns on how the Guard and Reserve are being 
utilized by the Pentagon, currently mobilizing over 615,000 Guard and 
Reserve. The move away from the traditional mission of the Guard and 
Reserves to an operational part-time fighting force is the only way our 
country could fulfill our immediate defense requirements after 9/11. 
However, for the foreseeable future, we must be realistic about what 
the unintended consequences are from this very high rate of usage. 
History shows that a Reserve force is needed for any country to 
adequately meet its defense requirements, and to enable success in 
offensive operations, when needed. Our current Guard and Reserve 
members are pleased to be making a significant contribution to the 
Nation's defense as operational reserve forces; however, the reality of 
it all is that the added stress on the Guard and Reserve could pose 
long term consequences for our country in recruiting, retention, family 
and employer support. This issue deserves your attention in a continuum 
of benefits that includes pay, compensation, retirement issues, Family 
Support Programs, Transition Assistance Programs and for the Employer 
Support for the Guard and Reserve programs.
    The Navy Reserve has decreased from 86,000 to 66,000 in just 5 
years. At the same time, the Navy Reserve continues to mobilize over 
4,500 sailors in support for the on-going global war on terror. Your 
Navy Reserve personnel are fighting the wars in Iraq and Afghanistan. 
It should be noted that many, if not most, of these excellent 
Reservists are the product of the Naval Reserve policies and force 
structure that pre-date 9/11. As such, and in particular, the more 
senior officers and enlisted were developed in organized, commissioned 
and organically equipped units where their leadership skills and 
operational experience were tested and hardened by the rigors of unit 
command and responsibility. Care must be taken that tremendous 
reservoir of operational capability be maintained and not capriciously 
dissipated. Officers, Chief Petty Officers, and Petty Officers need to 
exercise leadership and professional competence to maintain their 
capabilities. There is a risk that they will not be able to do so in 
the present model of utilization, and current integration does not call 
for leadership roles of mid-grate enlisted or officers.
    That said, we recognize there are many issues that need to be 
addressed by this committee and this Congress. The NRA supports the 
Navy Unfunded Programs list provided by the Chief of Naval Operations.
Specific equipment and funding needs of the Navy Reserve include:
    C-40 funding to replace dangerously aged C-9s. These are war 
fighting logistic weapons systems. Two aircraft are currently 
programmed for fiscal year 2009 supplemental. We have to replace aging 
C-9s to maintain Navy and Marine Corps engagement in the global war on 
terrorism. Our country needs these warfigting systems because;
    First:
  --It is the entire Navy's only world-wide intra-theater organic 
        airlift, operated by the U.S. Navy, and meet critical fleet 
        needs on a daily basis around the clock.
  --Navy currently operates nine C-40As, in three locations: Fort 
        Worth, Jacksonville, and San Diego.
  --A pending CNA study--substantiates the requirements for 31-35 C-
        40As to replace aging C-9s.
    Second:
  --CNO, SECNAV, and Department of Defense (DOD) support the 
        requirement for C-40A's.
  --Commander, Naval Air Force 2007 Top Priority List stated the 
        requirement for at least 32 aircraft.
    Third:
  --Current average age of remaining C-9s that the C-40 replaces is 37 
        years!
  --There will be no commercial operation of the C-9s or derivates by 
        2011.
  --C-9s cannot meet the GWOT requirement, due to MC rates, and 
        availability of only 171 days in 2006.
  --Modifications required to make C-9s compliant with stage III Noise 
        compliance, and worldwide Communications/Navigation/
        Surveillance/Air Traffic Management compliance--are cost 
        prohibitive.
  --There are growing indications that the availability and Mission 
        Capability rates of the C-20Gs.
    Fourth:
  --737 commercial availability is slipping away, if we do not act now; 
        loss of production line positions in fiscal year 2008-09--due 
        to commercial demand would slip to 2013, increase in DOD, 
        service unit costs, and endanger fleet readiness and current 
        operations.
    C-130J procurement funding for six C-130s for the Navy Reserve.
    New Accession Training Bonus is for the Navy Reserve force non-
prior service accession program. This program will pay to meet 
increased Reserve Component recruiting mission. This supports the 
global war on terrorism through accessing Reserve members into: 
Seabees, Master-at-Arms, Intelligence Specialists, and Hospital 
Corpsmen rates.
    A full range of Navy Expeditionary Command equipment for Navy 
Reserve units.
    Overwhelmingly, we have heard Reserve Chiefs and Senior Enlisted 
Advisors discuss the need and requirement for more and better equipment 
for Reserve Component training. The Navy Reserve is in dire need of 
equipment to keep personnel in the Navy Reserve and to keep them 
trained. Approximately 4,500 Navy Reserve personnel are on recall each 
and every month since 9/11. We must have equipment and unit cohesion to 
keep personnel trained. This means--Navy Reserve equipment and Navy 
Reserve specific units with equipment.
Additional issues
            The Reserve Component as a worker pool
    Issue.--The view of the Reserve Component that has been suggested 
within the Pentagon is to consider the Reserve as of a labor pool, 
where Reservists could be brought onto Active Duty at the needs of a 
service and returned, when the requirement is no longer needed. It has 
also been suggested that an Active Duty member should be able to rotate 
off active duty for a period, spending that tenure as a Reservist, 
returning to active duty when family, or education matters are 
corrected.
    Position.--The Guard and Reserve should not be viewed as a 
temporary-hiring agency. Too often the Active Component views the 
recall of a Reservist as a means to fill a gap in existing active duty 
manning. If the active Navy is undermanned for its assigned global 
mission, it is the responsibility of the Pentagon and the Congress to 
address those shortfalls in end-strength. If the Navy wishes to have a 
surge capability in strategic reserve, then it needs to allocate those 
missions to the Navy Reserve, and increase the end-strength of the Navy 
Reserve to support those capabilities.

                          EQUIPMENT OWNERSHIP

    Issue.--An internal study by the Navy has suggested that Naval 
Reserve equipment should be transferred to the Navy. At first glance, 
the recommendation of transferring Reserve Component hardware back to 
the Active component appears not to be a personnel issue. However, 
nothing could be more of a personnel readiness issue and is ill 
advised. Besides being attempted several times before, this issue needs 
to be addressed if the current National Security Strategy is to 
succeed.
    Position.--The overwhelming majority of Reserve and Guard members 
join the RC to have hands-on experience on equipment. The training and 
personnel readiness of Guard and Reserve members depends on constant 
hands-on equipment exposure. History shows, this can only be 
accomplished through Reserve and Guard equipment, since the training 
cycles of Active Components are rarely if ever--synchronized with the 
training or exercise times of Guard and Reserve units. Additionally, 
historical records show that Guard and Reserve units with hardware 
maintain equipment at or higher than average material and often better 
training readiness. Current and future war fighting requirements will 
need these highly qualified units when the Combatant Commanders require 
fully ready units.
    Reserve and Guard units have proven their readiness. The personnel 
readiness, retention, and training of Reserve and Guard members will 
depend on them having Reserve equipment that they can utilize, 
maintain, train on, and deploy with when called upon. Depending on 
hardware from the Active Component, has never been successful for many 
functional reasons. The NRA recommends the committee strengthen the 
Reserve and Guard equipment appropriation in order to maintain 
optimally qualified and trained Reserve and Guard personnel.
    The Four ``P's'' can identify the issues that are important to 
Reservists: Pay, Promotion, Points, and Pride.
  --Pay and compensation needs to be competitive. As Reservists have 
        dual careers, they have had other sources of income. But, this 
        is changing with continuous recalls, which they are glad to do. 
        If pay and compensation are out of sync, or expenses too high, 
        a Reservist knows that time may be better invested elsewhere.
  --Promotions need to be fairly regular, and attainable. Promotions 
        have to be accomplished through an established system and be 
        cyclically predictable. We are learning that leadership roles 
        are as important as ever, and that leaders take a long time to 
        develop and if those leadership skills are not constantly 
        exercised, they will atrophy.
  --Points reflect a Reservist's ambitions to earn retirement. The 
        recently passed reserve retirement benefit is a number one 
        priority. Retirement points and the reserve retirement 
        provision are as creditable a reinforcement as pay. Guard and 
        Reserve members are serving their second and third times in 
        OIF/OEF; this is an important issue to them and their families.
  --Pride is a combination of professionalism, parity and awards: doing 
        the job well with requisite equipment, and being recognized for 
        one's efforts. While people may not remember exactly what you 
        did, or what you said, they will always remember how you made 
        them feel.
    In summary, we believe the committee needs to address the following 
issues for Navy Reservists in the best interest of our national 
security:
  --Fund C-40A for the Navy Reserve, per the fiscal year 2009 
        Supplemental; we must replace the C-9s and replace the C-20Gs 
        in Hawaii and Maryland.
  --Fund six C-130Js for the Navy Reserve, per the CNO unfunded list.
  --Increase funding for Naval Reserve equipment in NGREA Naval Coastal 
        Warfare Equipment
  --Establish an End-strength cap of 68,000 as a floor for end strength 
        to Navy Reserve manpower--providing for surge-ability and 
        operational force.
    We thank the committee for consideration of these tools to assist 
the Guard and Reserve in an age of increased sacrifice and utilization 
of these forces.
    Thank you for your ongoing support of the Nation, the Armed 
Services, the United States Navy, the United States Navy Reserve, and 
the fine men and women who volunteer to defend our country.

    Senator Inouye. Now our next witness is the Medical 
Liaison, Mesothelioma Applied Research Foundation, Ms. Mary 
Hesdorffer.

STATEMENT OF MARY HESDORFFER, MEDICAL LIAISON, 
            MESOTHELIOMA APPLIED RESEARCH FOUNDATION
    Ms. Hesdorffer. Chairman Inouye, Ranking Member Stevens, 
and the distinguished members of the Defense Appropriations 
subcommittee: Thank you for allowing me to testify in front of 
you. I'm a nurse practitioner and I work as the Medical Liaison 
for the Mesothelioma Applied Research Foundation. We're 
dedicated to advancing medical research to improve treatments 
for mesothelioma.
    Mesothelioma, as you may know, is one of the rarest and 
most aggressive cancers facing people today. It attacks the 
linings of the lung, the pericardium, and the abdomen. It's 
caused by direct exposure to asbestos. Before we knew the 
properties of asbestos, it was used widely because it had 
wonderful properties. It was used in engines, nuclear reactors, 
decking materials, pipe coverings, hull insulation, pumps, 
gaskets, boilers, distillers, evaporators, rope packing, and 
brakes and clutches on winches. It was used all over the Navy 
ships, even in living spaces, where pipes overhead were lined 
with asbestos. It was used on planes, on military vehicles, 
insulating materials in quonset huts.
    As a result, millions of defense people have been exposed 
to asbestos. In one study in Groton, Connecticut, 100,000 
people who worked in the Navy shipyard were exposed there to 
asbestos.
    I have specialized in treating this disease. There is only 
one approved regimen to treat the disease and the life 
expectancy with that regimen is only 14 months.
    I want to just speak to you a little bit about some of the 
military people who have been exposed and what's happened to 
them. Chief Naval Officer Admiral Elmo Zumwalt, who led the 
Navy during Vietnam, was diagnosed with mesothelioma and died 
within 3 months.
    Another fellow, Lewis Deets, at the age of 18 volunteered 
to serve in Vietnam. He was not drafted; he volunteered. He was 
serving on the U.S.S. Kitty Hawk. A fire broke out in the 
engine room. The engine was covered with asbestos because 
that's how we insulated the boilers. That happened in 1965. He 
developed the disease, he was dead within 4 months.
    Bob Tregget is now alive. He's 57 years old. He served on a 
nuclear submarine. He developed mesothelioma. He's undergone 
surgery where they removed his lung, the lining of his lung, 
the lining of his heart, part of his diaphragm in an effort to 
save his life. The tumor has now since recurred on his other 
lung.
    In addition to these heroes exposed 10 to 50 years ago, 
because we have a very long latency period with this disease, 
at 9/11 we had tons of asbestos that was exposed, that was 
released into the air. My son Alex Plitsas, who is currently 
serving now in Sadr City, was a volunteer fireman at the time 
and was exposed to asbestos during 9/11. So this is very dear 
to my heart, in addition to the known asbestos exposure in Iraq 
today.
    I want to thank the subcommittee because this year in 2008 
you appropriated money and you allowed us to be part of your 
reviewed medical research program. We're urging you again to 
include us in the year 2009. I need to provide hope to my 
patients that I'm in daily contact with, and right now it's so 
difficult to give them hope with a disease that has no cure and 
has only one approved treatment. We desperately need your 
research dollars for all the vets and for all the people who 
have served their country so valiantly in the past and in the 
future.
    Thank you.
    Senator Inouye. I thank you very much, Ms. Hesdorffer. 
We'll do what we can.
    Ms. Hesdorffer. Thank you.
    [The statement follows:]

                 Prepared Statement of Mary Hesodorffer

    Chairman Inouye, Ranking Member Stevens, and the distinguished 
members of the U.S. Senate Defense Appropriations subcommittee: Thank 
you for this opportunity, a week after Memorial Day, to address a 
tragic disease that disproportionately kills our veterans and heroes. 
My name is Mary Hesdorffer. I am a nurse practitioner and the Medical 
Liaison for the Mesothelioma Applied Research Foundation, the national 
nonprofit collaboration of researchers, physicians, advocates, 
patients, and families dedicated to advancing medical research to 
improve treatments for mesothelioma.

                         MALIGNANT MESOTHELIOMA

    Mesothelioma or meso is an aggressive cancer of the lining of the 
lungs, abdomen or heart, caused by asbestos exposure. The tumor is 
among the most painful and fatal of cancers, as it invades the chest 
wall, destroys vital organs, and crushes the lungs.

            THE ``MAGIC MINERAL''--EXPOSURES WERE WIDESPREAD

    As you may know, until its fatal toxicity became fully recognized, 
asbestos was regarded as the magic mineral. It has excellent 
fireproofing, insulating, filling, and bonding properties. By the late 
1930's and through at least the late 70's the Navy was using it 
extensively. It was used in engines, nuclear reactors, decking 
materials, pipe covering, hull insulation, valves, pumps, gaskets, 
boilers, distillers, evaporators, soot blowers, air conditioners, rope 
packing, and brakes and clutches on winches. In fact it was used all 
over Navy ships, even in living spaces where pipes were overhead and in 
kitchens where asbestos was used in ovens and in the wiring of 
appliances. Aside from Navy ships, asbestos was also used on military 
planes extensively, on military vehicles, and as insulating material on 
quonset huts and living quarters.
    As a result, millions of military defense personnel, servicemen, 
and shipyard workers, were heavily exposed. A study at the Groton, 
Connecticut, shipyard found that over 100,000 workers had been exposed 
to asbestos over the years at just this one shipyard. The disease takes 
10 to 50 years to develop, so many of these heroes who served our 
country are just now becoming sick.

                     MESOTHELIOMA TAKES OUR HEROES

    For the past 12 years I have specialized in meso, working with 
researchers, caring for patients, developing clinical trials to attempt 
to treat them, and working to manage their pain. I know who they are 
and what they suffer. These are the people who served our country's 
defense and built its fleet. They are heroes like former Chief Naval 
Officer Admiral Elmo Zumwalt, Jr., who led the Navy during Vietnam and 
was renowned for his concern for enlisted men. Despite his rank, 
prestige, power, and leadership in protecting the health of Navy 
service men and veterans, Admiral Zumwalt died at Duke University in 
2000, just 3 months after being diagnosed with mesothelioma.
    Lewis Deets was another of these heroes. Four days after turning 
the legal age of 18, Lewis joined the Navy. He was not drafted. He 
volunteered, willingly putting his life on the line to serve his 
country in Vietnam. He served in the war for more than 4 years, from 
1962 to 1967, as a ship boilerman. For his valiance in combat 
operations against the guerilla forces in Vietnam he received a Letter 
of Commendation and The Navy Unit Commendation Ribbon for Exceptional 
Service. In December 1965, while Lewis was serving aboard the U.S.S. 
Kitty Hawk in the Gulf of Tonkin, a fierce fire broke out. The boilers, 
filled with asbestos, were burning. Two sailors were killed and 29 were 
injured. Lewis was one of the 29 injured; he suffered smoke inhalation 
while fighting the fire. After the fire, he helped rebuild the boilers, 
replacing the burned asbestos blocks. In 1999, he developed 
mesothelioma and died 4 months later at age 55.
    Bob Tregget is a 57-year-old retired sailor who was diagnosed with 
mesothelioma a few years ago. Bob was exposed to asbestos as a sailor 
in the U.S. Navy from 1965 to 1972, proud to serve his country aboard a 
nuclear submarine whose mission was to deter a nuclear attack upon the 
United States. To treat his disease, Bob had what today is the state-
of-the-art for mesothelioma treatment. He had 3 months of systemic 
chemotherapy with a new, and quite toxic, drug combination. Then he had 
a grueling surgery, to open up his chest, remove his sixth rib, 
amputate his right lung, remove the diaphragm and parts of the linings 
around his lungs and his heart. After 2 weeks of postoperative 
hospitalization to recover and still with substantial postoperative 
pain, he had radiation, which left him with second degree burns on his 
back, in his mouth, and in his airways. Recently, the tumor returned on 
his left side, but Bob is hanging on.
    Admiral Zumwalt's, Boilerman Deets', and sailor Tregget's stories 
are not atypical. I have treated many more meso patients who were 
exposed in the Navy, or working in a shipyard. Almost 3,000 Americans 
die each year of meso, and one study found that one-third of patients 
were exposed on U.S. Navy ships or shipyards. That's 1,000 U.S. 
veterans and shipyard workers per year, lost through service to 
country, just as if they had been on a battlefield.
    In addition to these heroes, exposed 10 to 50 years ago and 
developing the disease today, many more are being exposed now and will 
develop the disease in the next 10 to 50 years. There is grave concern 
now for the heroic first responders from 9/11. My son, Alex Plitsas, 
who is currently serving in Iraq, was one of those responders so this 
is very close to my heart. The EPA now acknowledges that hundreds of 
tons of asbestos were released into the atmosphere, and that 
firefighters, police officers, paramedics, construction workers, and 
volunteers who worked in the rubble at Ground Zero are at greatest 
risk. Residents in close proximity to the WTC towers and those who 
attended schools nearby are also at risk.
    Asbestos exposures have been reported among the troops now in Iraq. 
The destruction wrought by Katrina has potentially exposed countless 
more. Asbestos is virtually omni-present in all the buildings 
constructed before the late 1970s. The utility tunnels in this very 
building have dangerous levels. While active asbestos usage is not as 
heavy today as in the past, even low-dose, incidental exposures can 
cause meso. Congressman Bruce Vento, the distinguished member from 
Minnesota, happened to work near an asbestos-insulated boiler in a 
brewery in Minneapolis for two summers while putting himself through 
college. As a result, he died of meso in 2000. His wife Sue Vento now 
champions efforts to raise awareness about this deadly disease and the 
need for a Federal investment in research toward a cure, and testified 
before you last year. For those who could develop mesothelioma as a 
result of all these current exposures, the only hope is effective 
treatment.

                 MESOTHELIOMA FUNDING HAS NOT KEPT PACE

    Despite this deadly toll on our heroes and patriots, meso has been 
an orphan disease.
    With the huge Federal investment in cancer research through the 
National Cancer Institute (NCI), and billions spent in biomedical 
research through the Department of Defense (DOD) Congressionally 
Directed Research Program, we are winning the war on cancer and many 
other diseases. But for meso, the NCI has provided virtually no 
funding, in the range of only $1.7 million to $4 million annually over 
the course of the last 5 years, and from 1992 until last year, the DOD 
did not invest in any meso research, despite the military-service 
connection. As a result, advancements in the treatment of mesothelioma 
have lagged far behind other cancers. With current treatment options, 
including aggressive surgical procedures, meso patients have an average 
survival of only 4-14 months, ranking it as one of the most aggressive, 
and deadly cancers that our veterans and others face today.

                           NEW OPPORTUNITIES

    But there is good news. A small but passionate community of 
physicians and researchers is committed to finding a cure. The decades-
long hopelessness that treatment was futile is no longer true. The FDA 
has now approved one drug shown to be effective against the tumor. 
Median survival on this drug averages 12.2 months. This is just the 
beginning as having one drug to treat this aggressive and fatal cancer 
is not enough. Most cancers have over a dozen drugs approved for 
treatment yet meso only has one! Biomarkers for meso are being 
identified and one of them received FDA approval just last year. Two of 
the most exciting areas in cancer research generally--gene therapy and 
anti-angiogenesis--look particularly promising in meso.
    With its seed-money grant funding, the Foundation is supporting 
research in these and other areas. To date we have funded over $5 
million to investigators working on novel, promising research projects. 
Researchers are learning which genes and proteins can give a signature 
for the disease, and which of these also control the pathways that will 
turn a normal cell into a mesothelioma. Now we need the Federal 
Government to partner with us in order to make sure that promising 
findings receive the funding necessary to be fully developed into 
effective treatments for patients. The scientific community believes 
that we can continue to advance the treatment of this disease and 
increase its survivability if the Federal Government makes a concerted 
investment.
    Last year, there was another very hopeful step. At the direction of 
your committee, the DOD last year--for the first time ever--included 
meso as an area of emphasis in the DOD's Peer Reviewed Medical Research 
Program. In fiscal year 2008, this will enable mesothelioma researchers 
to compete for Federal funds based on the scientific merit of their 
work, and provide urgently needed resources to explore new treatments 
and build a better understanding this disease. The DOD just released 
its Program Announcement and the Foundation has heard from dozens of 
meso researchers who are interested in applying.
    To keep the momentum of research interest going, for fiscal year 
2009 we ask you to again include meso in the list of congressionally 
identified priority research areas. This will not expand the Federal 
budget. But it will crucially enable mesothelioma researchers to 
compete for existing Federal funds based on the scientific merit of 
their work. This will translate directly to saving lives and reducing 
suffering of patients and families battling meso. We look to the Senate 
Defense Appropriations subcommittee to continue to provide leadership 
and hope to the service men and women and veterans who develop this 
cancer after serving our Nation. Thank you for the opportunity to 
provide testimony before the subcommittee and we hope that we can work 
together to develop life-saving treatments for mesothelioma.

    Senator Inouye. Our next panel----
    Senator Stevens. Can I just ask one question?
    Senator Inouye. Please do.
    Senator Stevens. Mr. Foil, I'm very interested in your 
testimony because there's an increasing number of young people 
that are involved in automobile accidents that come out with 
brain injuries. You have this Defense and Veterans Brain Injury 
Center. Is that online? Can parents of children who've been 
injured in automobile accidents go online and get some idea 
what kind of treatment's available through your center?
    Mr. Foil. Yes, they can. We field calls like that all the 
time, Senator. That's the way my child was hurt. So I'll 
probably get several hundred calls each year about this, 
saying, where can we go, what can we do? But yes. And there are 
a number of agencies around the country who can do that for 
children. But it depends on the severity of the injury where 
they should go. There are lots of good level one trauma centers 
in the country today, but once you get out of that it's who 
knows.
    Senator Stevens. Well, we're seeing more and more brain 
injuries in young people in single car accidents where, you 
know, we have ice and what-not, they go off the road. But even 
worse in terms of when you hit----
    Mr. Foil. Are you talking about in Alaska, Senator?
    Senator Stevens. Yes.
    Mr. Foil. It's the number one cause of brain injury among 
young people in this country, car accidents. No question.
    Senator Stevens. I want to make sure that--I'm willing to 
help you, but I want to make sure that the information that's 
there is available to non-veterans as well as the veterans. I 
know you can't treat them, but at least some knowledge.
    Mr. Foil. There is information available. They can go to a 
number of web sites. But the Defense and Veterans Brain Injury 
Center really doesn't do that. But at NBIRTT we try and do what 
we can. We are small. We don't even have an office and we all 
do our stuff volunteer.
    Senator Stevens. Okay.
    Mr. Foil. By the way, Senator Inouye, congratulations on 
your new marriage, and much happiness.
    Senator Stevens. Well, I would hope there would be 
someplace that people could go for that, because, as you say, 
your son was involved----
    Mr. Foil. Yes.
    Senator Stevens. But I think these people, particularly in 
rural areas, have to know what to do.
    Mr. Foil. It's a serious problem, particularly when you are 
in rural areas, because those first few hours, that means 
everything.
    Senator Stevens. That's right.
    Mr. Foil. So thank you for your comments.
    Senator Stevens. Thank you very much.
    Thank you, Senator.
    Senator Inouye. Thank you.
    Our last panel: Mr. Ronald Whitten, Mr. Richard Dean, 
Commander John Class, Dr. Wanda Wilson, and Mr. Bob Wolz.
    Our next witness is Mr. Ronald Whitten of the Lymphoma 
Research Foundation.

STATEMENT OF RONALD B. WHITTEN, BOARD MEMBER, GEORGIA 
            CHAPTER, LYMPHOMA RESEARCH FOUNDATION
    Mr. Whitten. Chairman Inouye, Ranking Member Stevens: Thank 
you for the opportunity to speak before you today regarding 
blood cancer research. My name is Ronald Whitten. I am a member 
of the Georgia chapter of the Lymphoma Research Foundation. I 
am also a lymphoma survivor. I was diagnosed in late 1997 with 
stage four non-Hodgkin's lymphoma, occurring above and below my 
diaphragm with bone marrow involvement. An aggressive course of 
treatment led to my complete clinical remission in August 1998.
    The good news is that many of us with less aggressive or 
indolent forms of lymphoma are living longer. This would not be 
possible without the research being conducted by scientists 
within the cancer research community.
    The disconcerting news is that there is no known cure for 
these and many other types of lymphoma. I consider myself very 
fortunate to have been blessed with continued years of 
marriage, family, and the special joy of grandparenting. But 
when I reflect on my survivorship, I am left with mixed 
feelings, knowing that so many people have lost their lives to 
this disease.
    I am saddened by our failure to have done more to find a 
cure. Yet I remain optimistic that some day we will win this 
long war on cancer.
    We'd like to express our appreciation to Congress and to 
this subcommittee specifically for its contributions to the 
battle against cancer. Today we are requesting that the 
subcommittee supplement existing cancer research efforts at the 
Department of Defense by establishing a $10 million dedicated 
stand-alone blood cancer research program. We're asking that 
the new research program encompass all forms of blood cancer, 
including lymphoma.
    We are confident that a research program focused on the 
blood cancers will yield tremendous benefits for the 
approximately 150,000 Americans who will be diagnosed with 
blood cancer this year and the hundreds of thousands who are 
currently living with this disease.
    Perhaps most importantly, the blood cancers are a 
compelling target for DOD investment because of the association 
between military service and the development of certain blood 
cancers. Military personnel may face a significant hazard from 
certain environmental exposures and therefore be at heightened 
risk for a blood cancer diagnosis. The linkage between exposure 
to one particular herbicide, Agent Orange, and blood cancer has 
been established by a special committee of the IOM. As a 
veteran of the Vietnam era and a health professional for more 
than 40 years, I have known and observed far too many veterans 
suffering from a range of psychological disorders and 
physiological diseases, including cancer.
    For many years, we were left with speculation, not science. 
Now we have clear recognition of the increased risk which some 
of our veterans are facing for blood and other cancer forms. 
The progress made by existing research efforts is generating 
optimism that some day a cure will be found, but adequate 
investment must be made to reach our goal. That is why we urge 
the subcommittee to expand the existing cancer research 
programs at the DOD to include this crucial blood cancer 
research component. Such a commitment would be complementary to 
the ongoing efforts by the NIH and private groups like the 
Lymphoma Research Foundation.
    Mr. Chairman, I thank you again for the opportunity to 
testify.
    Senator Inouye. Thank you very much, Mr. Whitten.
    [The statement follows:]

                Prepared Statement of Ronald B. Whitten

    Chairman Inouye, Ranking Member Stevens, and members of the 
subcommittee, thank you for the opportunity to speak before you today 
regarding research on lymphoma and other blood-related cancers. My name 
is Ronald Whitten. I am a board member of the Georgia Chapter of the 
Lymphoma Research Foundation (Foundation) and a member of the national 
organization's Public Policy Committee. The Lymphoma Research 
Foundation is the Nation's largest voluntary health organization 
devoted exclusively to funding lymphoma research and providing patients 
and healthcare professionals with critical information on the disease. 
The Foundation's mission is to eradicate lymphoma and serve those 
touched by this disease. To date, the Foundation has funded over $35 
million in lymphoma research, ranging from basic laboratory science to 
translational research.
    I am a lymphoma survivor; I was diagnosed in late 1997 with Stage 
IV non-Hodgkin lymphoma occurring above and below my diaphragm, with 
bone marrow involvement.
    A course of aggressive chemotherapy was followed by the 
administration of a biological agent, leading to a complete clinical 
remission in August of 1998. The good news is that many of us with less 
aggressive, or indolent, forms of lymphoma are living longer. This 
would not be possible without the research being conducted by 
scientists and physicians within the cancer research community. The 
disconcerting news is that there is no known cure for these and many 
other types of lymphoma.
    Lymphoma is a disease notorious for reoccurrence. Patients often 
repeat a cycle of remission, relapse, and re-treatment. The 5-year 
survival rate for non-Hodgkin lymphoma is 63 percent and the 10-year 
survival rate is only 51 percent. The incidence rate for the disease 
continues to grow. I consider myself very fortunate to have been 
blessed with continued years of marriage, family and the special joy of 
grand parenting. Likewise, to have been able to continue my life's work 
as a university professor, licensed clinical social worker and 
healthcare professional has been immensely rewarding.
    When I reflect on my survivorship, I am left with mixed feelings, 
knowing that so many children and young men and women have lost their 
lives to this disease. I am saddened by our failure to have done more 
to find a cure. Yet I remain optimistic that someday, we will win this 
long war on cancer.
    Today, we would like to express our appreciation to Congress and to 
this subcommittee specifically, for its contribution to the battle 
against cancer and leadership in supporting cancer research. The 
Department of Defense (DOD) has a distinguished history of conducting 
cutting edge research. Specifically, the Congressionally Directed 
Medical Research Program (CDMRP) has supported significant advancements 
in the study of several chronic diseases including breast, prostate, 
and ovarian cancers.
    We believe that a similarly focused research effort could lead to 
new approaches in the study and treatment of lymphoma. That is why we 
are requesting that the subcommittee supplement existing research 
efforts at the DOD by establishing a $10 million dedicated, stand-alone 
blood cancer research program. While my personal experience and the 
mission of the Lymphoma Research Foundation extends only to lymphoma, 
we are asking that the new research program encompass all forms of 
blood cancer, including leukemia, non-Hodgkin lymphoma, Hodgkin 
lymphoma, multiple myeloma, and myelodysplastic syndromes. There are 
benefits to a cross-cutting research effort that includes all of these 
diseases, not the least of which is maximizing Federal research dollars 
in the face of diminishing resources.
    It is important to note that many treatments initially developed 
for the blood cancers routinely lend themselves to the treatment of 
other types of cancer. Lymphoma is often called the ``Rosetta Stone'' 
of cancer research because it has helped unlock the mysteries of 
several other types of cancer. For example, a number of chemotherapy 
agents that are now used in the treatment of a wide range of solid 
tumors were originally used in the treatment of blood cancer. 
Therefore, an investment in blood cancer research will often contribute 
to the study and development of treatments for many other forms of 
cancer.
    Blood cancer research has been funded in the past through the Peer 
Reviewed Medical Research Program, an omnibus research initiative 
within the CDMRP. Although quality research has been supported in this 
manner, the ad hoc funding system has been insufficient to support a 
dynamic blood cancer research program. A stable and consistent source 
of funding is critical if we are to encourage researchers and 
institutions to pursue projects that will identify the origins of these 
diseases and develop treatments for the hundreds of thousands of 
Americans currently suffering from blood cancer.

                       THE BURDEN OF BLOOD CANCER

    Blood cancers are the fourth most commonly-diagnosed cancer in the 
United States; as many as 150,000 new cases of blood cancer and 
myelodysplastic syndrome will be diagnosed this year alone. Of these 
cases, over 74,000 will result in a lymphoma diagnosis.
    Lymphoma is the most common blood cancer and the third most common 
cancer of childhood. In this decade, we have witnessed an over 19 
percent increase in new lymphoma cases, at a pace greater than the 
number of new cancer diagnoses overall.
    Taken together, the hematological or blood-related cancers rank 
second in cancer mortality. More than 53,000 Americans will die from a 
blood cancer in 2008, while 41,000 will die from breast cancer, 29,000 
from prostate cancer and 16,000 from ovarian cancer. Survivors of blood 
cancer also bear a significant burden. Individuals who have been 
treated for a blood cancer may suffer a variety of adverse effects as a 
result of their treatment, including second malignancies, organ 
dysfunction, psycho-social disorders like depression, and other health-
related problems.

                     BLOOD CANCER AND THE MILITARY

    While we do not know the cause of most blood cancers, there is 
increasing information to suggest a link between some environmental 
carcinogens, pesticides, herbicides and bacteria, and the risk of 
developing blood cancer. Military personnel may face a significant 
hazard from such environmental exposures and therefore may be at 
heightened risk for a blood cancer diagnosis. The linkage between 
exposure to one particular herbicide--Agent Orange--and blood cancer 
has been established by the Committee to Review the Health Effects in 
Vietnam Veterans of Exposure to Herbicides, a special committee of the 
Institute of Medicine.
    As a veteran of the Vietnam era and a healthcare professional of 
more than 40 years, I have known and observed far too many veterans 
suffering from a range of social and psychological disorders and 
physiological diseases, including cancer. For many years we were left 
with speculation, not science. Now we have clear recognition of the 
increased risk which some of our veterans are facing for blood and 
other cancer forms. We must do more to better serve this population and 
one important way to do this is to expand efforts to identify improved 
treatments through research.

                  THE PROMISE OF BLOOD CANCER RESEARCH

    This is a particularly critical time to discuss investment in 
research: in the past decade, scientists have made significant 
breakthroughs, bringing blood cancer research fully into the 
translational era. Recent advances in the study of lymphoma have 
provided new insight into the etiology and treatment of the disease.
    One such development has occurred in the study of mantle cell 
lymphoma, an aggressive and rare form of the disease that less than 15 
years ago wasn't even recognized as a separate kind of lymphoma. As a 
result, survival with conventional treatment was so low that patients 
could only expect to live for 3 years. Fortunately, advances in 
research funded by the Foundation have provided a better understanding 
of this disease: since its inception in 2005, the Foundation's Mantle 
Cell Consortium has created a broad program including the work of 
nearly 100 researchers that focuses entirely on this single type of 
blood cancer. As a direct result of this targeted research, patient 
treatment response rates are improving and while we are still years 
away from discussing a cure, mantle cell patients are living longer and 
fuller lives.
    Similarly, advances are being made in the study and treatment of 
follicular lymphoma, the second most common form of non-Hodgkin 
lymphoma. Standard care for follicular lymphoma has often included a 
``wait and watch'' approach, in part because the treatments available 
to patients have numerous negative side effects. As a result, years of 
uncertainty for patients and their families can follow a diagnosis. But 
with the advent of new therapies like Rituxan, the drug that helped to 
bring me into remission, patients now have more options, and most 
importantly, they have more time. More time with their families, more 
time to fulfill promising careers, more time to live out their dreams.
    As we consider the possibilities that new treatment options bring, 
we cannot overlook that for many patients, managing their disease is a 
full-time job. The chronic nature of blood cancer requires diligent 
monitoring accompanied by difficult and often painful treatment. And 
unfortunately, even after remission is achieved, patients and survivors 
are often left dealing with a host of side effects in addition to the 
fear of relapse or a secondary malignancy. A concerted effort to study 
new blood cancer treatments could result in fewer disease 
complications, improve the quality of life of blood cancer patients and 
assist them as they contend with the long-lasting symptoms of their 
disease.
    Research has enabled great strides in the study and treatment of 
blood cancer, yet tens of thousands of patients are still left with 
limited options upon diagnosis. And despite the consistent progress 
being made, these diseases remain incurable. A strong, ongoing 
investment in basic and clinical research is vital if we are to work 
toward identifying more effective treatments and eventually a cure for 
every form of blood cancer.

                               CONCLUSION

    Our Nation faces many challenges, but we believe that a compelling 
case can be made for increasing Federal investment in blood cancer 
research. Learning more about the basic biology of blood cancer will 
show us how to identify disease processes and intervene at the earliest 
possible stages, limiting suffering and the possibility of death.
    The progress made by existing research efforts is generating 
optimism that someday, a cure will be found. But adequate investment 
must be made to reach our goal. That is why we urge the subcommittee to 
expand the existing cancer research programs at the DOD to include this 
crucial blood cancer research component. Such an effort would be 
complimentary to the ongoing efforts by the National Institutes of 
Health and private organizations like the Lymphoma Research Foundation. 
We believe that the results of such an initiative could yield 
substantial benefit not only for members of the military and for our 
Nation's veterans, but for every American facing a blood cancer 
diagnosis.
    As a lymphoma survivor and a volunteer in these endeavors to find a 
cure for lymphoma, I thank you again for the opportunity to testify. I 
am ready to answer your questions about lymphoma, and the Foundation 
stands ready to provide additional information on existing lymphoma 
research and promising avenues for collaboration on lymphoma and other 
blood cancer-specific research initiatives.

    Senator Inouye. Now may I call upon the Chief Executive 
Officer, Air Force Sergeants Association, Mr. Richard Dean.

STATEMENT OF CMSGT JONATHAN E. HAKE, USAF (RETIRED), 
            DIRECTOR OF MILITARY AND GOVERNMENT 
            RELATIONS, AIR FORCE SERGEANTS ASSOCIATION
    Mr. Hake. Good morning, Chairman Inouye. Mr. Dean is at 
Hanscomb Air Force Base today. I'm John Hake, the Director of 
Military and Government Relations with the Air Force Sergeants 
Association (AFSA). Ranking Member Stevens, on behalf of the 
125,000 members of the AFSA, I thank you for your continued 
support of airmen and their families.
    The AFSA is deeply concerned about drawing down end 
strength to fund Air Force weapons systems and modernization. 
The most valuable weapon that America has in its arsenal is the 
men and women that serve. We believe that a course correction 
is needed to avert long-term consequences that have already 
begun to adversely affect morale, retention, and combat 
readiness, and we strongly support increasing and fully funding 
Air Force end strength by 14,000.
    The AFSA is also particularly pleased by the tremendous 
strides that are made to implement and fund the wounded warrior 
programs that were spoken of earlier. Currently 15 percent of 
active duty and 25 percent of the Reserve forces are women. 
Many are serving or have served in Iraq and Afghanistan. We 
support increasing the VA budget to address the unique needs of 
these veterans now and into the future.
    We are deeply concerned about the pending Medicare 
reimbursement rate cuts. When these go into effect there will 
be a profound adverse impact on those that depend on TRICARE. 
During recent field visits our members shared stories about how 
the anticipated cuts were already causing providers, even in 
military-friendly communities like San Antonio and Colorado 
Springs, from accepting TRICARE patients. We strongly urge you 
to provide the necessary funding to avert these projected rate 
cuts for the military members and for the Medicare 
beneficiaries.
    In the area of veterans education benefits, the AFSA is 
extremely pleased so many in Congress are interested in 
reforming veterans education. We know this will have an 
associated cost and respectfully offer the return on investment 
is not just good for the military member and their family, it's 
good for America.
    There are many proposals worthy of consideration and we 
believe two key elements should be included. First, make it 
transferable. Today's all-volunteer force shares the same 
profound love of country and patriotism as previous 
generations. Where they differ is in their education. In many 
cases these men and women have some college credit before 
volunteering and they earn more as they serve. We believe they 
should have the flexibility to use their earned benefit however 
best fits their situation.
    We commend the Senate for making a technical adjustment 
addressing transferability in a recent supplemental bill. 
However, we believe if you truly want to see transferability 
implemented it must be fully funded and not left to the 
service's discretion.
    AFSA understands that a line must be drawn to determine 
eligibility for the revised benefit, which brings me to my 
second point--vesting. We believe those with 36 months time-in-
service on September 12, 2001, should be immediately eligible 
for the entire benefit, and phased in for others as time and 
service requirements are met. This Nation's experienced troops, 
officers and enlisted alike, rapidly responded on 9/11, 
leading, training, and inspiring those that followed and joined 
after the attack. AFSA urges true bipartisan cooperation and 
collaboration in creating an updated education benefit 
reflecting the sacrifices of today's all-volunteer force.
    Again, thank you, Mr. Chairman, for this opportunity to 
share our perspective.
    Senator Inouye. Thank you very much, sir.
    [The statement follows:]

                 Prepared Statement of Jonathan E. Hake

    Mr. Chairman and distinguished committee members, on behalf of the 
125,000 members of the Air Force Sergeants Association (AFSA), I thank 
you for your continued support of airmen and their families. I 
appreciate the opportunity to present our perspective on priorities for 
the fiscal year 2009 defense appropriations.
    The AFSA represents Air Force Active Duty, Air National Guard, Air 
Force Reserve Command, including active, retired, and veteran enlisted 
airmen and their families. We are grateful for this subcommittee's 
efforts, and I can't overstate the importance your work is to those 
serving this Nation.
    You have a daunting task before you and shoulder tremendous 
responsibility as you wisely appropriate limited resources based on 
many factors. The degree of difficulty deciding what can, and what 
cannot, be addressed isn't lost on us. It is significant.

                           AIR FORCE MANPOWER

    The AFSA strongly believes the aging fleet of legacy Air Force 
systems needs to be modernized. However, we also know the truly most 
valuable weapon America has in its arsenal are those serving this great 
Nation, especially the men and women wearing chevrons of the enlisted 
grades.
    We are deeply concerned about the approach taken to drawdown Air 
Force manpower to fund system modernization and recapitalization. 
Although well-intended, it does not appear to have yielded the results 
envisioned. Some efficiency was gained as airmen exercised innovation 
and continuous process improvement to accomplish missions, reflecting a 
remarkable ``can-do'' spirit.
    Greater operational demands have expanded over this same time--
fielding increased intelligence, reconnaissance, and surveillance (ISR) 
resources, supporting the newest combatant command in Africa, growing 
capabilities to ward off threats from the cyber domain and 
accomplishing the expanding workload associated with more inspections 
and maintenance to keep aging airframes ready. All this, and more, is 
being done with fewer people--it is straining the force and their 
families.
    The AFSA believes a course correction is needed to avert severe 
adverse, long-term consequences that has already begun to effect 
morale, retention, and combat readiness. We strongly support increasing 
and fully funding Air Force end strength by 14,000.

                            QUALITY OF LIFE

    If we expect to retain this precious resource we must provide them, 
and their families, with facilities that reflect their level of 
commitment and sacrifice. This impacts their desire to continue serving 
through multiple deployments and extended separations.
    This Nation devotes significant resources training and equipping 
America's sons and daughters--a long-term investment--and that same 
level of commitment should be reflected in the facilities where they 
live, work, and play.
    We caution deferring these costs, especially at installations 
impacted by base realignment and closure decisions and mission-related 
shifts.
    We applaud congressional support for military housing privatization 
initiatives. This has provided housing at a much faster pace than would 
have been possible through military construction alone.
    The AFSA urges Congress to fully fund appropriate accounts to 
ensure all remaining installations eliminate substandard housing as 
quickly as possible. Those devoted to serving this country deserve 
nothing less.
    Tremendous strides have been made to improve access to quality 
child care and fitness centers on military installations, and we are 
grateful to the Department of Defense and Congress for these collective 
efforts. There is still more work to be done. The demand for child care 
continues to grow as a larger percentage of military members have young 
children and a fit force is absolutely essential to enduring the rigors 
of service.

                  VETERANS AFFAIRS HEALTHCARE FUNDING

    We believe the healthcare portion of Veterans Affairs (VA) funding 
should be moved to mandatory annual spending. One of this Nation's 
highest obligations is the willingness to fully fund VA health care, 
facilities, and other programs for those who have served in the past, 
are serving today and will serve in the future.
    There are many challenges facing veterans and we are encouraged by 
the initiatives centered on improving access, continuity of care and 
addressing the scars of war, some obvious and others not so, such as 
traumatic brain injuries and post traumatic stress disorders. We are 
particularly pleased by the tremendous strides made to implement and 
fund Wounded Warrior programs.

                    WOMEN VETERANS HEALTHCARE ISSUES

    We applaud the actions of various committees and subcommittees to 
directly address the issue of the unique health challenges faced by 
women veterans. Between 1990 and 2000, the women veteran population 
increased by 33.3 percent from 1.2 million to 1.6 million, and women 
now represent approximately 7 percent of the total veteran population. 
By the year 2010, the VA estimates women veterans will comprise well 
over 10 percent of the veteran population. Currently women make up more 
than 15 percent of the active duty force and approximately 25 percent 
of the reserve force with thousands serving, or having already returned 
from serving, in Iraq and Afghanistan. The AFSA urges an increase to 
the VA budget so they can appropriately care for these veterans now and 
in the future.

                               IMPACT AID

    Military leaders often use the phrase, ``we recruit the member, but 
we retain the family'' when talking about quality of life and 
retention. Impact Aid is a program at the very core of this premise, 
because it directly affects the quality of educational programs 
provided to the children of military service members.
    These children lead unique lives, fraught with challenges 
associated with frequent changes in schools, repeatedly being uprooted 
and having to readjust to new communities and friends. Worrying about 
what resources might or might not be available to school administrators 
should not be yet another concern heaped upon them and their parents.
    The Impact Aid program provides Federal funding to public school 
districts with significant enrollment of students with a parent who is 
a member of the Armed Forces, living on and/or assigned to a military 
installation (federally owned land).
    The budget proposed by the administration calls for a freeze in 
funding for this important program. We find this to be very 
disappointing. The implicit statement in this action is military 
children are a lower priority than others in our Nation. We ask this 
committee to take the steps necessary to show our military men and 
women that the education of their children is as important as the next 
child.
    The AFSA is grateful Congress increased Impact Aid funding by $100 
million in fiscal year 2008 and urge similar action in fiscal year 
2009.

                           BASIC MILITARY PAY

    Tremendous progress has been made over the last 15+ years to close 
the gap between civilian sector and military compensation. The AFSA 
appreciates these steady efforts and encourage further steps. We 
believe linking pay raises to the employment cost index (ECI) is 
essential to recruiting and retaining the best and brightest 
volunteers. AFSA urges support for efforts to adjust the annual pay 
raise formula to ECI+0.5 percent until the gap is completely 
eliminated. America's sons and daughters understand monetary 
compensation is important, but not the only factor that drives them to 
serve.

                     TRANSITION ASSISTANCE PROGRAMS

    The all-volunteer military force repeatedly answers this Nation's 
call to duty and at the end of their tours of duty, whether a few years 
or after decades of service, all transition to civilian life.
    Section 502 of the National Defense Authorization Act of Fiscal 
Year 1991, Public Law 101-510, codified in sections 1141-1143 and 1144-
1150 of title 10, United States Code, authorized comprehensive 
transition assistance benefits and services for separating service 
members and their spouses.
    From that legislation grew a valuable partnership between the 
Department of Labor and the Departments of Defense, Veterans Affairs, 
and Homeland Security to provide Transition Assistance Program 
employment workshops, VA Benefits Briefings and the Disabled Transition 
Assistance Program. These programs and briefings provide service 
members valuable job placement assistance, training opportunities, and 
education on veteran benefits so they make informed choices about post-
service opportunities.
    We urge this committee to continue fully funding transition 
assistance programs.
    In addition, we ask you to support the administration's initiative 
to pass legislation and fund a program that would create hiring 
preferences across Federal Government for military spouses. Under 
current law, veterans of America's Armed Forces are entitled to 
preferences over others in competitive hiring positions in the Federal 
Government. We believe the sacrifice of family members warrant this 
consideration as well.

        VETERANS EDUCATION BENEFITS--MONTGOMERY G.I. BILL REFORM

    The AFSA is extremely pleased by the interest by so many in 
Congress to reform Montgomery G.I. bill (MGIB) educational benefits for 
those that have stepped up to defend America's interests at home and 
abroad.
    No doubt, making the MGIB a more viable benefit will have an 
associated cost and we unequivocally and respectfully offer the return 
on investment is not just good for the military member and his family, 
it is good for America.
    We would like to see the MGIB transformed into something like the 
post-WW II G.I. bill. This would go a long way toward recruiting this 
Nation's best and brightest to serve.
    There are many proposals worthy of consideration and there are at 
least six key elements we believe essential to the final product.
    First, we ask this committee to fund a program that pays for all 
books, tuition, and fees, indexed annually to reflect the actual cost 
of education.
    Second, eliminate the $1,200 user fee for the MGIB. Military 
members earn this benefit by virtue of their service.
    Third, make the the MGIB transferable to immediate family members. 
Today's all-volunteer force shares the same profound love of country 
and patriotism as previous generations. Where they differ is their 
education--in many cases these men and women have some college credit 
before volunteering to serve and often earn more credits during 
accession and technical training, setting them on a course of education 
and training that continues throughout their term of service. We 
believe they should have the flexibility to use their earned benefit 
however best fits their situation including transferring it to their 
immediate family--they sacrifice much and endure hardship too.
    Fourth, provide enlisted members who declined enrollment in the 
Veterans Educational Assistance Program (VEAP) during the late 70s and 
early 80s the opportunity to enroll in the new program. There is 
currently about 10,050 airmen remaining on active duty today in this 
situation. About 5,600 are enlisted members.
    They passed on the VEAP program because of bad advice, lack of 
foresight or with the hope of a better program to come later during 
their careers. Whatever the case, wouldn't it be a travesty to leave 
those who have devoted so many years of their lives to service be left 
without an educational benefit? Time is running out to make this right.
    Fifth, implement a Total Force MGIB. Members of the Guard and 
Reserve contribute to missions in Afghanistan, Iraq, and here at home--
more than 500,000 of these brave men and women have been called up 
since September 11, 2001, and more than 70,000 have pulled two or more 
tours of duty and yet they are denied educational benefits commensurate 
with their service.
    This would rely on two broad concepts--first, consolidate active 
duty and reserve MGIB programs under title 38 and second, restructure 
the MGIB benefit levels according to the level of military service 
performed.
    Sixth, we understand a line must be drawn to determine eligibility 
and a timeline established to earn 100 percent of the revised benefit. 
We simply offer those with 36 months or more time in service on 
September 12, 2001 should be immediately eligible for the entire 
benefit and phased in for others as time in service requirements are 
met. Our Nation's experienced troops--enlisted and officer alike--
rapidly responded on 9/11 leading, training, and inspiring those that 
joined post attack.
    Again, Mr. Chairman, we appreciate your efforts and thank you for 
this opportunity to share our perspective. We realize the many 
difficult decisions this committee must make and hope the information 
we presented proves helpful. As always, we remain ready to support you 
in matters of mutual concern.

    Senator Inouye. Our next witness is Commander John Class, 
Military Officers Association of America. Commander Class.

STATEMENT OF COMMANDER JOHN S. CLASS, USN (RETIRED), 
            DEPUTY DIRECTOR, GOVERNMENT RELATIONS FOR 
            HEALTH AFFAIRS, MILITARY OFFICERS 
            ASSOCIATION OF AMERICA
    Commander Class. Good morning, Mr. Chairman, Ranking Member 
Stevens. The Military Officers Association of America (MOAA) 
thanks you for the opportunity to appear before you today. MOAA 
is grateful for your past support in providing funds to offset 
DOD's planned TRICARE fee increases and ensuring pay raises 
that continue to bring military pay closer to that of their 
private sector counterparts.
    For the third year in a row, DOD has reduced the defense 
health program, assuming Congress would approve the proposed 
TRICARE fee hikes. Once again, Congress has rejected these 
proposals. MOAA urges the subcommittee to restore the $1.2 
billion shortfall that this has created and fully fund the 
defense health program.
    Every year since 1999, Congress has narrowed the gap 
between military and private sector pay. However, a 3.4 percent 
gap still exists. MOAA urges the subcommittee to fully fund a 
3.9 percent pay raise and avoid making the services absorb the 
extra 0.5 percent above what was requested in the President's 
budget.
    Over the past few years Congress, DOD, and the VA have made 
great strides with regard to care of our wounded warriors and 
their families. MOAA hopes the subcommittee will ensure full 
funding of joint DOD-VA initiatives, to include a top-down 
planning and execution of all seamless transition functions.
    Congress has recently moved to include legislation for a 
new GI bill. MOAA believes that a new GI bill will enhance the 
service's ability to recruit and retain quality service 
members. MOAA strongly recommends the subcommittee provide the 
necessary funding for the GI bill changes.
    Robust family support programs continue to be crucial to 
overall military readiness, especially with the demands of 
frequent and extended deployments. MOAA urges the subcommittee 
to support an increase in family support funding to meet the 
growing needs associate with the increased OPTEMPO.
    MOAA is also greatly concerned about the level of support 
services and quality of life programs for members and their 
families in areas affected by BRAC and global repositioning 
initiatives. MOAA urges the subcommittee to ensure sustainment 
of these programs at closing installations until all families 
have left and institution of these programs at gaining 
installations as servicemembers and their families arrive.
    A recent Government Accountability Office (GAO) report 
confirmed that DOD has overcharged those Guard and Reserve 
members who purchased TRICARE Reserve Select healthcare 
coverage. Both Armed Services Committees have included language 
that would require DOD to set future premiums based on cost. 
MOAA realizes that this will cause a budget shortfall and hopes 
that the subcommittee will fully fund the TRS program under the 
new premium schedule.
    Once again, I thank you for this opportunity to represent 
MOAA before the subcommittee and would be happy to answer any 
of your questions.
    Senator Inouye. Commander Class, I thank you very much for 
your participation and contribution.
    [The statement follows:]

             Prepared Statement of Commander John S. Class

    Mr. Chairman and distinguished members of the subcommittee. On 
behalf of the Military Officers Association of America (MOAA) we are 
grateful to the committee for this opportunity to express our views 
concerning issues affecting the uniformed services community. This 
statement provides the views of MOAA which represents approximately 
370,000 current and former officers of the seven uniformed services, 
plus their survivors.
    MOAA does not receive any grants or contracts from the Federal 
Government.
    Mr. Chairman MOAA thanks you and the entire subcommittee for your 
continued, unwavering support of our active duty, Guard, Reserve, 
retired members, and veterans of the uniformed services, to include 
their families and survivors.

                                OVERVIEW

    Over the past several years, the Pentagon has repeatedly sought to 
curb spending on military personnel and facilities to fund operational 
requirements. In the process, the Defense Department has imposed 
dramatic force reductions in the Air Force and the Navy, tried to deter 
military retirees from using their earned health coverage by proposing 
large TRICARE fee increases, and cut back on installation quality of 
life programs.
    MOAA believes these efforts to rob personnel to fund operations 
will only make the uniformed services more vulnerable to future 
readiness problems. We agree with the Chairman of the Joint Chiefs of 
Staff, who has stated that 4 percent of GDP should be the ``absolute 
floor'' for the overall military budget. If we want a strong national 
defense, we have to pay for a strong military force as well as replace 
and upgrade aging, war-worn weapons and equipment.
    In testimony today MOAA offers its recommendations on what needs to 
be done to address these important issues and sustain long-term 
personnel readiness.

                         WOUNDED WARRIOR ISSUES

    Caregiver Initiatives.--Several wounded warrior provisions in the 
recently enacted NDAA provide additional support for the caregiver of 
the wounded warrior, typically a family member. However, we believe 
more needs to be done to strengthen support for families, to include 
the authorization of compensation for family member caregivers of 
severely injured who must leave their employment to care for the 
service member.
    Joint Research.--Combined Research Initiatives would further 
enhance the partnership between VA and DOD. Since many of the concerns 
and issues of care are shared, joint collaboration of effort in the 
area of research should enable dollars to go much further and provide a 
more standardized system of health care in the military and veteran 
communities. Furthermore, research must also be performed jointly and 
across all Military Departments and with other practicing healthcare 
agencies to ensure timely integration of these findings in the 
diagnosis and treatment of wounded and disabled patients.
    MOAA urges the subcommittee to ensure full funding of joint DOD-VA 
initiatives to include top-down planning and execution of all 
``seamless transition'' functions, including the joint electronic 
health record; joint DOD/VA physical; implementation of best practices 
for TBI, PTSD, and special needs care; care access/coordination issues; 
and joint research.

                          ACTIVE FORCE ISSUES

    The subcommittee's key challenges will be to fend off those who 
wish to cut needed personnel and quality of life programs while working 
with DOD and the administration to reduce the stress on the force and 
their families already subjected to repeated, long-term deployments. 
Rising day-to-day workloads for non-deployed members and repeated 
extensions of combat tours creates a breeding ground for retention 
problems. Meeting these challenges will require a commitment of 
personnel and resources on several fronts.
    End Strength and Associated Funding.--MOAA was encouraged when the 
subcommittee ensured that the Army and Marine Corps authorized end 
strengths continued to grow in fiscal year 2008, and we are further 
encouraged that the DOD has asked for additional manpower increases for 
the Army and Marine Corps over the next 4 years.
    Congress must ensure these increases are sufficient to ease force 
rotation burdens and the services are fully funded in order to achieve 
the new end strength. Increasing end strength is not a quick fix that 
will ease the stressors on currently serving service members and their 
families.
    Some already speculate that the planned increases may not be needed 
if we can reduce the number of troops deployed to Iraq. MOAA believes 
strongly that the increases are essential to future readiness, 
regardless of force levels in Iraq. We know we didn't have enough 
troops to fight the current war without imposing terrible penalties on 
military members and families, and we must build our force management 
plans to avoid having to do so when the Nation is faced with another 
major unexpected contingency requirement.
    For too long, we have planned only for the best-case scenario, 
which ignores our responsibility to the Nation to be prepared for 
unexpected and less-favorable scenarios, which could well arise 
anywhere around the globe, including the Far East.
    A full range of funding is required to support this necessary end 
strength, including housing, health care, family programs, and child 
care. Having the services absorb these costs out of pocket is self-
defeating.
    MOAA strongly urges the subcommittee to sustain projected increases 
in ground forces and provide additional recruiting, retention, and 
support resources as necessary to attain/sustain them.
    Compensation and Special Incentive Pays.--MOAA is committed to 
ensuring that pay and allowance programs are equitably applied to the 
seven uniformed services. In that regard, MOAA urges the subcommittee 
to be mindful that personnel and compensation program adjustments for 
Department of Defense forces should also apply to uniformed members of 
the Coast Guard, NOAA Corps, and Public Health Service.
    Since the turn of the century, Congress and DOD have made 
significant progress to improve the lives of men and women in uniform 
and their families. Since 1999, when military pay raises had lagged a 
cumulative 13.5 percent behind the private sector pay comparability 
standard, Congress has narrowed that gap to 3.4 percent. Each year 
during that span, Congress has ensured at least some progress in 
shrinking that disparity further. MOAA is grateful for that progress, 
and believes strongly that it should continue until full pay 
comparability is restored.
    MOAA urges the subcommittee to fully fund the 3.9 percent pay raise 
included in the Defense Authorization Bill, and to avoid making the 
services absorb the extra 0.5 percent above what was requested in the 
President's Budget.
    GI Bill.--The Senate and House have voted favorably to include 
legislation for a New GI Bill in the pending Emergency Spending 
Supplemental on the Iraq and Afghanistan Conflicts. However, it will be 
necessary to resolve differences in funding the measure. The Senate 
bill does not fund the New GI Bill, whereas the House proposes to raise 
taxes on high income individuals to support the bill.
    MOAA has been a forceful leader for creating a GI Bill for today's 
warriors and future veterans. Less than 1 percent of the population is 
defending the other 99 percent of the Nation in the war on terror, yet 
our service women and men do not receive educational benefits 
commensurate with their enormous sacrifices. A New GI Bill will support 
quality recruitment, retention and readjustment outcomes and has broad 
bi-partisan support in both chambers.
    MOAA strongly recommends that the committee approve necessary 
funding for a New GI Bill as a priority this year.
    Family Readiness and Support.--A fully funded, robust family 
readiness program continues to be crucial to overall readiness of our 
military, especially with the demands of frequent and extended 
deployments.
    Resource issues continue to plague basic installation support 
programs. At a time when families are dealing with increased 
deployments, they are being asked to do without. Often family centers 
are not staffed for outreach. Library and sports facilities hours are 
being abbreviated or cut altogether. Manpower for installation security 
is being reduced. These are additional sacrifices that we are imposing 
on our families left behind while their service members are deployed.
    In a similar vein, MOAA believes additional authority and funding 
is needed to offer respite and extended child care for military 
families. These initiatives should be accompanied by a more aggressive 
outreach and education effort to improve members' and families' 
financial literacy. We should ensure members are aware of and 
encouraged to use child care, mental health support, spousal 
employment, and other quality-of-life programs that have seen recent 
growth. However, this education effort should also include expanded 
financial education initiatives to inform and counsel members and 
families on life insurance options, Thrift Savings Plan, IRAs, flexible 
spending accounts, savings options for children's education, and other 
quality of life needs.
    In particular service members must be educated on the long-term 
financial consequences of electing to accept the much lower-value 
$30,000 REDUX retention bonus after 15 years of service vice sustaining 
their full High-3 retirement benefit.
    MOAA urges the subcommittee to support increased family support 
funding and expanded education and other programs to meet growing needs 
associated with increased ops tempo, extended deployments and the more 
complex insurance, retirement, and savings choices faced by over-
extended military families.
    Permanent Change of Station (PCS) Allowances.--PCS allowances have 
continually failed to keep pace with the significant out-of-pocket 
expenses service members and their families incur in complying with 
Government-directed moves.
    One way to improve allowances is to recognize that military spouses 
increasingly have their own professional careers that suffer disruption 
when the service member is relocated. The Armed Services Committee has 
recommended a 500-pound additional weight allowance to assist military 
spouses in moving their professional books and equipment.
    MOAA urges the subcommittee to fully fund the 500-pound 
professional goods weight allowance for military spouses.
    BRAC/Rebasing/Military Construction/Commissaries.--MOAA remains 
concerned about inadequacy of service implementation plans for DOD 
transformation, global repositioning, Army modularity, and BRAC 
initiatives. Given the current wartime fiscal environment, MOAA is 
greatly worried about sustaining support services and quality of life 
programs for members and families. These programs are clearly at risk--
not a week goes by that MOAA doesn't hear reports of cutbacks in base 
operation accounts and base services because of funding shortfalls.
    Feedback from the installation level is that local military and 
community officials often are not brought ``into the loop'' or provided 
sufficient details on changing program timetables to plan, seek, and 
fund support programs (housing, schools, child care, roads, and other 
infrastructure) for the numbers of personnel and families expected to 
relocate to the installation area by a specific date.
    MOAA urges the subcommittee to ensure sustainment of adequate 
family support/quality of life programs at closing and gaining 
installations--to include housing, education, child care, exchanges and 
commissaries, health care, family centers, unit family readiness, and 
other support services.
    Morale, Welfare, and Recreation Programs.--The availability of 
appropriated funds to support MWR activities is an area of continuing 
concern. MOAA strongly opposes any DOD initiative that withholds or 
reduces MWR-appropriated support for Category A and Category B programs 
or that reduces the MWR dividend derived from military base exchange 
programs.
    Service members and their families are reaching the breaking point 
as a result of the war and the constant changes going on in the force. 
It is unacceptable to have troops and families continue to take on more 
responsibilities and sacrifices and not give them the support and 
resources to do the job and to take care of the needs of their 
families.
    MOAA urges the subcommittee to ensure that DOD funds MWR programs 
at least to the 85 percent level for Category A programs and 65 percent 
for Category B requirements.

                NATIONAL GUARD AND RESERVE FORCE ISSUES

    Every day somewhere in the world, our National Guard and Reserves 
are answering the call to service. Although there is no end in sight to 
their participation in homeland security, overseas deployment and 
future contingency operations, Guard and Reserve members have 
volunteered for these duties and accept them as a way of life in the 
21st century.
    All Guard and Reserve components are facing increasing challenges 
involving major equipment shortages, end-strength requirements, 
wounded-warrior health care, assistance and counseling for Guard and 
Reserve members for pre-deployment and post-deployment contingency 
operations.
    Congress and the Department of Defense must provide adequate 
benefits and personnel policy changes to support our troops who go in 
harm's way.
    Family Support Programs and Benefits.--MOAA supports providing 
adequate funding for a core set of family support programs and benefits 
that meet the unique needs of Guard and Reserve families with uniform 
access for all service members and families. These programs would 
promote better communication with service members, specialized support 
for geographically separated Guard and Reserve families and training 
and back up for family readiness volunteers. This access would include:
  --Web-based programs and employee assistance programs such as 
        Military One Source and GuardFamily.org.
  --Enforcement of command responsibility for ensuring that programs 
        are in place to meet the special needs of families of 
        individual augmentees or the geographically dispersed.
  --Expanded programs between military and community religious leaders 
        to support service members and families during all phases of 
        deployments.
  --Availability of robust preventive counseling services for service 
        members and families and training so they know when to seek 
        professional help related to their circumstances.
  --Enhanced education for Guard and Reserve family members about their 
        rights and benefits.
  --Innovative and effective ways to meet the Guard and Reserve 
        community's needs for occasional child care, particularly for 
        preventive respite care, volunteering, and family readiness 
        group meetings and drill time.
  --A joint family readiness program to facilitate understanding and 
        sharing of information between all family members, no matter 
        what the service.
    MOAA urges Congress to continue and expand its emphasis on 
providing consistent funding and increased outreach to connect Guard 
and Reserve families with relevant support programs.
    Tangible Support for Employers.--Employers of Guard and Reserve 
service members shoulder an extra burden in support of the national 
defense. The new ``Operational Reserve'' policy places even greater 
strain on employers. For their sacrifice, they get plaques to hang on 
the wall.
    For Guard and Reserve members, employer ``pushback'' is listed as 
one of the top reasons for Reservists to discontinue Guard and Reserve 
service. If we are to sustain a viable Guard and Reserve force for the 
long term, the Nation must do more to tangibly support employers of the 
Guard and Reserve and address their substantive concerns, including 
initiatives such as:
  --Tax credits for employers who make up any pay differential for 
        activated employees.
  --Tax credits to help small business owners hire temporary workers to 
        fill in for activated employees.
  --Tax credits for small manufacturers to hire temporary workers.
    MOAA urges the subcommittee to work with the Finance Committee to 
support needed tax relief for employers of Selected Reserve personnel 
and reinforce the Employer Support for Guard and Reserve Program.
    Seamless Transition for Guard and Reserve Members.--Over 615,000 
members of the Guard and Reserve have been activated since 9/11. 
Congressional hearings and media reports have documented the fact that 
at separation, many of these service members do not receive the 
transition services they and their families need to make a successful 
readjustment to civilian status.
    MOAA urges the subcommittee to continue and expand its efforts to 
ensure Guard and Reserve members and their families receive funded 
transition services to make a successful readjustment to civilian 
status.

                           HEALTH CARE ISSUES

    MOAA very much appreciates the subcommittee's strong and continuing 
interest in keeping health care commitments to military beneficiaries.
    The unique package of military retirement benefits--of which a key 
component is a top-of-the-line health benefit--is the primary offset 
afforded uniformed service members for enduring a career of unique and 
extraordinary sacrifices that few Americans are willing to accept for 1 
year, let alone 20 or 30. It is an unusual--and essential--compensation 
package that a grateful Nation provides for the relatively few who 
agree to subordinate their personal and family lives to protecting our 
national interests for so many years.
    Full Funding for the Defense Health Program.--MOAA very much 
appreciates the subcommittee's support for maintaining--and expanding 
where needed--the healthcare benefit for all military beneficiaries, 
consistent with the demands imposed upon them.
    The Defense Department, Congress, and MOAA all have reason to be 
concerned about the rising cost of military health care. But it is 
important to recognize that the bulk of the problem is a national one, 
not a military-specific one. To a large extent, military health cost 
growth is a direct reflection of health care trends in the private 
sector.
    It is true that many private sector employers are choosing to shift 
an ever-greater share of health costs to their employees and retirees. 
In the bottom-line-oriented corporate world, many firms see their 
employees as another form of capital, from which maximum utility is to 
be extracted at minimum cost, and those who quit are replaceable by 
similarly experienced new hires. But that can't be the culture in the 
military's closed personnel, all-volunteer model, whose long-term 
effectiveness is utterly dependent on establishing a sense of mutual, 
long-term commitment between the service member and his/her country.
    Some assert active duty personnel costs have increased 60 percent 
since 2001, of which a significant element is for compensation and 
health costs. But much of that cost increase is due to conscious 
decisions by Congress to correct previous shortfalls--including easing 
the double-digit military ``pay gap'' of that era and correcting the 
unconscionable situation before 2001 when military beneficiaries were 
summarily dropped from TRICARE coverage at age 65. Additionally, much 
of the increase is due to the cost of war and increased optempo.
    Meanwhile, the cost of basic equipment soldiers carry into battle 
(helmets, rifles, body armor) has increased 257 percent (more than 
tripled) from $7,000 to $25,000 since 1999. The cost of a Humvee has 
increased seven-fold (600 percent) since 2001 (from $32,000 to 
$225,000).
    While we have an obligation to do our best to intelligently 
allocate these funds, the bottom line is that maintaining the most 
powerful military force in the world is expensive--and doubly so in 
wartime.
    MOAA objects strongly to the administration's arbitrary reduction 
of the TRICARE budget submission. DOD has typically overestimated its 
healthcare costs as evidenced by a recent GAO report on the TRICARE 
Reserve Select premiums. MOAA deplores this inappropriate budget 
``brinksmanship'', which risks leaving TRICARE significantly 
underfunded, especially in view of statements made for the last 2 years 
by leaders of both Armed Services Committees that the Department's 
proposed fee increases were excessive.
    MOAA understands only too well the very significant challenge such 
a large and arbitrary budget reduction would pose for this subcommittee 
if allowed to stand. If the reduction is not made up, the Department 
almost certainly will experience a substantial budget shortfall before 
the end of the year. This would then generate supplemental funding 
needs, further program cutbacks, and likely efforts to shift even more 
costs to beneficiaries in future years--all to the detriment of 
retention and readiness.
    MOAA strongly urges the subcommittee to take all possible steps to 
restore the reduction in TRICARE-related budget authority and ensure 
continued full funding for Defense Health Program needs.
    Alternative Options to Make TRICARE More Cost-Efficient.--MOAA 
continues to believe strongly that the Defense Department has not 
sufficiently investigated other options to make TRICARE more cost-
efficient without shifting costs to beneficiaries. MOAA has offered a 
long list of alternative cost-saving possibilities, including:
  --Promote retaining other health insurance by making TRICARE a true 
        second-payer to other insurance (far cheaper to pay another 
        insurance's copay than have the beneficiary migrate to 
        TRICARE).
  --Reduce or eliminate all mail-order co-payments to boost use of this 
        lowest-cost venue.
  --Change electronic claim system to kick back errors in real time to 
        help providers submit ``clean'' claims, reduce delays/multiple 
        submissions.
  --Size and staff military treatment facilities (least costly care 
        option) in order to reduce reliance on non-MTF civilian 
        providers.
  --Promote programs to offer special care management services and zero 
        copays or deductibles to incentivize beneficiaries to take 
        medications and seek preventive care for chronic or unusually 
        expensive conditions.
  --Promote improved health by offering preventive and immunization 
        services (e.g., shingles vaccine, flu shots) with no copay or 
        deductible.
  --Authorize TRICARE coverage for smoking cessation products and 
        services (it is the height of irony that TRICARE currently 
        doesn't cover these programs that have been long and widely 
        acknowledged as highly effective in reducing long-term health 
        costs).
  --Reduce long-term TRICARE Reserve Select costs by allowing members 
        the option of a Government subsidy (at a cost capped below TRS 
        cost) of civilian employer premiums during periods of 
        mobilization.
  --Promote use of mail-order pharmacy system via mailings to users of 
        maintenance medications, highlighting the convenience and 
        individual expected cost savings
  --Encourage retirees to use lowest-cost-venue military pharmacies at 
        no charge, rather than discouraging such use by limiting 
        formularies, curtailing courier initiatives, etc.
    MOAA is pleased that the Defense Department has begun to implement 
at least some of our past suggestions, and stands ready to partner with 
DOD to investigate and jointly pursue these or other options that offer 
potential for reducing costs.
    MOAA urges Congress to allocate funds enabling DOD to pursue 
greater efforts to improve TRICARE and find more effective and 
appropriate ways to make TRICARE more cost-efficient without seeking to 
``tax'' beneficiaries and make unrealistic budget assumptions.
    TRICARE Reimbursement Rates.--Physicians consistently report that 
TRICARE is virtually the lowest-paying insurance plan in America. Other 
national plans typically pay providers 25-33 percent more. In some 
cases the difference is even higher.
    While TRICARE rates are tied to Medicare rates, TRICARE Managed 
Care Support Contractors make concerted efforts to persuade providers 
to participate in TRICARE Prime networks at a further discounted rate. 
Since this is the only information providers receive about TRICARE, 
they see TRICARE as even lower-paying than Medicare.
    This is exacerbated by annual threats of further reductions in 
TRICARE rates due to the statutory Medicare rate-setting formula. 
Doctors are unhappy enough about reductions in Medicare rates, and many 
already are reducing the number of Medicare patients they see.
    But the problem is even more severe with TRICARE, because TRICARE 
patients typically comprise a small minority of their beneficiary 
caseload. Physicians may not be able to afford turning away large 
numbers of Medicare patients, but they're more than willing to turn 
away a small number of patients who have low-paying, high-
administrative-hassle TRICARE coverage.
    Congress has acted to avoid Medicare physician reimbursement cuts 
for the last 4 years, but the failure to provide a payment increase for 
2006 and 2007 was another step in the wrong direction, according to 
physicians. Further, Congress still has a long way to go in order to 
fix the underlying reimbursement determination formula.
    Correcting the statutory formula for Medicare and TRICARE physician 
payments to more closely link adjustments to changes in actual practice 
costs and resist payment reductions is a primary and essential step. We 
fully understand that is not within the purview of this subcommittee, 
but we urge your assistance in pressing the Finance Committee for 
action.
    In the meantime, the rate freeze for 2006 and 2007 along with a 
small increase for the first part of 2008 makes it even more urgent to 
consider some locality-based relief in TRICARE payment rates, given 
that doctors see TRICARE as even less attractive than Medicare. 
Additionally, the Medicare pay package that was enacted in Public Law 
109-432 included a provision for doctors to receive a 1.5 percent bonus 
next year if they report a basic set of quality-of-care measures. The 
TRICARE for Life beneficiaries should not be affected as their claims 
are submitted directly to Medicare and should be included in the 
physicians' quality data. But there's been no indication that TRICARE 
will implement the extra increases for treating beneficiaries under 65, 
and this could present a major problem. If no such bonus payment is 
made for TRICARE Standard patients, then TRICARE will definitely be the 
lowest payer in the country and access could be severely decreased.
    The TRICARE Management Activity has the authority to increase the 
reimbursement rates when there is a provider shortage or extremely low 
reimbursement rate for a specialty in a certain area and providers are 
not willing to accept the low rates. In some cases a state Medicaid 
reimbursement for a similar service is higher than that of TRICARE. As 
mentioned previously, the Department has been reluctant to establish a 
standard for adequacy of participation and should use survey data to 
apply adjustments nationally.
    MOAA urges the subcommittee to exert what influence it can to 
persuade the Finance Committee to reform Medicare/TRICARE statutory 
payment formula. To the extent the Medicare rate freeze continues, we 
urge the subcommittee to encourage the Defense Department to use its 
reimbursement rate adjustment authority as needed to sustain provider 
acceptance.

National Guard and Reserve Healthcare
    MOAA is grateful to the subcommittee for its leadership in 
extending lower-cost TRICARE eligibility to all drilling National Guard 
and Reserve members. This was a major step in acknowledging that the 
vastly increased demands being placed on Selected Reserve members and 
families needs to be addressed with adjustments to their military 
compensation package.
    While the subcommittee has worked hard to address the primary 
health care hurdle, there are still some areas that warrant attention.
    TRICARE Reserve Select (TRS) Premium.--MOAA believes the premium-
setting process for this important benefit needs to be improved and was 
incorrectly based upon the basic Blue Cross Blue Shield option of the 
FEHBP. This adjustment mechanism has no relationship either to the 
Department's military health care costs or to increases in eligible 
members' compensation.
    When the program was first implemented, MOAA urged DOD to base 
premiums (which were meant to cover 28 percent of program costs) on 
past TRICARE Standard claims data to more accurately reflect costs. Now 
a GAO study has confirmed that DOD's use of Blue Cross Blue Shield data 
and erroneous projections of participation resulted in substantially 
overcharging beneficiaries.
    GAO found that DOD projected costs of $70 million for fiscal year 
2005 and $442 million for fiscal year 2006, whereas actual costs proved 
to be $5 million in fiscal year 2005 and about $40 million in fiscal 
year 2006. GAO found that DOD estimates were 72 percent higher than the 
average single member cost and 45 percent higher than average family 
cost. If DOD were to have used actual fiscal year 2006 costs, the 
annual individual premium would have been $48/month instead of $81/
month. The corresponding family premium would have been $175/month 
instead of $253/month.
    GAO recommended that DOD stop basing TRS premiums on Blue Cross 
Blue Shield adjustments and use the actual costs of providing the 
benefit. DOD concurred with the recommendations and says, ``it remains 
committed to improving the accuracy of TRS premium projections.'' 
However, GAO observed that DOD has made no commitment to any timetable 
for change.
    Both Armed Services Committees have included language in the fiscal 
year 2009 Defense Authorization Act that would require the Defense 
Department to base TRS premiums on actual program costs--which is 
expected to reduce premiums to the cost-share relationship originally 
envisioned by Congress.
    This means that, since service members will no longer be 
overcharged, the Defense Department will have to start funding its 
proper share of the TRS program.
    MOAA urges the subcommittee to fully fund the TRS program under the 
new premium schedule.
    Reserve Dental Coverage.--MOAA remains concerned about the dental 
readiness of the Reserve forces. Once these members leave active duty, 
the challenge increases substantially, so MOAA believes the services 
should at least facilitate correction of dental readiness issues 
identified while on active duty. DOD should be fiscally responsible for 
dental care to Reservists to ensure service members meet dental 
readiness standards when DOD facilities are not available within a 50-
mile radius of the members' home for at least 90 days prior and 180 
days post mobilization.
    MOAA supports funding dental coverage for Reservists for 90 days 
pre- and 180 days post-mobilization (during TAMP), unless the 
individual's dental readiness is restored to T-2 condition before 
demobilization.

Health-Related Tax Law Changes
    MOAA understands fully that tax law changes are not within the 
subcommittee's jurisdiction. However, there are numerous military-
specific tax-related problems that are unlikely to be addressed without 
the subcommittee's active advocacy and intervention with members and 
leaders of the Finance Committee.
    Deductibility of Health and Dental Premiums.--Many uniformed 
services beneficiaries pay annual enrollment fees for TRICARE Prime, 
TRICARE Reserve Select, and premiums for supplemental health insurance, 
such as a TRICARE supplement, the TRICARE Dental and Retiree Dental 
Plans, or for long-term care insurance. For most military 
beneficiaries, these premiums are not tax-deductible because their 
annual out-of-pocket costs for healthcare expenses do not exceed 7.5 
percent of their adjusted gross taxable income.
    In 2000, a Presidential directive allowed Federal employees who 
participate in FEHBP to have premiums for that program deducted from 
their pay on a pre-tax basis. A 2007 court case extended similar pre-
tax premium payment eligibility to certain retired public safety 
officers. Similar legislation for all active, reserve, and retired 
military and Federal civilian beneficiaries would restore equity with 
private sector employees and retired public safety officers.
    MOAA urges all committee members to seek the support of the Finance 
Committee to approve legislation to allow all military beneficiaries to 
pay TRICARE-related insurance premiums in pre-tax dollars, to include 
TRICARE dental premiums, TRICARE Reserve Select premiums, TRICARE Prime 
enrollment fees, premiums for TRICARE Standard supplements, and long-
term care insurance premiums.

                               CONCLUSION

    MOAA reiterates its profound gratitude for the extraordinary 
progress this subcommittee has made in advancing a wide range of 
personnel and health care initiatives for all uniformed services 
personnel and their families and survivors. MOAA is eager to work with 
the subcommittee in pursuit of the goals outlined in our testimony. 
Thank you very much for the opportunity to present MOAA's views on 
these critically important topics.

    Senator Inouye. May I now call upon the President of the 
American Association of Nurse Anesthetists, Dr. Wanda Wilson.

STATEMENT OF WANDA WILSON, Ph.D., PRESIDENT, AMERICAN 
            ASSOCIATION OF NURSE ANESTHETISTS
    Dr. Wilson. Chairman Inouye, Ranking Member Stevens, and 
members of the subcommittee: Good morning. My name is Wanda 
Wilson and I serve as president of 37,000 members of the 
American Association of Nurse Anesthetists.
    The quality of healthcare America provides our service men 
and women and their dependents has long been this 
subcommittee's high priority. Today I report to you the 
contributions that certified registered nurse anesthetists, or 
CRNAs, make toward our services' mission. I will also provide 
you our recommendations to further improve military healthcare 
for these challenging times. I also ask unanimous consent that 
my written statement be entered into the record.
    Senator Inouye. Without objection.
    Dr. Wilson. Thank you.
    America's CRNAs provide some 30 million anesthetics 
annually, in every healthcare setting requiring anesthesia 
care, and we provide that care safely. The IOM reported in 2000 
that anesthesia is 50 times safer than it was in the early 
1980s.
    For the U.S. armed forces, CRNAs are particularly critical. 
In 2005, 493 active duty and 790 reservist CRNAs provided 
anesthesia care indispensable to our armed forces' current 
mission. One CRNA, Major General Gale Pollock, served as Acting 
Surgeon General of the Army for a time last year. Today CRNAs 
serve in major military hospitals and educational institutions, 
aboard ships, in isolated bases abroad and at home, and as 
members of forward surgical teams as close to the tip of the 
spear as can be. In most of these environments, CRNAs provide 
anesthesia services alone, without anesthesiologists, enabling 
surgeons and other clinicians to safely deliver life-saving 
care.
    But in recent years the number of CRNAs in the armed forces 
has fallen below the number needed. The private market for CRNA 
services is very strong and the military has struggled to 
compete. The services, this subcommittee and the authorizing 
committees have responded with increased benefits to CRNAs, 
incentive special pay, ISP, and the health professionals loan 
repayment program, focusing on incentives for multi-year 
agreements.
    The profession of nurse anesthesia has likewise responded. 
In 2007, accredited nurse anesthesia educational programs 
produced over 2,000 graduates, an 88 percent increase in just 5 
years, to meet the growing demand.
    These combined actions have helped strengthen the services' 
readiness and the quality of healthcare available to our 
service men and women. So our first recommendation to you is to 
extend and strengthen this successful ISP program for CRNAs. 
The authorizing committee has extended the ISP program. We 
encourage this subcommittee to continue funding ISP levels 
sufficient for the services to recruit and retain the CRNAs 
needed for the mission.
    The second is to support the Troops-to-Nurse Teachers, or 
TNT initiative. Today a pilot program sponsored by the Army 
Surgeon General's Office has placed uniformed military nurses 
as instructors in a civilian school of nursing. Under this 
project nurses in the service advance their teaching and 
mentoring skills and the nursing students in an expanded 
program witness military service in the best possible light. In 
addition to our support of the military's highly regarded CRNA 
educational program at Fort Sam Houston, the Uniformed Services 
University, and at Bethesda, we join the chairman of this 
subcommittee to support the TNT program.
    Our third and final recommendation is for the subcommittee 
to encourage all services to adopt the joint scope of practice. 
Standard practice across all services enhances patient safety 
and the quality of healthcare for our service men and women. 
The Navy in particular has made a great deal of progress toward 
adopting the joint scope for independent practitioners. We 
encourage you to adopt this in all services.
    Thank you very much.
    Senator Inouye. I thank you very much, Dr. Wilson.
    [The statement follows:]

                   Prepared Statement of Wanda Wilson

    Chairman Inouye, Ranking Member Stevens, and members of the 
subcommittee: The American Association of Nurse Anesthetists (AANA) is 
the professional association that represents more than 37,000 Certified 
Registered Nurse Anesthetists (CRNAs) across the United States, 
including 483 active duty and 790 reservists in the military reported 
in May 2005. The AANA appreciates the opportunity to provide testimony 
regarding CRNAs in the military. We would also like to thank this 
committee for the help it has given us in assisting the Department of 
Defense (DOD) and each of the services to recruit and retain CRNAs.

           CRNAS AND THE ARMED FORCES: A TRADITION OF SERVICE

    Let us begin by describing the profession of nurse anesthesia, and 
its history and role with the Armed Forces of the United States.
    In the administration of anesthesia, CRNAs perform the same 
functions as anesthesiologists and work in every setting in which 
anesthesia is delivered including hospital surgical suites and 
obstetrical delivery rooms, ambulatory surgical centers, health 
maintenance organizations, and the offices of dentists, podiatrists, 
ophthalmologists, and plastic surgeons. Today, CRNAs administer some 30 
million anesthetics given to patients each year in the United States. 
Nurse anesthetists are also the sole anesthesia providers in the vast 
majority of rural hospitals, assuring access to surgical, obstetrical, 
and other healthcare services for millions of rural Americans.
    Our tradition of service to the military and our veterans is 
buttressed by our personal, professional commitment to patient safety, 
made evident through research into our practice. In our professional 
association, we state emphatically ``our members' only business is 
patient safety.'' Safety is assured through education, high standards 
of professional practice, and commitment to continuing education. 
Having first practiced as registered nurses, CRNAs are educated to the 
master's degree level, and some to the doctoral level, and meet the 
most stringent continuing education and recertification standards in 
the field. Thanks to this tradition of advanced education and clinical 
practice excellence, we are humbled and honored to note that anesthesia 
is 50 times safer now than in the early 1980s (National Academy of 
Sciences, 2000). Research further demonstrates that the care delivered 
by CRNAs, physician anesthesiologists, or by both working together 
yields similar patient safety outcomes. In addition to studies 
performed by the National Academy of Sciences in 1977, Forrest in 1980, 
Bechtoldt in 1981, the Minnesota Department of Health in 1994, and 
others. Dr. Michael Pine, MD, MBA, recently concluded once again that 
among CRNAs and physician anesthesiologists, ``the type of anesthesia 
provider does not affect inpatient surgical mortality'' (Pine, 2003). 
Thus, the practice of anesthesia is a recognized specialty in nursing 
and medicine. Most recently, a study published in ``Nursing Research'' 
confirmed obstetrical anesthesia services are extremely safe, and that 
there is no difference in safety between hospitals that use only CRNAs 
compared with those that use only anesthesiologists (Simonson et al., 
2007). Both CRNAs and anesthesiologists administer anesthesia for all 
types of surgical procedures from the simplest to the most complex, 
either as single providers or together.

                   NURSE ANESTHETISTS IN THE MILITARY

    Since the mid-19th century, our profession of nurse anesthesia has 
been proud and honored to provide anesthesia care for our past and 
present military personnel and their families. From the Civil War to 
the present day, nurse anesthetists have been the principal anesthesia 
providers in combat areas of every war in which the United States has 
been engaged.
    Military nurse anesthetists have been honored and decorated by the 
United States and foreign governments for outstanding achievements, 
resulting from their dedication and commitment to duty and competence 
in managing seriously wounded casualties. In World War II, there were 
17 nurse anesthetists to every 1 anesthesiologist. In Vietnam, the 
ratio of CRNAs to physician anesthetists was approximately 3:1. Two 
nurse anesthetists were killed in Vietnam and their names have been 
engraved on the Vietnam Memorial Wall. During the Panama strike, only 
CRNAs were sent with the fighting forces. Nurse anesthetists served 
with honor during Desert Shield and Desert Storm.
    Military CRNAs also provide critical anesthesia support to 
humanitarian missions around the globe in such places as Bosnia and 
Somalia. In May 2003, approximately 364 nurse anesthetists had been 
deployed to the Middle East for the military mission for Operation 
Iraqi Freedom and Operation Enduring Freedom. When President George W. 
Bush initiated Operation Enduring Freedom, CRNAs were immediately 
deployed. With the new special operations environment new training was 
needed to prepare our CRNAs to ensure military medical mobilization and 
readiness. BG Barbara C. Brannon, Assistant Surgeon General, Air Force 
Nursing Services, testified before this Senate Committee on May 8, 
2002, to provide an account of CRNAs on the job overseas. She stated, 
``Lt. Col Beisser, a certified registered nurse anesthetist leading a 
Mobile Forward Surgical Team, recently commended the seamless 
interoperability he witnessed during treatment of trauma victims in 
Special Forces mass casualty incident.''
    Data gathered from the U.S. Armed Forces anesthesia communities 
reveal that CRNAs have often been the sole anesthesia providers at 
certain facilities, both at home and while forward deployed. For 
decades CRNAs have staffed ships, isolated U.S. bases, and forward 
surgical teams without physician anesthesia support. The U.S. Army 
Joint Special Operations Command Medical Team and all Army Forward 
Surgical Teams are staffed solely by CRNAs. Military CRNAs have a long, 
proud history of providing independent support and quality anesthesia 
care to military men and women, their families and to people from many 
nations who have found themselves in harms way.
    In the current mission, CRNAs are deployed all over the world, on 
land and at sea. This committee must ensure that we retain and recruit 
CRNAs for now and in the future to serve in these military deployments 
overseas. This committee must ensure that we retain and recruit CRNAs 
now and in the future to serve in these military overseas deployments 
and humanitarian efforts, and to ensure the maximum readiness of 
America's armed services.

NURSE ANESTHESIA PROVIDER SUPPLY AND DEMAND: SOLUTIONS FOR RECRUITMENT 
                             AND RETENTION

    In all of the services, maintaining adequate numbers of active duty 
CRNAs is of utmost concern. For several years, the number of CRNAs 
serving in active duty fell short of the number authorized by the DOD. 
This is further complicated by strong demand for CRNAs in both the 
public and private sectors.
    It is essential to understand that while there is strong demand for 
CRNA services in the public and private healthcare sectors, the 
profession of nurse anesthesia is working effectively to meet this 
workforce challenge. The AANA anticipates growing demand for CRNAs. Our 
evidence suggests that while vacancies exist, the demand for anesthesia 
professionals can be met if appropriate actions are taken. As of 
January 2008, there are 108 accredited CRNA schools to support the 
profession of nurse anesthesia. The number of qualified registered 
nurses applying to CRNA schools continues to climb. The growth in the 
number of schools, the number of applicants, and in production 
capacity, has yielded significant growth in the number of nurse 
anesthetists graduating and being certified into the profession, while 
absolutely maintaining and strengthening the quality and competence of 
these clinicians. The Council on Certification of Nurse Anesthetists 
reports that in 2007, our schools produced 2,021 graduates, an 88 
percent increase since 2002, and 1,869 nurse anesthetists were 
certified. The growth is expected to continue. The Council on 
Accreditation of Nurse Anesthesia Educational Programs projects the 108 
CRNA schools to produce over 2,310 graduates in 2008.
    This committee can greatly assist in the effort to attract and 
maintain essential numbers of nurse anesthetists in the military by 
their support to increase special pays.

                    INCENTIVE SPECIAL PAY FOR NURSES

    According to a March 1994 study requested by the Health Policy 
Directorate of Health Affairs and conducted by DOD, a large pay gap 
existed between annual civilian and military pay in 1992. This study 
concluded, ``this earnings gap is a major reason why the military has 
difficulty retaining CRNAs.'' In order to address this pay gap, in the 
fiscal year 1995 Defense Authorization bill Congress authorized the 
implementation of an increase in the annual Incentive Special Pay (ISP) 
for nurse anesthetists from $6,000 to $15,000 for those CRNAs no longer 
under service obligation to pay back their anesthesia education. Those 
CRNAs who remained obligated receive the $6,000 ISP.
    Both the House and Senate passed the fiscal year 2003 Defense 
Authorization Act Conference report, H. Rept. 107-772, which included 
an ISP increase to $50,000. The report included an increase in ISP for 
nurse anesthetists from $15,000 to $50,000. The AANA is requesting that 
this committee fund the ISP at $50,000 for all the branches of the 
armed services to retain and recruit CRNAs now and into the future. Per 
the testimony provided in 2006 from the three services' Nurse Corps 
leaders, the AANA is aware that there is an active effort with the 
Surgeons General to closely evaluate and adjust ISP rates and policies 
needed to support the recruitment and retention of CRNAs. In 2006, MG 
Gale Pollock, MBA, MHA, MS, CRNA, FACHE, Deputy Surgeon General, Army 
Nurse Corps of the U.S. Army stated in testimony before this 
subcommittee, ``I am particularly concerned about the retention of our 
certified registered nurse anesthetists. Our inventory of CRNAs is 
currently at 73 percent. The restructuring of the incentive special pay 
program for CRNAs last year, as well as the 180 (day)-deployment 
rotation policy were good first steps in stemming the loss of these 
highly trained providers. We are working closely with the Surgeon 
General's staff to closely evaluate and adjust rates and policies where 
needed.''
    There have been positive results from the Nurse Corps and Surgeons 
General initiatives to increase incentive special pays for CRNAs. In 
testimony before the House Armed Services Committee in 2007, Major 
General Pollock stated, ``We have . . . increased the Incentive Special 
Pay Certified Registered Nurse Anesthetist, and expanded use of the 
Health Professions Loan Repayment Program (HPLRP). The . . . Nurse 
Anesthetist bonuses have been very successful in retaining these 
providers who are critically important to our mission on the 
battlefield.'' She also stated in that same statement, ``In 2004, we 
increased the multi-year bonuses we offer to Certified Registered Nurse 
Anesthetists with emphasis on incentives for multi-year agreements. A 
year's worth of experience indicates that this increased bonus, 180-day 
deployments, and a revamped Professional Filler system to improve 
deployment equity is helping to retain CRNAs.''
    There still continues to be high demand for CRNAs in the healthcare 
community leading to higher incomes widening the gap in pay for CRNAs 
in the civilian sector compared to the military. However, the ISP and 
other incentives the services are providing CRNAs has helped close that 
gap the past 2 years, according to the most recent AANA membership 
survey data. In civilian practice, all additional skills, experience, 
duties and responsibilities, and hours of work are compensated for 
monetarily. Additionally, training (tuition and continuing education), 
healthcare, retirement, recruitment and retention bonuses, and other 
benefits often equal or exceed those offered in the military. 
Therefore, it is vitally important that the ISP be supported to ensure 
retention of CRNAs in the military.
    AANA thanks this committee for its support of the annual ISP for 
nurse anesthetists. AANA strongly recommends the continuation in the 
annual funding for ISP at $50,000 or more for fiscal year 2009, which 
recognizes the special skills and advanced education that CRNAs bring 
to the DOD healthcare system, and supports the mission of our U.S. 
Armed Forces.

                   BOARD CERTIFICATION PAY FOR NURSES

    Included in the fiscal year 1996 Defense Authorization bill was 
language authorizing the implementation of a board certification pay 
for certain clinicians who are not physicians, including advanced 
practice nurses. AANA is highly supportive of board certification pay 
for all advanced practice nurses. The establishment of this type of pay 
for nurses recognizes that there are levels of excellence in the 
profession of nursing that should be recognized, just as in the medical 
profession. In addition, this pay may assist in closing the earnings 
gap, which may help with retention of CRNAs.
    While many CRNAs have received board certification pay, some remain 
ineligible. Since certification to practice as a CRNA does not require 
a specific master's degree, many nurse anesthetists have chosen to 
diversify their education by pursuing an advanced degree in other 
related fields. But CRNAs with master's degrees in education, 
administration, or management are not eligible for board certification 
pay since their graduate degree is not in a clinical specialty. Many 
CRNAs who have non-clinical master's degrees either chose or were 
guided by their respective services to pursue a degree other than in a 
clinical specialty. The AANA encourages DOD and the respective services 
to re-examine the issue of restricting board certification pay only to 
CRNAs who have specific clinical master's degrees.

     DOD/VA RESOURCE SHARING: U.S. ARMY-VA JOINT PROGRAM IN NURSE 
             ANESTHESIA--FORT SAM HOUSTON, SAN ANTONIO, TX.

    The establishment of the joint U.S. Army-VA program in nurse 
anesthesia education at the U.S. Army Graduate Program in Anesthesia 
Nursing, Fort Sam Houston, in San Antonio, Texas holds the promise of 
making significant improvements in the VA CRNA workforce, as well as 
improving retention of DOD registered nurses in a cost effective 
manner. The current program utilizes existing resources from both the 
Department of Veterans Affairs (VA) Employee Incentive Scholarship 
Program (EISP) and VA hospitals to fund tuition, books, and salary 
reimbursement for student registered nurse anesthetists (SRNAs). This 
joint program also serves the interests of the Army.
    This VA nurse anesthesia program started in June 2004 with three 
openings for VA registered nurses to apply to and earn a Master of 
Science in Nursing (MSN) in anesthesia granted through the University 
of Texas Houston Health Science Center. In the future, the program is 
granting degrees through the Northeastern University Bouve College of 
Health Sciences nurse anesthesia educational program in Boston, 
Massachussetts. At a time of increased deployments in medical military 
personnel, this type of VA-DOD partnership is a cost-effective model to 
fill these gaps in the military healthcare system. At Fort Sam Houston, 
the VA faculty director has covered her Army colleagues' didactic 
classes when they are deployed at a moments notice. This benefits both 
the VA and the DOD to ensure the nurse anesthesia students are trained 
and certified in a timely manner to meet their workforce obligation to 
the Federal Government as anesthesia providers. We are pleased to note 
that the VA Acting Deputy Under Secretary for Health and the U.S. Army 
Surgeon General approved funding to start this VA nurse anesthesia 
school in 2004. In addition, the VA director has been pleased to work 
under the direction of the Army program director LTC Thomas Ceremuga, 
Ph.D., CRNA, to further the continued success of this U.S. Army-VA 
partnership. With modest levels of additional funding in the VA EISP, 
this joint U.S. Army-VA nurse anesthesia education initiative can grow 
and thrive, and serve as a model for meeting other VA workforce needs, 
particularly in nursing.

               TROOPS-TO-NURSE TEACHERS (TNT) INITIATIVE

    I also want to express to the subcommittee our profession's support 
for the Troops-to-Nurse Teachers (TNT) initiative. Modeled after the 
successful DOD program established in 1994 to encourage retiring 
military personnel to teach in high-need areas and to teach high-need 
subjects such as math and science, the TNT program as expressed in 
legislation pending in the Senate (S. 2705, Durbin (D-IL) and several 
cosponsors) would help alleviate the nursing shortage by increasing 
faculty in schools of nursing, thereby allowing schools to expand their 
applicant pools.
    One aspect of the TNT intiative would provide opportunities for 
Nurse Corps Officers in the Armed Forces the ability to transition to 
faculty positions at accredited nursing schools after retirement. The 
bill offers a number of incentives. It provides career placement 
assistance, transitional stipends, and educational assistance if needed 
to those who have served a minimum of 20 years in the Armed Forces and 
who are qualified to teach. It creates an educational scholarship 
program to give financial assistance to those members of the Armed 
Forces who have served at least 20 years on active duty are eligible to 
retire and who want to become nurse faculty. And it gives nurse 
officers in the Armed Forces who have a graduate degree in nursing the 
opportunity to serve a 2-year tour of duty as an educator. The school 
of nursing where the faculty teaches then commits to provide 
scholarships to those students who sign-on to become a nurse officer in 
the military after graduation.
    The TNT initiative is also a pilot project now under way within the 
Army Nurse Corps, which has six Army nurses in camouflage uniforms 
serving as faculty to the school of nursing at the University of 
Maryland. The military gets strong, positive visibility in a highly 
regarded educational program, showing nursing students directly what 
kind of future that service in the Army Nurse Corps can provide them. 
According to the chief of the Army Nurse Corps, the University of 
Maryland was able to admit another 151 students to its nursing program, 
helping to meet the tremendous community and national need for 
registered nurses. Last, Army nurse teachers have additional, valuable 
opportunities to develop and strengthen their skills in teaching, to 
help continue improving the quality of healthcare education available 
within the U.S. Army.
    The TNT initiative holds great promise to support both national 
healthcare needs and the mission of the U.S. Armed Forces, and we 
encourage the subcommittee to support it. Current cosponsors of S. 2705 
include Senators Bayh (D-IN), Biden (D-DE), Brown (D-OH), Clinton (D-
NY), Collins (R-ME), Dole (R-NC), Inhofe (R-OK), Inouye (D-HI), 
Lieberman (I-CT), Menendez (D-NJ), Mikulski (D-MD), Obama (D-IL), and 
Reed (D-RI).

                               CONCLUSION

    In conclusion, the AANA believes that the recruitment and retention 
of CRNAs in the armed services is of critical concern. By Congress 
supporting these efforts to recruit and retain CRNAS, the military is 
able to meet the mission to provide benefit care and deployment care--a 
mission that is unique to the military. The AANA would also like to 
thank the Surgeons General and Nurse Corp leadership for their support 
in meeting the needs of the profession within the military workforce. 
Last, we commend and thank this committee for their continued support 
for CRNAs in the military.
    Thank you. If you have further questions, please contact the AANA 
Federal Government Affairs Office.

    Senator Inouye. Our next witness represents the National 
Multiple Sclerosis Society, Mr. Bob Wolz.

STATEMENT OF BOB WOLZ, ON BEHALF OF THE NATIONAL 
            MULTIPLE SCLEROSIS SOCIETY
    Mr. Wolz. Thank you, Chairman Inouye, Ranking Member 
Stevens, and members of the subcommittee, for allowing me to 
provide testimony at this hearing today. My name is Bob Wolz 
and I'm a veteran living with relapsing remitted multiple 
sclerosis, or MS. I'm here today on behalf of the estimated 
400,000 Americans and more than 28,000 veterans who live with 
MS. Together we ask you to help advance MS research by 
providing funding under the congressionally directed medical 
research programs.
    MS is a chronic, unpredictable, often disabling, disease of 
the central nervous system and there is no cure. Every hour 
someone is newly diagnosed with MS. It is the most common 
neurological disease leading to disability in young adults.
    I'm a retired sergeant first class from the United States 
Army. I served more than 20 proud years as a chemical, 
biological, radiological, and nuclear specialist, with two 
tours in Korea, two tours in Germany, Desert Shield/Desert 
Storm, and Operation Iraq Freedom, and various stateside units. 
I believe my MS is a lingering wound from my tour of duty in 
the gulf war. My resulting disease and disabilities have been 
deemed service connected by the VA.
    I first served with the First Armored Division during 
Operation Desert Shield/Desert Storm. In March 1991, we were in 
Kuwait living and working within the dark clouds of the burning 
Kuwaiti oil wells. Additionally, I was located within the 
downwind hazard plume from the Khamisiyah Pit demolition that 
contained sarin and cyclosarin.
    My symptoms started between 1995 and 1996. The first signs 
were muscle weakness on my left side, problems with bowel 
movements, and unusual fatigue. These symptoms continued to 
worsen and more developed. I started walking with a limp and 
noticed muscle atrophy on my left side. These symptoms 
continued even into my deployment to Operation Iraq Freedom 
with the Fourth Infantry Division in 2003, the division that 
caught Saddam.
    One day after a mission, I showered and attempted to trim 
my fingernails, a simple task. I was a soldier, but my left 
hand could not squeeze the clippers to accomplish such a simple 
thing. I left Iraq and returned to Fort Hood, Texas. There I 
had several tests run by an Army neurologist, who said I had a 
reaction to anti-malaria pills. I retired in March 2004.
    Thousands of veterans could share similar stories. Recent 
studies confirm that combat veterans have an increased risk of 
developing MS. Dr. Match Wallin, a neurologist with the VA MS 
Center of Excellence in Baltimore and a professor at Georgetown 
University, treats warfighters like me who live with MS. Dr. 
Wallin has published a professional hypothesis explaining that 
deployed gulf war veterans are at an increased risk of 
developing MS because of their exposure to neurotoxins such as 
sarin gas and burning oil fields.
    A recent study found a twofold increase in MS among Kuwaiti 
residents who lived in the gulf area before, during, and after 
the first gulf conflict. The rapid increase suggests an 
environmental trigger for MS.
    Finally, the congressionally mandated Research Advisory 
Committee on Gulf War Veterans Illnesses found evidence of 
probable links between exposures to neurotoxins and the 
development of neurological disorders.
    I believe that the DOD has a responsibility to identify and 
research all diseases that could be related to military 
service, including MS. Recently Senator Brown and Senator 
Bunning from my home State sent the subcommittee a bipartisan 
letter with the signatures of 27 of your colleagues who support 
a $15 million appropriation for MS research under the CDMRP. 
This effort is also supported by the Paralyzed Veterans of 
America, American Academy of Neurology, the United Spinal 
Association, and the Vietnam Veterans of America.
    We appreciate your consideration. With your commitment to 
more research, we can move closer to a world free of MS. Thank 
you.
    Senator Inouye. I thank you very much, Mr. Wolz.
    [The statement follows:]

                     Prepared Statement of Bob Wolz

                              INTRODUCTION

    Thank you Chairman Inouye, Ranking Member Stevens and distinguished 
members of the committee, for allowing me to provide testimony at this 
hearing.
    My name is Bob Wolz, and I am a veteran living with multiple 
sclerosis (MS). I am here today on behalf of the estimated 400,000 
Americans and more than 28,000 veterans who live with MS. Together, we 
ask you to help us advance MS research by providing funding under the 
Congressionally Directed Medical Research Programs (CDMRP).

                     NO CURE FOR MULTIPLE SCLEROSIS

    Multiple sclerosis is a chronic, unpredictable, often-disabling 
disease of the central nervous system. It interrupts the flow of 
information from the brain to the body and stops people from moving. 
Every hour someone is newly diagnosed. MS is the most common 
neurological disease leading to disability in young adults. But despite 
several decades of research, the cause remains unclear, and there is no 
cure. The research must continue.
    The symptoms of MS range from numbness and tingling to blindness 
and paralysis. MS causes loss of coordination and memory, extreme 
fatigue, emotional changes, and other physical symptoms. The progress, 
severity, and specific symptoms of MS in any one person cannot yet be 
predicted. These problems can be permanent, or they can come and go.
    The National Multiple Sclerosis Society recommends treatment with 
one of the FDA-approved ``disease-modifying'' drugs to lessen the 
frequency and severity of attacks, and to help slow the progression of 
disability. But unfortunately, the cost is often financially 
devastating. The FDA approved drugs for MS range from $16,500 to more 
than $30,000 a year, and treatments continue over a lifetime.

                            MS AND VETERANS

    Testimony from individual veterans like me, along with evidence 
from recent studies, suggests that combat veterans have an increased 
risk of developing multiple sclerosis.
    Dr. Mitch Wallin, a neurologist with the Department of Veterans' 
(VA) Affairs MS Center of Excellence in Baltimore and a professor at 
Georgetown University, currently treats warfighters with MS. Dr. Wallin 
recently published a formal professional hypothesis explaining that 
deployed gulf war veterans are at an increased risk for developing MS 
because of their exposure to neurotoxins while in the gulf war theater. 
These neurotoxins include sarin gas, burning oil fields, and more. Some 
of which were purposely used on our soldiers and others a by-product of 
the theatre of war. These same obstacles could be found in our most 
recent conflicts in the Middle East.
    Dr. Wallin hopes to explore this hypothesis through research at the 
VA. He previously authored a letter to the Chairman and Ranking Member 
of this subcommittee urging them to support funding for MS research in 
the CDMRP. In addition to Dr. Wallin's professional hypothesis, I offer 
the following supporting rationale:
  --A recent epidemiological study found an unexpected, two-fold 
        increase in MS among Kuwaiti residents between 1993-2000. This 
        study focused on individuals who lived in the gulf area before, 
        during and after the first gulf conflict. The rapid increase in 
        MS is startling and suggests an environmental trigger for MS. 
        Possible triggers include exposure to air particulates from oil 
        well fires, sarin or infectious agents. By exploring this 
        finding we could learn more about how MS is triggered, how the 
        disease manifests and how to better fight it.
  --More than 28,000 veterans with the diagnosis of MS are receiving 
        care through the VA. However, the VA only treats about one-
        third of the country's veteran population. Therefore, the 
        number of U.S. veteran's with MS could be three times higher. 
        The ``Annals of Neurology'' recently identified 5,345 of these 
        cases to be deemed ``service-connected'' by the VA. That is a 
        very important statistic because I can tell you that running 
        the gauntlet to be deemed service connected is not an easy 
        exercise.
    and finally,
  --The Congressionally-mandated Research Advisory Committee on Gulf 
        War Veterans' Illnesses (RAC) found evidence that supports a 
        probable link between exposures to neurotoxins and the 
        development of neurological disorders. Furthermore, RAC 
        recommended more Federal funding to study the negative effect 
        of neurotoxins on the immune system.
    As news and preliminary evidence circulates of a potential link 
between MS and military service, more and more veterans are coming 
forward with their stories and symptoms. Their stories illustrate a 
unique health concern among our veterans and tell us that there is a 
strong possibility that an environmental trigger could contribute to 
the causes and development of this disease. Learning more about this 
could unlock the mystery of MS.

                            BOB WOLZ'S STORY

    I am a retired Sergeant First Class in the U.S. Army. I served more 
than 20 years as a chemical, biological, radiological, and nuclear 
specialist. I served two tours in Korea and Germany, the gulf war, 
Operation Iraqi Freedom, and various stateside units. I was diagnosed 
with relapsing-remitting multiple sclerosis in the spring of 2006. The 
MS is a lingering wound from my tour of duty in the gulf war, and my 
resulting disease and disabilities have been deemed service connected 
by the VA.
    I served with the First Armored Division, 69th Chemical Company 
during Operation Desert Shield and Operation Desert Storm. There, like 
all veterans. I was given many inoculations, pills, and utilized a 
number of insect repellents. In March of 1991, we were in Kuwait living 
and working within the dark clouds of the burning Kuwaiti oil wells. 
Additionally, I was located within the downwind hazard plume from the 
Khamisiyah Pit demolition that contained sarin and cyclosarin. I 
believe my symptoms started between 1995 and 1996.
    The first signs were muscle weakness on my left side, problems with 
bowel movements (constant diarrhea), and unusual fatigue. To account 
for the weakness, Army doctors felt that I was not doing enough 
physical training and told me to work out more. My diet was allegedly 
the culprit to my problems with bowel movements and it was adjusted 
accordingly. The unusual fatigue was chalked up to insufficient 
physical training and lack of sleep.
    These symptoms continued to worsen and more developed. I started 
walking with a limp and noticed muscle atrophy on my left side. On a 
subsequent visit to the doctor, I was told I probably had a small 
stroke. Blood tests and an EEG were done and everything was reported to 
be normal. The symptoms continued even into my deployment to Operation 
Iraqi Freedom with the 4th Infantry Division in 2003. (This is the 
division that caught Saddam).
    I started experiencing strange blackout conditions. I could hear 
people but their voices were muffled. Constant diarrhea added to my 
fatigue. I consumed a lot of Imodium in an effort to curb the diarrhea, 
so that I could do my job. A couple visits to sick call provided me 
with Cipro and an order to drink more water. One day after getting back 
from a mission, I showered and attempted to trim my fingernails. My 
left hand could not squeeze the clippers to accomplish this simple 
task. I left Iraq and returned to Fort Hood, Texas. Upon my return, I 
had several tests run by a Army neurologist. His diagnosis was that I 
had a reaction to the anti-malaria pills I was taking while deployed. I 
completed my retirement physical for the Army and the VA without 
anything significant being noted except IBS, bad knees, and a bum 
ankle. I retired in March of 2004.
    In 2006, my symptoms continued to worsen and my family doctor ran 
more tests and an ultra sound for a stroke. She was also concerned with 
the size difference in the muscles on my left side as opposed to my 
right. Upon a clean bill of health, I signed up for the VA gulf war 
registry. My appointments started with a visit to the physical 
therapist who told me that I did not have a stroke and there was 
something else going on. After numerous other tests, my MRI revealed a 
19 millimeter lesion on my C4 vertebrae; 1 millimeter on my C1 
vertebrae; and numerous lesions scattered on both sides of my brain. I 
received my diagnosis and started treatment with self-injections three 
times a week in the spring of 2006.
    My current symptoms include partial paralysis on my entire left 
side of my body; muscle weakness on my left side; muscle spasticity, 
stiffness, tremors, and atrophy; foot drop; IBS; ED; MS fatigue; 
intolerance to heat; and cognitive changes that include verbal fluency, 
memory, attention and concentration. Tripping and falling are a usual 
occurrence that has become part of my life.
    The disease has also taken a toll on my family physically and 
mentally. They worry more, watch me at times like a baby, and are 
afraid to let me be alone.
    I have all the reasons in the world to be depressed and invite 
people to swim with me in my pool of pity. I chose not to do that. My 
battle with MS does not compare to the pain I experienced in burying my 
little brother, SGT James Wolz (age 27) in 2000, and my son Jason (age 
20) in 2002. I have the will and ability to fight, not only for myself 
but also for those out there with MS who cannot move, for those that 
will not or cannot speak, and for those who are completely devastated 
by this disease. I walk for them, I speak for them, and I fight for 
them.

                     THE NEED FOR MORE MS RESEARCH

    My story is just one of many. Given this and all the evidence, we 
strongly believe that the DOD has a responsibility to identify and 
research all diseases that could be related to military service, 
including MS.
    Last year Public Law 110-116 made MS eligible for research funding 
under the Peer Reviewed Medical Research Program. This was an important 
step, and we thank you for the opportunity to compete for this funding. 
But given the rationale, the needs of people living with MS--a specific 
program for MS research should be designated under the CDMRP.
    On April 11, Senators Brown and Bunning sent the subcommittee a 
strong bi-partisan letter with 27 of your colleague's signatures urging 
you to support a $15 million appropriation for MS research under the 
CDMRP. This effort is also supported by the Paralyzed Veterans of 
America, the American Academy of Neurology, the United Spinal 
Association and the Vietnam Veterans of America.
    The cause, progress, or severity of symptoms in any one person 
living with MS cannot yet be predicted or cured. But advances in 
research and treatments can help. We appreciate your consideration of 
this request. With your commitment to more research, we can move closer 
to a world free of MS. Thank you.

    Senator Inouye. Now may I recognize the vice chairman.
    Senator Stevens. Thank you very much. I enjoyed the hearing 
very much, Mr. Chairman. I appreciate the witnesses. It was a 
good hearing. Thank you.

                    ADDITIONAL SUBMITTED STATEMENTS

    Senator Inouye. We have received testimony from Dr. Raymond 
Bye, Jr., Director of Federal Relations, Florida State 
University; Ms. Kathleen Yosko, Chairman of the Board of ARA 
Research Institute. These statements will be made part of the 
record along with any additional statements that the 
subcommittee receives.
    [The statements follow:]

             Prepared Statement of Florida State University

    Mr. Chairman, I would like to thank you and the members of the 
subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capital, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. FSU had over $190 million this past year in 
research awards.
    The University attracts students from every State in the Nation and 
more than 100 foreign countries. The University is committed to high 
admission standards that ensure quality in its student body, which 
currently includes National Merit and National Achievement Scholars, as 
well as students with superior creative talent. Since 2005, FSU 
students have won more than 30 nationally competitive scholarships and 
fellowships including 2 Rhodes Scholarships, 2 Truman Scholarships, 1 
Goldwater, 1 Jack Kent Cooke, and 18 Fulbright Fellowships.
    At FSU, we are proud of our successes as well as our emerging 
reputation as one of the Nation's top public research universities.
    Mr. Chairman, let me summarize three projects of great interest. 
The first project involves improving our Nation's fighting capabilities 
and is called the ``Nanotubes Optimized for Lightweight Exceptional 
Strength (NOLES)/Composite Materials'' Project.
    The U.S. Army's objective of developing effective personnel 
protection and a lighter, stronger fleet of fighting vehicles may be 
achieved through the diminutive nanotubes that (1) are the strongest 
fiber known, (2) have a thermal conductivity two times higher than pure 
diamond, and (3) have unique electrical conductivity properties and an 
ultra-high current carrying capacity [1996 Nobel Laureate Richard 
Smalley]. For producing lightweight multifunctional composites, resins 
impregnated with nanotubes hold the promise of creating structures, 
which, pound for pound, will be the strongest ever known, and hence 
offer maximum personnel and vehicle protection. Benefits are apparent 
not only to defense, but also throughout the commercial world.
    Partnered with the Army Research Laboratory and the top five U.S. 
defense companies--Boeing, General Dynamics, Lockheed Martin, Northrop 
Grumman, and Raytheon--as well as Armor Holdings, one of the Nation's 
largest armor manufacturers, FSU's team of multi-disciplinary faculty 
and students has developed unique design, characterization and rapid 
prototyping capabilities in the field of nano-composite research, 
leading to vital defense applications. For instance, in a partnership 
with Lockheed Martin Missiles and Fire Control--Orlando, FSU 
researchers delivered more than 150 square feet of nanotube/
polycarbonate composites for armor evaluation. The NOLES research team 
is working with the technical staff of General Dynamics in developing 
high performance thermal management materials utilizing nanotubes. The 
NOLES team is collaborating with Boeing and Northrop Grumman to use 
nanotube composites for shielding against electromagnetic interference 
(EMI). In addition, FSU's nanotube composites are being tested for 
missile wings, UAVs and missile guidance systems by several defense 
contractors.
    Two core programs are envisioned for fiscal year 2009: (1) 
developing nanotubes as a material platform for a new generation of 
devices, structures and systems, giving special attention to the design 
and demonstration for defense applications; and (2) utilizing nanotube 
buckypapers and vertically grown nanotube arrays initially for liquid 
crystal display backlighting and eventually for flexible displays. We 
are requesting $4,000,000 for this important program.
    Our second project is also important to our Nation's defense and 
involves our capabilities at sea and is called the ``Integration of 
Electro-kinetic Weapons into the Next Generation Navy Ships'' program.
    The U.S. Navy is developing the next-generation integrated power 
system (NGIPS) for the future war ships that will have an all-electric 
platform of propulsion and weapon loads and an electric power systems 
with rapid reconfigurable distribution systems for integrated fight-
through power.
    On-demand delivery of the large amounts of energy needed to operate 
these types of weapons raises challenging technical issues that must be 
addressed before implementing a combat ready system. These include the 
appropriate topology for the ship electric distribution system for 
rapid reconfiguration to battle readiness and the energy supply 
technology for the weapon systems.
    The goal of this initiative is to investigate the energy delivery 
technologies for electro-kinetic weapons systems and investigate the 
integration and interface issues of these weapons as loads on the ship 
NGIPS through system simulations and prototype tests. The results will 
provide the Navy's ship-builders with vital information to design and 
de-risk deployable ship NGIPS and weapon power supplies.
    With significant support from the Office of Naval Research, FSU has 
established the Center for Advanced Power Systems (CAPS). CAPS has 
integrated a real time digital power system simulation and modeling 
capability and hardware test-bed, capable of testing IPS power system 
components at ratings up to 5MW, offering unique hardware-in-the-loop 
simulation capabilities unavailable anywhere in the world. To support 
this initiative, FSU will partner with the University of Texas--Austin 
and General Atomics. This team combines the best talents for modeling 
and simulation of ship power systems, hardware-in-the-loop testing, 
power supplies for present and future electro-kinetic systems, and 
interfacing the weapon to a power system. University of Texas--Austin 
will work with FSU to provided validated models of system performance 
and in subscale testing to provide more complete model validation where 
needed. General Atomics will provide the power requirements on each 
side of the weapons interface to the shipboard power distribution 
system to better define the interface effort.
    The National High Magnetic Field Laboratory (NHMFL) will utilize 
its research expertise and infrastructure for the proposed development. 
FSU's partnership with University of Florida and Los Alamos National 
Laboratory is a key part of the NHMFL.
    General Atomics is currently involved in the design and development 
of the pulse forming network for the Electromagnetic Rail Gun program 
for the U.S. Navy and the design and development of power distribution 
architectures (i.e., NGIPS and IFTP) for future U.S. Navy all-electric 
combatants. We are seeking $4,500,000 for this important work.
    Finally, the objective of our final project, ``Integrated Cryo-
Cooled High Power Density Systems'', is to approach the goal of 
achieving cryo-cooled high power densities through systems integration, 
management of heat generation, and removal in the electrical system. 
The systems approach begins with identifying type of power system and 
the enabling technologies needed and then pursuing research programs to 
advance the enabling technologies.
    The research activities will be directed in several areas:
  --Systems Analysis.--Extensive system modeling and simulation of the 
        integrated electrical and thermal systems to understand dynamic 
        performance under normal and adverse conditions is necessary to 
        achieve a useful system. Develop prototypes of key technologies 
        and test in hardware-in-the-loop simulations at levels of 
        several megawatts (MW) to demonstrate the technologies.
  --Materials: Conductors, Semi-conductors and Insulation.--
        Characterization of conductor materials (both normal and 
        superconducting), semi-conductors (for use in power electronic 
        components) and insulating materials (both thermal and 
        electrical) at cryogenic temperatures to obtain the data needed 
        to predict system performance and design components. Full 
        understanding of the materials and their characteristics is 
        important.
  --Cryo-thermal Systems.--Optimize thermal system options such as 
        conductive heat transfer systems, fluid heat transfer systems, 
        insulation, packaging and cooling equipment for performance, 
        reliability, and failure modes. Because heat leaks from the 
        ambient to the low temperature environment are critical to 
        successful performance and quite sensitive to quality of 
        construction, the issue of constructability at reasonable cost 
        is a major issue for investigation.
  --System Components.--Consider new concepts for design of system 
        components and interfaces to achieve optimum system 
        integration, such as conductors, motors, transformers, 
        actuators, fault current limiters, and power electronics 
        operating at cryogenic temperatures. High power density cryo-
        cooled systems require the use of new families of materials.
    The NHMFL will be involved in the proposed development. Also FSU 
and the University of Central Florida will provide research on 
integration, efficiency, and capability of pulse tube cryo-coolers. We 
are seeking $4,000,000 for this project.
    Mr. Chairman, we believe this research is vitally important to our 
country and would appreciate your support.
                                 ______
                                 
            Prepared Statement of the ARA Research Institute

    Chairman Inouye, Ranking Member Stevens, and other distinguished 
members of the committee, on behalf of the ARA Research Institute I 
thank you for this opportunity to comment on actions this committee can 
take to address the needs of soldiers who are gravely injured during 
their service. Mr. Chairman, you have been a leader in ensuring that 
the brave men and women of our military have the resources and care 
they need to effectively protect our country. The ARA Research 
Institute applauds your efforts.
    ARA Research Institute, a 501(c)(3) organization based in 
Springfield, Illinois, was founded in 1986 to carry on fundamental 
scientific research and education relating to furnishing, 
administering, and financing medical rehabilitation and physical 
therapy services, and to publish and distribute the findings to the 
Government and the public. Since 2006, the ARA Research Institute has 
funded numerous research projects addressing significant medical 
rehabilitation policy and practice issues. The work of the Institute 
has received strong support by the hospital medical rehabilitation 
field--at a February 2007 ``State of the Science'' symposium, ARA and 
other national organizations brought together the best minds in the 
Nation to review the Institute's research findings from the initial 
projects funded and chart a course defining future projects.
    Policymakers at all levels, and in all political parties, have 
recognized the importance of providing quality medical and 
rehabilitative care to our wounded troops. President Bush's proposed 
fiscal year 2009 budget supports the Veterans Administration (VA) in 
implementing the recommendations of the President's Commission on Care 
for America's Returning Wounded Warriors. Specifically, the President's 
Budget devotes $252 million to research projects focused on veterans 
returning from Iraq and Afghanistan. Indeed, the need is great--the 
injuries sustained in these conflicts are severe and pervasive.
    America now faces a national opportunity to give back to the 
members of the Armed Forces who are selflessly serving our country, 
sometimes at great physical and lifetime peril. In addition to efforts 
by the Government, the plight of returning service men and women facing 
enormous physical and mental disabilities demands a national private 
sector response. Recent media attention has focused national public 
awareness on the catastrophic injuries many of these individuals face 
and certain inadequacies in the current Veterans' health system. We are 
all painfully aware of the large number of veterans who return with 
wounds of massive proportion, as well as potentially undiagnosed 
traumatic brain injuries, many of which are causing both the VA and 
private providers of rehabilitation care challenges heretofore never 
encountered at this magnitude.
    We applaud the VA's leadership on behalf of our Nation's heroes who 
have returned with life-shattering injuries. Unfortunately, public 
providers are not always able to adequately deal with patients with 
missing limbs or multiple serious disabling conditions in geographic 
areas preferable to patients and families. Cases have been brought to 
our attention where injuries presented overwhelming challenges to 
veterans, their families, and their VA providers. In some instances, 
private inpatient medical rehabilitation hospitals and units perhaps 
present the best opportunity of reintegrating persons with such 
injuries into their own communities and our society, yet private 
inpatient rehabilitation hospitals are limited in their ability to 
serve combat veterans returning from the current war. Our country has 
some of the highest quality inpatient medical rehabilitation hospitals 
in the world, and these private sector resources should be equally 
accessible to our returning veterans. It makes no sense to spend 
taxpayer dollars to duplicate capacity and expertise already available 
in the private sector, when the fundamental issue is accessibility.
    Another important component of caring for our wounded soldiers is 
funding research to determine the most appropriate and most effective 
ways to care for them, research to capture best practices, and clinical 
research to improve the care and outcomes of medical rehabilitation. To 
ensure an optimal Federal research investment, private sector inpatient 
rehabilitation hospital research should be funded along with any public 
sector research funding. The ARA Research Institute is a non-profit 
organization dedicated to stimulating research in the medical 
rehabilitation field. The Institute is calling for a Federal-private 
sector partnership to forge an exciting and critically necessary 
research demonstration project designed to provide alternative 
inpatient medical rehabilitation services to returning war veterans.
    The Veteran Rehabilitation Research and Demonstration Project will 
build a bridge between public and private sector resources that can be 
dedicated to bringing these soldiers back to their full human 
potential. Specifically, if Federal funding is made available and with 
additional private sector contributions, the Institute will issue a 
competitive RFP and distribute a number of demonstration grants to 
rehabilitation hospitals and units in various areas of the country to 
provide medical rehabilitation services to injured veterans. These 
hospitals will be required to collaborate with VA resources and their 
peer group of participating hospitals to identify the best practices 
and delineate the most effective ways to treat the needs of these 
soldiers. The Institute has submitted appropriations requests to help 
build this project, and respectfully asks that the committee direct 
funding of this project.
    The national conscience demands that all potential medical 
resources, including research funding, be available to bring our 
soldiers back to their full human potential. We ask the committee to 
include full funding this year for the Veteran Rehabilitation Research 
and Demonstration Project, to ensure private sector participation in 
ensuring that our wounded warriors receive the highest quality of care 
they need and deserve.
                                 ______
                                 
          Prepared Statement of the U.S. Naval Sea Cadet Corps

                                REQUEST

    It is respectfully requested that $300,000 be appropriated for the 
Naval Sea Cadet Corps (NSCC) in fiscal year 2009, so that when added to 
the Navy budgeted $1,700,000 will restore full funding at the 
$2,000,000 requirement level. Further, in order to ensure future 
funding at the full $2,000,000 requirement, consideration of including 
the following conference language is requested:

    ``Congress is pleased to learn that Navy has funded the U.S. Naval 
Sea Cadet Corps in the fiscal year 2009 budget as urged by the Senate 
and House in the 2008 Defense Budget Conference Report. Conferees 
include an additional $300,000 for the U.S. Naval Sea Cadet Corps, that 
when added to the $1,700,000 in the fiscal year 2009 budget request 
will fund the program at the full $2,000,000 requested. Conferees urge 
the Navy to continue to fund this program and increase the POM level to 
$2,000,000 for the U.S. Naval Sea Cadet Corps.''

Background
    At the request of the Department of the Navy, the Navy League of 
the United States established the NSCC in 1958 to ``create a favorable 
image of the Navy on the part of American youth.'' On September 10, 
1962, the U.S. Congress federally chartered the NSCC under Public Law 
87-655 as a non-profit civilian youth training organization for young 
people, ages 13-17. A National Board of Directors, whose Chairman 
serves as the National Vice President of the Navy League for Youth 
Programs, establishes NSCC policy and management guidance for operation 
and administration. A full-time Executive Director and small staff in 
Arlington, Virginia, administer NSCC's day-to-day operations. These 
professionals work with volunteer regional directors, unit commanding 
officers, and local sponsors. They also collaborate with Navy League 
councils and other civic, or patriotic organizations, and with local 
school systems.
    In close cooperation with, and the support of the U.S. Navy and 
U.S. Coast Guard, the Sea Cadet Corps allows youth to sample military 
life without obligation to join the Armed Forces. Cadets and adult 
leaders are authorized to wear the Navy uniform, appropriately modified 
with a distinctive Sea Cadet insignia.
    There are currently more than 362 Sea Cadet units in all 50 States, 
Puerto Rico, and Guam. Registered enrollment is 9,064.

NSCC objectives
  --Develop an interest and skill in seamanship and seagoing subjects.
  --Develop an appreciation for our Navy's history, customs, 
        traditions, and its significant role in national defense.
  --Develop positive qualities of patriotism, courage, self-reliance, 
        confidence, pride in our Nation, and other attributes, which 
        contribute to development of strong moral character, good 
        citizenship traits, and a drug-free, gang-free lifestyle.
  --Present the advantages and prestige of a military career.
    Under the Cadet Corps' umbrella is the Navy League Cadet Corps 
(NLCC), a youth program for children ages 11-13. While it is not part 
of the Federal charter provided by Congress, the Navy League of the 
United States sponsors NLCC. NLCC was established ``. . . to give young 
people mental, moral, and physical training through the medium of naval 
and other instruction, with the objective of developing principles of 
patriotism and good citizenship, instilling in them a sense of duty, 
discipline, self-respect, self-confidence, and a respect for others.''

Benefits
    Naval Sea Cadets experience a unique opportunity for personal 
growth, development of self-esteem, and self-confidence. Their 
participation in a variety of activities within a safe, alcohol-free, 
drug-free, and gang-free environment provides a positive alternative to 
other less favorable temptations. The Cadet Corps introduces young 
people to nautical skills, to maritime services and to a military life 
style. The program provides the young Cadet the opportunity to 
experience self-reliance early on, while introducing this Cadet to 
military life without any obligation to join a branch of the armed 
forces. The young Cadet realizes the commitment required and routinely 
excels within the Navy and Coast Guard environments.
    Naval Sea Cadets receive first-hand knowledge of what life in the 
Navy or Coast Guard is like. This realization ensures the likelihood of 
success should they opt for a career in military service. For example, 
limited travel abroad and in Canada may be available, as well as the 
opportunity to train onboard Navy and Coast Guard ships, craft and 
aircraft. These young people may also participate in shore activities 
ranging from training as a student at a Navy hospital to learning the 
fundamentals of aviation maintenance at a Naval Air Station.
    The opportunity to compete for college scholarships is particularly 
significant. Since 1975, 197 Cadets have received financial assistance 
in continuing their education in a chosen career field at college.

Activities
    Naval Sea Cadets pursue a variety of activities including 
classroom, practical, and hands-on training as well as field trips, 
orientation visits to military installations, and cruises on Navy and 
Coast Guard ships and small craft. They also participate in a variety 
of community and civic events.
    The majority of Sea Cadet training and activities occurs year round 
at a local training or ``drill'' site. Often, this may be a military 
installation or base, a reserve center, a local school, civic hall, or 
sponsor-provided building. During the summer, activities move from the 
local training site and involve recruit training (boot camp), 
``advanced'' training of choice, and a variety of other training 
opportunities (depending on the Cadet's previous experience and 
desires).

Senior leadership
    Volunteer NSCC officers and instructors furnish senior leadership 
for the program. They willingly contribute their time and effort to 
serve America's youth. The Cadet Corps programs succeed because of 
their dedicated, active participation and commitment to the principles 
upon which the Corps was founded. Cadet Corps officers are appointed 
from the civilian sector or from active, reserve, or retired military 
status. All are required to take orientation, intermediate, and 
advanced Officer Professional Development courses to increase their 
management and youth leadership skills. Appointment as an officer in 
the Sea Cadet Corps does not, in itself, confer any official military 
rank. However, a Navy-style uniform, bearing an NSCC insignia, is 
authorized and worn. Cadet Corps officers receive no pay or allowances. 
Yet, they do derive some benefits, such as limited use of military 
facilities and space-available air travel in conjunction with carrying 
out training duty orders.

Drug-free and gang-free environment
    One of the most important benefits of the Sea Cadet program is that 
it provides participating youth a peer structure and environment that 
places maximum emphasis on a drug- and gang-free environment. 
Supporting this effort is a close liaison with the U.S. Department of 
Justice Drug Enforcement Administration (DEA). The DEA offers the 
services of all DEA Demand Reduction Coordinators to provide individual 
unit training, as well as their being an integral part of our boot camp 
training program.
    Among a variety of awards and ribbons that Cadets can work toward 
is the Drug Reduction Service Ribbon, awarded to those who display 
outstanding skills in he areas of leadership, perseverance and courage. 
Requirements include intensive anti-drug program training and giving 
anti-drug presentations to interested community groups.

Training
            Local training
    Local training, held at the unit's drill site, includes a variety 
of activities supervised by qualified Sea Cadet Corps officers and 
instructors, as well as Navy and Coast Guard instructors.
    Cadets receive classroom and hands-on practical instruction in 
basic military requirements, military drill, water and small boat 
safety, core personal values, social amenities, drug/alcohol abuse, 
cultural relations, Navy history, naval customs and traditions, and 
other nautical skills. Training may be held aboard ships, small boats 
or aircraft, depending upon platform availability. In their training 
Cadets also learn about and are exposed to a wide variety of civilian 
and military career opportunities through field trips and educational 
tours.
    Special presentations by military and civilian officials augment 
the local training, as does attendance at special briefings and events 
throughout the local area. Cadets are also encouraged and scheduled to 
participate in civic activities and events to include parades, social 
work and community projects, all part of the ``whole person'' training 
concept.
    For all Naval Sea Cadets the training during the first several 
months is at their local training site and focuses on general 
orientation to and familiarization with, the entire program. It also 
prepares them for their first major away from home training event, the 
2 weeks recruit training which all Sea Cadets must successfully 
complete.
    The Navy League Cadet Corps training program teaches younger Cadets 
the virtues of personal neatness, loyalty, obedience, courtesy, 
dependability, and a sense of responsibility for shipmates. In 
accordance with a Navy-oriented syllabus, this education prepares them 
for the higher level of training they will receive as Naval Sea Cadets.

Summer training
    After enrolling, all Sea Cadets must first attend a 2-week recruit 
training taught at the Navy's Recruit Training Command, at other Naval 
Bases or stations, and at regional recruit training sites using other 
military host resources. Instructed by Navy or NSCC Recruit Division 
Commanders, Cadets train to a condensed version of the basic training 
that Navy enlistees receive. The curriculum is provided by the Navy and 
taught at all training sites. In 2007, there were 23 recruit training 
classes at 21 locations, including 2 classes conducted over the winter 
holiday break and another held over spring break. About 18 nationwide 
to 22 regional sites are required to accommodate the steady demand for 
quotas and also to keep cadet and adult travel costs to a minimum. Just 
over 2,000 cadets attended recruit training in 2007 supported by 350 
adult volunteers.
    A Cadet who successfully completes recruit training is eligible for 
advanced training in various fields of choice. Cadets can experience 
the excitement of ``hands-on'' practical training aboard Navy and Coast 
Guard vessels, ranging from tugboats and cutters to the largest 
nuclear-powered aircraft carriers. Female Cadets may also train aboard 
any ship that has females assigned as part of the ship's company. 
Qualified Cadets choose from such Sea Cadet advanced training as basic/
advanced airman, ceremonial guard, seamanship, sailing, SEAL training, 
amphibious operations, leadership, firefighting and emergency services, 
Homeland security, mine warfare operations, Navy diving submarine 
orientation and training in occupational specialties, including health 
care, legal, music, master-at-arms, and police science and 
construction.
    The Cadet Corp programs excel in quality and diversity of training 
offered, with more than 7,000 training orders carried out for the 2007 
summer training program. Cadets faced a myriad of challenging training 
opportunities designed to instill leadership and develop self-reliance, 
enabling them to become familiar with the full spectrum of Navy and 
Coast Guard career fields.
    This steady and continuing participation once again reflects the 
popularity of the NSCC and the positive results of Federal funding for 
2001 through 2007. The NSCC still continues to experience an average 
increased recruit and advanced training attendance of well over 2000 
cadets per year over those years in which Federal funding was not 
available.
    While recruit training acquaints cadets with Navy life and Navy 
style discipline, advanced training focuses on military and general 
career fields and opportunities, and also affords the cadets many 
entertaining, drug free, disciplined yet fun activities over the 
summer. The popularity of the training continues to grow not with just 
overall numbers but also as evidenced with numerous cadets performing 
multiple 2-week training sessions during the summer of 2007.
    Training Highlights for 2007.--The 2007 training focus was once 
again on providing every cadet the opportunity to perform either 
recruit or advanced training during the year. To that end emphasis was 
placed on maintaining all traditional and new training opportunities 
developed since Federal funding was approved for the NSCC. These 
include more classes in sailing and legal (JAG) training, expanded SEAL 
training opportunity, more SCUBA and diving training classes, more 
seamanship training onboard the NSCC training vessels on the Great 
Lakes, more aviation-related training, and additional honor guard 
training opportunities. Other highlights included:
  --Maintained national recruit training opportunity for every cadet 
        wanting to participate with 23 recruit training evolutions in 
        2007.
  --Maintained cadet training opportunities beyond the traditional 
        summer evolutions to include advanced and recruit training 
        classes over the Thanksgiving high school recess, the Christmas 
        recess and the spring recess. During 2007, 13 additional 
        classes over these school breaks were conducted with 566 cadets 
        participating. They were supported by another 89 adult 
        volunteers.
  --Continued NSCC's aggressive NSCC Officer Professional Development 
        Program, with three different weekend courses tailored to 
        improving volunteer knowledge and leadership skills. More than 
        500 volunteers attended 2007 training at 37 different training 
        evolutions.
  --Continued placing cadets onboard USCG Barque Eagle for a summer 
        underway orientation training cruise.
  --Expanded seamanship training on the Great Lakes with four underway 
        cruises onboard two NSCC YP's and the NSCC torpedo retriever 
        ``Grayfox''.
  --Continued NSCC cadet opportunity for advanced training in the 
        medical field through the expanded medical ``first responder'' 
        training at Naval Hospital Great Lakes, Illinois, and 
        continuing the very advanced, unique ``surgical tech'' training 
        at the Naval Medical Center in San Diego, California.
  --Continued NSCC's maritime focus through its expanded sail training 
        with basic, intermediate, and advanced sailing classes offered 
        in San Diego, California, and two additional classes on board 
        ``tall ships'' in Newport, Rhode Island.
  --Continued to place cadets aboard USCG stations, cutters, and 
        tenders for what proves to be among the best of the individual 
        training opportunities offered in the NSCC.
  --Placed cadets onboard USN ships under local orders as operating 
        schedules and opportunity permitted.
  --Promoted cadets' orientation of the U.S. Naval Academy and the U.S. 
        Coast Guard Academy by offering tuition offsets to cadets 
        accepted into either academies summer orientation program for 
        high school juniors (NASS or AIM). Twenty-three cadets 
        participated in 2007.
  --Again, as in prior years, enjoyed particularly outstanding support 
        from members of the United States Naval Reserve, the Army, and 
        National Guard, whose help and leadership remains essential for 
        summer training.
            International Exchange Program (IEP)
    For 2007, the NSCC again continued its' highly competitive, merit 
based, and very low cost to the cadet, IEP. Cadets were placed in 
Australia, United Kingdom, Sweden, Netherlands, Hong Kong, Scotland, 
Russia, and Bermuda to train with fellow cadets in these host nations. 
The NSCC and Canada maintained their traditional exchanges in Nova 
Scotia and British Columbia, and the NSCC hosted visiting international 
cadets in Newport, Rhode Island, and at ANG Fort Lewis in Washington 
State for 2 weeks of NSCC-sponsored training.
            Navy League Cadet training
    In 2007, approximately 950 Navy League cadets and escorts attended 
Navy League Orientation and Advanced Training nationwide. Participation 
in 2007 showed an increase over 2006, surmised to be attributable to 
training opportunities. Approximately 244 Navy League cadets and their 
escorts attended advanced Navy League training where cadets learn about 
small boats and small boat safety using the U.S. Coast Guard's safe 
boating curriculum. Other advanced Navy League training sites emphasize 
leadership training. Both serve the program well in preparing League 
cadets for further training in the NSCC, and particularly for their 
first recruit training.
            Scholarships
    The NSCC scholarship program was established to provide financial 
assistance to deserving Cadets who wished to further their education at 
the college level. Established in 1975, the scholarship program 
consists of a family of funds: the NSCC Scholarship Fund; the Navy 
League Stockholm Scholarship; and the NSCC ``named scholarship'' 
program, designed to recognize an individual, corporation, 
organization, or foundation since the inception of the scholarship 
program, 223 scholarships have been awarded to 209 Cadets (includes 
some renewals) totaling over $291,500.
            Service accessions
    The NSCC was formed at the request of the Department of the Navy as 
a means to ``enhance the Navy image in the minds of American youth.'' 
To accomplish this, ongoing presentations illustrate to Naval Sea 
Cadets the advantages and benefits of careers in the armed services, 
and in particular, the sea services.
    While there is no service obligation associated with the NSCC 
program, many Sea Cadets choose to enlist or enroll in officer training 
programs in all the services.
    The NSCC was formed at the request of the Department of the Navy as 
a means to ``enhance the Navy image in the minds of American youth.'' 
To accomplish this, ongoing training illustrates to Naval Sea Cadets 
the advantages and benefits of careers in the armed services, and in 
particular, the sea services.
    Annually, the NSCC conducts a survey to determine the approximate 
number of Cadets making this career decision. This survey is conducted 
during the annual inspections of the units which occurs during the 
period January through March. The reported accessions to the services 
are only those known to the unit. There are many accessions that go 
unreported, that occur 2-5 years after Cadets leave their units. With 
about 78 percent of the units reporting, the survey indicates that 519 
known Cadets entered the Armed Forces during the reporting year ending 
December 31, 2005. This is an increase over the previous years' 
accessions. Each Cadet entering the Armed Forces is a disciplined, 
well-trained individual and progresses much better than those with no 
experience. Attrition of former cadets prior to their completion of 
obligated service is very low compared to other entrees.

------------------------------------------------------------------------
                          Unit                                Cadets
------------------------------------------------------------------------
U.S. Naval Academy (2006)...............................             159
U.S. Military Academy...................................               7
U.S. Coast Guard Academy................................               7
U.S. Air Force Academy..................................               5
U.S. Merchant Marine Academy............................              12
NROTC...................................................              32
OCS Navy................................................               4
OCS Army................................................               9
OCS Air Force...........................................  ..............
OCS Marine Corps........................................               1
USNA Prep School........................................               5
Navy--Enlisted..........................................          \1\ 38
U.S. Coast Guard--Enlisted..............................              12
Marine Corps--Enlisted..................................              67
Army--Enlisted..........................................              41
Air Force--Enlisted.....................................               9
National Guard--Enlisted................................              11
                                                         ---------------
      Total.............................................             519
------------------------------------------------------------------------
\1\ The U.S. Navy Recruiting Command has advised that out of 20,000 ex-
  Naval Sea Cadets eligible each year, approximately 2,000 join the
  services (Eligible numbers are all ex-Naval Sea Cadets within the
  recruiting eligible age range).

            Program finances
    Sea Cadets pay for all expenses, including travel to/from training, 
uniforms, insurance, and training costs. Out-of-pocket costs can reach 
$500 each year--not including the costs for summer training. Assistance 
is made available so that no young person is denied access to the 
program, regardless of social or economic background.
    Federally funded at the $1,000,000 level in fiscal years 2001, 
2002, and 2003, and at $1,500,000 in fiscal year 2004 and $1,700,000 in 
2005 (of the $2,000,000 requested), and $2,000,000 in fiscal year 2006 
and fiscal year 2007 all of these fund were used to offset individual 
Cadet's individual costs for summer training, conduct of background 
checks for adult volunteers and for reducing future enrollment costs 
for Cadets. In addition to the Federal fund received, NSCC receives 
under $700,000 per year from other sources, which includes around 
$226,000 in enrollment fees from Cadets and adult volunteers. For a 
variety of reasons, at a minimum, this current level of funding is 
necessary to sustain this program and the full $2,000,000 would allow 
for program expansion:
  --All time high in number of enrolled Sea Cadets.
  --General inflation of all costs.
  --Some bases denying planned access to Sea Cadets for training due to 
        increased terrorism threat level alerts and the associated 
        tightening of security measures--requiring Cadets to utilize 
        alternative, and often more costly training alternatives.
  --Reduced availability of afloat training opportunities due to the 
        Navy's high level of operations related to the Iraq war.
  --Reduced training site opportunities due to base closures.
  --Non-availability of open bay berthing opportunities for Cadets due 
        to their elimination as a result of enlisted habitability 
        upgrades to individual/double berthing spaces.
  --Lack of available ``Space Available'' transportation for group 
        movements.
  --Lack of on-base transportation, as the navy no longer ``owns'' 
        buses now controlled by the GSA.
  --Navy outsourcing of messing facilities to civilian contractors 
        increases the individual Cadet's meal costs.
    Because of these factors, Cadet out-of-pocket costs have 
skyrocketed to the point where the requested $2,000,000 alone would be 
barely sufficient to handle cost increases.
    It is therefore considered a matter of urgency that the full amount 
of the requested $2,000,000 be authorized and appropriated for fiscal 
year 2009.

                         CONCLUSION OF HEARINGS

    Senator Inouye. I would like to thank all the witnesses who 
have testified this morning and participated and contributed 
much. We will take all your issues and your suggestions very 
seriously. As I said in the opening, believe it or not, we read 
them.
    This will conclude our scheduled hearings for this fiscal 
year and we will begin working on it. We hope to come out 
before the others do. So with that, I thank you and the 
subcommittee stands in recess subject to the call of the Chair.
    [Whereupon, at 11:51 a.m., Wednesday, June 4, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
